<html>
<title> - HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION</title>
<body><pre>[Senate Hearing 113-280]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-280

           HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2013

                               __________

       Printed for the use of the Committee on Veterans' Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

85-415 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                     COMMITTEE ON VETERANS' AFFAIRS

                 Bernard Sanders, (I) Vermont, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
Richard Blumenthal, Connecticut      Dean Heller, Nevada
Mazie Hirono, Hawaii
                    Steve Robertson, Staff Director
                 Lupe Wissel, Republican Staff Director






















                            C O N T E N T S

                              ----------                              

                            October 30, 2013
                                SENATORS

                                                                   Page
Sanders, Hon. Bernard, Chairman, U.S. Senator from Vermont.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     3
Tester, Hon. Jon, U.S. Senator from Montana......................    11
Johanns, Hon. Mike, U.S. Senator from Nebraska...................    13
Hirono, Hon. Mazie, U.S. Senator from Hawaii.....................    13
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    14
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    15
Heller, Hon. Dean, U.S. Senator from Nevada......................    17
Begich, Hon. Mark, U.S. Senator from Alaska......................    47

                               WITNESSES

Reed, Hon. Jack, U.S. Senator from Rhode Island..................     4
Nelson, Hon. Bill, U.S. Senator from Florida.....................     5
    Prepared statement...........................................     6
Franken, Hon. Al, U.S. Senator from Minnesota....................     7
Coats, Hon. Daniel, U.S. Senator from Indiana....................     8
    Prepared statement...........................................     9
Heinrich, Hon. Martin, U.S. Senator from New Mexico..............    10
Jesse, Robert L., M.D., Ph.D., Principal Deputy Under Secretary 
  for Health, U.S. Department of Veterans Affairs................    18
McLenachen, David R., Director, Pension and Fiduciary Service, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs; accompanied by Richard Hipolit, Assistant General 
  Counsel and Jane Clare Joyner, Deputy Assistant General Counsel    20
    Combined Prepared statement..................................    21
    Additional Views.............................................    31
    Response to request arising during the hearing by Hon. 
      Richard Burr...............................................    56
Atizado, Adrian, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    57
    Prepared statement...........................................    58
Norton, Col. Robert F., USA (Ret.), Deputy Director, Government 
  Relations, Military Officers Association of America............    75
    Prepared statement...........................................    76
Weidman, Rick, Executive Director for Policy and Government 
  Affairs, Vietnam Veterans of America...........................    83
    Prepared statement...........................................    84

                                APPENDIX

Rockefeller, Hon. John D., IV, U.S. Senator from West Virginia; 
  prepared statement.............................................    97
Aguon, Hon. Frank B., Jr., Chairman, Committee on Guam U.S. 
  Military Relocation, Homeland Security, Veterans' Affairs, and 
  the Judiciary; letter..........................................    98
American Federation of Government Employees, AFL-CIO and the AFGE 
  National Veterans' Affairs Council; prepared statement.........    99
Wallis, Anthony A., Legislative Director, Association of the 
  United States Navy; letter.....................................   101
Spencer, Wendy, Chief Executive Officer, Corporation for National 
  and Community Service; letter..................................   102
Kelly, Keith, Assistant Secretary of Labor For Veterans' 
  Employment and Training, U.S. Department of Labor; prepared 
  statement......................................................   103
Greene, Bryan, Acting Assistant Secretary for the Office of Fair 
  Housing and Equal Opportunity, Department of Housing and Urban 
  Development; prepared statement................................   104
Iraq & Afghanistan Veterans of America; prepared statement.......   105
Infectious Diseases Society of America; prepared statement.......   114
Horton, J. Don, President, WW II Coastwise Merchant Mariners; 
  letter.........................................................   116
Koehl, Paul J. and family; letter................................   125
Slagle, Brad, President, National Association of State Veterans 
  Homes; prepared statement......................................   127
Bergman, David, J.D., Vice President of Legal and External 
  Affairs, Chief Legal Officer, National Board for Certified 
  Counselors, Inc. and Affiliates; prepared statement............   129
National Coalition for Homeless Veterans; prepared statement.....   131
Paralyzed Veterans of America; prepared statement................   134
National Legislative Service, Veterans of Foreign Wars of the 
  United States; prepared statement..............................   142
Wounded Warrior Project; prepared statement......................   151

 
           HEARING ON PENDING HEALTH AND BENEFITS LEGISLATION

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2013

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:04 p.m., in 
room 418, Russell Senate Office Building, Hon. Bernard Sanders, 
Chairman of the Committee, presiding.
    Present: Senators Sanders, Tester, Begich, Blumenthal, 
Hirono, Burr, Isakson, Johanns, and Heller.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
              CHAIRMAN, U.S. SENATOR FROM VERMONT

    Chairman Sanders. Good morning everyone. I will make an 
opening statement, Senator Burr will make an opening statement, 
and then we will hear from the Senators who have been so kind 
to join us today to talk about legislation that they are 
proposing.
    Today's agenda, once again, reflects important work by 
Senators on both sides of the aisle and demonstrates the 
Committee's desire to be responsive to the concerns expressed 
by veterans and their families.
    Before I discuss a few of the bills I have on today's 
agenda, I want to briefly touch on the issue of the 
Administration's views. Let me be kind of to the point on this 
one.
    I understand that, as a result of the government shutdown 
and a lot of pressure on the VA, they have not gotten all of 
their comments and views in. We also understand that in the 
past they have not always been prompt in their responses to the 
legislation that we have proposed.
    So, let me just say this to them. The job of this Committee 
and what we were elected to do is to represent the people of 
this country and, in particular, the veterans of this country. 
If the VA is not responsive in getting their comments in, that 
is fine. It is not going to impact us at all. We are going to 
go forward.
    But clearly, the VA is going to have to implement the 
policies developed by this Committee and this Congress and we 
want to work with them. But our job is to legislate and we are 
going to go forward with or without the cooperation of the VA 
and the Administration.
    Let me touch on some of the pieces of legislation that I 
will be talking about today and will be introducing. At the top 
of my list is the issue of expanding access to VA health care.
    In my view--and I think VA does not get enough credit for 
this--VA is running a very high-quality, cost-effective health 
care system in this country. The media does not pick up on it 
and I think many Americans just do not understand what the VA 
does. But the fact is that veterans do understand that.
    I can tell you that in Vermont, and I suspect in other 
facilities that I have seen, I have been very impressed by the 
kind of out-of-the-box work done by the VA, providing excellent 
quality care in a cost-effective way.
    Is the VA perfect? When you run 152 hospitals and 900 
CBOCs, believe me they have problems every single day but so 
does every other medical institution in America.
    One of the goals that we are shooting for is to expand VA 
health care, understanding that the major function of the VA 
and their highest priority is to take care of those who are 
service-connected. That goes without saying. There is no debate 
about that. Men and women who have served this country and have 
been wounded are getting their care at the VA. That is the 
highest priority. We want to take care of indigent veterans as 
well.
    I think we can expand what we are doing and bring more 
veterans into the system. While it may cost the VA more money, 
it will save money in terms of what we spend on health care in 
general because VA health care is cost-effective. That is issue 
number 1.
    Issue number 2, where I think we need to make some changes 
is regarding dental care. Senator Burr and I both sit on the 
Health, Education, Labor, and Pensions Committee. We talk a lot 
about health care.
    One of the issues that is not talked about a lot in this 
country is the crisis in dental care. It is a huge crisis. 
Millions of people have no insurance. Millions of adults are 
seeing their teeth rotting in their mouths which, by the way, 
leads to other types of health care problems.
    We are introducing legislation which, for the first time, 
would allow veterans to get dental care other than service-
connected. Right now if you are service-connected, you get good 
quality dental care. If you are not, you do not.
    I was recently in Tuscaloosa, AL, talking to the dental 
people there, and the guy who is running their dental 
department was telling me that it breaks his heart that they 
have Purple Hearts walking in who cannot get dental care.
    So, I think we have a crisis, and we are going to start 
with some pilot projects which I think will begin to address a 
very, very serious problem.
    Another issue that we are going to address is sexual 
assault and domestic abuse. We know sexual assault occurs all 
too often in the military. Everybody here is aware of that. 
That is not acceptable.
    According to DOD, an estimated 26,000 servicemembers 
experienced unwanted sexual contact in 2012; and we all 
understand, by the way, that it is not just women. Men are 
being sexually assaulted as well. This is an issue we are going 
to address.
    We are also going to strengthen the SCRA. When men and 
women volunteer to serve in the Armed Forces, they should do so 
knowing Congress will do all it can to support their efforts.
    Congress enacted the Servicemembers Civil Relief Act for 
just that reason, to enable servicemembers to devote their 
focus to the defense needs of this country. As I think Members 
of the Committee know, we took a close look at these 
protections at a hearing earlier this year and we learned that 
there was room for improvement, and that is why I introduced 
the SCRA Enhancement and Improvement Act of 2013.
    Also, we have introduced legislation that addresses 
concerns of the Independent Budget of VSOs related to VA 
compensation for hearing loss and related injuries, life 
insurance for service-disabled veterans, and automobile grants 
for some of our most disabled veterans.
    So, let me conclude by saying that we are trying very hard 
to run this Committee in a bipartisan way because I have no 
doubt that my Republican colleagues absolutely feel as strongly 
as my Democratic colleagues and I do on the issue of veterans, 
and I hope we have done that, and I want to continue to do 
that. And if I am not doing that, I want to hear from my 
Republican friends.
    I think we are making progress and we have a long way to 
go. We look forward to that progress.
    Now, Senator Burr, the mic is yours.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Good afternoon, Mr. Chairman. We have spent 
most of the day together. It is appropriate that we would end 
the day together. And I welcome our gang of colleagues that are 
here to promote, I am sure, legislation that they are 
passionate about.
    To start with, I want to offer a few observations about 
today's agenda. First of all, for many of the programs that 
these bills would change, the Committee has not yet had 
oversight hearings to examine what gaps in inefficiencies might 
exist.
    Also, there are dozens of bills on the agenda, even though 
I do not think we can thoroughly cover but a handful of them at 
a legislative hearing like this; and we are, again, considering 
many bills that have significant cost but do not include 
suggestions how to pay for them. I am not saying anything new 
to the Chairman and hopefully I get an ``A'' for consistency.
    So, it is my hope that, as we consider what bills should be 
advanced, the Committee will take steps to ensure that we have 
a clear understanding of how well existing programs are 
working, one; and what changes are truly needed and how much 
any changes would, in fact, cost. We should always find ways to 
pay for any needed legislation so that we do not continue to 
saddle future generations with a crushing debt.
    Before I turn it back to you, Mr. Chairman, I want to 
briefly mention two bills I have introduced that would provide 
straightforward solutions for ongoing issues.
    First is the Veterans Dialysis Pilot Program Review Act. In 
2009, the VA created a dialysis pilot program at four VA 
medical centers to provide dialysis treatment in local 
communities using VA clinics versus private contractors. Now, 
VA intends to roll out the program nationally while at the same 
time contracting for independent analysis of how well it is 
working.
    In my view, the pilot program should be properly evaluated 
before starting a national program. So, this bill would direct 
the VA to halt any new dialysis clinics until the pilot sites 
have been open for at least 2 years (which was the only general 
language of the pilot program), an independent analysis of all 
four pilot sites is conducted, and a report of those analyses 
is submitted to Congress.
    The only intent of this bill is to ensure that before VA 
creates a national program, we first figure out if that would 
be in the best interest of our veterans and of our taxpayers.
    I have also introduced a bill in response to several recent 
quality management issues at VA medical facilities that have 
unfortunately resulted in patient harm and death. These issues 
range from the misuse of insulin pens, to the outbreak of 
Legionella, to delays in patient care.
    This bill would address overarching themes that were 
identified as contributing to the poor quality of care of all 
of these incidents by taking steps requiring VA to have an up-
to-date policy about reporting certain infectious diseases and 
to develop performance measures to assess how well these 
policies are being followed.
    Mr. Chairman, I want to thank you for this legislative 
hearing, I look forward to hearing from our colleagues, and I 
look forward to future action on these bills.
    Chairman Sanders. Senator Burr, thank you very much.
    We welcome our colleagues who are not on the Committee. 
Thank you very much for your interest in Veterans Affairs and 
thank you for being here today.
    Let us start with Senator Reed.

                   STATEMENT HON. JACK REED, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Reed. Well, thank you very much, Mr. Chairman, 
Ranking Member Burr, and distinguished Members of the 
Committee. Thank you again for the opportunity to speak today 
regarding legislation that I have introduced to help 
servicemembers and their families.
    S. 1593 is the Servicemember Housing Protection Act. Our 
country has had a strong tradition of ensuring that the laws 
that protect our servicemembers keep pace with the challenges 
they face. Having had the privilege of serving in the Army at, 
among other places, Fort Bragg, NC, and Fort Benning, GA, I 
personally know the importance and value of these laws, and I 
commend you for what you are doing in this Committee.
    My proposed legislation would continue this tradition of 
protecting our servicemen and women, and it seeks to address a 
continuing challenge, helping them with their housing needs so 
that they can maintain their focus on the difficult task of 
protecting our country.
    S. 1593, the Service Member Housing Protection Act, takes 
several critical steps to enhance provisions provided under the 
Servicemembers Civil Relief Act, SCRA, to our Armed Forces.
    First, the bill would make it easier for servicemembers to 
claim deployment-related financial and credit protections by 
expanding what could be submitted to constitute, ``military 
orders.''
    Currently, creditors require a copy of military orders in 
order to trigger SCRA protections. However, these orders are 
often not cut until just before deployment or once the 
servicemember is already deployed which has placed a stressful 
burden on some families as they try to work with banks to 
secure SCRA protections.
    Broadening the scope of what could be submitted to trigger 
protections before orders have been received, to include a 
letter or other form of certification from a servicemember's 
commanding officer would further ensure that these members have 
the protections of the SCRA.
    Second, this bill would extend foreclosure protections to 
surviving spouses. Currently, servicemembers have a one-year 
window of foreclosure protection following service to provide 
time to reacclimate to civilian life and get their personal 
affairs back in order.
    Our bill extends this 1-year window of foreclosure 
protection to a surviving spouse who is the successor in 
interest to the home. After suffering an unspeakable loss of a 
servicemember, a military spouse should not have the additional 
burden of dealing with the immediate foreclosure.
    Last, the bill would help facilitate the transition from 
off-base to on-base housing. Due to the shortage of on-base 
military housing, many servicemembers find off-base housing 
until on-base housing becomes available.
    When servicemembers who are on a waiting list, which can be 
at least 2 years, are finally given a chance to move into on 
base housing, they sometimes are not able to terminate their 
off-base housing lease. Including an order of opportunity to 
move from off-base to on base housing as additional grounds for 
termination would allow servicemembers and their families a 
chance to move into military housing.
    Several States--and I must commend them: Florida, Georgia, 
and Virginia--already have similar laws. We should extend this 
opportunity to servicemembers serving anywhere in the United 
States or around the globe.
    I am proud to have produced this bill with Senators Begich, 
Whitehouse, Durbin, and Tester. It is supported by the Military 
Officers Association of America and also by the Veterans of 
Foreign Wars.
    Mr. Chairman and Members of the Committee, thank you for 
your important work. Thank you for protecting our veterans. I 
look forward to working with you on this legislation.
    Chairman Sanders. Senator Reed, thank you very much.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. If I may submit my 
written commentary for the record.
    Chairman Sanders. Without objection.
    Senator Nelson. Mr. Chairman, I am just going to tell you 
what the three pieces of legislation are. The first one is a 
no-brainer. It is naming the Bay Pines Hospital in the Pinellas 
County, Florida after the longest-serving Republican member of 
the House of Representatives who we just lost last week, Bill 
Young.
    His record as Defense Appropriations Chairman, the way he 
lived his life, where he and his wife literally adopted a 
Marine who was back from the war and have raised him as their 
son, and the way that he has reached out to veterans, so much 
so that the Florida congressional delegation and I conferred 
last week before his funeral while we were still in recess. The 
House was in session, and the House took it up and has already 
passed it, naming the Bay Pines VA hospital after Bill Young.
    That is the first piece; and if you could go all on, if you 
all see fit to move that legislation, it would be a timely 
thing for the family.
    Veterans Conservation Corps. This is for post-9/11 veterans 
coming home who are unemployed. They would be employed not 
unlike the old CCC, or Civilian Conservation Corps, for up to 1 
year with a possible 1-year extension.
    It obviously has a price tag of about a couple of billion 
dollars. The question is what is the value to society of 
employing veterans for worthwhile things in our national parks 
and schools, and I can go into as much detail as you want but 
that is the idea.
    The third piece of legislation is something this Committee 
has already pushed; electronic health records coming out of the 
Department of Defense, active duty, as they then go into the VA 
health care system. Of course, you know the difficulty there so 
this tries to set a timeline that is achievable; it tells VA 
and the DOD set your goals, set in the milestones, achieve 
them, and then have the full implementation of the electronic 
health records that will allow a seamless transfer which is 
what we all want.
    Those are my three pieces of legislation. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Nelson follows:]
                Prepared Statement of Hon. Bill Nelson, 
                       U.S. Senator from Florida
    Chairman Sanders, Ranking Member Burr, thank you for the invitation 
to be here today. I'm honored to speak to the Committee about three 
pieces of legislation that I've filed to benefit our Nation's veterans.
     s. 1576, re-designation of the bay pines va facility to honor 
                          rep c.w. bill young
    On Monday, I filed legislation to rename the Bay Pines VA 
Healthcare System St. Petersburg, Florida, in honor of Representative 
Charles William ``Bill'' Young. I believe this is an appropriate way to 
recognize his service to the men and women of our military, the State 
of Florida, and the Nation.
    Throughout his long career Representative Young was an unwavering 
advocate for our Nation's servicemembers and veterans. He served for 
nine years in the Army National Guard and a further six as a reservist, 
and in 1970 was elected to the House of Representatives. For over 40 
years, and as the longest serving Republican in the House, he 
represented the needs of the Pinellas County, Florida region, where the 
Bay Pines VA Healthcare System is located. His willingness to work 
across the aisle to best represent his constituency was commendable and 
exemplary of his time in public service.
    I strongly support the efforts of the Florida Congressional 
Delegation and the legislation to rename the Bay Pines VA Healthcare 
System after Representative Young.
                 s. 1262, veteran's conservation corps
    While the economic downturn has taken a toll on most Americans, 
it's been especially tough for many of our veterans. According to the 
Bureau of Labor and Statistics, the unemployment rate of Post-9/11 
veterans is 10.1%, much higher than the national unemployment rate of 
7.2%. And with the drawdown in Afghanistan, we can expect newly 
separated veterans to enter into the workforce at increasing rates. 
Numbers like these tell me we need to do more to help those who 
sacrificed in service to our Nation.
    This summer, I again filed legislation to authorize a Veterans 
Conservation Corps. Modeled on the Civilian Conservation Corps of the 
1930s, this jobs-program would put veterans back to work restoring and 
protecting America's public land and waters. Veterans have a history of 
public service, as well as unique training and skills that could 
benefit these national priorities, even after their military service 
has come to an end.
    Mr. Chairman, not only will this bill help veterans, but the 
Veterans Conservation Corps will help address the Federal maintenance 
backlog. The National Park Service has a deferred maintenance backlog 
of more than $11 billion. Federal public lands are not only National 
treasures, but they are also economic drivers, bringing in tourism and 
recreational opportunities to local communities. It's been estimated 
that for each dollar invested in park operations, $10 in gross sales 
revenues are generated, and last year, national parks provided $31 
billion of direct economic benefit to local communities around the 
country.
    The Conservation Corps would be overseen by an inter-agency task 
force--bringing together expertise from the Departments of Agriculture, 
Commerce, Homeland Security, Interior, the Army Corps of Engineers, and 
the Corporation for National and Community Service (CNCS). Of note, I 
am pleased to have the support of the Veterans Administration.
    It's up to us to stand by our soldiers, sailors, airmen, marines, 
and coast guardsmen. Passing legislation to help employ veterans--like 
the Veterans Conservation Corps--is the way we can thank them for their 
service and bravery.
                   s. 1296, electronic health records
    I would also like to discuss my legislation which addresses 
electronic health records and the ongoing efforts by the Department of 
Defense and the Department of Veterans Affairs to effectively 
communicate with one another. The men and women of our Armed Forces 
sacrifice a great deal for this country and while we recognize the need 
to provide them with a modern health records system, so far, we have 
failed to deliver.
    The Departments have been pursuing a cohesive system for over 
fifteen years; putting in hundreds of millions of dollars and countless 
staff hours, yet the Departments still lack the ability to fully access 
servicemembers' health records. The lack of access causes delays, 
increases the backlog of claims at the VA, and has the potential to 
cause real harm to a servicemember as a result of incomplete or 
inaccurate health records.
    We must not continue kicking the can down the road while 
servicemembers and veterans are subjected to an untenable system. Goals 
must be set, milestones achieved, and in the near future, the full 
implementation of an electronic health records system that allows for 
the seamless transfer of records between the Department of Defense and 
Department of Veterans Affairs.
                                closing
    Chairman Sanders, Ranking Member Burr, I appreciate all the work 
this Committee has done to honor our Nation's veterans and I look 
forward to working with you on these pieces of legislation.

    Chairman Sanders. Thank you very much, Senator Nelson.
    Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman and Mr. Ranking 
Member. I spent the morning with you, too. [Laughter.]
    I want to thank you for the opportunity to speak very 
briefly about my bill, the Rural Veterans Health Care 
Improvement Act; but before Senator Nelson leaves, I want to 
associate myself with all three of his.
    I think a Conservation Corps for veterans is a great thing, 
and I think those health records, obviously those electronic 
health records need to be done as expeditiously as possible.
    So, I am here to talk about the Rural Veterans Health Care 
Improvement Act. I am very pleased to be once again working 
with my colleague Senator Boozman on this bill. He is not able 
to be here as he is a conferee on the Farm Bill. As I said the 
last time I testified here, Senator Boozman's unflappable 
demeanor and his commitment to veterans are equally renowned.
    Our bill, the Rural Veterans Health Care Improvement Act, 
is on a subject that I know the Chairman cares deeply about, 
improving the access to quality health care for our Nation's 
veterans who live in rural areas and I know actually all the 
Members of this Committee care about that.
    My State of Minnesota has a disproportionate number of 
veterans who live in rural areas and that presents a challenge 
for getting quality care through the VA. VA has been working on 
this, but there is room for improvement. That is what our bill 
would push VA to do.
    It would simply tell VA that when it next produces a 
strategic plan or updates its strategic plan for rural veterans 
health, there are certain key features that strategic planning 
has to include, must include.
    VA needs to plan strategically about recruiting and 
retaining practitioners for rural areas, for instance. It has 
to make full and effective use of mobile outpatient clinics. It 
has to make sure it is planning for the provision and 
coordination of care for women veterans in rural areas.
    To talk at a little greater length about another aspect of 
our bill, the VA Inspector General has reported numerous times 
on challenges faced by veterans in rural areas in getting 
emergency care. This is understandable. Many rural clinics are 
not equipped to handle many types of emergencies including 
mental health emergencies.
    We know emergencies will happen and we know they go beyond 
the capacity of relatively small clinics. We need to be 
prepared and that means that VA has to make sure that rural 
health care providers are identifying their clinical capacity 
and have a contingency plan for how to handle emergencies that 
exceed that capacity.
    I know that VA wants to make this work, wants to do this 
work and provide the best care possible for rural veterans. I 
believe the legislation Senator Boozman and I have put forward 
will help the VA do that. Rural veterans deserve excellent 
health care no less than their brothers and sisters in urban 
settings.
    So, thank you very much.
    Chairman Sanders. Senator Franken, thank you very much.
    Senator Coats.

                STATEMENT OF HON. DANIEL COATS, 
                   U.S. SENATOR FROM INDIANA

    Senator Coats. Mr. Chairman, I am not sure what you and my 
colleagues did this morning. I am sorry I did not get an 
invitation. [Laughter.]
    It sounds like it was a pretty good gig.
    Senator Franken. It was fun.
    [Laughter.]
    Senator Coats. Mr. Chairman, I regret that I have to be 
here to ask you to do something today. Through a mistake made 
by the VA and their inability to timely address this issue, we 
have a situation that I think needs to be addressed and I am 
asking the Committee if you would be willing to support the 
bill that I introduced, S. 1471, the Alicia Dawn Koehl Respect 
for National Cemeteries Act.
    Let me give you just a bit of background. In May 2012, a 
veteran, Michael LaShawn Anderson, went on a shooting spree at 
an Indianapolis apartment complex, injuring three people and 
taking the life of Alicia Dawn Koehl.
    Her parents-in-law are sitting behind me from Fort Wayne, 
IN. The families have had to go through an excruciatingly 
lengthy and unproductive process in trying to right a wrong. A 
mistake was made. Federal law does not allow for burial of a 
veteran, ``if they have committed a Federal or State capital 
crime but were unavailable for trial due to death.'' They are 
prohibited from being given the honor of a burial in a National 
Cemetery.
    To the family's distress, the perpetrator of the crime, 
Michael Anderson, was buried in a National Cemetery, Fort 
Custer National Cemetery in Michigan. The family has been 
asking, since that did violate the law and that is not 
something I think we want to continue to promote, that the 
remains be disinterred and buried wherever the family of the 
person who committed the crime wants to bury them outside of a 
National Cemetery.
    That mistake, and we are going to call it a mistake, by VA 
needs to be corrected. The family is simply asking for closure 
and peace of mind that those remains be disinterred. VA's legal 
department has basically said they do not have the legal 
authority to do that. And so S. 1471 simply gives them the 
ability to do that, not only in this case but for potential 
future cases.
    This process has gone on too long. It has been difficult to 
get to this point. We have spent months and months and months 
on this. Together, we have worked with VA to fashion this 
legislation. I simply am asking for the Committee's support for 
this to hopefully expedite it so that we do not have to wait 
another year. If it could be done in this Session, I think 
justice will be served and the family can find some closure 
from this tragic situation.
    So, we appreciate your consideration of this. Anything you 
can do, colleagues, would be deeply appreciated not just by me 
but certainly by the family and all of those loved ones of this 
remarkable woman.
    I could tell you some amazing things about her. She lost 
her life in an unnecessary random shooting that simply took the 
lives of people for no reason whatsoever. So, whatever help you 
can give us here we certainly would appreciate.
 Prepared Statement of Hon. Dan Coats on the Alicia Dawn Koehl Respect 
                      for National Cemeteries Act
    Chairman Sanders, Ranking Member Burr, and Committee Members: Thank 
you for the opportunity to testify on behalf of S. 1471, the Alicia 
Dawn Koehl Respect for National Cemeteries Act. I am pleased to be 
joined by Alicia Koehl's father-in-law and mother-in-law, Frank and 
Carol Koehl, who traveled from Fort Wayne, Indiana, to be here with us 
today for this important hearing. I would like to ask unanimous consent 
to include a letter from Alicia's husband, Paul Koehl, in the record.
    I truly wish my legislation wasn't necessary. It shouldn't be. I 
wish the tragic events of May 30, 2012 never took place and there 
wasn't a need for a bill named after Alicia Koehl. I wish the 
Department of Veterans Affairs had not made an unacceptable mistake 
that resulted in even more pain and heartache for this family.
    On May 30, 2012, Michael LaShawn Anderson went on a shooting spree 
at an Indianapolis apartment complex, injuring three people and taking 
the life of Alicia Dawn Koehl, a devoted wife and loving mother of two 
children. Anderson killed himself as police were arriving on the scene. 
Shortly after the Koehl family faced the unimaginable--laying to rest 
their beloved Alicia--they discovered that the local Department of 
Veterans Affairs cemetery officials mistakenly granted the shooter a 
burial with military honors at Fort Custer National Cemetery in 
Augusta, Michigan on June 6, 2012.
    After learning that Anderson was buried alongside our country's 
heroes in a national cemetery, the Koehl family requested that the VA 
disinter his remains. Federal law prohibits individuals who ``have 
committed a Federal or state capital crime but were unavailable for 
trial due to death'' from being given the honor of a burial in a 
national cemetery.
    For over a year, my staff and I have been working with the VA and 
the Koehl family to remove Anderson's remains from the Fort Custer 
National Cemetery in Michigan. However, earlier this year, the VA 
informed me personally that it will not disinter the remains of 
Anderson because the department does not believe it has the legal 
authority to take this action. In other words, the VA was not permitted 
under current law to bury Anderson at a national cemetery, but the 
department doesn't believe they have the legal authority to fix its own 
mistake and exhume the remains of an ineligible veteran.
    My legislation (S. 1471) would right this wrong by granting both 
the Department of Veterans Affairs and the Department of Defense the 
authority to disinter veterans buried in national cemeteries who commit 
a Federal or state capital crime. This bill would give the VA the 
authority it needs to exhume the remains of Michael LaShawn Anderson.
    I urge support for this important legislation. The victims and 
family members of this tragic shooting have suffered enough and do not 
deserve to have to wait another year for their request met. No one who 
commits a state or capital crime should be given the honor of a 
military burial and be laid to rest next to our Nation's military 
heroes. By passing this legislation, we can resolve an unacceptable 
mistake and help provide the Koehl family with a sense of peace and 
closure. I urge this Committee to pass the Alicia Dawn Koehl Respect 
for National Cemeteries Act to ensure that our fallen veterans can rest 
in peace next to loved ones and fellow servicemembers, not criminals.

    Thank you.

    Chairman Sanders. Senator Coats, we will certainly take a 
very hard look at that. We thank you for bringing this to our 
attention and we very much thank the family for being here as 
well. We appreciate that.
    Senator Heinrich.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Chairman Sanders, Ranking Member Burr, 
and Members of the Committee, I want to thank you all for the 
opportunity today to speak about S. 1148, the Faster Filing 
Act. I was glad to introduce this bipartisan bill with Senator 
Dean Heller to my left, a Member of this Committee, in order to 
help reduce the disability claims backlog.
    By now, I think every veteran and most Americans have heard 
of the unacceptable backlog facing our Nation's veterans but 
not every veteran is aware of a faster filing option to reach a 
decision quicker and to help avoid the backlog altogether.
    As this Committee is aware, the VA's fully developed 
claims, or FDC, program has allowed servicemembers, veterans, 
and survivors to reach faster decisions from the VA on 
compensation, pension, and survivor benefit claims.
    Together in partnership with our Nation's dedicated 
veterans service organizations, regional offices like the one 
in Albuquerque, NM, are working hard to promote fully developed 
claims and break the backlog.
    On average, it takes 113 days for veterans to receive a 
final disability rating if they file a fully developed claim 
online. Compare that with 373 days if they file a non-fully 
developed claim on paper.
    Specifically, this bill seeks to ensure that veterans are 
aware of the fastest options that are available to them. It 
simply does so by requiring the VA to provide notice about the 
differing processing times of disability claims based on the 
manner in which the veteran files from an electronic fully 
developed claim to a non-fully developed claim on paper. This 
notice would occur prominently on the VA Web site and in each 
regional office and claims intake facility at the VA.
    I am pleased to know that VA has already taken a number of 
steps since this bill's introduction that are consistent with 
the intent of the legislation, but more can be done to 
encourage veterans to submit their claims in the most efficient 
way possible and this bill is one way to do that.
    I also understand there are some suggestions for improving 
this bill and I certainly look forward to working with the 
Committee, the VA, and the VSOs to see this bill enacted into 
law.
    Once again, I would like to thank my colleague, Senator 
Heller, for his help with this legislation.
    Chairman Sanders. Senator Heinrich, thank you very much.
    I think we have heard from all of the Senators who are not 
on the Committee so let us get some opening remarks from 
Members of the Committee. We will begin with Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Mr. Chairman and Ranking Member Burr, I 
very much appreciate your having this hearing today and thank 
the VA witnesses, MOAA, VVA, and DAV for participating in this 
hearing and supporting my legislation. I want to speak briefly 
about a few bills that I have.
    We all know Montana is a rural State. The distance between 
communities are long. Quality mental health care can be hard to 
find. The lack of qualified mental health clinicians is a big 
problem for rural veterans and Montana is no exception, 
especially for those returning from Iraq and Afghanistan with 
unseen wounds like PTSD and TBI. Too many living in rural 
communities go untreated and they pay the price for it.
    Improving mental health care in rural America means 
expanding the use of telemedicine. It means making sure that 
veterans get the care they need during demobilization. It means 
improving the VA's use of information technology.
    I have introduced the Rural Veterans Mental Health Care 
Improvement Act this year to tackle these issues. This bill 
addresses one more critical problem, the lack of qualified 
mental health professionals working for the VA in rural parts 
of this country.
    I introduced this bill after we held a hearing to highlight 
the problem and look for solutions. The hearing revealed that 
not only are there not enough mental health professionals 
dedicated to working with rural veterans but all too often 
government agencies are not on the same page when it comes to 
providing needed care.
    The bill also requires the VA to include licensed 
professional mental health counselors and marriage and family 
therapists in the Department's flagship recruitment program, 
the Health Professionals Trainee Program.
    These counselors and therapists make up to 40 percent of 
the overall independent practice out there in the behavioral 
health workforce nationwide and they often practice in rural 
areas. But the VA employs fewer than 200 of them in its 
behavioral health workforce that numbers more than 23,000. That 
should change.
    By bringing more counselors and therapists into the VA's 
leading health professional training program and providing them 
with a stipend, more of these professionals will join the VA 
and make a difference in the lives of America's veterans. With 
your support, this will become law and more rural veterans, 
whether in Montana, Alaska, or anywhere in-between, will get 
the care that they need.
    The second bill, S. 1165, would expand performance measures 
to the entire list of VA and CDC recommended adult 
vaccinations. This would promote timely and appropriate 
vaccinations while placing a greater emphasis on preventable 
care for our veterans.
    Each year approximately 70,000 adults die from vaccine 
preventable diseases. Influenza alone is responsible for 1 
million ambulatory care visits, 200,000 hospitalizations, and 
30,000 deaths. Vaccinations are one of the safest and most 
cost-effective ways to prevent disease and death.
    To ensure that they are administered in a timely and cost-
effective manner, the CDC has recommended an adult immunization 
schedule that is periodically reviewed and revised. This bill 
would ensure veterans receive each immunization on the 
recommended adult immunization schedule established by the CDC.
    Finally, the last bill would simply allow the VA to provide 
dependency and indemnity compensation, DIC, and death pension 
benefits to the widows of fallen servicemembers and veterans 
for up to 6 months.
    By law, a surviving spouse has to file a claim with the VA 
before receiving DIC or death pension benefits. Though the 
majority of DIC and death pension claims will be granted 
automatically once a claim is filed, the widow loses the 
veterans benefits immediately upon the veteran's death.
    For the most part, these are poverty-level widows. So, in 
the midst of an incredibly difficult time--we have heard this 
before--these widows are faced with financial hardship until 
they file a claim and it is processed. The families of our 
fallen heroes must be given time to mourn without worrying 
about how to make ends meet.
    Finally, Mr. Chairman, and this is entirely up to you, I 
heard Senator Nelson's bills. He had three of them. One had to 
do with the Bill Young naming of a clinic. I think it is 
entirely possible to get that bill out today, to get it to the 
floor, get it hot-lined, and move along with that in the short 
term.
    Thank you, Mr. Chairman. I very much appreciate the 
opportunity to speak. Thanks.
    Chairman Sanders. Thank you, Senator Tester.
    Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you, Mr. Chairman. Thanks for 
holding this hearing. I do appreciate the opportunity to share 
a few words on a bill that I have introduced with one of our 
colleagues from Colorado, Senator Bennet.
    I have joined with Senator Bennet in introducing S. 1216. 
We call it the Improving Job Opportunities for Veterans Act of 
2013. This legislation seeks to expand opportunities for 
veterans using GI Bill benefits to participate in on-the-job 
training programs and apprenticeship-type training programs.
    It would encourage private employers to hire veterans by 
increasing the VA's contribution to the veteran's salary during 
the training. It would also help ensure Federal agencies are 
utilizing the on-the-job training and apprenticeship training 
benefit to hire veterans.
    I believe, and I think Senator Bennet believes, that 
increasing job opportunities for veterans by ensuring that 
veterans have the ability to participate in on-the-job training 
and apprenticeship training programs upon leaving active duty 
is critically important and this could be a difference maker.
    The men and women who have served our great Nation have 
given a lot. This is one way of helping them out when they 
return home. As they seek to transition to civilian careers, I 
believe that this bill will help them make that transition.
    I might mention that this legislation overwhelmingly passed 
the House in May actually by a vote of 416 to 0. So, I would 
appreciate your consideration of this legislation. I ask my 
colleagues to join me in supporting it. It is my hope that we 
can get the bill done.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Johanns.
    Senator Hirono.

                STATEMENT OF HON. MAZIE HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman, for holding this 
hearing today to receive testimony on more than two dozen bills 
to help our veterans. These bills do a lot of good, from 
improving dental health services and making mental health 
services available to veterans and their families, to 
strengthening job training programs for men and women in 
uniform.
    In particular, I wanted to highlight Chairman Sander's 
bill, S. 1581, to authorize VA to provide counseling and 
treatment for military sexual trauma for active-duty 
servicemembers. This bill will help survivors of sexual assault 
get the care they need.
    I also want to express my support for Senator Durbin's 
bill, S. 1559. This legislation will ensure that U.S. residents 
who are Filipino World War II veterans receive the full 
benefits that they have earned through their service.
    We owe all servicemembers and veterans, no matter when and 
where they served, the care they need and the benefits they 
have earned, and these measures would help fulfill that 
commitment.
    Finally, I would like to speak for a few moments on 
S. 1588, a bill that I introduced along with Senators Moran, 
Isakson, and Begich. This bill provides an emergency safety net 
to 144,000 veterans waiting for VA care. This bill fixes a 
Catch-22 in current law that puts veterans who have recently 
returned from overseas at financial risk if they experience a 
medical emergency.
    Under current law, a veteran enrolled in the VA system who 
receives emergency care at a non-VA facility can be reimbursed 
for those costs only if the veteran has also received care at a 
VA facility in the preceding 24 months.
    As I understand it, the intent of this requirement is to 
encourage veterans to seek preventative care at least every 24 
months to decrease the need for more expensive emergency care.
    This 24-month requirement creates a problem for some newly 
returned veterans. They cannot comply with this requirement 
through no fault of their own. Newly returned veterans cannot 
comply because they have not received their first VA 
appointment because of VA waiting times. But, if they need to 
go to a non-VA hospital for a medical emergency, the VA cannot 
reimburse them because they have not received their first VA 
appointments. A Catch-22.
    My bill fixes this problem for newly-returned veterans. 
This bill gives VA the flexibility to reimburse veterans who 
have not yet received their new patient examination if they 
have to go to a non-VA hospital for a medical emergency.
    For Hawaii, veterans in rural Oahu or on the neighbor 
islands who live far from VA facilities, emergency care outside 
the VA may be their only option. Just last week I met a veteran 
from Waianae, on Oahu, who had a medical emergency while 
waiting 4 months for his first appointment at VA.
    Veterans like him who are denied VA reimbursement would get 
much-needed relief under this legislation. We owe it to our 
brave men and women in uniform who put their lives on the line 
for our country, that VA has the tools it needs to better serve 
our new veterans accessing the care they have earned.
    I look forward to hearing from our witnesses and their 
thoughts on this and the other bills.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you very much, Senator Hirono.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman, and I 
associate myself with all of the remarks by Senator Hirono with 
regard to her bill on emergency medical services. I think it is 
a great bill. I am an original cosponsor and completely support 
it.
    I also would urge the Chair to also consider, if it is not 
inappropriate for me to do so, to consider Senator Tester's 
request with regard to a UC, or unanimous consent, on the bill 
naming the veterans facility after Bill Young. Bill was an 
outstanding member of the Appropriations Committee for 40 years 
in the House of Representatives, and passed away last week. I 
think it is an appropriate and fitting tribute.
    Also with regard to Senator Tester's legislation, he has 
one bill on widows' benefits that says that they get paid 
immediately upon filing but before they have been approved 
which is fine with me, but there are cases where sometimes 
benefits, death benefits, of veterans are contested, where you 
have more than one spouse in the past.
    Having dealt with that in the past, the bill needs to have 
a reimbursement provision where if it ultimately was denied, 
the VA is reimbursed for that. That is the only suggestion I 
would make on that.
    Last, Senator Coats from Indiana's presentation with regard 
to the burial in the cemetery in Michigan, I think that also 
merits expedited attention.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you very much, Senator Isakson.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for having this hearing.
    I want to begin by speaking about a U.S. Marine from 
Connecticut who unfortunately and tragically took his own life 
yesterday. I spoke about his tragic loss on the floor of the 
Senate earlier today.
    Justin Eldridge served on active duty in the Marine Corps 
for 8 years and came back to begin another battle with post 
traumatic stress and traumatic brain injury. He fought hard. He 
fought bravely. He fought with the full support of his family, 
particularly his wife Joanna and his four children; and 
unfortunately he lost that battle.
    I first came to know him when he formed a chapter of the 
Marine Corps League in southeastern Connecticut and recruited 
me to join, and I knew him as a dedicated Marine committed to 
helping his brothers and sisters in the Marine Corps and as a 
loving husband and father.
    We will miss him in Connecticut and I think in the country. 
But his story shows the importance of the work that we are 
doing on this Committee today because, as he would be the first 
to say, there are thousands and thousands like him who are 
engaged in the same battle, in the same struggle whom we are 
seeking to help today right here. So, it provides a context and 
a special meaning for me today.
    Turning to the legislation before us, I want to thank all 
of the witnesses who are going to be with us today for their 
testimony. It is very, very important that you give us the 
insight and the benefit of your perspective. I thank you for 
your service to our Nation as well as your being here today and 
your contribution to many, many veterans across the country.
    One of this Committee's, and indeed the Senate's top 
priority, should be eliminating the backlog of veterans claims. 
I appreciate the VA's commitment to eliminating that backlog 
and welcome some of the recent positive news that the backlog 
is declining but unfortunately we are nowhere near where we 
should be yet and we have to remain vigorous and vigilant in 
ensuring that the backlog continues to decrease to zero even 
before the projected date by General Shinseki.
    No veteran should have to wait months and months or even 
years to receive a decision from the VA. Again, taking 
Connecticut as an example, I recently learned of veterans whose 
disability claims were approved literally at the beginning of 
October at a 2-year wait and then had to wait again because of 
the shutdown to have the full satisfaction and security of 
knowing that they would receive the disability claims to which 
they were entitled.
    I am proud to cosponsor and support the Servicemembers 
Electronic Health Records Act. I introduced this bill as an 
amendment during the Committee's markup in July and I will 
continue to work to enact it into law.
    This bill would require the VA and the Department of 
Defense medical records to be interoperable in order to create 
a seamless transition when a servicemember leaves active duty 
and becomes a veteran and also to allow easy access to VA 
officials who need a veteran's medical records to decide a 
veterans claim.
    There are two other bills that I have introduced which I 
will briefly state without going into detail. The first is 
S. 1281, the Veteran Servicemembers Employment Rights and 
Housing Act, which I developed with AMVETS and am proud to have 
the support of the VFW, as well, for this bill. It would 
include veterans as a protected group in the Equal Employment 
Opportunity Law and the Fair Housing Act.
    Another bill that I introduced actually yesterday, the 
Toxic Exposure Research and Military Family Support Act, I was 
pleased to do with the support and tremendous contributions of 
the Vietnam Veterans of America. This is a comprehensive effort 
to provide for veterans who were exposed to danger us toxic 
substances during their military service and for their loved 
ones.
    We have seen alarming trends in children of veterans 
exposed to Agent Orange. Many have childhood cancer, heart 
attacks or other serious conditions. This bill is really an 
attempt to have the VA look at each incident of toxic exposure 
in the military on its own merits and its own facts to 
determine the effect on veterans and their dependents.
    I am working with a variety of VSOs on this legislation and 
other legislation which I support, including S. 1211, which 
would ensure that the phrase ``GI Bill'' cannot be used under 
false pretenses; and the World War II Merchant Mariner Service 
Act which affects many of our constituents who served our 
country honorably during World War II in the Merchant Marines 
and deserve treatment under this bill.
    I also would like to be added as a cosponsor and supporter 
of S. 1262, Senator Nelson's Conservation Corps Bill; S. 1155, 
Senator Tester's Rural Mental Health Act.
    I thank you, Mr. Chairman.
    Chairman Sanders. Thank you very much, Senator Blumenthal.
    Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you, Mr. Chairman. Thank you and the 
Ranking Member for holding this hearing. Before I begin, I want 
to thank you for your opening comments about bipartisanship 
which, in these halls it is hard to find sometimes and I think 
the work that you and Senator Burr do together moves this 
Committee forward.
    For someone watching what is going on both sides, both 
chambers on the floor, it is a breath of fresh air. So, thank 
you very much for your leadership on that.
    I want to also thank Senator Isakson and support him in his 
request to move Senator Nelson's and Senator Coats' request. I 
think that would be appropriate and I cannot imagine there 
would be any opposition.
    I would like to focus my remarks on the VA's disability 
claims backlog. When I joined this Committee, I made it one of 
my top priorities to bring the backlog of claims down and 
joined Senator Casey to establish the VA Backlog Working Group.
    All parties have acknowledged the gravity of this problem. 
I continue to work with veterans service organizations and 
other members of Congress and the VA to address this particular 
problem.
    Hundreds of Nevada veterans and their family members in Las 
Vegas and Reno have come to my office to express their 
frustration with wait times and to seek assistance navigating 
through this very difficult process.
    During roundtables in Nevada's communities, veteran 
advocates told me that the VA backlog has directly impacted the 
welfare of these individuals. While the VA has made progress 
toward reducing the backlog, the Reno VA regional office still 
has more than 4,000 veterans that have waited over 125 days for 
decisions on their claims.
    This is a problem that I know we all want to fix. 
Democrats, Republicans, the President, Secretary Shinseki are 
all concerned about this issue and want to see it solved.
    It is clear that we need to do more to fix this problem and 
to fix it permanently. That is why I have joined with Senator 
Heinrich to introduce bipartisan legislation that gives 
veterans information about the timeliness of the fully-
developed claims program.
    The Veterans Benefits Claims Faster Filing Act ensures that 
veterans are fully informed of the filing options available to 
them. The VA will be required to provide information online and 
in each VA regional office about which options will result in a 
quicker decision.
    When veterans submit a fully-developed claim with all 
evidence ready for the claims process, the claim is completed 
in less than 125 days on average, meeting the VA's deadline 
before a claim becomes backlogged. However, claims that are not 
fully developed often take more than a year to process. 
Providing accurate information to veterans before they submit a 
claim will save time for both the veteran and the VA 
themselves.
    The VA would also be required to inform veterans that 
filing a fully-developed claim makes them eligible to receive 
an additional year of benefits as authorized under current law. 
It is important that veterans are encouraged to file a fully-
developed claim so that fewer individuals experience the 
frustration of waiting for benefits they have earned in service 
to our country.
    While there is no single bill that will magically reduce 
the backlog, I believe that targeted legislation like Senate 
Bill 1148 takes us another step forward to helping our Nation's 
veterans and the VA reach this goal. I do appreciate Senator 
Heinrich's remarks on our legislation and look forward to 
working with him to move this bill forward.
    Mr. Chairman, I would also like to express my support for 
Senator Tester's bill, the Military Family Relief Act, which I 
am proud to be a cosponsor of. This legislation authorizes the 
Veterans Benefits Administration to automatically and 
immediately provide death and indemnity compensation and death 
pension benefits to widows and widowers of fallen 
servicemembers and veterans.
    Currently, widows and widowers are not eligible to receive 
these needed benefits until they file a claim and it is 
approved. The process can take months. At a time when a family 
is grieving over the loss of a loved one, these individuals 
should not also feel burdened by the financial strain of having 
to wait several months for these benefits. I am glad to support 
Senator Tester in this effort and hope to see it move forward.
    As this Committee further discusses proposals to help 
American veterans receive the benefits they have earned, it is 
my hope that we will remember our commitment to caring for 
these brave heroes who have sacrificed greatly to serve this 
country.
    Thank you very much, Mr. Chairman.

    Chairman Sanders. Thank you, Senator Heller. I think we 
have now heard from all of the sitting Members of the Committee 
and we are ready for our first panel.
    We thank our panelists very much for being with us this 
afternoon. From the Department of Veterans Affairs, we have Dr. 
Robert L. Jesse, the principal Deputy Undersecretary for 
Health. Dr. Jesse, thanks for being here.
    Also joining us today from VA is David McLenachen, the 
Director of the Pension and Fiduciary Services for the Veterans 
Benefits Administration, and we thank you very much for being 
here.
    Rounding out this panel are Assistant General Counsel 
Richard Hipolit and Deputy Assistant General Counsel Jane Clare 
Joyner.
    The Department's full statement will be entered into the 
record.
    Dr. Jesse, please begin.

  STATEMENT OF ROBERT L. JESSE, M.D., Ph.D., PRINCIPAL DEPUTY 
UNDER SECRETARY FOR HEALTH, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Dr. Jesse. Thank you, sir. Good afternoon, Chairman 
Sanders, Ranking Member Burr, and Members of the Committee and 
thank you for the opportunity to be here today.
    Sir, I very much appreciate your positive comments about 
both the quality and value of VA health care and your 
admonishment to the timeliness of our formal views. Noted, and 
we will make sure that word is carried back.
    We appreciate very much the efforts of the Committee to 
improve veterans' health care. As you have already stated, with 
the number of bills on the agenda, we are really only today 
able to have some very broad comments before fielding your 
questions.
    There are a number of more significant bills I think we 
received really too late to include in the testimony but I want 
to assure you that we will be following up with a substantive 
discussion.
    As you know, one of Secretary Shinseki's top priorities is, 
in fact, access for veterans. That includes access into the 
system in a timely fashion which is much of the issue with 
getting into the benefits system but also access to timely and 
quality health care within our side of the system.
    We have been very aggressive about getting access to care 
close to where veterans live through aggressive outreach as 
well as through the use of telehealth, connected health 
strategies.
    There are significant bills on the agenda that aim at 
expanding access to health care services as well as dental 
care. The agenda also includes bills on the important topics of 
our care for victims of military sexual assault and domestic 
violence as well as expanding mental health support and the 
promising alternatives to institutional care across the health 
care spectrum.
    We do appreciate the dialog that we have had with your 
staff, especially regarding the draft bill on eligibility and 
access. There are some operational complexities that we note in 
our written testimony. We also believe that there are some 
provisions in there that are intertwined with the Affordable 
Care Act and will take a little more time to work out through 
coordinating with partners in departments of Health and Human 
Services and Treasury.
    Again, I want to be very plain that the VA, the Secretary, 
no one wants more than to ensure access to and quality of care 
at the VA, but we do need to be mindful of both current 
capacity within the system and the effect that any eligibility, 
significant eligibility changes might have on the services we 
have already committed to veterans under our care.
    A number of these bills, many of these bills we, in fact, 
whole-heartedly agree with in terms of concept and direction 
and intent; some of which, however, we think we are already 
doing under current authorities and it may be well served by 
improved communication.
    This includes S. 1165 regarding immunizations; S. 1411, 
defining the components of the strategic claim for rural 
health. We have a comprehensive approach of addressing both of 
these topics already.
    Regarding S. 1547, VA plans to fully brief the Committee on 
the results of the dialysis pilot program before we expand into 
any additional freestanding dialysis clinics, and I do wish to 
assure the Committee that we are actively evaluating the data 
from the pilots as they are being generated, and we intend to 
render an expansion decision only after that has been fully 
understood.
    Our concern is that this bill would, as it states, prevent 
us from activating any further freestanding dialysis centers 
until after July 2015 because the last center did not get 
operational--that is the one in Cleveland, OH--until after in 
July 2013.
    That is the main reason we are not supporting the bill, but 
we would like to continue to work with the Committee to ensure 
that we are taking all steps possible to maintain and ensure 
future access to effective dialysis care for veterans.
    That concludes my oral statement. I will turn to my 
colleague Dave McLenachen, who will comment briefly on the 
other bills on the agenda.

    STATEMENT OF DAVID R. McLENACHEN, DIRECTOR, PENSION AND 
   FIDUCIARY SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY RICHARD HIPOLIT, 
   ASSISTANT GENERAL COUNSEL; AND JANE CLARE JOYNER, DEPUTY 
                   ASSISTANT GENERAL COUNSEL

    Mr. McLenachen. Thank you, Dr. Jesse.
    Good afternoon, Mr. Chairman, Members of the Committee. I 
am also pleased to have the opportunity to comment on the bills 
before the Committee today and like Dr. Jesse, in the interest 
of time, I will keep my comments brief.
    As he also noted, bills not covered in our written 
testimony will be addressed in our follow-up views. That 
applies to the Veterans Benefits Administration bills that did 
not make our testimony. We will provide those to the Committee 
as soon as possible.
    Mr. Chairman, we appreciate the Committee's partnership as 
we work to meet the Secretary's goals to reduce our disability 
claims backlog while maintaining a high standard of quality. We 
also appreciate the introduction of two bills, S. 1148 and 
S. 1295 regarding the information that VA provides to claimants 
and the public.
    The availability of VSO assistance and performance metrics. 
We agree with the concepts presented in these bills but feel 
that VA has been successful in furthering the aims of the bills 
under current law.
    While we support veterans having access to good information 
and establishing a method for stakeholders and the VA to 
measure our progress, these bills may have unintended 
consequences. We welcome the opportunity to work with the 
Committee to address our concerns.
    We appreciate the introduction of draft legislation that 
would modernize the actuarial basis for our service-disabled 
veterans insurance program. This change is overdue and would 
provide greater financial security for our disabled veterans 
and their families to lower insurance premiums, provided that 
there are corresponding offsets to fund the proposed amendment.
    We also support and appreciate bills on the agenda that 
would enhance our on-the-job training authorities and help 
protect veterans from those who misrepresent that they are 
acting as the VA's endorsement when they promote services 
associated with post-9/11 GI Bill.
    We were also pleased to see S. 1262 on the agenda which is 
a measure to provide job opportunities for veterans in 
conservation, first responder, and a law enforcement fields 
which is similar to the Administration's Veterans' Job Corps 
proposal.
    VA also supports S. 1471 which would give the Secretary 
authority to address those rare cases that you heard about 
today in which a National Cemetery buries a veteran without 
notice that the veteran may have committed a capital offense.
    Finally, VA appreciates this Committee's continued efforts 
on our outreach. We agree with the importance of partnerships 
with other Federal agencies, State and local officials, and 
nonprofits to inform veterans and their families about the 
benefits that they have earned. Our testimony includes examples 
of how we are meeting the goals expressed in S. 1558.
    Mr. Chairman, this concludes my oral statement. My 
colleagues and I are happy to answer any questions that in the 
Committee may have.
    [The joint prepared statement of Dr. Jesse and Mr. 
McLenachen follows:]
 Prepared Statement of Robert I. Jesse, M.D., Ph.D., Principal Deputy 
 Under Secretary for Health and David R. Mclenachen, Director, Pension 
Fiduciary Service, Veterans Benefits Administration, U.S. Department of 
                            Veterans Affairs
    Good Morning Chairman Sanders, Ranking Member Burr, and Members of 
the Committee. Thank you for inviting us here today to present our 
views on several bills that would affect Department of Veterans Affairs 
(VA) healthcare and benefits programs and services. Joining us today 
are Richard Hipolit, Assistant General Counsel, and Jane Clare Joyner, 
Deputy Assistant General Counsel.
    VA is still in the process of formulating views on the following 
bills for which VA received notice or drafts on September 30, 2013: 
Sections 3-5 of S. 1155, S. 1296, S. 1540, S. 1556, and S. 1559. We 
will forward the views and estimates to the Committee as soon as they 
are available. Other bills were provided to VA at various points during 
the month of October. VA also will provide views and costs to the 
Committee on those bills at a later time: S. 1573, supplemental 
analysis to what is presented in this testimony regarding the draft 
bill entitled the ``Veterans Health Care Eligibility and Expansion 
Act,'' views and costs on the draft bills entitled ``Mental Health 
Support for Veterans Families and Caregivers,'' the ``Survivors of 
Military Sexual Assault and Domestic Abuse Act,'' the ``Medical Foster 
Home Act,'' and a draft bill regarding eligibility for emergency 
medical treatment.
    Additional bills provided to VA during October for which views will 
be provided for the record are: draft bills entitled the ``Enhanced 
Dental Care for Veterans Act,'' the ``Improved Compensation for Hearing 
Act,'' the ``SCRA Enhancement and Improvement Act,'' the ``Ensuring 
Safe Shelter for Homeless Veterans Act; the ``Servicemember Housing 
Protection Act,;'' the ``Support for Joint Federal Facilities Act, '' a 
bill to re-designate the name of a VA Medical Center, a bill regarding 
replacement automobiles for certain disabled veterans, a bill 
concerning the health conditions of descendants of Veterans exposed to 
toxic substances during service in the Armed Forces, and finally a bill 
concerning infectious disease reporting and the organizational 
structure of VHA.
          s. 1148--veterans benefits claims faster filing act
    Section 2(a) of S. 1148, the ``Veterans Benefits Claims Faster 
Filing Act,'' would require VA to post in a conspicuous place in each 
regional office and claims intake facility and on VA's internet Web 
site information concerning the average processing times for claims 
based on various formats in which a claim can be submitted, and 
information concerning the percentage of claims for which benefits are 
awarded, categorized by whether the claimant was represented by a 
Veterans Service Organization (VSO), a representative other than a VSO, 
or not represented via a durable power of attorney. The bill would 
require such information to be updated at least quarterly. Section 2(b) 
of the bill would require VA to provide each claimant with the same 
information. Section 2(b) would further require VA to notify each 
claimant that he or she may become eligible for up to one extra year of 
benefit payments by submitting a fully developed claim (FDC). The 
notice required by section 2(b) would have to be provided before the 
recipient submits a claim.
    VA understands and appreciates the importance of transparency and 
the need to keep Veterans, Congress, and other stakeholders informed. 
There are currently many ways for Veterans, VSOs, and others to get 
information and data about claims. For example, information is included 
in our annual budget request to Congress, the Annual Benefits Report, 
the annual Performance and Accountability Report, monthly ASPIRE 
updates, monthly Congressional Tracking Reports, the Monday Morning 
Workload Report, various Veterans Benefits Administration (VBA) Web 
sites (including www.eBenefits.va.gov), responses to calls at our 
National Call Centers, and other responses to specific requests from 
Members of Congress, stakeholders, and the media.
    VA does not support this bill, for several reasons. The bill would 
create a significant administrative burden that would effectively delay 
the processing of disability compensation claims. The requirement that 
VA provide certain information to each claimant potentially would 
require VA to revise a number of forms and would implicate the 
requirements of the Paperwork Reduction Act, requiring two periods of 
public notice prior to changing the form. VA currently provides notice 
on FDC forms stating that the FDC program is the fastest way to receive 
a decision on a claim. Soon, VA will be revising the notice to inform 
claimants of the potential entitlement to an extra year of benefit 
payments for original FDC claims.
    VA has concerns about the complexity of data that would be required 
based on the bill. Some of the metrics outlined in the bill are not 
currently available in VA systems. For example, VA generally does not 
routinely track grant rates for particular types of claims or whether 
claims are submitted in standard or non-standard paper form. Similarly, 
the term ``for which benefits are awarded,'' as used in section 2(c) of 
this bill, is ambiguous. Awards of service connection for a disability 
evaluated at zero percent do not result in payment. Disability 
compensation claims can involve a single disability contention or 
multiple contentions, and several claims from the same individual may 
simultaneously await resolution. It is unclear whether VA would be 
required to report awards per claimant, per claim, or per individual 
contentions within each claim.
    The complex data that would be provided under the bill could easily 
mislead or confuse claimants rather than help them understand what they 
should do to support their claims. Providing this type of information 
could be seen as directing claimants to file, or not file, certain 
types of claims or to elect a particular type of representative. 
However, the data provided may not be the best indicator of the most 
appropriate course of action for the particular claimant. Also, 
reporting the percentages of claims with a power of attorney naming a 
VSO may be misleading, as Veterans with authorized VSOs often file 
claims without the direct involvement of their designated VSOs. 
Furthermore, most powers of attorney used to authorize claim 
representatives are not ``durable.''
    VA also notes that H.R. 1148 does not specify which VA benefit(s) 
would be impacted by this bill. Although VA believes the bill is likely 
intended to apply to claims for service-connected disability 
compensation, the bill does not explicitly state this and would 
therefore apply to all benefits. Further, although the bill would 
require VA to notify each claimant of the availability of an extra year 
of benefit payments if a person files a FDC, section 506 of Public Law 
112-154, which authorizes a one-year retroactive payment for persons 
who file FDCs, applies only to original (i.e., initial) claims by 
Veterans for disability compensation. Providing notice of the 
retroactivity provision to persons claiming other benefits, or to 
Veterans attempting to reopen disability compensation claims or to 
claim increased compensation, may be confusing and misleading. In 
addition, the FDC retroactivity provision has a sunset date, while the 
bill would require in perpetuity notice of the availability of the 
benefits.
    VA estimates that there would be no benefit costs associated with 
enactment of S. 1148. VA estimates the general operating expenses (GOE) 
for section 2 of S. 1148 would be $5.5 million in the first year, $27.7 
million over five years, and $58.8 million over ten years. VA estimates 
the information technology (IT) costs for section 2 of S. 1148 would be 
$122,000 in the first year, $655,000 over five years, and $1.4 million 
over ten years.
       s. 1155--rural veterans mental health care improvement act
    Section 2 of S. 1155 would amend section 117(c) of title 38, United 
States Code, to add accounts providing funds for information 
technology, including subaccounts of the medical services, medical 
support and compliance, and medical facilities accounts, to the list of 
accounts in section 117 that receive advance appropriations.
    We appreciate how Congressional support for VA advance 
appropriations for our medical care accounts has enabled a multi-year 
approach to medical budget planning and ensured continued medical 
services for Veterans. The advance medical care appropriation was 
designed to ensure continuity of critical medical operations in the 
face of fiscal uncertainty.
    A proposal to expand VA advance appropriations to other accounts 
needs to take into consideration the advantages and disadvantages of 
such an approach not only for VA, but potentially other programs and 
agencies. We cannot therefore offer a position on section 2 of S. 1155 
at this time. We very much appreciate the concern for Veterans services 
reflected in the proposal, and look forward to working with the 
Committee on how to best maintain the provision of VA benefits and 
services in light of fiscal uncertainties.
    We are finalizing our views and costs on sections 3-5 of S. 1155. 
We will forward the views as soon as they are available.
 s. 1165--access to appropriate immunizations for veterans act of 2013
    S. 1165 would amend section 1701of title 38, U.S.C., to include 
certain adult immunizations as part of the preventive services detailed 
in subsection 9 of the statute. The bill would also amend section 1706 
of title 38, U.S.C., to require VA to develop quality measures and 
metrics to ensure that Veterans receiving medical services also receive 
the immunizations.
    VA strongly supports preventive care measures, including making a 
wide range of immunizations available at VA medical facilities. 
However, because we believe VA is already satisfying the purpose of 
this bill, we do not support this legislation.
    Under current policy, VA already provides preventive immunizations 
at no cost to the Veteran. In addition, VHA is represented as an ex-
officio member of the Advisory Committee on Immunization Practices 
(ACIP) and VA develops clinical preventive services guidance statements 
on immunizations in accordance with ACIP recommendations (VHA Handbook 
1120.05). All ACIP-recommended vaccines are available to Veterans at VA 
medical facilities. These vaccines currently include: hepatitis A, 
hepatitis B, human papillomavirus, influenza, measles/mumps/rubella, 
meningococcal, pneumococcal, tetanus/diphtheria/pertussis, tetanus/
diphtheria, varicella, and zoster. As the ACIP recommendations change, 
VHA policy reflects those changes.
    The delivery of preventive care including vaccinations has been 
well established in the VHA Performance Measurement system for more 
than 10 years with targets that are appropriate for the type of 
preventive service or vaccine. VA updates the performance measures to 
reflect changes in medical practice over time. Adding the additional 
legislative process of regulations to the development of targets would 
be burdensome and lengthy.
    Moreover, the legislative process does not allow for nimble changes 
as new research or medical findings surrounding a vaccine come to 
light. Because the clinical indications and population size for 
vaccines vary by vaccine, blanket performance monitoring of all 
vaccines can be cost prohibitive and may not have a substantial 
positive clinical impact.
 s. 1211--regarding the use of the phrases ``gi bill'' and ``post-9/11 
                               gi bill''
    S. 1211 would amend chapter 36 of title 38, United States Code, to 
add a new section 3697B, which would prohibit, except with the written 
permission of the Secretary, the use of the words and phrases ``GI 
Bill'' or ``Post-9/11 GI Bill'' in connection with any promotion, 
goods, services, or commercial activity in a manner that reasonably and 
falsely suggests that such use is approved, endorsed, or authorized by 
VA or any component thereof. A determination that the use of one or 
more words or phrases covered by section 3697B does not violate that 
section could not be based solely on the ground that such use includes 
a disclaimer of affiliation with VA or any VA component. S. 1211 would 
authorize the Attorney General of the United States to initiate a civil 
proceeding in a district court to enjoin an existing or potential 
violation of section 3697B. Further, S. 1211 would specify that the 
district court could, at any time before final determination, enter 
such restraining orders or prohibitions, or take such other action as 
is warranted, to prevent injury to the United States or to any person 
or class of persons for whose protection the action is brought.
    VA supports this bill. VA has already taken action to prevent the 
misuse and misrepresentation of the phrase ``GI Bill.'' The phrase ``GI 
Bill'' is a trademark owned by VA and registered with the U.S. Patent 
and Trademark Office as of October 16, 2012. If this bill were enacted, 
it would assist in further diminishing aggressive advertising toward 
Veterans, as addressed in Executive Order 13607: Establishing 
Principles of Excellence for Educational Institutions Serving 
Servicemembers, Veterans, Spouses and Other Family Members.
    VA estimates there would be no costs to VA associated with 
implementing this bill because, according to the bill text, the 
Attorney General's office would be responsible for enforcing the 
prohibition. If VA was notified of, or became aware of, prohibited use 
of the phrases ``GI Bill'' or ``Post-9/11 GI Bill,'' VA would refer the 
incident to the Department of Justice (DOJ).
     s. 1216--improving job opportunities for veterans act of 2013
    Section 2 of S. 1216, the ``Improving Job Opportunities for 
Veterans Act of 2013,'' would reduce, during the 4-year period 
beginning on the date that is one year after the date of enactment, the 
amount of wages paid the eligible Veteran or person in an OJT program 
not later than the last full month of that training period from 85 
percent to 75 percent of the wages paid for the job for which such 
individual is being trained
    Section 3 of the draft bill would require VA, beginning 1 year 
after the date of enactment, to enter into agreements with other 
Federal departments and agencies to operate their own OJT programs 
under section 3677 of title 38, United States Code, to train eligible 
Veterans or persons in skills necessary to obtain employment by those 
entities. Finally, section 4 of the draft bill would extend from 
November 30, 2016, until December 31, 2016, the requirement in 38 
U.S.C. Sec. 5503(d) to reduce pension payments for certain 
beneficiaries who receive services from a nursing facility under a 
Medicaid plan.
    VA does not object to the provision in section 2 that would 
temporarily reduce the wage requirement from 85 percent to 75 percent, 
subject to Congress identifying appropriate offsets for the increased 
benefit costs that would result from the increased participation in the 
OJT program. VA anticipates that this amendment may increase employer 
and Veteran participation in OJT programs, increasing the number of 
job-training programs for Veterans in the future. However, VA cannot 
determine how much OJT participation would increase until more data 
become available after the implementation of this program. VA supports 
the intent underlying section 3; however, we do not believe legislation 
is necessary because VA currently has the authority to approve Federal 
OJT and apprenticeship programs under section 3672(b) of title 38, 
United States Code. Furthermore, the bill is unclear as to: (1) the 
purpose of such agreements beyond VA approval (For instance, it could 
be to document exchange of funds, specify program content, or require 
or commit such departments/agencies to carry out such training); and 
(2) what entity would provide the training (VA or the other Federal 
department/agency).
    VA will provide views and a cost estimate for section 4 of the bill 
for the record at a later date.
            s. 1262--veterans conservation corps act of 2013
    Section 2(a) of S. 1262 would require the Secretary of Veterans 
Affairs, in cooperation with the Attorney General, the Secretary of 
Agriculture, the Secretary of Commerce, the Secretary of Homeland 
Security, the Secretary of the Interior, and the Chief of Engineers, to 
establish a Veterans conservation corps to assist Veterans in the 
transition from service in the Armed Forces to civilian life and to 
employ Veterans in conservation, resource management, and historic 
preservation projects on public lands and maintenance and improvement 
projects for cemeteries under the jurisdiction of the National Cemetery 
Administration; and as firefighters, law enforcement officers, and 
disaster relief personnel. This bill would establish a priority for 
Conservation Corps hiring for Veterans who served after September 11, 
2001.
    Section 2(b) of the bill would require as part of the Veterans 
conservation corps that the Secretaries of Veterans Affairs, 
Agriculture, Commerce, and the Interior and the Chief of Engineers 
employ Veterans; or award grants to, or enter into contracts with State 
governments, local governments, or nongovernmental entities, to employ 
Veterans to carry out the projects described in section 2(a) of the 
bill.
    Section 2(c)(1) of the bill would require as part of the Veterans 
conservation corps that the Secretary of Homeland Security award grants 
under section 34 of the Federal Fire Prevention and Control Act of 1974 
to hire Veterans as firefighters. Section 2(c)(2) of the bill would 
require the Attorney General to award grants under part Q of title I of 
the Omnibus Crime Control and Safe Streets Act of 1968 to hire Veterans 
as law enforcement officers. Section 2(c)(3) would require the 
Secretary of Homeland Security to provide funds to increase 
participation by Veterans in the Federal Emergency Management Corps 
program.
    Section 2(d) of the bill would authorize the Secretary of Veterans 
Affairs to provide assistance to the officials listed in section 2(a) 
of the bill to carry out the Veterans conversation corps. Such 
assistance could take the form of transfers from amounts appropriated 
or otherwise made available to the Secretary of Veterans Affairs to 
carry out the Veterans conservation corps. Section 2(d)(3) of the bill 
would require the Secretary of Veterans Affairs to establish a steering 
committee consisting of the Secretaries of Veterans Affairs, 
Agriculture, Commerce, and the Interior and the Chief of Engineers to 
establish selection criteria and provide advice in connection with 
award of assistance as authorized under section 2(d) the bill.
    Section 2(e) of the bill would require the Secretary of Veterans 
Affairs to establish a reporting framework to ensure proper oversight 
and accountability of the Veterans conservation corps. Section 2(f) of 
the bill would require the Secretary of Veterans Affairs to ensure that 
Veterans employed under the Veterans conservation corps are aware of 
benefits and assistance available to them under the laws administered 
by VA. Finally, Section 2(g) would authorize appropriations to the 
Secretary of Veterans Affairs to carry out the bill in the amount of 
$600,000,000 for the period of FY 2014 through FY 2018.
    S. 1262 includes similar concepts to the Administration's Veterans 
Job Corps proposal presented in its Fiscal Year 2014 budget. VA would 
welcome the opportunity to work with the Committee on this bill.
      s. 1281--veterans and servicemembers employment rights and 
                          housing act of 2013
    S. 1281, the ``Veterans and Servicemembers Employment Rights and 
Housing Act of 2013,'' would prohibit discrimination in employment and 
housing on the basis of military service. Section 2 of S. 1281, which 
would prohibit employment-related discrimination on the basis of 
military service, would affect programs or laws administered by the 
Equal Employment Opportunity Commission (EEOC) and Office of Personnel 
Management (OPM). In addition, section 2(g), which addresses employment 
practices related to national security, would affect matters under the 
jurisdiction of Department of Homeland Security (DHS). Section 3, which 
would prohibit residential housing-related discrimination on the basis 
of military service, would affect programs or laws administered by the 
Department of Housing and Urban Development (HUD). In addition, both 
sections 2 and 3 of the bill relate to matters of Department of Justice 
(DOJ) enforcement. Further, because S. 1281 addresses current as well 
as former members of the uniformed services, the bill would involve 
matters related to Department of Defense (DOD). Accordingly, we defer 
to those departments' views on this bill. We understand that DOJ 
appreciates the goals of the bill, but may suggest alternative 
approaches more consistent with current enforcement schemes.
  s. 1295--regarding notice to veterans filing electronic claims for 
    benefits of the availability of services from veteran services 
                             organizations
    S. 1295 would add to title 38, United States Code, a new section 
5103B, which would require, ``[t]o the degree practicable,'' VA to 
notify claimants, when they electronically file applications for VA 
benefits, that relevant services may be available from VSOs. S. 1295 
would also require VA to provide claimants a list of VSOs and 
applicable contact information.
    VA appreciates the intent of S. 1295, but does not support the bill 
because VA has been able to carry out its purpose under current law. VA 
already notifies claimants who file claims electronically that VSO 
representation is available. In addition, VA already provides claimants 
easy access to information about claim representation from VA-
accredited VSO representatives, claims agents, and attorneys. For 
example, the electronic benefits Web site (http://www.ebenefits.va.gov/
) provides a link to a directory of all VA-recognized VSOs with their 
contact information. This directory is searchable and allows a claimant 
to search for VA-accredited VSO representatives, claims agents, and 
attorneys by location. Although VA views the bill as unnecessary, VA 
supports the intent of the bill and will continue to ensure that notice 
of available representation is clearly indicated on its electronic 
application portal, eBenefits.
    VA estimates that there would be no benefit costs or GOE costs 
associated with enactment of this bill.
           s. 1361--world war ii merchant mariner service act
    S. 1361, the ``World War II Merchant Mariner Service Act,'' would 
direct the Secretary of DHS to accept certain types of evidence for 
verifying that an individual performed honorable service as a coastwise 
merchant seaman during the period beginning on December 7, 1941, and 
ending on December 31, 1946, for purposes of eligibility for certain 
Veterans' benefits. Although service as a merchant seaman does not 
generally constitute active duty service conferring eligibility for 
Veterans' benefits, the GI Bill Improvement Act of 1977 authorized DOD 
to designate the service of certain groups as active duty service 
sufficient to confer eligibility for Veterans' benefits. Pursuant to 
that authority, DOD has determined that the service of the ``American 
Merchant Marine in Oceangoing Service during the Period of Armed 
Conflict, December 7, 1941, to August 15, 1945,'' shall constitute 
active duty for purposes of eligibility for Veterans' benefits.
    DHS is responsible for verifying that an individual served in the 
American Merchant Marine in oceangoing service during the specified 
period. A finding in section 2 of S. 1361 identifies the types of 
documentation DHS currently accepts to establish such qualifying 
merchant-seaman service. Section 3 of S. 1361 would direct DHS to 
accept certain alternative types of evidence as sufficient to establish 
qualifying merchant-seaman service for purposes of certain Veterans' 
benefits and other purposes. In the absence of a Coast Guard shipping 
or discharge form, ship logbook, merchant mariner's document or Z-card, 
or other official employment record, the alternative sources of 
evidence would include Social Security Administration records together 
with validated testimony and other official documentation. Under 
section 3(c) of the bill, a finding of qualifying active duty service 
based on such alternative forms of evidence would establish eligibility 
for burial benefits under chapters 23 and 24 of title 38, United States 
Code, but would not establish eligibility for other Veterans' benefits. 
Section 3(c) would further provide that a person found to have 
qualifying service pursuant to this bill would be eligible for 
applicable medals, ribbons, and military decorations and would be 
``honored as a veteran,'' but would not be entitled to Veterans' 
benefits other than those specified in the bill.
    VA supports measures to ensure that individuals who have qualifying 
service can establish eligibility for the benefits they have earned. 
However, because DHS, rather than VA, is responsible for the service 
verifications to which this bill pertains, VA defers to the views of 
DHS regarding section 3 of this bill.
    VA's National Cemetery Administration (NCA) has not encountered 
significant difficulties in obtaining verification of qualifying 
oceangoing service in the merchant marine. NCA reviewed the number of 
cases in its Burial Operations Support System from September 25, 2012, 
through June 10, 2013, that listed Merchant Marine as the Branch of 
Service. NCA approved 168 requests for burial, while only three 
requests were denied because qualifying oceangoing service during World 
War II was not established.
    VA cannot determine whether this bill would lead to any increase in 
the provision of burial benefits to merchant mariners and their 
survivors. Therefore, VA cannot provide a cost estimate.
         s. 1399--amending the servicemembers civil relief act
    S. 1399 would extend the interest rate limitation on debts incurred 
before military service to debts incurred during military service to 
consolidate or refinance student loans incurred before military 
service. This bill would affect issues relating to current members of 
the uniformed services and consequently is of primary concern to DOD. 
The bill further relates to matters of the Department of Education, the 
Consumer Financial Protection Bureau and DOJ enforcement. Accordingly, 
we defer to those agencies' views on this bill.
      s. 1411--rural veterans health care improvement act of 2013
    S. 1411, Rural Veterans Health Care Improvement Act of 2013 (the 
``Act''), would direct the Department to apply specified consultation, 
information, and transmittal requirements when issuing VHA's planned 
update of the 2010-2014 Strategic Plan of the VHA Office of Rural 
Health (ORH). Specifically, the bill would require the ORH update or 
successor plan to be prepared in consultation with the Director of 
VHA's Office of Health Care Retention and Recruitment, the Director of 
Quality and Performance, and the Director of Care Coordination 
Services. It would also have to include the following information 
(relevant to the reporting period):

    <bullet> Goals and objectives for the recruitment and retention of 
health care personnel in rural areas;
    <bullet> Goals and objectives for ensuring timeliness and improving 
quality in the delivery of health care services in rural areas through 
contract and fee-basis providers;
    <bullet> Goals and objectives for the implementation, expansion, 
and enhanced use of telemedicine services in rural areas, including 
through coordination with other appropriate offices of the Department;
    <bullet> Goals and objectives for ensuring the full and effective 
use of mobile outpatient clinics for the provision of health care 
services in rural areas, including goals and objectives for the use of 
such clinics on a fully mobile basis and for encouraging health care 
providers who provide services through such clinics to do so in rural 
areas;
    <bullet> Procedures for soliciting from each VA facility that 
serves a rural area the following information: the clinical capacity of 
facility; the procedures of such facility in the event of a medical, 
surgical, or mental health emergency outside the scope of the clinical 
capacity of such facility; the procedures and mechanisms of such 
facility for the provision and coordination of health care for women 
veterans, including procedures and mechanisms for coordination with 
local hospitals and health care facilities, the oversight of primary 
care and fee-basis care, and the management of specialty care;
    <bullet> Goals and objectives for the modification of the funding 
allocation mechanisms of the ORH to ensure that the Office distributes 
funds to components of the Department to best achieve the goals and 
objectives of the Office and in a timely manner;
    <bullet> Goals and objectives for the coordination of, and sharing 
of resources with respect to, the provision of health care services to 
veterans in rural areas between the VA, DOD, the Indian Health Service 
of the Department of Health and Human Services (HHS), and other Federal 
agencies, as appropriate and prudent;
    <bullet> Specific milestones for the achievement of the goals and 
objectives developed for the update; and
    <bullet> Procedures for ensuring the effective implementation of 
the update.

    Finally, S. 1411 would require the Secretary to transmit the first 
update (or successor plan) to Congress not later than 90 days after its 
issuance, along with comments and recommendations deemed appropriate.
    VA believes the bill is duplicative of both past and continuing 
Departmental efforts and thus does not support S. 1411. Specifically, 
ORH produced a 5-year strategic plan for FY 2010-2014 to ensure that 
ORH programs and initiatives meet the health care needs of rural 
Veterans. That plan was refreshed in FY 2011 to better align ORH 
resources with identified health care needs, especially in light of new 
technologies and delivery systems for rural Veterans.
    Further, ORH is currently developing a new strategic plan for FY 
2015-2019 to better align our goals with those outlined in the FY 2013-
2018 VHA strategic plan to better serve the future health care needs of 
rural Veterans given the changing landscape of health care delivery and 
access and the stronger emphasis on prevention and community wellness. 
Goals of the FY 2015-2019 ORH strategic plan include strategic 
dissemination and integration within and outside VA of best practices 
in rural health care delivery to increase access and quality; 
strengthening of the rural health infrastructure through partnerships 
and collaborations with other Federal and community entities; enhancing 
rural provider capacity through increased student clinical training 
opportunities in rural areas and increased rural provider training 
opportunities; and enhancing rural telehealth capabilities. ORH will 
also continue to evaluate its on-going programs, including the pilot 
and demonstration projects that ORH currently funds across the VA 
health care system, in order to assess their effectiveness in 
delivering quality care to rural Veterans and improving those 
individuals' access to care.
    The FY 2015-2019 ORH strategic plan will be re-evaluated annually 
to determine if additional initiatives or actions are needed. During FY 
2019, ORH will draft a new strategic plan based on its evaluation of 
the success of past projects undertaken to date and updated assessments 
of the health care needs of Veterans residing in rural areas.
  s. 1434--to designate the junction city community-based outpatient 
   clinic as the lieutenant general richard j. seitz community-based 
                           outpatient clinic
    S. 1434 would designate the Junction City Community-Based 
Outpatient Clinic located at 715 Southwind Drive, Junction City, 
Kansas, as the ``Lieutenant General Richard J. Seitz Community-Based 
Outpatient Clinic.'' VA defers to Congress in the naming of this 
facility.
     s. 1471--alicia dawn koehl respect for national cemeteries act
    Section 2 of S. 1471, the ``Alicia Dawn Koehl Respect for National 
Cemeteries Act,'' would authorize the Secretary of Veterans Affairs and 
the Secretary of the Army to reconsider a decision to inter the remains 
or honor the memory of a person in a NCA national cemetery or in 
Arlington National Cemetery, respectively, when the appropriate Federal 
official receives information that the person may have committed a 
Federal capital crime or State capital crime but had not been convicted 
of such crime by reason of such person not being available for trial 
due to death or flight to avoid prosecution.
    If the appropriate Federal official finds, based on a showing of 
clear and convincing evidence and after an opportunity for a hearing in 
a manner prescribed by the appropriate Federal official, that the 
person committed a Federal capital crime or a State capital crime but 
was not convicted of such crime by reason of not being available for 
trial due to death or flight to avoid prosecution, section 2 would 
require the official to notify appropriate survivors and provide an 
opportunity to appeal the decision to disinter the remains or remove 
the memorial headstone or marker.
    Regarding VA, when a decision to disinter remains or remove a 
memorial headstone or marker becomes final by either failure to appeal 
the decision or by a decision of the Board of Veterans' Appeals (BVA or 
Board) upholding the decision, VA would have the authority to: (1) 
disinter the person's remains from a VA national cemetery and provide 
for reburial or other appropriate disposition of the disinterred 
remains in a place other than in a VA national cemetery or in Arlington 
National Cemetery; and (2) remove a Government-furnished memorial 
headstone or marker. The authority for reconsideration would apply to 
any interment or memorialization conducted by the Secretary of Veterans 
Affairs or the Secretary of the Army in a VA national cemetery or in 
Arlington National Cemetery after the date of enactment of the Act. VA 
supports section 2 of this legislation.
    Section 3 of the bill would require the Secretary of Veterans 
Affairs to disinter the remains of Michael LaShawn Anderson from Fort 
Custer National Cemetery. VA would be required to notify Mr. Anderson's 
next-of-kin of record of the impending disinterment of his remains and 
upon disinterment relinquish his remains to the next-of-kin of record 
or arrange for an appropriate disposition of the remains if the next-
of-kin of record is unavailable.
    Section 2 of S. 1471 would not authorize VA to reconsider a 
decision if an individual was convicted of a Federal or State capital 
crime or convicted of a Tier III sex-offense and VA had not received 
prior written notice of the conviction. VA would support closing this 
gap and will be glad to work with the Committee to provide technical 
assistance to effect broadening the scope of the legislation. Regarding 
the portions of section 2 which apply to the Department of the Army, we 
defer to that Department's views on this bill.
    VA has another technical concern regarding the bill language in 
proposed section 2411(d)(4)(B) that states, ``A notice of disagreement 
filed with the Secretary under subparagraph (A) shall be treated as a 
notice of disagreement filed with BVA under chapter 71 of this title, 
and shall be decided by the BVA in accordance with the provisions of 
that chapter.'' The language is problematic because notices of 
disagreement are not filed ``with the Board'' under chapter 71. Under 
section 7105(b)(1) of title 38, United States Code, notices of 
disagreement are filed ``with the activity that entered the 
determination with which disagreement is expressed.'' Thus, the 
language ``with the Board of Veterans' Appeals under chapter 71'' 
should be changed to ``under section 7105.''
    VA will provide a cost estimate for S. 1471 for the record at a 
later date.
      s. 1547--veterans dialysis pilot program review act of 2013
    If enacted, S. 1547 would prohibit VA from expanding VA's dialysis 
pilot program to facilities other than the four participating 
outpatient facilities until after VA has implemented the pilot program 
at each facility for at least 2 years, VA has provided for an 
independent analysis of the pilot program at each facility, and a 
report to Congress has been submitted. The report must address any 
recommendations from the Government Accountability Office (GAO) with 
respect to the pilot.
    This bill would have the effect of prohibiting VA from activating 
any additional free-standing dialysis centers until at least July 2015 
because one of the pilot facilities (in Cleveland, Ohio) was not 
activated until July 2013. VA supports using the results from the 
dialysis pilot to help inform future decisions on delivering care. VA 
would be glad to work with the Committee to ensure the Committee is 
briefed on the results of the pilot program before establishing any new 
free-standing dialysis clinics. VA is concerned that enactment of this 
bill in its current form would delay activating additional VA free-
standing dialysis centers that could adversely impact VA's efforts to 
optimize Veterans' dialysis care.
    An independent review of two of the pilot facilities (Raleigh and 
Fayetteville, North Carolina) has already been conducted by the 
University of Michigan Kidney Epidemiology and Cost Center, and VA has 
responded to, and concurred in, the five recommendations identified in 
the GAO report on the VA Dialysis Pilot issued in May 2012.
 s. 1558--a bill to require the secretary of veterans affairs to carry 
                 out a program of outreach for veterans
    S. 1558, the ``Veterans Outreach Enhancement Act of 2013,'' would 
require VA to establish a five-year program for the purpose of 
increasing Veterans' use of the range of Federal, State, and local 
programs that provide compensation or other benefits, as well as 
increasing Veterans' awareness of such programs and their eligibility. 
VA would have authority to enter into agreements with Federal and State 
agencies to further the purposes of the program. VA also would have 
authority to enter into agreements with certain named regional 
authorities and commissions to provide technical assistance, award 
grants, enter into contracts, or otherwise provide amounts to persons 
or entities for projects that accomplish specifically enumerated 
purposes. The bill also would require within 4 years a comprehensive 
report to Congress on VA's outreach activities.
    VA appreciates and shares the Committee's interest in expanding 
outreach activities through collaborative agreements and partnerships 
and is very supportive of the concept and purpose of this legislation. 
As detailed below, VA currently has a number of agreements and programs 
with similar aims as this bill.Unless Congress provides additional 
funds to support S. 1558, however, entering into the grants and 
contracts envisioned by the bill would require offsets from funding for 
existing programs. We therefore are concerned about the impact on the 
legislation on existing VA outreach programs.
    Section 2(d)(1) of S. 1558 would allow VA to ``enter into 
agreements with other Federal and State agencies to carry out projects 
under the jurisdiction of such agencies to further the purpose'' of the 
bill. VA is continually seeking to improve our collaboration and 
coordination with State, local, and tribal agencies to increase 
awareness and access to VA benefits and services. VA has existing 
agreements regarding outreach to Veterans with DOD, DOL, the National 
Association of State Directors of Veterans Affairs, and the National 
Association of County Veterans Service Officers, to name a few. We 
believe VA already has the authority to carry out the purpose of 
section 2(d)(1).
    Section 2(d)(2) of the bill would provide VA authority to ``enter 
into agreements with'' specifically enumerated ``applicable authorities 
and commissions'' in order ``to provide technical assistance, award 
grants, enter into contracts, or otherwise provide amounts to persons 
or entities for projects and activities that'' pursue specifically 
enumerated goals. VA certainly encourages expanded authority to further 
the goals of the bill. However, the language in section 2(d)(2) is 
ambiguous with regard to the nature and scope of the authority, and how 
such authority differs from the authority provided for under section 
2(d)(1), apart from the entities to which each section refers. We are 
concerned that the authorizing language may not be specific enough to 
provide sufficient guidance for the creation of a grant program.
    Moreover, section 2(d)(2)(D) is focused on education and outreach 
related to the Uniformed Services Employment and Reemployment Rights 
Act (USERRA), a law that falls under the jurisdiction of the Department 
of Labor (DOL). VA believes that any such education and outreach on 
USERRA should be coordinated through a Memorandum of Understanding with 
DOL.
    Section 2(d)(3) specifically enumerates the ``applicable 
authorities and commissions'' discussed in section 2(d)(2). VA believes 
the funding authority should also encompass local and tribal 
governments. Many local and tribal governments have established 
Veterans agencies with which VA currently partners to conduct outreach. 
The ability to provide direct assistance to those governments could be 
a more efficient use of funds in some situations.
    Section 2(e) would provide VA the authority to provide, or contract 
with public and private organizations to provide, information, advice, 
and technical assistance to nonprofit organizations. VA supports the 
authority provided in this subsection, but recommends expanding this 
authority to provide technical assistance to other entities as well. 
Circumstances vary by jurisdiction. We believe States may be in a 
better position in some instances to meet the goals of this section. 
Expanding the scope of this provision to encompass States would allow 
VA a wider range of options.
    With regard to the comprehensive report on the outreach activities 
of VA that would be required under section 2(f), VA is already required 
to provide a biennial report on all VA outreach activities under 
section 402 of Public Law 109-233. All outreach activities associated 
with this legislation would be included in the outreach reports to be 
provided to Congress under Public Law 109-233. VA believes this 
additional reporting requirement is unnecessary.
    VA has a strong interest in ensuring that Veterans know of the 
benefits they have earned--the role of outreach is critical throughout 
the myriad missions of VHA, VBA, and NCA. We would be glad to meet with 
the Committee to discuss ongoing outreach efforts and the ideas 
represented in this bill. VA will provide its cost estimate for this 
bill at a later time.
 s.------ (draft bill) veterans health care eligibility expansion and 
                        enhancement act of 2013
    The draft bill would expand eligibility for VA health care. While 
VA understands the intent behind expanding eligibility and enhancing 
services for Veterans. However, before providing definitive views, VA 
must carefully consider the implications of each provision of this 
bill, including the cost for such expansion and the impact upon 
existing eligible populations. VA received the text of this bill on 
October 11, 2013 and is continuing this analysis. VA will provide a 
more detailed response that will specifically address each provision--
including cost information--within a short time of this hearing.
    Section 2 of the bill would amend 38 U.S.C. 1710(a)(3) by replacing 
``may, to the extent resources and facilities are available,'' with 
``shall.'' We are evaluating the impact of this proposed change, 
particularly as it pertains to section 1705, which specifies how the 
Secretary is to manage the system of patient enrollment.''
    Section 3 of the bill would add a new subsection to 38 U.S.C. 1705 
which would require the Secretary to provide for the enrollment of 
certain veterans who are unable to enroll in the VA health care system 
as of the date of the enactment of the bill and who do not have access 
to health insurance except through a health exchange established 
pursuant to section 1311 of the Affordable Care Act. Section 3 would 
require VA to work with HHS and the Department of Treasury to access 
information regarding the ``access to healthcare'' via the exchanges.
    Section 3 of the bill presents many potential complications and 
uncertain effects on VA's enrollment system, as well as issues that 
will require detailed consultation with HHS and the Department of 
Treasury. We will address issues concerning section 3 in a more 
detailed response to the Committee.
    Section 4 of the bill would expand the combat eligibility provision 
in 38 U.S.C. 1710(e)(1)(D) for Veterans discharged after January 28, 
2003, from 5 years from the date of the Veteran's discharge to 10 
years. Section 4 would also extend eligibility for Veterans who were 
discharged before January 28, 2003 until January 27, 2018. VA supports 
the intent of section 4 of the bill but would be interested in further 
discussion on other options to expand access to Combat Veterans.
    Section 6 of the bill would require VA and the Secretary of Health 
and Human Services to carry out the ``Medicare VA reimbursement 
program'' wherein HHS would reimburse VA for certain health care 
furnished to Medicare-eligible Veterans. Section 7 of the bill would 
direct VA to make certain modifications for purposes of determining 
whether veterans qualify for treatment as low income families for 
enrollment under 38 U.S.C. 1705(a)(7). Section 8 of the bill would 
require VA to use the capitation-based resource allocation model in 
entering into contracts for the furnishing of health care services.
    From our preliminary review to date, VA has particular concerns 
with Sections 6, 7 and 8 of this bill, and needs additional time to 
fully study the impact on existing business infrastructure, billing 
systems, and net Federal costs. In regards to section 6, VA needs 
additional time to fully understand the impact of obtaining Medicare 
reimbursement, which will require consultation with HHS. VA expects 
there will be costs to set up the infrastructure for billing Medicare, 
as well as new benefit costs to the Medicare program. Section 7 is 
technically feasible, but requires further investigation to ensure it 
represents an equitable approach to expanding health care eligibility 
for low-income Veterans. Section 8 would be challenging because it 
would change the payment structure for non-VA medical care.
    Mr. Chairman, as noted above, we are working diligently to provide 
fuller analysis and notes on anticipated costs shortly after this 
hearing. As you know, we have had the opportunity to discuss the 
critical subject of access to health care for Veterans with you and 
Committee staff prior to receiving the text of this bill. We look 
forward to continuing those discussions.
s.------ (draft bill) regarding the service-disabled veterans insurance 
                                program
    The draft bill would update the Service-Disabled Veterans Insurance 
(S-DVI) program by amending section 1922(a) of title 38, United States 
Code, to base premium rates on the 2001 Commissioners Standard Ordinary 
(CSO) Mortality Table instead of the 1941 CSO Mortality Table currently 
used in that program.
    VA supports the intent of this draft bill to change the mortality 
basis of the S-DVI program, provided Congress finds corresponding 
funding offsets. The S-DVI program was intended to enable service-
disabled Veterans to purchase insurance coverage at ``standard'' 
premium rates. Currently, S-DVI premiums are based on an old mortality 
table, i.e., the 1941 CSO Mortality Table, with 2.25 percent interest. 
In 1951, when this program began, these premium rates were competitive 
with commercial insurance policy rates. However, because life 
expectancy has significantly lengthened over the past 50 years, a more 
recent mortality table would reflect lower mortality and, hence, lower 
premium rates.
    The draft bill would base S-DVI premiums on the 2001 CSO Mortality 
Table, which is the current mortality standard in the commercial 
insurance industry. This would result in significantly lower premium 
costs for service-connected disabled Veterans. As a result, VA could 
see a greater number of such Veterans applying for S-DVI coverage, 
thereby enhancing financial security for them and their families. 
Further, because this draft bill would also reduce premiums for current 
policyholders, it would allow both new and current policyholders who 
are paying premiums to use funds they currently expend on their S-DVI 
premiums for other purposes. Approximately 60 percent of current 
policyholders have their premiums waived because they have been 
determined to be ``totally disabled.'' A comparison conducted by VA of 
current premium rates with those that would be charged shows that 
premiums would be dramatically reduced for some individuals, and all 
policyholders would see their premiums significantly reduced.
    VA recommends that the bill be amended to also change the interest 
rate basis from 2.25 percent to 3 percent. Current economic indicators 
suggest that 3 percent more accurately reflects a realistic long-term 
interest rate for this program. Changing the basis to 3 percent would 
further lower the premium rates for S-DVI policyholders.
    VA will provide a cost estimate for the record at a later time.
                                 ______
                                 
 Additional Views Submitted by the U.S. Department of Veterans Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       s. 1155--rural veterans mental health care improvement act
    Section 3(a) would require VA, in carrying out the education and 
training program required under section 7302(a)(1) of title 38, U.S.C., 
to include education and training of marriage and family therapists and 
licensed professional mental health counselors. VA does not support 
section 3(a).
    VA cannot offer clinical education to Licensed Professional Mental 
Health Counselors (LPMHC) and Marriage and Family Therapist (MFT) 
trainees until the following VA requirements are met:

    1. Accreditation. The trainee's educational program must be 
accredited by a National Accrediting Body formally recognized by the 
U.S. Department of Education or the Council for Higher Education 
Accreditation.
    2. Affiliation Agreement. The VA facility must have a formal 
Affiliation Agreement with the Educational Institution or Training 
Program.
    3. Supervisory Staff. The VA training program must have sufficient 
qualified and experienced supervisory staff licensed or otherwise 
authorized to practice in VA in the same profession as the trainees.
    4. Ability to Hire Graduates. There must be national program office 
agreement that the trainees in the training program would gain 
credentials to be hired into VA according to current qualification 
standards for the discipline.
    5. Administrative Infrastructure. There must be sufficient 
administrative infrastructure, including staff support, space, and 
information technology equipment.
    6. Patient Population. There must be a sufficient and appropriate 
patient population to meet curricular goals for the training program.

    Within several years, it is likely that VA will include the 
education and training of LPMHCs and MFTs in the health professions 
trainee program conducted under the authority in section 7302, thereby 
satisfying the intent of section (a). However, VA is not currently 
positioned to address many of the requirements enumerated above. For 
example, VA does not yet have an affiliated training partner, adequate 
supervisory staff or administrative infrastructure to support such a 
program.
    Section 3(b) would require VA to apportion funding for the 
education and training program equally among the professions included 
in the program. The text in section 3(b) is of serious concern to VA, 
and thus we do not support the provision. The creation of a VA-paid 
stipend program for LPMHC and MFT master's degree students is a 
different process from local development of an affiliation agreement to 
offer clinical training to ``without compensation trainees.'' 
Individual medical centers do not have authority to offer stipends for 
clinical training. All stipends for clinical trainees are authorized at 
the national level and paid for by centralized funds. The decision to 
offer stipends to a particular discipline is made at the national level 
by program offices after consultation with national leadership 
governance bodies.
    Once stipends are authorized nationally, trainee positions are then 
competitively offered to VA facilities that wish to participate. The 
decision to authorize stipends for trainees is based on several 
criteria, including the following: (1) whether VA is having difficulty 
recruiting professionals in the discipline in question; (2) whether 
funding is available for these new trainee stipends or can the funding 
be redirected from other already established training programs; and (3) 
the standards in the health care community regarding stipends for 
trainees of the discipline. Veterans Health Administration (VHA) Office 
of Academic Affiliations works closely with VHA's Workforce Talent 
Management Office to track recruitment demand that might warrant a 
funded training program.
    VHA must retain funding flexibility across all health professions 
trainee programs. A bill requiring ``equal funding across professions'' 
would significantly diminish VHA's ability to implement changes to the 
health professions trainee programs based on emerging Veteran needs.
    Cost estimates cannot be provided for section 3. There is no cost 
for allowing Without Compensation (WOC) trainees to rotate through VA 
as long as the criteria for training programs are met (see above). 
However, in this instance, where the criteria for training LPMHCs and 
MFTs are not yet met, funding for training LPMHCs and MFTs would be 
considerably distant and therefore not easily determined at this time. 
VHA would need extensive experience with the WOC trainees before a 
request for authorization of stipends could be properly evaluated and 
approved.
    We believe that section 4 of S. 1155 contains a drafting error, and 
that it is intended to amend section 304 of Public Law (P.L.) 111-163, 
as amended by section 730 of Public Law 112-239, which added a new 
subsection (e) to section 304. If this understanding is correct, VA 
believes the net effect of amendments would be as follows. Peer 
outreach and peer support services would continue to be provided to the 
Veterans specified in section 304 pursuant to subsections 304(a)(1)(A) 
and (B). Under new subsection (e)(2), VA would be required to carry out 
the services in subsection (a)(2) of section 304 at or through VA 
medical centers.
    It is not clear whether adding subsection (e)(2) to section 304 is 
intended to clarify or change the provision of mental health services 
to the immediate family members of these Veterans. We note that the 
language, ``at or through Department medical centers'' would authorize 
VHA to provide those mental health services described in subsection 
(a)(2) at VA medical centers, community based outpatient clinics 
(CBOCs) or by use of contracts. We would welcome the opportunity to 
discuss this provision with the Committee.
    Because the impact of this section is unclear, we cannot provide a 
cost estimate at this time.
    Section 5 of S. 1155 would require the Secretary to submit a report 
to Congress not later than 120 days after the date of enactment of the 
Act that addresses the following:

    <bullet> Issues that may be impeding the provision of telemedicine 
services for Veterans, including the following:

         - Statutory or regulatory restrictions
         - Licensure or credentialing issues for any provider 
        practicing telemedicine with veterans who live in a different 
        State than the provider
         - Limited broadband access in rural areas
         - Limited information technology resources or capabilities
         - Long distances veterans must travel to access a facility or 
        clinic with telemedicine capabilities
         - Insufficient liability protection for providers
         - Reimbursement issues faced by providers
         - Travel limitations for providers that are unaffiliated with 
        VA and are participating or seeking to participate in a VA 
        telemedicine program

    <bullet> Actions taken to address the issues identified above
    <bullet> An update on efforts to carry out the initiative of 
teleconsultation for the provision of remote mental health and 
Traumatic Brain Injury assessments required by 38 U.S.C. 1709A
    <bullet> An update on efforts to offer training opportunities in 
telemedicine to medical residents, as required by section 108(b) of 
Public Law 112-154, codified at 38 U.S.C. 7406, note
    <bullet> An update on efforts, in partnership with primary care 
providers, to install video cameras and instruments to monitor weight, 
blood pressure, and other vital statistics in the homes of patients.

    Section 5 would also define ``telemedicine'' as the use by a health 
care provider of telecommunications to assist in the diagnosis or 
treatment of a patient's medical condition.
    VA has no objection to reporting on the content specified in 
sections 5(a)(1)(E) (the distances a Veteran must travel to access a 
telemedicine-equipped facility), 5(a)(3) (certain teleconsultation 
initiatives) and 5(a)(4) (residents telemedicine training) of this 
bill. The provisions are straightforward.
    VA does not support reporting on the content specified in section 
5(a)(1)(A) (statutory and regulatory restrictions) because it is 
unnecessary and duplicative of recent efforts. VA and Department of 
Defense (DOD) already collaborate and share information about the 
provision of telehealth services to Veterans and Servicemembers. VA 
does not support providing a report related to the content specified in 
sections 5(a)(1)(B) (licensure and credentialing and privileging 
issues), 5(a)(1)(F) (insufficient liability protection issues), 
5(a)(1)(G) (provider reimbursement issues) and 5(a)(1)(H) (travel 
limitations for providers). VA does not believe these issues impact or 
impede VA providers or VA's ability to provide telehealth services and 
so these are not areas we believe appropriate for a reporting 
requirement. VA would welcome discussion with the Committee if there 
are differing perceptions regarding those issues.
    VA seeks clarification on what is meant by ``limited'' broadband 
access in rural areas and ``limited'' information technology resources 
or capabilities in sections 5(a)(1)(C) and (D).
    VA does not anticipate that section 5 would result in any 
additional costs.
 s. 1165--access to appropriate immunizations for veterans act of 2013
    S. 1165 would amend section 1701 of title 38, U.S.C., to include 
certain adult immunizations as part of the preventive services detailed 
in subsection 9 of the statute. The bill would also amend section 1706 
of title 38, U.S.C., to require VA to develop quality measures and 
metrics to ensure that Veterans receiving medical services also receive 
the immunizations. As discussed in VA's October 30, 2013 testimony, VA 
strongly supports preventive care measures, but does not support this 
legislation because VA is already satisfying the intent of this bill.
    VA estimates the costs associated with enactment of developing and 
implementing quality measures in S. 1165 to be as follows: $639,188 in 
FY 2014; $3.24 million over 5 years; and $6.6 million over 10 years.
      s. 1411--rural veterans health care improvement act of 2013
    S. 1411, Rural Veterans Health Care Improvement Act of 2013 (the 
``Act''), would direct the Department to apply specified consultation, 
information, and transmittal requirements when issuing VHA's planned 
update of the FY 2010-2014 Strategic Plan of the VHA Office of Rural 
Health (ORH). For the reasons stated in VA's October 30, 2013 
testimony, VA does not support S. 1411.
    VA estimates the costs associated with enactment of S. 1411 to be 
as follows: $323,808 for FY 2013; $930,842 over a 5 year period; and 
$1,943,545 over a 10 year period.
     s. 1471--alicia dawn koehl respect for national cemeteries act
    Section 2 of S. 1471 would authorize the Secretary of Veterans 
Affairs and the Secretary of the Army to reconsider a decision to inter 
the remains or honor the memory of a person in a cemetery in the 
National Cemetery Administration or in Arlington National Cemetery, 
respectively, when the appropriate Federal official receives 
information that the person may have committed a Federal capital crime 
or State capital crime but had not been convicted of such crime by 
reason of such person not being available for trial due to death or 
flight to avoid prosecution.
    If the appropriate Federal official finds, based on a showing of 
clear and convincing evidence and after an opportunity for a hearing in 
a manner prescribed by the appropriate Federal official, that the 
person committed a Federal capital crime or a State capital crime but 
was not convicted of such crime by reason of not being available for 
trial due to death or flight to avoid prosecution, section 2 would 
require the official to notify appropriate survivors and provide an 
opportunity to appeal the decision to disinter the remains or remove 
the memorial headstone or marker.
    Section 3 of the bill would require the Secretary of Veterans 
Affairs to disinter the remains of Michael LaShawn Anderson from Fort 
Custer National Cemetery. VA would be required to notify Mr. Anderson's 
next-of-kin of record of the impending disinterment of his remains and 
upon disinterment relinquish his remains to the next-of-kin of record 
or arrange for an appropriate disposition of the remains if the next-
of-kin of record is unavailable. VA provided views for this bill at the 
October 30, 2013, hearing.
    VA estimates that there would be no significant costs or savings 
associated with enactment of section 2 of S. 1471 because situations 
where the authority provided by this bill would be needed would be 
uncommon and VA does not anticipate a significant increase in such 
cases.
           s. 1558--veterans outreach enhancement act of 2013
    S. 1558 would require VA to establish a 5 year program for the 
purpose of increasing Veterans' use of the range of Federal, State, and 
local programs that provide compensation or other benefits, as well as 
increasing Veterans' awareness of such programs and their eligibility. 
VA would have authority to enter into agreements with Federal and State 
agencies to further the purposes of the program. VA also would have 
authority to enter into agreements with certain named regional 
authorities and commissions to provide technical assistance, award 
grants, enter into contracts, or otherwise provide amounts to persons 
or entities for projects that accomplish specifically enumerated 
purposes. The bill also would require within four years a comprehensive 
report to Congress on VA's outreach activities.
    VA is unable to estimate the costs that would be associated with 
enactment of this bill at this time. S. 1558 would authorize $7 million 
for FY 2014 and $35 million for FY 2015 through FY 2019 to carry out 
the program that this bill would authorize. The actual costs would 
depend on the extent that VA utilizes the authorities established in 
the bill to carry out the required outreach program.
      s. 1559--benefits fairness for filipino veterans act of 2013
    S. 1559 would amend section 107(c) of title 38, U.S.C., to prohibit 
the Secretary of Veterans Affairs from determining that a World War II 
Filipino Veteran is not an individual residing in the United States for 
purposes of that subsection solely because the person is outside the 
United States for any period of time less than one year. Under this 
bill, certain Filipino Veterans would be considered residents of the 
United States when they are outside of the United States for any period 
of time less than one year and therefore would be eligible for full-
dollar rate of benefits under section 107(a) or (b).
    Section 107 authorizes certain Veterans benefits for World War II 
Filipino Veterans with qualifying service and their survivors. These 
benefits are paid at half of the full rate of payment, except for 
individuals ``residing in the United States'' who are also either a 
U.S. citizen or an alien lawfully admitted for permanent residence in 
the United States. Section 1734 of title 38, U.S.C., requires the same 
residency and citizenship or alien status for otherwise eligible World 
War II Filipino Veterans to be eligible for hospital and nursing home 
care and medical services in the United States.
    VA does not support S. 1559 because VA has already promulgated 
regulations that utilize objective and reasonable criteria for 
determining whether an individual meets the requirement of ``residing 
in the United States'' for purposes of receiving benefits at the full-
dollar rate for World War II Filipino Veterans and their survivors. 
Under existing VA regulations at 38 CFR 3.42(d)(1), ``to continue 
receiving benefits at the full-dollar rate * * *, a veteran or a 
veteran's survivor must be physically present in the [United States] 
for at least 183 days of each calendar year in which he or she receives 
payments at the full-dollar rate, and may not be absent from the 
[United States] for more than 60 consecutive days at a time unless good 
cause is shown.''
    When VA promulgated these regulations, VA explained that ``Congress 
did not intend to create a windfall for Filipino Veterans who do not 
actually face the higher cost of living in the [United States]'' and 
that, ``[i]n order to avoid that potential result, Congress required 
that Filipino Veterans be residing in the [United States] and either be 
citizens of the [United States] or aliens lawfully admitted for 
permanent residence in the [United States].'' Filipino Veterans' 
Benefits Improvements, 66 Fed. Reg. 66,763 (Dec. 27, 2001). VA reasoned 
that ''[i]f a veteran is absent from the [United States] for longer 
than these periods, it is reasonable to conclude that he or she is not 
residing in the [United States] * * *. This rule will also allow 
veterans reasonable periods to travel outside of the [United States] 
for business or personal reasons without having their benefits 
reduced.'' Id. VA reasonably tailored its regulations to ensure that 
full-dollar-rate benefits are paid to those Filipino Veterans who 
maintain U.S. residency and face the higher costs of living in the 
United States. Further, the regulations allow resumption of payments at 
the full-dollar rate upon restored eligibility. This approach provides 
flexibility for beneficiaries and is consistent with the adjustments 
made to compensation awards based on other changes in beneficiary 
status. Because S. 1559 would likely result in payment of full-dollar-
rate benefits to persons who do not reside in the United States, VA 
does not support this bill.
                  s. 1573--military family relief act
    Section 2(a) and (b) of S. 1573 would amend sections 1318 and 1541 
of title 38, U.S.C., to establish in VA's dependency and indemnity 
compensation (DIC) and pension programs a temporary 6 month benefit, 
which VA would pay to an individual determined by the Secretary based 
on evidence in a qualified deceased Veteran's file on the date of his 
or her death to be the deceased Veteran's surviving spouse, without 
that individual having to submit a claim for such benefits. For the 
temporary DIC award, the Veteran would have to have been, at the time 
of death, in receipt of or entitled to receive (or but for the receipt 
of retired or retirement pay entitled to receive) compensation for a 
service-connected disability continuously rated totally disabling for 
not less than one year immediately preceding death. For the temporary 
pension award, the Veteran would have to have been, at the time of 
death, in receipt of pension under section 1513 or 1521 of title 38, 
U.S.C., as a married Veteran based on the Veteran's marriage to the 
individual. Section 2(c) would make a conforming amendment to section 
5101(a)(1) of title 38, U.S.C., to reference possible exceptions, as 
may be provided in title 38, U.S.C., to the present requirement for a 
``specific claim in the form prescribed by the Secretary'' as a 
prerequisite to benefit entitlement.
    VA supports S. 1573, provided Congress finds corresponding funding 
offsets. By authorizing VA to pay for 6 months following the Veteran's 
death DIC or pension to the Veteran's surviving spouse based on the 
Veteran's pre-existing disability ratings and dependent information in 
VA systems on the date of the Veteran's death, and by expressly 
eliminating the claim requirement, the bill would enable VA to automate 
payments and quickly pay the surviving spouse during a difficult period 
of transition and while VA is processing any other benefit claims that 
the surviving spouse may have filed. These temporary awards would be 
for transitional purposes only. Surviving spouses would still have to 
apply for DIC or survivors' pension to continue benefit payments beyond 
the six-month period prescribed in the bill.
    VA estimates the benefit costs of enactment of S. 1573 would be 
$58.2 million in FY 2015, $332.6 million over 5 years, and $759.8 
million over 10 years. VA estimates no additional general operating 
expenses associated with enactment of this bill because the bill would 
permit automated payments based on data within VA systems. Therefore, 
no additional claim development resources would be required.
 s. 1576--to redesignate the department of veterans affairs healthcare 
 system located at 10000 bay pines boulevard as the ``c.w. bill young 
            department of veterans affairs medical center''
    S. 1576 would re-designate the Department of Veterans Affairs 
Healthcare System located at 10000 Bay Pines Boulevard as the ``C.W. 
Bill Young Department of Veterans Affairs Medical Center.'' VA defers 
to Congress on the naming of this facility.
                s. 1578--medical foster home act of 2013
    S. 1578 would authorize VA, in conducting the medical foster home 
program pursuant to 38 CFR 17.73, to cover the costs of care of 
Veterans in a VA-approved Medical Foster Home. Section 17.73 defines 
``medical foster home'' to mean a private home in which a medical 
foster home caregiver provides care to a Veteran resident, the 
caregiver lives in the home and owns or rents the home, and there are 
not more than three residents receiving care. These homes must meet VA 
standards set forth in 38 CFR 17.74. To be eligible for the program, 
the Veteran must be unable to live independently safely or be in need 
of nursing home level care and agree to receive care in certain VA 
programs designed to assist medically complex Veterans living at home. 
VA supports enactment of this bill, particularly given the cost savings 
as compared to paying for nursing home care.
    If this bill is enacted, VA estimates cost savings will result as 
follows: $57.62 million in FY 2014; $415.89 million over 5 years; and 
$1.39 billion over 10 years. These costs are consistent with those 
estimated in the FY 2014 President's Budget.
         s. 1579--scra enhancement and improvement act of 2013
    S. 1579 would amend the Servicemembers Civil Relief Act (50 U.S.C. 
App. 501, et seq.) to expand protections for servicemembers and their 
families under that act with respect to installment contracts, 
mortgages, professional licenses, taxes, and credit and seek to improve 
provisions relating to enforcement. This bill has little effect on VA 
programs. This bill would largely affect issues relating to current 
members of the uniformed services and consequently is primarily of 
concern to DOD, Homeland Security, Health and Human Services, and 
Commerce. The bill would further relate to matters of Department of 
Justice enforcement. Accordingly, we defer to those departments' views 
on this bill.
s. 1581--survivors of military sexual assault and domestic abuse act of 
                                  2013
    Section 2 of the bill would expand VA's authorization to provide 
counseling and care needed to recover from experiences of military 
sexual trauma (MST) to include active duty Servicemembers as well as 
Veterans. Section 2 would also specify that eligible members of the 
Armed Forces would not be required to obtain a referral to access these 
services. VA has significant expertise in treating MST-related health 
conditions and believes that expanding authorization to include 
Servicemembers would benefit this population. VA supports the goals of 
this provision but has concerns about the costs and additional staffing 
that could be required if the bill is enacted. We also recommend the 
Committee solicit input from the DOD.
    We note that VA and the draft bill define MST to include sexual 
assault and sexual harassment experienced during military service. 
Thus, VA believes the bill may be more appropriately named the 
``Survivors of Military Sexual Trauma and Domestic Abuse Act of 2013.''
    VA currently provides MST-related care free of charge to eligible 
Veterans. Under current law, VA may provide care (including MST-related 
care) to Servicemembers, but VA must recover the cost of that care. The 
bill would require VA to develop a national infrastructure for tracking 
MST-related care provided to Servicemembers, and VA and DOD would need 
to collaborate to develop monitoring and other processes related to 
eligibility, billing and care coordination. The bill would also greatly 
expand the work of VA's MST Coordinators. VA is still analyzing this 
provision and will provide costs upon completion of this work. VA 
assumes section 2 would require VA to recover the cost of providing 
MST-related care to Servicemembers from DOD.
    Section 3 of the draft bill would require, not later than 540 days 
after the date of the bill's enactment, that the Secretary of Veterans 
Affairs develop and implement a screening mechanism by which to detect 
if a veteran seeking VA health care services has been a victim of 
domestic abuse. It would require such information to be used to improve 
the treatment of the veteran and to assess the prevalence of domestic 
abuse in the veteran-population. The draft bill would set forth a broad 
definition of ``domestic abuse'' for purposes of this section. 
Specifically, that term would mean:

    (1) Behavior with respect to an individual that constitutes a 
pattern of behavior resulting in physical or emotional abuse, economic 
control, or interference with the personal liberties of that 
individual; or a violation of Federal or State law involving the use, 
attempted use, or threatened use of force or violence against that 
individual; or a violation of a lawful order issued for the protection 
of that individual; and
    (2) Is committed by a person who is a current or former spouse or 
domestic partner of that individual; shares a child in common with that 
individual; is a current or former intimate partner of that individual 
that shares or has shared a common domicile with that individual; is a 
caregiver of that individual as defined by 38 U.S.C. 1720G(d); or is in 
any other type of relationship with that individual that the Secretary 
may specify for purposes of this section.

    VA supports section 3 of the bill. The Center for Disease Control 
defines intimate partner violence (IPV) as actual or threatened 
physical, sexual, or psychological harm or stalking behavior by an 
intimate partner that may vary in frequency and severity (Saltzman, 
Fanslow, McMahon, & Shelley, 1999). Research indicates higher rates of 
these incidents for women Veterans, and that these are likely 
underestimated because of underreporting. Research has also shown the 
relationship between IPV and poor medical and mental health outcomes. 
Most major medical organizations, including the Institutes of Medicine, 
recommend routine screening for IPV.
    VA is uniquely poised to implement universal screening and 
coordinate provision of appropriate referrals and intervention for IPV 
among women Veterans, given its strong track record of universal 
screening and integrated primary and mental health follow-up care for 
depression, Post Traumatic Stress Disorder, and MST. VA supports 
establishing MST screening for all Veterans, but we note that research 
is lacking on the best strategies for screening for male patients. 
Therefore VA's screening efforts would focus initially on intimate 
partner violence for women Veterans, while strategies for MST screening 
for male Veterans are being further studied.
    Section 4 would require VA to submit a report to Congress on the 
treatment and services available for male veterans who experience MST 
(as defined by 38 U.S.C. 1720D) as compared to that available for 
female Veterans. This report would be due not later than one year after 
the date of enactment of this Act. That report would also have to 
include a detailed report on domestic abuse among veterans that address 
all of the specified reporting elements set forth in that section. 
Section 4 would also establish a detailed reporting requirement for the 
VA/DOD Joint Executive Committee (JEC) (commencing not later than one 
year after the date of the Act's enactment and annually thereafter for 
5 years) that identifies the processes and procedures used to 
facilitate the transition of individuals receiving treatment for MST 
and domestic abuse from DOD's health care system to VA's. The JEC 
report would also have to describe and assess the collaboration between 
VA and DOD in assisting Veterans file disability claims related to MST 
or domestic abuse including permitting Veterans access to information 
and evidence necessary to develop or support such claims.
    With respect to section 4(a) of the bill (requiring a report on the 
treatment and services available for male veterans who experience MST), 
VA supports this requirement but believes it would require a 
comprehensive data collection effort to ensure an adequate assessment 
is accomplished. VA is working to develop this cost estimate and will 
provide to the Committee as soon as it is available.
    Regarding section 4(c)(2), VA does not object to providing future 
reports with a ``description and assessment'' of the ongoing 
collaboration between VA and DOD ``in assisting veterans in filing 
claims for disabilities related to military sexual trauma or domestic 
abuse, including permitting veterans access to information and evidence 
necessary to develop or support such claims.'' However, although VA 
does not object to providing such reports, it is unclear why such a 
reporting requirement is necessary. Collaboration between VA and DOD 
already exists as a significant element in the adjudication process of 
MST claims and is not likely to change considerably in the future. 
Furthermore, VA is already required under 38 U.S.C. 5103 to inform 
claimants about what information or evidence, whether military or non-
military, is needed to substantiate their claims. In addition, VA has a 
statutory obligation under 38 U.S.C. 5103A to ``make reasonable efforts 
to assist a claimant in obtaining evidence necessary to substantiate 
the claimant's claim for a benefit under a law administered by the 
Secretary.'' Veterans have access to their own VA disability claim 
files, and the Freedom of Information Act and Privacy Act provide 
additional avenues to procure information and evidence maintained by 
Government entities.
    VA estimates that costs associated with section 4(c)(2) would not 
be significant because VA does not anticipate changes to established 
procedures. However, preparing the reports would entail a cost and 
would divert resources from addressing the disability claims backlog.
        s. 1583--mental health support for veteran families and 
                         caregivers act of 2013
    S. 1583 would require the Secretary, not later than 270 days after 
enactment, to establish an education program and a peer support program 
for the education and training of family members and caregivers of 
enrolled Veterans with mental health disorders. Under the education 
program and the peer support program, the Secretary would provide a 
course of education peer support, respectively, to family members and 
caregivers of eligible Veterans on matters relating to coping with 
mental health disorders in Veterans.
    The education program would be carried out for four years and could 
be extended by the Secretary for an additional four-year period. The 
program would initially be carried out in not less than 10 VA medical 
centers, not less than 10 VA clinics, and not less than 10 Vet Centers, 
with consideration given to selecting locations in rural areas, areas 
not in close proximity to an active duty installation, and areas in 
different geographic locations. Not later than 2 years after 
commencement, the Secretary would be required to expand the number of 
facilities at which the program is carried out to additional VA medical 
centers, VA clinics, and Vet Centers. In carrying out the program, the 
Secretary would be required to enter into contracts with qualified non-
profit entities to offer the course of education. Such entities would 
have experience in mental health education and outreach, including work 
with children, teens, and young adults, and would meet other specified 
criteria. Priority would be given to qualified entities that use 
Internet technology for the delivery of course content in an effort to 
expand availability of support services, especially in rural areas. The 
course of education would consist of not less than 10 weeks of 
education and include specified elements. Instructors would be required 
to maintain a level of proficiency as determined by the Secretary and 
submit proof of such proficiency as the Secretary determines 
appropriate. VA mental health care providers would be selected by the 
Secretary to monitor, in consultation with primary care providers, the 
progress of the instruction by meeting quarterly with instructors. Each 
VA mental health care provider selected would be required to submit a 
progress report to the Secretary not less frequently than semiannually.
    The Secretary would provide peer support under the peer support 
program at each location where education is provided under the 
education program. Peer support would consist of meetings in group 
settings between a peer support coordinator and family members and 
caregivers; the meetings would be conducted not less than twice each 
calendar quarter. Peer support coordinators would be selected among 
individuals who successfully completed the course of education, and 
would maintain a level of proficiency as determined by the Secretary 
and submit proof of such proficiency as the Secretary determines 
appropriate. A VA mental health provider would be selected by the 
Secretary to serve as a mentor to each peer support coordinator. VA 
mental health providers selected to monitor instruction under the 
education program would monitor the progress of the peer support 
program by meeting quarterly with peer support coordinators, and would 
be required to submit a progress report to the Secretary not less 
frequently than semiannually.
    The Secretary would be required to conduct a comprehensive and 
statistically significant survey of the satisfaction of individuals 
that have participated in the course of education and individuals that 
have participated in the peer support program. Not later than one year 
after commencement of the education program and by September 30 each 
year thereafter until 2017, the Secretary would be required to submit a 
report on the education program and peer support program to the 
Committees on Veterans' Affairs of the Senate and the House of 
Representatives. Each annual report would include specified elements, 
including information compiled as a result of the surveys. Not later 
than one year after completion of the education program, the Secretary 
would be required to submit to the Committees on Veterans' Affairs of 
the Senate and the House of Representatives a report on the feasibility 
and advisability of continuing the education program and the peer 
support program, including specified elements.
    VA applauds the Committee's attention to the important topic of 
support for family members and caregivers of Veterans. However, because 
we believe VA's programs now fulfill the goals of the bill, we do not 
support S. 1583. VA is already engaged in multiple programs to educate 
and support family members and caregivers of Veterans from all eras 
with a mental health disorder. For example, VA's Family-to-Family 
Education Program (FFEP) was established in partnership with a non-
profit entity, the National Alliance on Mental Illness (NAMI), to 
provide an education program and peer support program for the education 
and training of eligible family members and caregivers of Veterans with 
a mental health disorder. The FFEP consists of a 12-week program and 
includes general education on different mental health disorders, 
techniques for handling crisis situations, techniques for coping with 
individuals suffering from mental health disorders, and information on 
resources. NAMI FFEP teachers are peer-instructors who have personal 
experience in successfully coping with family problems and who complete 
3.5 days of training. During the period of December 2010--2013, the 
education program was implemented in 84 VA facilities, including CBOC 
and rural sites. FFEP is a remarkably successful peer program and is 
built around the values of inclusion and empowerment for everyone 
concerned. Research on FFEP outcomes has shown an increase in 
empowerment, knowledge about mental illness and problem solving skills, 
and a decrease in general anxiety.
    Other collaborations include VA's partnership with the National 
Council on Aging, through which VA provides Building Better Caregivers/
TM/--a web-based online training and support workshop for eligible 
family caregivers of Veterans of all eras. To date, more than 1,500 
family caregivers of Veterans have been referred to the 6-week program. 
This training provides specific content for family caregivers of 
Veterans and is facilitated by family caregivers.
    Other VA programs also facilitate education and support of eligible 
family members and caregivers of Veterans with a mental health 
disorder, including under the Continuum of Mental Health Services 
(MHS), VA's Caregiver Support Program, and the Readjustment Counseling 
Service.
    VA's MHS offers eligible family members and caregivers Veteran-
Centered Brief Family Consultation, Family Psychoeducation (Behavioral 
Family Therapy and Multiple Family Group Therapy), and several 
different models of Marriage and Family Counseling. MHS has also 
nationally disseminated two clinician-led family education models for 
individuals with mental health conditions--Support and Family Education 
(SAFE), which is an 18-session program, and Operation Enduring 
Families, which is a 5 session program that is focused on family 
members of Veterans of Operation Enduring Freedom, Operation Iraqi 
Freedom, and Operation New Dawn.
    Through VA's Caregiver Peer Support Mentoring Program, 
approximately 150 eligible family caregivers of Veterans are engaged in 
peer support activities. Many of the family caregivers who serve as 
Caregiver Peer Support Mentors are family caregivers of Veterans with a 
mental health disorder. Also, in June 2012, VA's Caregiver Support 
Program provided a training utilizing VA's satellite broadcast network 
for family caregivers of Veterans with Post Traumatic Stress Disorder 
(PTSD). The training was led by a subject matter expert from VA's 
National Center of Excellence on PTSD and included specific training on 
supporting Veterans with PTSD, as well as coping techniques and skills 
for family caregivers. The format included a training session followed 
by 40 minutes for a question and answer session. The course was viewed 
live by more than 590 family caregivers at approximately 100 VA sites. 
Given its success, the Caregiver Support Program has provided 
additional training for family caregivers using this method including a 
broadcast on Traumatic Brain Injury and a broadcast on Pain Management. 
The broadcasts are videotaped in order for them to be provided to 
family caregivers who were unable to attend the broadcasts.
    Additionally, Vet Centers provide readjustment counseling to family 
members of eligible Veterans when found to aid in the readjustment of 
the Veteran and can include individual, family, and group counseling, 
as well as psycho-education to help families understand the war-related 
readjustment issues, such as PTSD, that their Veterans face. As of part 
of the group counseling available to families, many Vet Centers make 
available family support groups. Vet Centers are known for their high 
percentage of employees who have served in the military which aid in 
ability to create a peer to peer or Veteran to Veteran relationship; 
the program also employees many family members of Veterans who bring 
those experiences to the clinical work that they provide. Veterans and 
their families who present to Vet Centers with serious mental illness 
are referred to VHA Medical Facilities for appropriate care.
    Finally, we note that section 2(a)(2)(A) of the bill would define 
``family member'' and ``caregiver'' as those terms are defined in 38 
U.S.C. 1720G(d). However, the definitions of those terms in section 
1720G(d) apply with respect to an eligible Veteran under section 
1720G(a), (and in the definition of ``caregiver'' also with respect to 
a covered Veteran under section 1720G(b)). We believe this creates some 
ambiguity as to which family members and caregivers would be eligible 
under the bill. We therefore recommend that either section 2(a)(2)(A) 
of the bill be clarified to indicate that the education and peer 
support under the bill would be limited to family members and 
caregivers participating in the programs under 38 U.S.C. 1720G, or the 
bill be revised accordingly if it is intended apply to a broader 
population of family members and caregivers.
    VA is still examining the potential costs of this draft bill.
         s. 1586--enhanced dental care for veterans act of 2013
    Section 2 would authorize VA to provide additional benefits to 
Veterans who are eligible to receive dental services, treatment, and 
related appliances under section 1710(c), U.S.C., when they are needed 
to restore functioning in a Veteran that is lost as a result of any 
dental services or treatment provided under that section. VA supports 
section 2 in the interest of fairness to the Veteran. This is a 
responsibility that VA should bear, not the Veteran.
    Section 3 of the bill would establish a 3-year pilot program at not 
fewer than 16 sites to assess the feasibility and advisability of 
furnishing the same dental care benefits now available to veterans with 
service-connected disabilities rated 100 percent disabling to enrollees 
who are not otherwise eligible for such services and treatment under 
current authorities. The pilot sites would need to include four VA 
medical centers with established dental clinics, four VA medical 
centers with current contracts for such dental care and services, four 
CBOCs with space available for such purposes, and four facilities 
selected from among federally Qualified Health Centers and Indian 
Health Service (IHS) Facilities with established dental clinics (of 
these, at least one must be an IHS facility selected in consultation 
with the Secretary of Health and Human Services). In selecting sites, 
the Secretary would be required to consider the feasibility and 
advisability of selecting locations in each of the following areas: 
rural areas, areas not in close proximity to an active duty military 
installation, and areas representing different geographic locations. 
Participation in the pilot program would be voluntary and at a 
Veteran's election.
    The terms of section 3 would also limit the amount of expenditures 
the Secretary could make for a Veteran-participant in any one-year 
period to the amount the Secretary determines appropriate (as 
determined in consultation with the Director of IHS and the Director of 
the Centers for Medicare and Medicaid Services if one or more FQHCs are 
selected as sites). The Secretary, however, could not set that amount 
below $1000.
    Section 3 would also permit VA to collect copayments for dental 
care provided to Veterans under the pilot program in accordance with 
current title 38 copayment authorities for VA medical care; require the 
Secretary to inform all eligible veterans of the services and treatment 
available under the pilot program; and authorize the Secretary to enter 
into contracts with appropriate entities for the provision of dental 
services and treatment under the pilot program.
    VA cannot support 3. Even as a 3-year pilot program, it would 
represent a major expansion of services that VA could not realistically 
accommodate, in terms of necessary staff, capital capacity or budgetary 
resources. Current demands on our dental program already match, if not 
exceed, our current capabilities and resources. Were an entirely new 
group of Veterans eligible to enter the dental system, it is doubtful 
we could meet their dental needs (whether done through contracting or 
in-house). By diverting program resources to the pilot program, we 
would also need to decrease dental benefits available to other eligible 
populations, thus creating a barrier to their access to care. Of 
course, these concerns become even more acute should the pilot expand 
to become a national program without such geographic limitations.
    Furthermore, should financial resources or additional 
appropriations be provided for this pilot program, the cost and time 
needed to expand the dental program would push back the start of the 
pilot program far beyond what seems contemplated by the bill. 
Operationalizing the pilot would require significant additional 
resources not only in terms of personnel but also in terms of needed 
infrastructure and durable capital costs--none of which is included in 
the bill. Relying instead on the private sector to provide this 
additional care would increase per patient costs, perhaps even greater 
than is currently experienced. If enacted, VHA would have no choice but 
to relinquish some care planning oversight to the private sector to 
carry out this pilot program.
    Without additional resources and funding, VA's ability to provide 
dental services to this new cohort of Veterans would be seriously 
compromised and require a shifting of available resources to the 
detriment of others. Based on our experience, extending eligibility to 
this new group of Veterans would predictably result in ``front 
loading'' demand, much as we are now experiencing with Veterans who are 
newly eligible for dental care due to increases in their service-
connected ratings. In short, the pilot sites would be quickly 
overwhelmed by this new cohort's dental needs and their needs would 
largely go unmet. The dental benefits intended to be delivered under 
the pilot program would simply not be available.
    In addition, the pilot program that would be established in section 
3 raises equity concerns. Only enrollees fortunate to be served by a 
selected pilot site would be eligible for the dental benefits described 
in the bill, while equally deserving enrollees outside of those 
catchment areas/sites would still lack eligibility for needed dental 
care. While pilots by their nature are selective, we believe the desire 
for these services may be so acute that it will create stronger than 
usual immediate inequities, as well as expectations regarding future 
availability of these benefits across the country that will be 
difficult to fulfill.
    Fortunately, another option exists by which the dental needs of 
these Veterans could be addressed. The Dental Insurance Pilot Program 
(DIPP) currently allows enrolled Veterans to buy dental insurance for 
use in receiving care in the private sector. This pilot is starting 
November 15, 2013, and enrollees who are not currently eligible for VA 
dental benefits could take advantage of this opportunity.
    Section 4 would require VA to conduct an educational program 
promoting dental health for enrollees. The program would include 
specified information disseminated through mechanisms described in the 
bill. VA supports section 4 of the bill as a favorable means by which 
to promote dental health. In fact, VA has already initiated some of 
these efforts and would welcome the opportunity to do more in this 
area.
    Section 5 would require VA not later than 180 days after the date 
of the Act's enactment to expand the current DIPP to include a 
mechanism by which private sector dental care providers may forward to 
VA (for inclusion in the patient's VA electronic medical record) 
information on the services they provide, when the Veteran has elected 
to participate in the use of this mechanism. Section 5 also authorizes 
VA to extend the pilot program by 2 years if needed to assess this 
mechanism.
    Although VA would welcome an extension of the DIPP for reasons 
unrelated to the bill, we do not believe the requirement for DIPP 
contracts to include a mechanism by which to allow submission of 
information to VA (for inclusion in the Veteran's individual electronic 
medical record) is needed. Veterans can already submit private medical 
records, including dental ones, into their personal electronic medical 
record.
    Such a requirement would impose administrative disruptions and 
could have unintended consequences on dental care. Namely, it would 
alter contracts now in place, potentially requiring them to be re-
competed. In addition, it could result in the direct costs associated 
with use of such a mechanism being passed on to Veterans, as the dental 
insurance carriers would likely recoup theirs and providers' costs 
through billing of increased premiums. This type of requirement could 
also limit the providers who are willing to accept VA dental plans, 
thereby hampering or minimizing Veterans' access to private dental 
care, thus defeating the purpose of the DIPP.
    If enacted, this bill, particularly the provisions of section 3, 
would have very significant budgetary impact. We will provide our cost 
estimate to the Committee as soon as our analysis is completed.
         s. 1588--reimbursement for emergency medical treatment
    VA supports S. 1588, which would expand eligibility for 
reimbursement for non-VA emergency care for nonservice-connected (NSC) 
conditions when the enrolled Veteran seeks but does not receive VA 
health care in the 24-month period preceding the emergency treatment 
because VA was unable to provide a new patient examination in time for 
the Veteran to fall within the 24-month window in current law.
    Currently, Veterans who are otherwise eligible for coverage under 
38 U.S.C. 1725 are deemed ineligible for this reimbursement if they 
have not been seen at a VA health care facility within the preceding 24 
months, for any reason. VA believes that Veterans should not lose 
eligibility for reimbursement if they seek VA care within that 24-month 
period but, for reasons attributable to VA, do not receive a new 
patient examination in time for the Veteran to satisfy the 24-month 
requirement. S. 1588 is consistent with this view. VA estimates this 
bill would result in an additional expenditure of $21.6 million over a 
10 year period.
         s. 1593--servicemember housing protection act of 2013
    S. 1593 would amend the Servicemembers Civil Relief Act to expand 
protections for servicemembers with regard to residential leases and 
for their survivors with regard to mortgage foreclosures. This bill has 
little effect on VA programs. This bill would largely affect issues 
relating to current members of the uniformed services and consequently 
is primarily of concern to the DOD, Homeland Security, Health and Human 
Services, and Commerce. Accordingly, we defer to those departments' 
views on this bill.
        s. 1604--veterans health care eligibility expansion and 
                   enhancement act of 2013 (revised)
    Section 2 of the bill would amend 38 U.S.C. 1710(a)(3) by replacing 
``may, to the extent resources and facilities are available'' with 
``shall.'' If section 2 were enacted the Secretary would be required to 
furnish hospital care and medical services to all Veterans, albeit some 
Veterans (those covered by 38 U.S.C. 1710(a)(3)) would have to pay 
copayments for this care. As amended, subsection (a)(3) would also 
specify that the Secretary shall furnish necessary nursing home care to 
Veterans not covered by (a)(1) or (a)(2). Currently under 38 U.S.C. 
1710, the Secretary's authority to furnish nursing home care to 
Veterans covered by subsection (a)(2) and (a)(3) is discretionary. 
Mandatory nursing home care is addressed in 38 U.S.C. 1710A. As 
drafted, Section 2 could be read to expand the mandatory nursing home 
population to include veterans covered by 1710(a)(3).
    VA reads 38 U.S.C. 1710 in conjunction with 38 U.S.C. 1705. While 
section 1710 authorizes VA to provide hospital care and medical 
services, section 1705 specifies how VA is to manage the system of 
patient enrollment. Although the language in section 2 would not impact 
the Secretary's authority to manage the enrollment system, if all 
Veterans are considered to have mandatory eligibility the continued 
effect of the enrollment system is unclear. Until VA has the 
opportunity to further discuss the intent of the provision with the 
Committee, it cannot support nor provide cost estimates for section 2.
    As we noted in our testimony, section 3 of the bill requires 
detailed consultations with other Federal agencies. VA reserves 
analysis of those issues for a later time, including the opportunity to 
discuss them with the Committee.
    Section 4 of the bill would expand the combat eligibility provision 
in 38 U.S.C. 1710(e)(1)(D) for Veterans discharged after January 28, 
2003, from 5 years from the date of the Veteran's discharge to 10 
years. Section 4 would also extend eligibility for Veterans who were 
discharged before January 28, 2003 until January 27, 2018. Section 4 of 
the bill is currently being evaluated and costs associated to this 
provision are under consideration. VA has had extensive conversations 
with the Chairman and staff, who realize the complexities of the 
provision. VA will provide views and costs on the measure at a later 
time. We look forward to continuing discussions with the Committee.
    Section 5 would delete 38 U.S.C. 1710(a)(4) and add similar 
language to 38 U.S.C. 1707. These amendments do not appear to make 
substantive changes to eligibility for VA health care or VA's 
enrollment system. However, if enacted, we recommend that the phrase 
``subject to paragraph (a)(4)'' in 38 U.S.C. 1710(a)(1) and (a)(2) be 
amended to reference the new provisions of 38 U.S.C. 1707. In addition, 
we would also recommend that a similar reference be added to 38 U.S.C. 
1710(a)(3), as amended by section 2 of this bill.
    Section 6 of the bill would direct VA to make certain modifications 
for purposes of determining whether veterans qualify for treatment as 
low income families for enrollment under 38 U.S.C. 1705(a)(7). 
Specifically, the income thresholds applicable to Priority Group 7 
would be modified so that one low income threshold would be applied to 
a State, equal to the highest ``low-income'' threshold among the 
counties within that State. The ``geographic means threshold'' (GMT), 
which is based on calculations done by the Department of Housing and 
Urban Development, is currently based on 80 percent of the local median 
income. This bill would set a statewide threshold at 80 percent of the 
median income in the highest earning locality in a state (at the 
Metropolitan Statistical Area).
    Equalizing GMT thresholds across broader geographic regions would 
likely make the eligibility criteria easier to understand and appear 
more equitable among Veterans residing in close proximity within a 
State. However, significant differences in the GMT thresholds across 
state boundaries will still be possible. Also, by increasing the GMT 
thresholds, a significant number of current enrollees in Priority 8 
will be re-classified as Priority 7 and thereby enjoy the lower 
inpatient copayment levels associated with Priority 7. This will result 
in a substantial reduction in ``first party'' revenue. In addition, 
increasing the GMT thresholds would also expand the pool of Veterans 
eligible for enrollment in Priority Groups 7 and 8, many of whom are 
not currently enrolled. VA estimates that approximately 1.8 million 
Veterans would fall into the newly expanded Priority 7 income window, 
of which approximately 1.4 million are not yet enrolled. VA cannot 
support section 6 without further discussion of the effect of such an 
increase in enrollment would have on the care provided to currently 
enrolled Veterans, as well as the budget resources that would need to 
be made available to support such an expansion. VA estimates the cost 
of section 6 of the bill would be $370 million over 5 years and $3.3 
billion over 10 years.
    Section 7 of the bill would require VA to use the capitation-based 
resource allocation model in entering into contracts for the furnishing 
of health care services. This would be a substantial change to the 
payment structure for non-VA medical care. VA needs to retain 
flexibility for its payment models and therefore does not support this 
provision.
    VA estimates that there would be no specific costs associated with 
this provision. However, VA typically sends care out to the community 
when it cannot be provided in the VA. Therefore, it is usually episodic 
in nature. A capitation-based payment methodology generally is more 
cost-efficient when used to pay for a complete treatment cycle for a 
diagnosis, but may not be for episodic care.

    Chairman Sanders. Thank you very much for your testimony. 
Let me begin with a few questions with Dr. Jesse. In your 
judgment, does the VA provide good quality, cost-effective 
health care? I know you are not objective about this.
    Dr. Jesse. Well, I would say that if I did not feel that it 
did I would not be in the position I am in now. We know that 
things happen in VA. You mentioned that earlier. If you look 
across health care systems and compare in the objective ways 
that we can, VA provides excellent care in many of the areas by 
which we measure the effectiveness and the quality of health 
care in the US. So, on that basis, that objective basis, I 
would say yes, we do.
    Chairman Sanders. And consumer satisfaction is fairly high, 
is it not?
    Dr. Jesse. Consumer satisfaction is fairly high. It is not 
as high as we would like it to be; but when you compare 
satisfaction with the care in the VA system to other large 
health care systems, in many respects they are comparable.
    I think a lot of our efforts are really being driven now 
toward improving that consumer satisfaction. Much of the 
strategic issues that we are moving forward in VA health care, 
starting a year or so ago but moving rapidly forward now, are 
really focused on building a health care system that is driven 
by the patient and their individual needs, not by the 
statistics of large numbers or meeting the needs of the health 
care system.
    Chairman Sanders. Let me ask you this.
    Dr. Jesse. Sure.
    Chairman Sanders. My impression is that there are many 
veterans who would like to get into the system but for a 
variety of reasons do not. Some of them get to the issue that 
we discussed a moment ago about outreach and some of them do 
not even know the benefits to which they are entitled.
    I think VA is beginning to do a good job. We will probably 
have a hearing on that issue but I think we are making some 
progress in at least informing veterans of the benefits to 
which they are entitled.
    But my impression is that there is a lot of confusion about 
eligibility levels. In Vermont, if Senator Begich were to live 
in one county and I live literally a mile away from him in 
another county, he might be eligible; I might not be eligible. 
I think that makes it difficult for folks to do outreach work.
    So, my impression is in Vermont, and I suspect around the 
country, that there are a lot more veterans who would like to 
access VA health care than are able to do so today.
    Do you agree or not?
    Dr. Jesse. I will agree at least anecdotally because I hear 
much of the same things that I think you are hearing. I cannot 
quantitate it, but I do know--and particularly of interest is 
people who would be in what we call category eight who are not 
eligible based on a means test, who are perplexed because they 
say I would love to get my care in the VA.
    Chairman Sanders. Exactly.
    Dr. Jesse. And VA would actually bill their insurance 
company so we would not be costing more money. But the way we 
are stratified, it does not allow us to do that.
    Chairman Sanders. So, one of the areas that we are going to 
work on is to expand and simplify VA health care. One of the 
folks who works for me in Vermont gave me a telephone book. It 
was literally a telephone book. What do we do now? Every zip 
code or something. Is that the eligibility level?
    Dr. Jesse. I am not sure exactly how that works. I might 
want to defer to the benefit side.
    Chairman Sanders. So, if I live in one zip code and Senator 
Begich in another, our eligibility levels are different? I 
believe that is the case, is it not?
    Mr. McLenachen. Mr. Chairman, are you asking about health 
care eligibility?
    Chairman Sanders. Yes.
    Mr. McLenachen. I would have to defer to----
    Chairman Sanders. Ms. Joyner. All right. We are going to 
find it. Mr. Hipolit, you are next.
    Ms. Joyner. Actually, I am not sure exactly what the 
criteria is. We could take that for the record and get it back 
to you.
    Chairman Sanders. Well, there is a telephone book, and it 
is pretty crazy and pretty complicated.
    Ms. Joyner. It is very complicated, yes.
    Chairman Sanders. If our goal is to simplify and bring 
people into the system, a telephone book which has his income 
level different than mine and we live two miles apart makes no 
sense at all to my mind. So, we are going to work on that.
    I want to switch gears for a moment. I am going beyond my 
time here, and ask, Dr. Jesse, if you consider lack of access 
to dental care a serious problem in our country and for 
veterans?
    Dr. Jesse. It is a serious issue in our country; and by 
that very nature, it is an issue for veterans. I am a 
cardiologist. It has been known for 20 years that periodontal 
disease has a linkage to heart attacks, for instance. It 
creates a systemic inflammatory state which drives a number of 
different issues.
    So, dental health is part of a holistic approach to health 
as in all other forms. So, yes.
    Chairman Sanders. Right. Would I be wrong in assuming that 
if we said--and I understand this is an expensive proposition, 
and I understand that we cannot do it all tomorrow--but what 
would your reaction be if we said to veterans around this 
country that we understand health care to include dental care? 
We know that many of those folks have serious dental problems 
and they cannot afford treatment elsewhere and that we were 
going to open up VA facilities to non-service-connected as well 
for dental care.
    Do you suspect there will be a lot of people who would be 
interested in taking advantage of that opportunity?
    Dr. Jesse. That I would not even suspect. I can tell you 
that there would be. I have patients, I still see patients, 
that are in exactly that bind that you discussed. We can 
provide complex heart attack care for them, but we cannot 
provide relatively simple dental care.
    Chairman Sanders. Ok. So, I would look forward to the 
cooperation of Members on the Committee on this. This is an 
issue, I think, that is long overdue and it needs to be 
addressed. My time has expired.
    Senator Johanns.
    Senator Johanns. Thank you, Mr. Chairman, and to the panel, 
thank you for being here today.
    Let me start out and say I have no quarrel with the Chair's 
assertion and your assertion, Dr. Jesse, that there is quality 
care at the Veterans' Administration. All of us have seen some 
of the most remarkable things.
    I would go as far as to say that not only is it quality 
today, it continues to improve and in some areas it is 
trendsetting. Everybody looks to the VA to see how you are 
doing things to try to put that in practice at their health 
care center.
    But I do have a question about facilities because in my 
State, we are on some kind of list relative to a veterans 
hospital that services Nebraska and western Iowa. I think we 
are 18th out of 20 on this list. I do not even know if anybody 
can predict when you get to the 18th but rest assured I will be 
a much older man before that facility gets started.
    Here is the point I want to make, and I would like 
whoever's reaction to this. I have traveled the State of 
Nebraska as a Governor and now as a Senator. One of the first 
things that communities want to show me is their health care 
facility. I have been in some of the smallest communities in 
Nebraska, and they will take me to their hospital.
    It is remarkable what they are doing with this small 
critical access hospital. It is a beautiful facility. It was 
just built within the last, you know, 5, 10, 15 years. 
Unbelievable. And I will go down the road 50 or 75 miles and I 
will see it again.
    By comparison, I go to the VA hospitals, and I will just 
tell you I do not think they are up to standard. They are 1940-
1950s style hospitals. You go in the operating room, and God 
bless the doctors and nurses and the health care providers, but 
they are working in conditions that I just think are not up to 
today's standards. These facilities are way out of date.
    The VA is in this very difficult situation of patch, patch, 
patch; and it seems like wasted money. Here you have this 
building that really, really should not be standing anymore and 
we are putting millions and millions of dollars into it.
    I am offering this in a global sort of way because I do not 
want this to sound completely about my State because I think I 
could find this in most any State in the country.
    How do we go about solving that problem because, like I 
said, if we stay at 18th, you know, it is almost like giving up 
hope that we will ever move up in the list. Give us some advice 
on how we can match our health care facilities with the 
capability of the health care providers that are working with 
our veterans in those other beautiful facilities.
    Dr. Jesse. Sir, I want to, if I may, take two approaches to 
that. One is that you are absolutely correct in that many of 
these facilities do not just appear old, but they are old and 
become difficult to maintain.
    I would like to say, though, that what is at the cosmetic 
end of this is not necessarily what is behind the wall. So, how 
our ORs conform to modern standards for air flow, infection 
control, et cetera, part of the issue is it is very expensive 
to maintain them in those ways. It is very expensive in these 
old hospitals to run the kind of channels that you need for 
modern electronics, communications systems, et cetera, at these 
places.
    The simple answer, which is not intended to sound facetious 
but is it takes money. In some respects, it may well take a 
reconfiguring of the approach we have to health care in the 
small communities.
    I am a huge fan of the critical access hospital system. I 
am hugely concerned that there are at times in this country the 
concern that the surrogate for quality is volume and that 
nothing good happens in small places, and I do not think that 
is the case at all.
    I think, amongst other things in VA, what we have shown is 
if we can manage quality, by managing quality we can do great 
things in small places. In terms of the building out, though, 
and how we distribute our footprint in ways that is most 
acceptable, again there is going to be some rethinking about 
what those facilities look like.
    There is going to be a greater use of health care delivery 
systems without having to come to a hospital. So, we can use 
those face-to-face resources, those hands-on resources in the 
most optimum ways and say frankly in your State and any State 
that is considered rural, people do not have to travel the 
kinds of distances they need to.
    But in terms of how we prioritize new construction, new 
facilities, we have a process, a fairly formal process for 
doing that. It is fundamentally driven around safety, patient 
safety.
    One of the things we have learned is that you can always 
put somebody at the bottom of a list if that is the only thing 
that you drive on; and we are actually now working through 
processes to better bring up, you know, these other needs 
rather than just driving everything solely on patient safety 
and physical safety and on facility safety.
    Senator Johanns. Mr. Chairman I am out of time on this but 
I bet you I strike the chord with everybody. Just as a 
respectful suggestion it may justify a hearing to try to figure 
out how best to proceed because, like I said, this is not 
unique to Omaha, Nebraska.
    Chairman Sanders. I think you are right. It is not unique. 
What we have to deal with is money. It is an expensive 
proposition but long term it may be cost-effective rather than 
patching up older buildings is what you are saying.
    Senator Johanns. Yes.
    Chairman Sanders. Thank you very much, Senator Johanns.
    Senator Hirono, would you mind if Senator Begich makes 
opening remarks?
    Senator Hirono. Sure.
    Chairman Sanders. Thank you very much.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. Thank 
you, Senator Hirono, for allowing me since I have to run off.
    I want to follow up on Senator Johanns' comments for a 
second.
    But to the panel here, thank you. I know there are some 
issues you have with a couple of bills I sponsor. One is a 
whole effort to create outreach for veterans especially in 
rural areas which is a big demand and I know there are some 
pieces to the equation. I would love to get your input 
additionally as we work through this because it is critical 
especially in rural Alaska.
    We find veterans on a regular basis that do not have access 
or are totally unaware of what benefits they are owed based on 
their service. In rural Alaska it continues to be a problem and 
I know it happens in other States. So, I would like to further 
work with you on Senate Bill 1558.
    The other one is S. 1580, which is pretty simple. This one 
is when we work with facilities that have--we are using a per 
diem payment regarding homeless veterans. As mayor I had to 
call the fire department more than once for inspections on 
facilities that are contracted with VA to, in theory, provide 
shelter for the homeless which sometimes fall below standards.
    Now, I know you all kind of do this process now, so this 
bill will just codify that, make sure that is the law, that you 
cannot pay a per diem to a facility that is not meeting safety 
standards of the local community they are stationed in. I know 
you do that informally now but we want to make sure it is 
codified.
    We also want to require that when you then stop making 
payments, this Committee and the House Committee is notified so 
people understand it because obviously you will get calls 
immediately. I can just tell you as a former mayor that is 
something that I noticed more than once.
    So again, I wanted to note those bills and I thank you.
    A third bill which we were going to discuss today but was 
pulled off because we have to work on some language, goes to 
this facilities issue in the longer term.
    First, I want to commend the VA because of the work you 
have done with our State and now expanding that to the Indian 
reservations. We will never see, I would love to see a 
veterans' hospital in my State. But if Nebraska is number 18, 
we are probably number I do not know what.
    So we have tried to do something a little different that 
the VA has worked with us in kind of like a--if I can say this 
word, I am not sure it is the right word, but--a demonstration 
of seeing if this would work.
    We have been in health care service facilities, beautiful 
facilities. As a matter of fact, I just visited one in 
Fairbanks that had 22 dental health stations, and I mean top-
quality dental health stations.
    So, what we have been able to do with 26 of our tribes by 
working with the VA--now if you live, for example, in Nome, AL, 
again there's a beautiful, brand-new hospital built by the 
Indian health services serving multiple tribes. It is non-
accessible by road from any major urban area but in that region 
several thousand people are living. 800 are veterans.
    Now that veteran has a choice. They can walk into that 
facility, get service, VA will reimburse them, or fly to 
Anchorage or Seattle where the VA clinic and the VA hospital is 
located but they still get a choice.
    The best news is, it is not only Indian health services for 
native veterans. It is also for non-native veterans, this new 
experiment which so far from what I am hearing has been 
working. You have a line item in your budget now to allocate 
resources to this. It is also now being considered for 
expansion to Indian reservations, which is a very complex 
situation.
    So, you have an Indian health service facility right there 
but in order to go to the VA facility you have to pile into a 
van, go drive out to it, wait for everyone to get their 
services, then get back in the van and drive back out.
    I think there are some innovative approaches here in one of 
the bills that we drafted--we are tweaking some language on 
it--which will create this opportunity. For example, we have 
another beautiful hospital finished by Indian Health Services 
in partnership with our tribal consortium, and the top floor is 
empty.
    But the VA clinic down the street is packed beyond 
capacity. So the thought is to let us put them together, 
because as long as quality care is there--and that is the key 
here--I think we can leverage our assets much differently.
    I want to thank the VA for being willing to take on this 
experiment. I know there is a little concern not just by you 
but by other national organizations because they were concerned 
about the privatization of VA, and they were concerned about 
the quality of care because there is inconsistent care within 
the Indian health services just like the VA. Even though we are 
trying to get to a high standard, there is inconsistent care.
    The program we have in Alaska for Indian health care 
service is such a model. Internationally, folks look at it. 
They fly from around the world to come to see our Indian health 
care service delivery system. I know you guys have gone to it 
to borrow some of our telemedicine.
    Dr. Jesse. South Central.
    Senator Begich. Yes, the South Central clinic.
    So, I just wanted to put that out there because I think at 
this point, and it is actually an interesting idea because it 
does beg the question of how we maximize--when the capital 
improvements list is so long on such limited resources. So, we 
have these other resources happening that kind of work in their 
own silo.
    Chairman Sanders. Let me just jump in. I am sorry.
    Senator Hirono, we are going to get to you in a second. I 
appreciate your patience. [Laughter.]
    Senator Begich. I know she cares about this issue too.
    Chairman Sanders. Right. She is in a very rural State as 
well.
    Two questions, Senator Begich, number 1, if a veteran walks 
into an Indian health service dental facility, will the VA pay 
for that dental care?
    Senator Begich. That is a great question. I do not know. It 
depends I think on the care and the need and what they are 
qualified for.
    But the greatest thing I have to tell you, Mr. Chairman, is 
the one in Fairbanks that just opened, the Tanana Chiefs 
facility, well, I wish when I was growing up as a kid in Alaska 
I had that kind of dental service. I mean, it is unbelievable 
care. But what they provide you with is unique and why the VA--
we have to equalize these systems.
    Chairman Sanders. The other point that I would make is one 
of the things that we are looking at--Senator Johanns, you 
would be interested in this as well--is we have many, many 
hundreds, in addition to Indian health service clinics, we have 
federally-qualified community health centers.
    Senator Begich. Yes.
    Chairman Sanders. And the same principle exists. I am a 
veteran and there is an FQHC across the street but there is a 
CBOC 50 miles away. Should I be able to go into the FQHC?
    Senator Begich. Right.
    Chairman Sanders. In talking to these service 
organizations, I think there is a lot of support for that 
concept. Some of the details have to be worked out, but I did 
want to let you know we are working on that.
    Senator Begich. Let me just end this by saying first, what 
is unique about that system--at least the Newcomb model as we 
call it in the Indian health services in Alaska and the new 
emerging community health care systems--it is the newer model 
of delivery systems.
    So, when you walk in, how is your hearing, how is your 
eyesight, how are your teeth----
    Chairman Sanders. Holistic.
    Senator Begich. Very holistic. And why is that important? 
Because it cuts the cost of emergency care. I will give you one 
last note: the native hospital in Alaska has cut their 
emergency care recipients going in by 68 percent.
    Chairman Sanders. That is an enormously important point. We 
spend billions of dollars because people do not have access to 
primary health care and they end up in the emergency room at 10 
times the cost.
    Senator Hirono, because you have been so patient you are 
going to get extra time.
    Senator Hirono. Well, thank you very much. I do not think I 
will need 10 minutes but be that as it may.
    Dr. Jesse, in your testimony I do not think that you gave 
us your position or the VA's position on my bill relating to 
the 24-month Catch-22 situation that new veterans face. So, I 
hope that you will be supportive of this kind of a change 
because they are in a situation over which we have no control.
    Dr. Jesse. I am glad you spoke to it the way you did 
because I do not think going in I fully understood that Catch-
22 piece that was in there. You know, I clearly was looking at 
the issue of access to emergency care in general but that is a 
real important point you bring up and we will bring that back.
    Senator Hirono. The other thing is that Mr. Atizado of the 
Disabled American Veterans, he will be in the second panel, but 
he noted that while my bill addresses the new veteran, there is 
still this 24-month requirement for all other veterans.
    So, within a 24-month period, a veteran has to go and get 
some kind of treatment at a veteran's facility. Otherwise, they 
will not get reimbursed for emergency care.
    So, my question is, what steps does the VA take to make 
sure that veterans are aware of this 24-month requirement; and 
second, are you aware of anything that prevents a veteran who 
is already in the system, not a new veteran, from being able to 
visit a VA facility within that 24-month period so that he or 
she will be covered?
    Dr. Jesse. So, there are a couple of things here that 
address this. One is I do not think there is anything in the 
way of anybody coming to a VA facility and getting literally 
enrolled on the spot if that is the case and hence get 
coverage.
    It has been really since the post-9/11 ramping up, the very 
clear direction from the Secretary that if somebody comes into 
a VA facility and says that they are a veteran, they should get 
care and we will figure out eligibility status later. I think 
that is an important statement.
    Then, the other piece of that is in part outreach, but this 
was a component of the Secretary's transformation, T-21 
transformation issue. But there is literally a handbook that 
can be, it is being personalized to each veteran that we mail 
to or they can actually get electronically. I think you can 
pull it down now off of, the general version, not the 
personalized version, off of Amazon or one of the booksellers.
    But the notion as this was being developed is that when we 
know the veterans, who they are, we can reach out to them and 
say you are eligible for this care based on your service. This 
is your nearest VA or your nearest clinic. This is who to call 
to ask questions.
    Senator Hirono. Well, apparently there is this 24-month 
requirement; and if they miss that timeframe, they cannot be 
reimbursed. So, my question is, are they reminded that you need 
to have gone to a veterans' facility otherwise you are going to 
lose this reimbursement benefit?
    Dr. Jesse. That I do not know.
    Senator Hirono. So, I think it has come up a number of 
times, the lack of information and the need to provide 
information, not just once because I am sure veterans get tons 
of stuff that they are supposed to remember but, you know, who 
can.
    So, if they are going to be disallowed certain benefits 
because of a timeframe, then we should figure out how they can 
be timely reminded.
    Dr. Jesse. We are actually terribly concerned about this in 
particularly with the Guard and the Reserve who are not 
connected through the DOD directly. We do now have a discharge 
process, getting out of the military and going back into their 
community, that literally takes a couple of days and all of 
these issues are gone through with them. Then we reach back out 
to veterans usually within 6 months to 1 year of there being 
separated, again about their qualifications for VA.
    So, it sounds like we might need to do a little bit of a 
job there.
    Senator Hirono. Yes, I think you get our concerns. It 
cannot just be at the time of their discharge because these 
things, they need to get timely reminders. It is like getting 
your teeth cleaned every 6 months or so and you get your 
notice.
    I wanted to go to the Chairman's bill, S. 1581 which would 
authorize treatment at VA facilities, not at regular non-VA 
facilities, for military sexual assault victims; and these are 
people who still are on active duty. My understanding is that 
the VA system may have a process or they have counselors and 
others who may not be in the regular systems.
    So, would you support this kind of a change or this kind of 
opportunity?
    Dr. Jesse. In principle, the answer to that is absolutely 
yes because we do it through the Vet Centers. So, there are 300 
Vet Centers, 70 mobile; and they are authorized for active duty 
people to use.
    Authorization for active duty to use VA facilities for 
certain things, I do not know if that creates a different set 
of problems; but we are very attentive to the issue of military 
sexual trauma. It is part of the screening process for every 
clinic visit.
    We screen for alcoholism. We screen for suicide. We screen 
for military sexual trauma. So, it is an issue that is 
important to us, that we are very much attuned to, and I just 
do not know with enough certainty to say that if a military 
person walked in, what the implication of treating for one 
limited condition would be. But in the Vet Centers we do.
    Senator Hirono. OK. I think the Chairman's bill is a good 
bill and that these victims may, in fact, prefer to go to VA 
where maybe they feel that there is more privacy, et cetera. 
So, I think we should figure out a way that we can have this 
happen and then whatever coordination of their records, et 
cetera, that needs to occur should be something that we should 
pursue.
    Dr. Jesse. As I said, we did realize this as being an 
important issue and the authority within the Vet Center system, 
again which has a very broad footprint across the country, is 
able to do.
    Senator Hirono. OK. We shall continue.
    Chairman Sanders. Thank you very much, Senator Hirono.
    Senator Blumenthal.
    Senator Blumenthal. Thank you again, Mr. Chairman, for 
holding this hearing and thank you to each of the witnesses who 
are here today for service to our veterans.
    Let me begin, Dr. Jesse, and you can ask one of your 
colleagues to answer, if necessary. As you know, I have focused 
on the electronic records challenges and, in fact, have 
sponsored the Servicemembers Electronic Health Records Act, 
along with Senator Nelson to address what I see as the 
unfortunate and unforgivable lag in the development of a truly 
seamless, interoperable system with the Department of Defense.
    Essentially, all this act really does is establish some 
deadlines. Do you have a position on the bill? I hope that you 
will support it.
    Dr. Jesse. Sir, I do not think we have a formal agency 
position. Every one of the points you bring up are important 
and are a part of the complexity of working both in health IT 
space, which by itself is a challenge, and also doing this 
across Federal agencies.
    You use the term interoperable. I think that data 
interoperability is hugely important and I think is achievable. 
Integrated so that everybody is using the same record creates a 
different set of challenges but is probably, you know, built on 
the foundation of data interoperability, data visibility, data 
viewing is the first foundational step that needs to occur. I 
think that is probably on a lot more solid grounds.
    In terms of timelines, you know, to say a very general 
statement, when you have timelines, things tend to happen 
toward those timelines. When you do not, they tend to lag. They 
tend, you know, to drift.
    Senator Blumenthal. Well, I do not mean to make you the 
target of my unhappiness----
    Dr. Jesse. Thank you. Yes.
    Senator Blumenthal [continuing]. Because I recognize that 
this issue goes well beyond your job description or 
jurisdiction.
    But the answer that you have just given, ``that it is 
achievable'' is the same answer that I have been given 
literally since I arrived here which was 2-\1/2\ years ago. I 
cannot accept that at this point in time the goal is achievable 
but not achieved, and so I am asking you to commit on behalf of 
your agency. I hope you will take this question back to General 
Shinseki, either to commit that you will meet the deadlines in 
the bill or to offer full support for the bill because if we 
need to compel you to do it, in my view, we should do so giving 
you the resources you need and giving the Department of Defense 
the mandate that it apparently needs so that these goals are 
not achievable but are it, in fact, achieved according to this 
timeline which I think is realistic.
    You know, I will just say to you, and I do not mean to be 
condemnatory, but when people raise the issues of the 
Affordable Care Act and some of the IT issues that have been 
confronted there and say to me I have never seen this kind of 
mess before. Well, the difficulty of making the DOD and VA 
electronic records systems interoperable strikes me as very 
much of the same ilk, very distinguishable. I recognized 
technically maybe wholly unlike but in the view of laymen or 
nonexperts like myself, the same question is why can we not get 
it right.
    Dr. Jesse. I appreciate the support, and we will take that 
back in terms of our formal views; and if there is anything we 
can do to provide you more information, we are happy to do 
that.
    Senator Blumenthal. I recognize also that it is not wholly 
within your power. There is a potential partner here that has 
to be incentivized or maybe compelled under law, the Department 
of Defense, to do the right thing here. I know that there is a 
history. So, I say all of the above with all due respect.
    Let me ask you a final question. I know that you have seen 
countless individuals like Justin Eldridge whom I have 
described earlier who took his own life after a struggle with 
Post Traumatic Stress.
    I did not recount today but I did in my remarks this 
morning on the floor that he actually knew he had a problem and 
was told he had to wait before he could be given treatment. 
That was some time ago.
    His history is more complicated but the question is, are we 
doing enough? Are we providing the care as rapidly as we need 
to do?
    I should have prefaced my statement by seconding the 
remarks of some of my colleagues.
    The VA hospitals do remarkable work. They help people in 
extraordinary ways. I am a great admirer of what the VA has 
done on issues of health care delivery to lead the way for our 
Nation. So, this is not a hostile question. It is, again, more 
a supportive one.
    Dr. Jesse. So, first of all, any suicide is absolutely 
tragic, and we do not just try to count numbers. We really try 
to understand. People do not commit suicide because they want 
to die. They commit suicide because they want the suffering to 
stop. Often, we do not see where that suffering really lies.
    Much of what we are doing toward that end now--we are very 
good in the rescue of the potential suicide people who call the 
crisis hotline. That organization does amazing things.
    We need to be working much further back in the stream. How 
are people suffering? You know, is it pain, is it PTSD, is it 
other things? And get those resolved as quickly as possible 
because that is how we support people.
    Thank you.
    Senator Blumenthal. Thank you. My time has expired but I 
thank you very much.
    Chairman Sanders. Senator Burr.
    Senator Burr. Dr. Jesse, as it relates to the Alicia Dawn 
Koehl Respect for National Cemeteries Act, understanding that 
this is a unique case, what steps has VA taken to ensure that 
this does not occur again.
    Dr. Jesse. May I defer that?
    Senator Burr. Sure.
    Mr. McLenachen. Senator Burr, the VA does support the bill. 
You know, it is unfortunate. You heard some testimony about how 
long it took to resolve that issue. It was a complex legal 
issue and I will defer to Mr. Hipolit about those.
    But this is a very rare occurrence but the conclusion, the 
legal conclusion that the General Counsel's Office reached was 
that legislation was necessary to solve this problem in the 
cases where it does arise.
    Senator Burr. Let me ask you in reference to the future. 
Would a question on the burial application asking whether the 
veteran who is to be buried committed a capital crime or other 
disqualifying offense be effective?
    Mr. McLenachen. Well, it is my understanding--and again Mr. 
Hipolit can correct me if I am wrong--but it is my 
understanding those questions are asked currently when someone 
appears to submit an application. In fact, the information we 
have from the National Cemetery Administration is that there 
were 107 yes answers to that question during the last fiscal 
year.
    Mr. Hipolit. I can amplify on that a little bit. Yes, there 
is a question there. They do ask whether the veteran committed 
a capital crime. A lot of times these things are taken in over 
the phone or the funeral director or through the National 
Cemetery Administration scheduling office. In many cases, the 
funeral director may not know the information.
    Senator Burr. So, the answer is obvious if they are 
transferred from prison; but if they are not transferred from 
prison, then that is sort of a potluck as to how it gets 
answered?
    Mr. Hipolit. Well, they do have that question. They do try 
to find out the information. If there is any indication based 
on the response that there may be an issue, like if they say 
they do not know or whatever, then they do provide further 
follow-up.
    Senator Burr. Well, it is crucial that we get this bill 
passed, and I think my colleagues understand that.
    Dr. Jesse, I want to talk about the efforts for the VA 
National Dialysis Center Program. I understand the VA is 
opposed to my legislation because it would delay until mid-2015 
the national roll out.
    Now, why did VA decide to move forward with this expansion 
in direct opposition to Congressional direction which you would 
find in last year's MILCON/VA approps bill?
    Dr. Jesse. So, I am a bit at a loss because I am not aware 
that it is moving forward. We have got four pilots. I think----
    Senator Burr. Well, let me stop you if I can because there 
was in Sources Sought a notice released on October 9, 2013, on 
FedBizOpps.com for National Dialysis Equipment Request by VA, 
which, as I understand from my staff, the notice states, ``The 
objective of this effort is to provide standardized 
Hemodialysis Systems (also referred to as Dialysis Machines) 
and associated Hemodialysis System Maintenance to facilitate 
the stand-up of VA Dialysis Centers throughout the Nation.'' In 
September, VA agreed to put the expansion on hold until January 
after we tried to attach the dialysis bill.
    But all of a sudden there is a solicitation out there with 
a note that the VA intends to stand-up dialysis centers 
throughout the Nation.
    Dr. Jesse. So, I think the nuance here is a freestanding 
dialysis center versus dialysis capabilities at VA facilities. 
Now, I am not aware that the----
    Senator Burr. Well, I am reading from what it said in the 
note, ``* * * VA Dialysis Centers throughout the Nation.''
    Dr. Jesse. Well, we provide dialysis throughout the Nation. 
As I am saying, I am not aware of this. I will take that for 
the record. But I am not aware that we have made any 
solicitation to further expand free-standing dialysis centers. 
Now, we are, as you know, trying to standardize----
    Senator Burr. Well, there was an effort, there was an 
effort to start to roll out the national VA system, right?
    Dr. Jesse. Well, I think we agreed that we would do this 
pilot.
    Senator Burr. Well, let me ask you. What is the purpose of 
a pilot?
    Dr. Jesse. The purpose of this pilot is to understand: (A) 
does it provide the level of access that we need; and I think 
the largest issue in dialysis moving into the future is 
capacity.
    Senator Burr. Does the VA have a metrics that they look at?
    Dr. Jesse. (B), is it cost effective.
    Senator Burr. And have all the metrics been put together?
    Dr. Jesse. Well, many of the metrics have been put 
together. The initial location of the pilots was----
    Senator Burr. Cleveland has only been open 3-\1/2\ months. 
What could you learn or glean from Cleveland?
    Dr. Jesse. At this point, what we can glean from Cleveland 
is the complexities and costs of standing up the facility which 
we have done for all the others. Cleveland was late in getting 
up because of contracting issues, frankly.
    Senator Burr. Have you learned enough from the 3-\1/2\ that 
have stood up that this is a smart move, to nationally do for 
the VA?
    Dr. Jesse. Well, I do not think we have concluded that 
analysis. I would defer the answer until we actually have. I 
mean, it is appearing cost-effective. That may be a moving 
target. The more the dialysis becomes--without meaning this in 
a pejorative sense--becomes commoditized, and by that I mean we 
have now dialysis centers that sit in strip malls--not VA, but 
in this country--rather than being attached to health care 
facilities or hospitals.
    The real issue is people who need dialysis need it on a 
frequent basis. The whole system may change if, in the next 
year or 2 or 5 or 10, somebody comes up with a system to do 
home dialysis in a much easier way.
    Senator Burr. Would you be kind enough to share with the 
Committee the metrics that were used to make a determination or 
that you will make a determination to set up a national 
structure of dialysis centers that are VA facilities?
    And my last question would be this, did you not just this 
past May sign a national plan for dialysis with the private 
sector?
    Dr. Jesse. We did I believe, yes. I did not personally but, 
yes, we do have national contracts. There has been some 
contention around the national contracts related to what VA was 
paying versus relative to what CMS was paying, Medicare was 
paying.
    You know, our goal, our responsibility is to ensure that 
veterans who need dialysis have access to the dialysis services 
that they need but we do that for many different mechanisms.
    Senator Burr. In fact, you signed a plan that you said will 
only pay Medicare reimbursements. If the private sector chose 
not to agree to that, which there is some question as to 
whether that is----
    Dr. Jesse. We are actually paying more than Medicare in 
some areas, I think.
    Senator Burr. In some areas. But were that not to be the 
case, if they did not sign the contract, where would the 
dialysis services be provided for veterans?
    Dr. Jesse. Well, this is the challenge. Right?
    Senator Burr. So, that plays a part in why the VA would 
like to own their own infrastructure to do this; is so that 
there is no competitive need in the marketplace, would you 
agree?
    Dr. Jesse. Well, so I am not sure I understand the 
question. The VA probably does not drive the private sector.
    Senator Burr. Well, you made the comment that one of the 
things was that the original contract paid a price that was 
higher than Medicare, and that was something that in the 
negotiations was expressed to all private sector bidders.
    Dr. Jesse. Uh-huh.
    Senator Burr. And it strikes me as a little bit 
disingenuous that there would be pilot programs, an effort to 
set up a national structure that I am convinced, and I think 
many Members of the Committee are that would not have stopped 
had we not raise an issue.
    All I am asking for is not to make the decision. I am 
asking to look at the metrics which I have been unable to 
access that make the cost and benefit analysis for VA doing 
this in-house versus VA continuing to contract with private 
services deliveries.
    Dr. Jesse. Right. So, two things. First of all, absolutely 
I think that is what we owe you and I think we have said that 
we will do that before we move forward with a firm decision on 
how we would roll this out.
    I think the second issue is that the VA will never be able 
to do all of its own dialysis in the current construct of what 
dialysis entails. Our responsibility is to ensure that veterans 
who need it can get it and particularly close to home. It makes 
no sense for somebody to have to drive 3 hours to get dialysis, 
and we would never have the capacity to do that.
    When we originally looked at these pilots we looked at 
where do we have areas where there were significant populations 
of veterans who have renal failure, who get dialysis, in a 
range that it would make sense based on the known capacity of a 
dialysis unit to function effectively in these areas. They were 
set up as pilots, again, to understand what it would take for 
us to do this.
    Senator Burr. The Chairman has been very kind.
    Let me just say that I am not necessarily sold on the fact 
that the VA can produce the benefit, can deliver the service 
cheaper than the private sector has been able to deliver it but 
I look forward to you helping me with that.
    Dr. Jesse. Absolutely.

    [The requested information was received and is being held 
in Committee files.]

    Chairman Sanders. OK. With that, let me thank the panel 
very, very much for your excellent testimony.
    Now, we have our second panel and we apologize to them for 
running a little bit late.
    Before I introduce our panelists, I would just like to 
mention that Senator Burr and I are in agreement that we should 
discharge in the Committee from further consideration the Bill 
Young naming bill and hot line this bill this evening.
    Anybody object to that?
    If not, that is how we will proceed.
    OK. I am delighted to welcome our next panel. We have 
Adrian Atizado, who is the Assistant National Legislative 
Director of the DAV. We have Colonel Bob Norton, who is the 
Deputy Director of Government Relations for the Military 
Officers Association of America. We have also with us Rick 
Weidman, Executive Director for Policy and Government Affairs 
for the Vietnam Veterans of America. We thank all three of you 
very much for being here.
    Mr. Atizado, we would like to begin with you.

  STATEMENT OF ADRIAN ATIZADO, ASSISTANT NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Atizado. Mr. Chairman, Ranking Member, and Member of 
the Committee, on behalf of the Disabled American Veterans, I 
am pleased to be here today to present our views on the bills 
under consideration. For the sake of brevity I will only 
highlight two bills out of those that are on today's agenda and 
refer the Committee to our written testimony on our views for 
the remaining bills.
    The first bill is S. 1578. It is the Medical Foster Medical 
Home Act of 2013. This bill will authorize VA to cover the 
costs associated with the care of veterans at VA approved 
medical foster homes.
    So as this Committee is aware, the medical foster home may 
be an appropriate setting for veterans who would otherwise be 
placed in a nursing home care because they lacked a support 
network to remain in their own homes.
    DAV is please with VA's innovation of offering this program 
as part of its long-term services and support. But while 
patient participation in the program is voluntary, it does 
yield very high satisfaction among veteran residents.
    In addition because of its low cost, many VA facilities 
perceive this program as a cost-effective alternative to 
nursing home placement and it is gaining popularity based on 
the expansion of this program over the last few years.
    Because this program requires veterans in medical foster 
home programs to pay for their care which ranges from about $50 
to $150 a day, even veterans who are otherwise entitled to 
nursing home care fully paid for or provided by VA must pay 
their share of residence in a medical foster home. Thus, 
service-connected veterans who do not have the resources to pay 
for their portion are unable to avail themselves of this very 
important benefit.
    So, based on our resolution that supports legislation to 
expand a comprehensive program of long-term services and 
supports for service-connected veterans, we are, in fact, very 
pleased to support the intent of this bill.
    We would like, however, to bring the Committee's attention 
to the current statutory authority which limits the VA from 
meeting its obligation to provide home and community-based 
long-term services and supports to service-connected disabled 
veterans such as this medical foster home program that we are 
discussing today.
    Because of this limitation in current statutory authority, 
we believe the intent of this legislation should actually be 
codified or amend current statutory authority.
    The second bill is S. 1584, which would allow qualified 
disabled veterans the opportunity to utilize the automobile 
grant program up to three times rather than the current 
allowance of once and increase the current amount from $18,900 
to $30,000.
    Not only has the issue of increasing the amount of 
automobile grant benefits has been a long-standing issue for 
DAV other veterans service organizations have also sought to 
have the amount of this vital benefit increased.
    Collectively, we have urged Congress to extend the 
automobile grant benefit by allowing previous recipients of a 
much lesser amount--in years past it ranged from anywhere from 
11 to 8000, even less--for those veterans to be able to receive 
a supplemental auto grant for the difference between their 
original grant and the current grant, if it was higher.
    Last year, the Department of Transportation reported the 
average life span of a vehicle, general vehicle, was 12 years 
or just under 129,000 miles.
    The cost of replacing a modified vehicle can range anywhere 
from $40- to $65,000 for a new vehicle and $21- to $35,000 
used. This is on average. Now, these tremendous costs, 
compounded by inflation, present a financial hardship for many 
severely disabled veterans who need to replace their primary 
mode of transportation once it exceeds its expected life.
    As such, in accordance with our resolution, we support an 
enactment of this bill as it will expand the vital automobile 
grant benefits by allowing multiple uses while increasing the 
current amount, I should say the aggregate amount, to $30,000.
    Mr. Chairman, this concludes my testimony. As always, the 
DAV looks forward to working with the Committee as well as the 
bills of sponsors' staff on any concerns that we have on their 
bills. I would be happy to answer any questions you or other 
Committee Members may have.
    [The prepared statement of Mr. Atizado follows:]
      Prepared Statement of Adrian M. Atizado, Assistant National 
                       Legislative Director, DAV
    Chairman Sanders, Ranking Member Burr and Members of the Committee: 
Thank you for inviting the DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Senate Veterans' Affairs Committee. 
As you know, DAV is a non-profit veterans service organization 
comprised of 1.2 million wartime service-disabled veterans dedicated to 
a single purpose: empowering veterans to lead high-quality lives with 
respect and dignity. DAV is pleased to be here today to present our 
views on the bills under consideration by the Committee.
   s. 875, the department of veterans affairs disease reporting and 
                             oversight act,
                                  and
draft bill, to require the secretary of veterans affairs to ensure the 
department of veterans affairs has an up-to date policy on reporting of 
 cases of infectious diseases, to require an independent assessment of 
    the organizational structure of the veterans integrated service 
                networks and department medical centers.
    These measures seek to strengthen Department of Veterans Affairs 
(VA) policy in reporting nationally notifiable diseases published by 
the Council of State and Territorial Epidemiologists and the Centers 
for Disease Control and Prevention (CDC), or those infectious diseases 
required by a provision of law of a state.
    Timely disease surveillance, identifying disease outbreaks, and 
recognizing disease trends in a community is critical to preventing 
infectious disease morbidity and mortality. Incomplete reporting, lack 
of consistent national standards, and a lack of timely reporting have 
created significant barriers to appropriate and effective disease-
specific control measures since delays between the onset of illness and 
receipt of disease notification can allow for additional transmission 
to occur and additional people to become ill, thereby facilitating 
further spread of infection.
    DAV believes the intent of these bills is laudable; lacking a 
national standard however, we urge the Committee ensure VA, CDC and 
Council of State and Territorial Epidemiologists work collaboratively 
to ensure the resulting VA policy address any barriers or ambiguities 
for timely and effective disease surveillance without placing undue 
burden on the Department and local VA facilities. Further, 
consideration of these measures and subsequent VA policy should be 
balanced with the requirements of sections 5701 and 7332 of title 38, 
United States Code, that protects the confidentiality of veterans 
health and personally identifiable information.
        s. 1148, the veterans benefits claims faster filing act
    S. 1148 would direct the Secretary of Veterans Affairs to provide 
notice of average times for processing claims and percentage of claims 
approved. The goal of the legislation is to encourage veterans to seek 
the assistance of veterans service organizations (VSOs) and file claims 
for VA benefits using the Fully Developed Claim (FDC) process.
    This legislation would make available to all current and potential 
veteran claimants information regarding the success or allowance rate 
of claims in each Department of Veterans Affairs (VA) Regional Office 
(RO) by requiring the Secretary of Veterans Affairs to publish this 
information on VA's Web site. Additionally, this information will be 
required to be conspicuously posted in every VARO and, when a claim is 
received, VA will notify the claimant of such information, including 
information about the benefit of filing a FDC, such as faster 
processing time and eligibility to receive up to an extra year of 
benefit payments.
    The type of information this legislation is seeking to publicize to 
every claimant is the average processing time of claims and the 
percentage of allowed or granted claims for those with representation 
versus those without representation. Additionally, S. 1148 will require 
the information to be broken down into the percentage of claims that 
were FDC submitted electronically versus paper as compared to those who 
do not file their claims through the FDC program in electronic, 
standard paper or non-standard paper form.
    DAV supports the principle of S. 1148, which is to bring better 
awareness and information to a claimant prior to filing a claim for 
benefits in the same manner as its companion bill, H.R. 1809, which was 
passed by the House. Both S. 1148 and H.R. 1809 are directed at 
providing more in-depth information to a claimant about representation 
in keeping with the primary goal of encouraging claimants to submit 
their claims for benefits through the FDC program.
    DAV agrees with encouraging claimants to submit their claims 
through the FDC process, as is a standard practice for DAV. 
Nonetheless, DAV believes, in order to fully reach the goal of this 
legislation and, more importantly, to benefit the claimant in the best 
way possible, the posted information should provide a breakdown of the 
number of claims represented and the allowance rate for each VSO and 
for representatives other than VSOs. Otherwise, this information may 
not allow an individual to make an informed decision about 
representation. Moreover, when publishing this type of information, it 
should include the fact that DAV and other VSOs provide representation 
to virtually any claimant in the process, with the exception of 
frivolous or fraudulent claims. Conversely, others providing 
representation, including attorneys, tend to be much more selective in 
their representation; often choosing to represent only claims wherein 
the predicted outcome is favorable to the claimant. DAV believes this 
should also be made clear to a claimant in the published information.
    While we do not have a specific resolution to support this matter, 
DAV does support the intent of S. 1148, which will require VA to make 
this information available to claimants; however, we are concerned 
about the possibility that this legislation, if enacted, may burden the 
VA at a time when their primary focus is directed at reducing the 
backlog of disability claims and transforming the claims process.
     s. 1155, the rural veterans mental health care improvement act
    S. 1155, if enacted, would achieve four basic purposes. First, it 
would amend current law governing advance appropriations in VA health 
care by adding appropriations accounts and sub-accounts that provide 
funding for information technology (IT). Second, it would add two 
professional fields (marriage and family therapists, and mental health 
counselors) to existing career health fields that are participating in 
VA's academic health education programs, and would require the VA 
Secretary to apportion funding, from funds available, to these new 
professions. Third, the bill would require amendments to current 
authority for readjustment counseling and mental health counseling for 
family members of certain veterans; and, fourth, the bill would require 
VA to submit a report to Congress on telemedicine.
    Based on DAV Resolution No. 180, DAV strongly supports Congress 
extending advance appropriations to all VA discretionary appropriations 
accounts. We believe the VA health care system's experience over the 
past three years, and particularly this year, protected by advance 
appropriations while most of the remainder of the Federal Government 
was forced to deal with continuing appropriations (and now a shutdown), 
produces a strong justification for protecting all of VA's 
discretionary accounts. While we support the provision in this bill 
that would bring IT accounts under the protection of advance 
appropriation, we ask the Committee rather to consider enacting S. 932, 
the Putting Veterans Funding First Act of 2013.
    DAV has not received a specific resolution from our membership 
addressing the need to add the two new career fields of marriage and 
family therapists and mental health counselors to VA's academic 
responsibilities. VA already possesses authority to employ such 
providers, either in direct health care or in Readjustment Counseling 
Vet Centers. Absent a showing of shortage of available practitioners in 
these professions, mandating their inclusion within VA's responsibility 
in conducting its health care training programs may be ill advised. We 
defer to VA on balancing its academic programs across health 
professionals career fields and suggest the same to the bill's sponsor.
    On the strength of resolutions from our membership we strongly 
support the existing VA family caregiver support program and VA's 
independent Vet Center readjustment counseling program; therefore, we 
support these provisions in this bill that would clarify and expand 
these efforts.
    We have no objection to the report on telemedicine that the bill 
would require.
 s. 1165, the access to appropriate immunizations for veterans act of 
                                  2013
    This measure would require the Secretary of Veterans Affairs to 
make available periodic immunizations against certain infectious 
diseases as adjudged necessary by the Secretary of Health and Human 
Services through the recommended adult immunization schedule 
established by the Advisory Committee on Immunization Practices. The 
bill would include such immunizations within the authorized 
preventative health services available for VA-enrolled veterans. The 
bill would establish publicly reported performance and quality measures 
consistent with the required program of immunizations authorized by the 
bill. The bill would require annual reports to Congress by the 
Secretary confirming the existence, compliance and performance of the 
immunization program authorized by the bill.
    DAV Resolution No. 036 calls on VA to maintain a comprehensive, 
high-quality, and fully funded health care system for the Nation's sick 
and disabled veterans, specifically including preventative health 
services. Preventative health services are an important component of 
the maintenance of general health, especially in elderly and disabled 
populations with compromised immune systems. If carried out 
sufficiently, the intent of this bill could also contribute to 
significant cost avoidance in health care by reducing the spread of 
infectious diseases and obviating the need for health interventions in 
acute illnesses of those without such immunizations.
    While DAV is pleased to support this bill, we urge the Committee to 
work with VA to address concerns the Department has raised with similar 
legislation. Those concerns included requiring that the quality metric, 
including targets for compliance, be established via notice and comment 
rulemaking would limit VA's ability to respond quickly to new research 
or medical findings regarding a vaccine. Moreover, because the clinical 
indications and population size for vaccines vary by vaccine, blanket 
monitoring of performance of all vaccines could be cost prohibitive and 
may not have a substantial positive clinical impact at the patient 
level.
 s. 1211, to prohibit the use of the phrases gi bill and post-9/11 gi 
  bill to give a false impression of approval or endorsement by the va
    S. 1211 would amend title 38, United States Code, to prohibit the 
use of the phrases GI Bill and Post-9/11 GI Bill to give a false 
impression of approval or endorsement by the VA.
    DAV does not have a resolution on this issue and takes no official 
position.
   s. 1216, the improving job opportunities for veterans act of 2013
    S. 1216 would improve and increase the availability of on-job 
training and apprenticeship programs carried out by the Secretary of 
Veterans Affairs.
    In accordance with DAV Resolution No. 001, DAV supports this 
legislation.
          s. 1262, the veterans conservation corps act of 2013
    S. 1262 would require the Secretary of Veterans Affairs to 
establish a veterans conservation corps.
    DAV does not have a resolution on this issue and takes no official 
position on this legislation.
    s. 1281, the veterans and servicemembers employment rights and 
                          housing act of 2013
    S. 1281 would prohibit employment practices that discriminate based 
on an individual's military service and amends the Fair Housing Act and 
the Civil Rights Act of 1968 to prohibit housing discrimination against 
members of the uniformed services.
    DAV does not have a resolution on this issue and takes no official 
position on this bill.
   s. 1295, to require the secretary of veterans affairs to provide 
  veterans with notice, when veterans electronically file claims for 
   benefits under laws administered by the secretary, that relevant 
     services may be available from veterans service organizations
    S. 1295 would amend title 38, United States Code, to require the 
Secretary of Veterans Affairs to provide veterans with notice, when 
veterans electronically file claims for benefits under laws 
administered by the Secretary, that relevant services may be available 
from veterans service organizations.
    While DAV does not have a specific resolution on this issue we 
support the intent of the legislation to make claimants fully aware of 
the vast, free services and assistance that are available from veterans 
service organizations. Navigating the VA system and the plethora of 
benefits available can be very complicated and paralyzing to any 
claimant and we appreciate the goal of S. 1295 to help ease this 
burden.
   s. 1296, the servicemember's electronic health records act of 2013
    This measure would amend Section 1635 ``Wounded Warrior'' and 
veterans provisions in the fiscal year 2008 National Defense 
Authorization Act (NDAA), to create a specific timeline and deadlines 
for a joint electronic health record to be implemented. This timeline 
would require, among other things, the Department of Defense (DOD) and 
VA to agree on and create standardized forms for data capture within 
180 days of enactment. They would have one year to attain seamless 
integration and sharing of information and data downloading using the 
Blue Button Initiative.
    The bill also would require the agencies to consider storage of 
patient data in a secure, remote, network-accessible computer storage 
system or a cloud storage system. This type of storage system would 
allow servicemembers and veterans to upload their own information and 
allow their providers to have the ability to see the records at any 
time. The cloud storage system would increase interoperability and 
allow the patient to more easily share their information with their 
medical provider.
    The development of an integrated DOD/VA electronic health record 
(EHR) has been beset with problems for years. Efforts to create a joint 
DOD/VA EHR scheduled to become operational in 2017 came to a halt in 
February 2013. The new plan includes both Departments to pursue 
separate systems and gain interoperability using existing commercial 
software.
    The plan also assumes that in the summer of 2013, both Departments 
were to have launched pilot programs on the common interface at seven 
joint rehabilitation centers nationwide, initially, and eventually to 
nine sites, overall. All of the facilities were scheduled to exchange 
data that is computable and interoperable by the end of July.
    Criticism of this decision resulted in an amendment to the House 
passed 2014 NDAA to increase oversight of the integrated electronic 
health record (iEHR). Notably, Section 734 of the National Defense 
Authorization Act of 2014 would require DOD and VA to give appropriate 
congressional committees a plan on an iEHR by January 31, 2014. This 
plan would include program objectives, organization, responsibilities 
of the departments, technical system requirements, milestones 
(including a schedule for industry competitions), system standards the 
program will use, metrics to assess the program's effectiveness, and 
funding levels needed for fiscal years 2014 to 2017 in order to execute 
the plan. It would also limit funding for development of an iEHR until 
the Government Accountability Office confirms the proposed system to be 
deployed by October 1, 2016, meets stated requirements.
    We note that despite strong and consistent Congressional mandates 
and oversight over those years, efforts by both Departments remain 
fragmented and have proceeded at a glacial pace. As part of The 
Independent Budget, DAV remains firm that the DOD and VA must complete 
an electronic medical record process that is fully computable, 
interoperable, and that allows for two-way, real-time electronic 
exchange of health information and occupational and environmental 
exposure data for transitioning veterans. Effective record exchange 
could increase health care sharing between agencies and providers, 
laboratories, pharmacies, and patients; help patients transition 
between health care settings; reduce duplicative and unnecessary 
testing; improve patient safety by reducing medical errors; and 
increase our understanding of the clinical, safety, quality, financial, 
and organizational value of health IT.
    DAV believes the intent of S. 1296 is laudable; however, we ask the 
Committee ensure the measure is consistent with the pertinent 
provisions in the 2014 NDAA awaiting consideration by the Senate. 
Moreover, we urge the Committee to consider the current capabilities of 
the Interagency Program Office (IPO), which would likely be responsible 
for meeting the requirements contained in S. 1296. The IPO was 
established by Congress in Section 1635 of Public Law 110-181, the 2008 
National Defense Authorization Act as the office accountable for 
developing and implementing the health information sharing capabilities 
for DOD and VA. Staffing challenges within the IPO have been an issue. 
As of January 2013, the IPO was staffed at about 62 percent of the 236 
employees assigned by both departments, according to a February 2013 
Government Accountability Office report, which also noted hiring 
additional staff is one of the biggest challenges.\1\
---------------------------------------------------------------------------
    \1\ Long History of Management Challenges Raises Concerns about 
VA's and DOD's New Approach to Sharing Health Information, Government 
Accountability Office, February 27, 2013. Washington, DC.
---------------------------------------------------------------------------
         s. 1361, the world war ii merchant mariner service act
    S. 1361 would direct the Secretary of Homeland Security to accept 
additional documentation when considering the application for veteran 
status of an individual who performed service as a coastwise merchant 
seaman during World War II.
    DAV does not have a resolution on this issue and takes no position 
on S. 1361.
 s. 1399, to extend the interest rate limitation on debt entered into 
  during military service to debt incurred during military service to 
   consolidate or refinance students loans incurred before military 
                                service
    S. 1399 would amend the Servicemembers Civil Relief Act to extend 
the interest rate limitation on debt entered into during military 
service to debt incurred during military service to consolidate or 
refinance students loans incurred before military service.
    DAV does not have a resolution on this issue and takes no official 
position on this legislation.
    s. 1411, the rural veterans health care improvement act of 2013
    S. 1411 would require the Office of Rural Health of the Veterans 
Health Administration to update its ``Strategic Plan Refresh,'' a 
document VA issued in 2012 that reviewed VA's rural health 
expenditures, and laid out VA's plans for rural health developments 
over the near term, and for other purposes. Our members have approved 
DAV Resolution No. 211, calling on Congress and VA to support 
sufficient resources for VA to improve health care services for 
veterans living in rural or remote areas; thus, we support this bill.
s. 1434, to rename the junction city, kansas community-based outpatient 
                                 clinic
    S. 1434 would designate the Junction City Community-Based 
Outpatient Clinic located at 715 Southwind Drive, Junction City, 
Kansas, as the Lieutenant General Richard J. Seitz Community-Based 
Outpatient Clinic.
    As a local issue, DAV does not have a national position on the 
matter.
   s. 1471, the alicia dawn koehl respect for national cemeteries act
    S. 1471 would authorize the Secretary of Veterans Affairs and the 
Secretary of the Army to reconsider decisions to inter or honor the 
memory of a person in a national cemetery.
    DAV does not have a resolution on this issue and takes no official 
position on this bill.
  s. 1540, to remove a legal obstacle that effectively prevents state 
  veterans homes from applying for federal grants to support homeless 
                           veterans programs
    S. 1540 was introduced in order remove a legal obstacle that 
effectively prevents state veterans homes from applying for Federal 
grants to support a homeless veterans program.
    State veterans homes are a partnership between the Federal 
Government and the States, with the Federal Government providing 
construction grants that may cover up to 65 percent of the cost to 
build and maintain the homes, and states providing the balance. In 
addition, the Federal Government pays a per diem covering approximately 
one-third of the cost to care for qualified veterans under three 
authorized programs: nursing home care, domiciliary care and adult day 
health care.
    Currently, some state veterans homes have underutilized bed 
capacity in their domiciliary program, a portion of which could be 
repurposed for homeless veterans programs. A few state homes that are 
well positioned to provide and coordinate the multitude of health care 
and supportive services required by homeless veterans have expressed an 
interest in applying for grants operate such a program. However under 
current law, state homes are authorized to use their Federal support 
only for the three aforementioned programs and if a state home were to 
operate a homeless veterans program, the Federal Government could seek 
to recapture construction grant funding provided over the prior twenty 
years. Since no state home could afford to pay that high a financial 
penalty, this provision effectively prevents them from using excess 
capacity for operating a homeless veterans program.
    S. 1540 seeks to resolve this problem by amending the recapture 
provisions of title 38, United States Code, section 8136, with an 
exemption for state homes that receive a contract or grant from VA for 
residential care programs, including homeless veterans programs. The 
change would remove the financial obstacle preventing some state homes 
from applying for Federal grants to support homeless veterans, such as 
through VA's Health Care for Homeless Veterans program, but the 
decision to award the grant (or contract) would remain solely with VA 
as the grantor. It would be up to VA to determine whether the state 
home had sufficient excess capacity and was capable of operating a 
successful homeless veterans program.
    By allowing state homes with excess bed capacity in their 
domiciliary programs to repurpose a portion of that existing space to 
support homeless veterans, this legislation would allow some additional 
options for homeless veterans in a cost-effective manner.
    In line with DAV Resolution No. 165, which calls for sustained 
sufficient funding to improve services for homeless veterans, DAV 
supports the intent of this legislation; however, we urge the Committee 
ensure the legislation allows for the recapture of the portion of 
grants to state homes if so provided for the costs of construction, 
renovation, or acquisition of a building for use as service centers or 
transitional housing for homeless veterans under VA's Homeless 
Providers Grant and Per Diem Program.
    s. 1547, the veterans dialysis pilot program review act of 2013
    VA estimates show that in FY 2011, approximately 35,000 veterans 
enrolled in the VA health care system were diagnosed with end-stage 
renal disease (ESRD) reflecting a higher prevalence in the VA 
population than in the general U.S. population.\2\ Initiated based on 
the rapidly rising cost of VA paid hemodialysis treatment in non-VA 
facilities and the high rates of morbidity and mortality of veteran 
patients with ESRD, several VA studies of this veteran patient 
population and paid for or directly provided dialysis therapy have been 
conducted.\3\
---------------------------------------------------------------------------
    \2\ Comparison of outcomes for veterans receiving dialysis care 
from VA and non-VA providers, Wang et al., BMC Health Services Research 
2013, 13:26.
    \3\ Comparing VA and private sector healthcare costs for end-stage 
renal disease, Hynes et al., Medical care 2012, 50(2):161-170.
---------------------------------------------------------------------------
    The May 23, 2012 Government Accountability Office (GAO) report on 
VA's Dialysis Pilot states VA had not fully developed performance 
measures for assessing the pilot locations \4\ even though the 
Department has already begun planning for the expansion of the dialysis 
pilot. Further, GAO indicated that such an expansion ``should not occur 
until after VA has defined clear performance measures for the existing 
pilot locations and evaluated their success.''
---------------------------------------------------------------------------
    \4\ Veterans Affairs (VA) medical centers (VAMC) in Durham and 
Fayetteville, North Carolina started June 2011; Philadelphia, 
Pennsylvania started October 2012; and Cleveland, Ohio started 
July 2013.
---------------------------------------------------------------------------
    This measure would limit the expansion of VA's dialysis pilot 
program beyond current locations, require an independent analysis of 
the pilot, and to submit a report to Congress based on the analysis.
    While Congress has been focused on VA's actions to address the 
growing demand of dialysis therapies depicted in recent committee 
reports,\5\ DAV is concerned that the discussion on VA's dialysis pilot 
and on the Department's purchased or provided dialysis therapy in 
general appears to be centered on cost and we find there is not 
sufficient emphasis on the veteran patient.
---------------------------------------------------------------------------
    \5\ House Appropriations Report 112-094 page 41, May 213, 2011 and 
House Appropriations Reports 112-491, pages 39-40, May 23, 2012.
---------------------------------------------------------------------------
    Certainly, ESRD patients are one of the most resource-intensive 
patient populations in the VA health care system. However, the burden 
of hemodialysis is extreme to veteran patients. It is a life-altering 
event that has implications for the veteran's health, lifestyle, and 
livelihood. Veterans diagnosed with ESRD are often prescribed and must 
receive dialysis treatments. These treatments are time intensive for 
veterans and typically require three outpatient treatments per week 
that each last about 4 hours for the rest of their lives unless they 
receive a kidney transplant.
    As one of The Independent Budget veterans service organizations 
(IBVSOs), coordinating care among the veteran, dialysis clinic, VA 
nephrologists, and VA facilities and physicians is essential to 
improving clinical outcomes and reducing the total costs of care. The 
benefits of an integrated, collaborative approach for this population 
have been proven in several Centers for Medicare and Medicaid Services 
demonstration projects and within private-sector programs sponsored by 
health plans and the dialysis community. Such programs implement 
specific interventions that are known to avoid unnecessary 
hospitalizations, which frequently cost more than the total cost of 
dialysis treatments. These interventions also focus on behavioral 
modification and motivational techniques. The potential return on 
investment in better clinical outcomes, higher quality of life, and 
lower costs could be substantial for VA and veteran patients.
    We understand that some community dialysis providers are piloting 
the integrated care management concept among their veteran population. 
The IBVSOs believe that VA should provide integrated care management in 
this pilot program that can test and demonstrate the value of such an 
approach to VA and the veterans it serves.
s. 1556, to modify authorities relating to the collective bargaining of 
                          employees in the vha
    S. 1556 would amend title 38, United States Code, to modify 
authorities relating to the collective bargaining of employees in the 
Veterans Health Administration.
    This bill would restore some bargaining rights for clinical care 
employees of the VHA that were eroded by the former Administration and 
through subsequent Federal court decisions. The bill would strike 
subsections (b), (c) and (d) of section 7422 of title 38, United States 
Code. Enactment of the bill would have the effect of authorizing 
employee representatives of recognized bargaining units to negotiate 
with VHA management over matters of employee compensation and 
conditions of employment other than their rates of basic pay. This 
feature is an important one in that locality pay elements and 
performance pay increments are subject only to VA's internal 
policymaking determinations. Recognized VA employee representatives 
have been subjectively excluded from participating in these decisions 
based on VA's interpretation that section 7422 broadly blocks any 
negotiation due to its potential negative impact on the quality of care 
of veterans.
    We believe labor organizations that represent employees in 
recognized bargaining units within the VA health care system, including 
in its professional units, have an innate right to information and 
reasonable participation that result in making the VA health care 
system a workplace of choice, and in particular, to fully represent VA 
employees on issues impacting their conditions of employment.
    Congress passed section 7422, title 38, United States Code, in 
1991, in order to grant specific bargaining rights to labor in VA 
professional units, and to promote effective interactions and 
negotiation between VA management, and its labor force recognized 
representatives concerned about the status and working conditions of VA 
physicians, nurses and other direct caregivers appointed under title 
38, United States Code. In providing this authority, Congress granted 
to VA employees and their recognized representatives a right that 
already existed for all other Federal employees appointed under title 
5, United States Code. Nevertheless, Federal labor organizations have 
reported that VA severely restricts the recognized Federal bargaining 
unit representatives from participating in, or even being informed 
about, a number of human resources decisions and policies that directly 
impact conditions of employment of the VA professional staffs within 
these bargaining units. We are advised by labor organizations that when 
management actions are challenged, VA officials (many at the local 
level) have used subsections (b), (c) and (d) of section 7422 as a 
statutory shield to obstruct any labor involvement to correct or 
ameliorate the negative impact of VA's management decisions on 
employees, even when management is allegedly not complying with clear 
statutory mandates (e.g., locality pay surveys and alternative work 
schedules for registered nurses, physician locality pay compensation 
panels, etc.).
    We believe this bill, which would rescind VA's ability to refuse to 
bargain on matters of employment conditions and elements of 
compensation other than rates of basic pay embedded in law, is an 
appropriate remedy to address part of the bargaining problem in the 
VA's professional ranks. We understand recently VA has given Federal 
labor organizations some indication of additional flexibility in 
negotiating labor-management issues such as some features of 
supplemental compensation, and we are hopeful that this change signals 
a new trend in these key relationships that directly affect sick and 
disabled veterans.
    While DAV has not received a specific resolution from our 
membership related to the issues contained in this bill, we would not 
object to its enactment, while continuing to hope that VA and Federal 
labor organizations can find a sustained basis for compromise.
 s. 1558, to carry out a program of outreach for veterans to increase 
 their access and use of federal, state, and local programs providing 
              compensation for service in the armed forces
    S. 1558 would require the Secretary of Veterans Affairs to carry 
out a program of outreach for veterans to increase their access and use 
of Federal, State, and local programs providing compensation for 
service in the Armed Forces and the awareness of such programs by 
veterans and their eligibility for such programs.
    Although DAV does not have a resolution on this particular matter, 
we currently provide such outreach to veterans and, therefore, we would 
not oppose passage of this legislation. The intent of this bill is to 
make veterans aware of the services and benefits from the VA that they 
have earned, which will increase the use of VA benefits and services. 
While we certainly agree and support the increased awareness, this will 
undoubtedly lead to increased demands placed upon the VA. Congress must 
ensure that VA has the adequate resources to handle the increase in 
demand.
    If the enhanced outreach is successful and the demand too great, 
then this endeavor would cause a negative impact on VA and the veterans 
it serves.
    s. 1559, the benefits fairness for filipino veterans act of 2013
    S. 1559 would amend title 38, United States Code, to modify the 
method of determining whether Filipino veterans are United States 
residents for purposes of eligibility for receipt of the full-dollar 
rate of compensation under the laws administered by the Secretary of 
Veterans Affairs.
    DAV does not have a resolution on this issue and takes no position 
on S. 1559.
                s. 1573, the military family relief act
    S. 1573 would amend section 1318 of title 38, United States Code, 
to provide for the payment of temporary compensation to a surviving 
spouse of a veteran upon the death of the veteran. Essentially this 
legislation is aimed at providing temporary death benefits to a 
surviving spouse for six months, without regard to whether that 
individual has submitted a claim for such compensation if, at the time 
of the veteran's death the veteran was in receipt or entitled to 
receive compensation for a service-connected disability continuously 
rated as total for not less than one year immediately preceding the 
veteran's death.
    Specifically, if enacted, S. 1573 would allow a surviving spouse to 
receive payment of survivors benefits temporarily, for six months, with 
no lapse in time from the discontinuance of disability compensation 
upon the veteran's death. Given the current backlog of pending claims 
within the Veterans Benefits Administration (VBA), surviving spouses 
are left for months upon months with no income between the time of the 
veterans' death (and resultant loss of disability compensation) and the 
time dependency and indemnity compensation (DIC) benefits are awarded.
    Under section 1318 of title 38, United States Code, certain 
surviving spouses may be entitled to DIC if at the time of the 
veteran's death, the veteran was continuously rated totally disabled 
for a period of five years within discharge or release from active 
duty; the veteran was continuously rated totally disabled for a period 
of 10 years or more; or the veteran was contiuously rated totally 
disabled for a period of one year if the veteran was a former prisoner 
of war.
    Generally, claims submitted for DIC that meet any of the 
aforementioned eligibility criteria can be processed by VBA very 
quickly because little to no development is required. However, because 
of the dire backlog of claims within VBA, qualified surviving spouses 
are left to languish for unacceptably long periods of time with no 
income. Even if the surviving spouse were to file a qualifying claim 
for DIC pursuant to Section 1318 of title 38, United States Code, under 
the more expedient FDC process, a lapse in payment and loss of vital 
income would still exist. S. 1573 is directed specifically at bridging 
the gap of benefits between the veteran's death and the time DIC is 
awarded. While this measure would provide DIC only temporarily for six 
months, it would ease the burden the veteran's death and immediate loss 
of vital income while VBA finally processes the claim.
    In accordance with DAV Resolution No. 001, DAV supports enactment 
of S. 1573.
 draft bill, to update the service disabled insurance program to base 
 premium rates on the commissioner's 2001 standard ordinary mortality 
  table instead of the commissioner's 1941 standard ordinary table of 
                               mortality
    This bill would amend title 38, United States Code, to update the 
Service Disabled Insurance program to base premium rates on the 
Commissioner's 2001 Standard Ordinary Mortality table instead of the 
Commissioner's 1941 Standard Ordinary Table of Mortality. DAV is 
pleased to see the introduction of this draft Senate bill.
    It is strongly supported by our organization and has been adopted 
for decades as a formal resolution by DAV delegates. Also, the IBVSOs 
have encouraged Congress to adjust these premium rates rather than 
continue the practice of using an antiquated formula that has been 
disproportionate to industry standards. This premium inequity has 
persisted amongst disabled veterans for so many years with the monthly 
cost of this insurance negating the overall value of the benefit 
itself.
    DAV strongly encourages this Committee to work with your colleagues 
and with the House of Representatives to ensure favorable consideration 
of this legislation. DAV also welcomes the opportunity to work with 
Congress to ensure the enactment of this measure, which will have a 
lasting and positive impact on our Nation's disabled veterans and their 
families now and into the future.
  draft bill, to provide replacement automobiles for certain disabled 
                veterans and members of the armed forces
    This bill would amend title 38, United States Code, to provide 
replacement automobiles for certain disabled veterans and members of 
the Armed Forces. This measure, if enacted, would amend section 3903 
allowing qualified disabled veterans the opportunity to utilize this 
vital program up to three times, rather than the currently allowed one 
time, and increase the current amount from $18,900 to $30,000. This 
measure will allow a qualified disabled veteran the ability to use the 
benefit up to two times beyond the initial use of the grant with an 
aggregate amount of $30,000 available to the veteran.
    Not only has the issue of increasing the amount of the automobile 
grant benefit been a long-standing issue for DAV, other veterans 
service organizations (VSOs) have also sought to have the amount of 
this vital benefit increased. DAV, joined with the other IBVSOs, have 
urged Congress to expand the automobile grant benefit by allowing 
previous recipients of a much lesser amount of $11,000, $8,000 or even 
less, to be able to receive a supplemental auto grant for the 
difference between what the original automobile grant and the current 
amount.
    For example, the VA provides financial assistance in the form of 
grants to eligible veterans toward the purchase of a new or used 
automobile to accommodate a veteran or servicemember with certain 
disabilities that resulted from a disabling condition incurred or 
aggravated during active military service. In December 2011, this one-
time auto grant was increased from $11,000 to $18,900, thus giving 
service-disabled veterans who need a modified vehicle increased 
purchasing power. While there are veterans who have not yet used the 
grant, veterans who have exhausted the grant are left to replace 
modified vehicles, once those vehicles have surpassed their useful 
life, at their own expense and at a higher cost than the first adapted 
vehicle due to inflation.
    Additionally, last year the Department of Transportation reported 
the average life span of a vehicle is 12 years, or about 128,500 miles. 
The cost to replace modified vehicles can range from $40,000 to $65,000 
new, and $21,000 to $35,000 used, on average. These tremendous costs, 
compounded by inflation, present a financial hardship for many service-
disabled veterans who need to replace their primary mode of 
transportation once it exceeds its expected life.
    As such, in accordance with DAV resolution No. 170, DAV supports 
enactment of this draft legislation as it will expand the vital 
automobile grant benefit by allowing multiple uses while increasing the 
current amount from $18,900 to an aggregate amount of $30,000.
 draft bill, the veterans health care eligibility expansion act of 2013
    Section 2 of this measure would amend title 38, United States Code, 
section 1710 authorizing VA to provide health care to all veterans not 
currently enrolled in the VA health care system provided they meet 
other statutory requirements, including section 5303, availability of 
appropriations, agreeing to pay copayments, etc.
    In amending section 1710 however, this new authority would require 
VA provide nursing home care to veterans described under the new 
paragraph (3) of subsection (a) while giving VA the discretion to 
provide nursing home care to veterans described under paragraph (2) of 
subsection (a).

          (2) The Secretary (subject to paragraph (4)) shall furnish 
        hospital care and medical services, and may furnish nursing 
        home care, which the Secretary determines to be needed to any 
        veteran----
          (3) In the case of a veteran who is not described in 
        paragraphs (1) and (2), the Secretary shall subject to the 
        provisions of subsections (f) and (g), furnish hospital care, 
        medical services, and nursing home care which the Secretary 
        determines to be needed. [Emphasis added]

    DAV National Resolution No. 186 supports top priority access for 
service-connected veterans within the VA health care system.
    For purposes of equity, we recommend language amending paragraph 
(2) to state that the Secretary shall furnish hospital care, medical 
services, and nursing home care that the Secretary determines to be 
needed to any veteran under subparagraphs A through G.
    Section 3 would amend title 38, United States Code, section 1705 
requiring VA allow for the enrollment by December 31, 2014, of 
noncompensable service-connected veterans and nonservice-connected 
veterans not currently permitted to enroll in the VA health care system 
and who do not have access to health insurance except through state-
based health insurance exchanges established according to the Patient 
Protection and Affordable Care Act.
    DAV has no resolution to support this section and would not object 
to its favorable consideration as long as sufficient resources are in 
place at the time this enrollment takes effect.
    Section 4 seeks to extend the eligibility for enrollment in the VA 
health care system from 5 to 10 years following discharge for a combat 
veteran discharged after January 27, 2003.
    DAV has no specific resolution but the provision appears 
beneficial, thus we would not oppose favorable consideration of this 
section.
    Section 5 intends to relocate section 1710(a)(4), which this 
measure proposes to eliminate, and by adding a new subsection (c) in 
section 1707.
    DAV has no resolution and would not object to its favorable 
consideration. However, we note the requirements of VA in providing 
required nursing home care under section 1710A is due to expire 
December 31, 2013. We also note enactment of this provision would 
require technical changes in other sections of title 38 referencing 
subsection 1710(a)(4).
    Section 6 would insert a new section (1729B) in title 38 to 
establish the ``Medicare VA reimbursement program'' for the purposes of 
recovering from the Department of Health and Human Services those costs 
to VA from providing treatment for a nonservice-connected condition to 
a Medicare-eligible veteran.
    DAV has no resolution on this section and takes no formal position. 
However, notwithstanding the ``Sense of Congress'' provision, which is 
not enforceable on Congress or the Administration, that reimbursements 
received by VA from HHS \6\ ``should not be'' used to reduce VA 
discretionary appropriations, history shows that third-party 
reimbursements have indeed been used to offset VA medical care 
discretionary appropriations despite the original intent.
---------------------------------------------------------------------------
    \6\ Sec. 1729B (c)(5) ``Any payment made to the Department under 
this subsection shall be deposited in the Department of Veterans 
Affairs Medical Care Collections Fund under section 1729A of this 
title.''
---------------------------------------------------------------------------
    History has also shown that VA does not have a good record of 
meeting projected amounts to be collected from reimbursements and must 
then operate a health care system with less funds than needed to meet 
the demand for care and services.
     draft bill, the enhanced dental care for veterans act of 2013
    This measure would authorize VA to establish a three-year pilot 
program in at least 16 locations to assess the feasibility and 
advisability of furnishing dental care to veterans enrolled in the VA 
health care system who are not eligible under current authorities for 
VA dental care. In addition, this bill would extend for an additional 
two years the VA Dental Insurance Program (VADIP) for veterans and 
survivors and dependents of veterans mandated under Section 510 of 
Public Law 111-163.
    The legislation also requires VA to establish a mechanism to add 
any dental care treatment information provided by private providers 
under VADIP in VA's Computerized Patient Record System (CPRS). Until 
recently, the discretionary nature of receiving any treatment 
information from a non-VA provider and electronically associating it 
with a veteran treatment file in CPRS has traditionally not been 
successful particularly if there is no requirement that submission of 
such records to VA was a condition to receive payment from the 
Department or that it is required by VA policy to include such records 
in CPRS. While we are supportive of the intent in Section 5, we believe 
there will be limited success without an incentive or disincentive for 
the transmission or receiving end of such information.
    DAV is pleased to support this measure based on DAV Resolution No. 
072, supporting legislation to amend title 38, United States Code, 
section 1712, to provide outpatient dental care to all enrolled 
veterans. However, DAV opposes subsection (g), the copayment provision 
under the VA provided dental care pilot program in accordance with our 
Resolution No. 194, calling for the elimination or reduction of VA 
health care out-of-pocket costs for service-connected disabled 
veterans.
    draft bill, the mental health support for veterans families and 
                         caregivers act of 2013
    The Mental Health Support for Veterans Families and Caregivers Act 
of 2013 would require the Secretary of Veterans Affairs to conduct an 
education program and peer support program for family members and 
caregivers of veterans with mental health disorders. The goal of the 
measure is to educate and train the family members and caregivers in 
how to cope with mental health disorders in veterans and would take 
place over a four-year period, with the Secretary being authorized to 
extend the duration of the education program for an additional four 
years. Eligible veterans are those who are enrolled in the VA health 
care system.
    The bill would mandate VA to establish the education program in at 
least 10 VA medical centers (VAMCs), Community-Based Outpatient Clinics 
(CBOCs), and Vet Centers. Additionally, the Secretary must consider the 
feasibility of selecting locations in rural areas, areas not in close 
proximity to an active duty location and areas in different geographic 
locations. Two years after the start of the program, the Secretary 
would be required to expand locations to at least 10 more VAMCs, 10 
more CBOCs, and 10 more Vet Centers.
    In order to facilitate the program, the Secretary is required to 
enter into contracts with nonprofit entities with experience in mental 
health education and outreach to include work with children, teenagers 
and young adults. These groups must use high quality, relevant and age-
appropriate information in their educational materials and coursework. 
The nonprofit entities must work with agencies, departments, nonprofit 
mental health organizations, early childhood educators and mental 
health providers to develop the educational programming, materials and 
coursework. The Secretary would give priority entering into contracts 
with entities that also use Internet technology for delivery of course 
content in order to expand the availability of support services, 
especially in rural areas.
    The education component of the program would consist of at least 10 
weeks of general education on different mental health disorders with 
information on understanding experiences of persons suffering from the 
disorders; techniques for handling crisis situations and administering 
mental health first aid; techniques for managing stress affiliated with 
living with a person with a mental health disorder; information on 
additional services available for family members and caregivers through 
VA or community organizations as well as mental health providers.
    The instructors of the education program must be proficient in the 
course of education and able to prove their level of proficiency to the 
Secretary. Two years after the program has begun, those who have 
successfully completed the course of education as well as any 
additional training that may be required, may act as an instructor in 
the education course. The Secretary will select mental health care 
providers to monitor the instruction of the education program along 
with primary care providers. The mental health providers will monitor 
instructors by meeting with them quarterly, and at a minimum of twice a 
year will submit a report on the progress of the instruction provided 
in the education program to the Secretary.
    The peer support program will be conducted at the same locations 
the Secretary chooses for the education program and will consist of 
group meetings at least twice each calendar quarter between a peer 
support coordinator, family members and caregivers of eligible veterans 
on matters related to coping with mental health disorders in veterans. 
The medical facility director of each participating facility shall 
select an individual who has completed a course of education and 
maintains proficiency to serve as a peer support coordinator. A mental 
health care provider selected by the Secretary would be required to 
mentor each peer support coordinator and will meet with them quarterly 
to monitor progress of the program, and at a minimum of twice a year 
will submit a report on the progress of the peer support program to the 
Secretary.
    The measure would also require the Secretary to conduct a 
comprehensive and statistically significant survey of individuals who 
have participated in the education and peer support programs to include 
their level of satisfaction, perceived effectiveness and applicability 
of the programs. This information is to be included in a mandated 
annual report due no later than one year after the start of the 
education program, and no later than September 30 of every following 
year until 2017. In addition to the survey results, the report must 
include the number of participants in each program, analysis of the 
surveys, summary of feedback from the mentors and monitors, and the 
degree to which the veterans and family members and caregivers are 
aware of the eligibility requirements for enrollment in both programs. 
The report must also note any plans for expansion of the programs and 
interim findings and conclusions of the Secretary with respect to the 
success of the programs. The bill requires the mandated report to be 
submitted to the Committees on Veterans' Affairs of the Senate and 
House.
    The final report would be due to the Committees on Veterans' 
Affairs of the Senate and House no later than one year after the 
completion of the education program regarding the feasibility and 
advisability of the education and peer support programs to include 
analysis of the surveys, viability of continuing the education program 
without entering into contracts and instead using peer support 
coordinators selected as instructors of the education course as well as 
comments on expanding both programs.
    In accordance with DAV Resolution No. 166, DAV is pleased to 
support the Mental Health Support for Veterans Families and Caregivers 
Act of 2013. DAV Resolution 166 calls on the Secretary of Veterans 
Affairs to establish appropriate and effective programs to ensure that 
veterans who are enrolled in VA health care receive adequate care for 
their wounds and illnesses, including mental health-related illnesses, 
and, when appropriate, family members--whether family caregivers, 
spouses or other family dependents--receive necessary counseling, 
including psychological counseling, training and other mental health 
support services authorized by law to aid in the recovery of veterans.
    VA treats a large patient population of veterans suffering from 
chronic effects of PTSD, depression and other serious mental illnesses. 
Many of these veterans suffer marriage and relationship breakdown, 
under-employment or loss of employment, financial hardship, social 
alienation and even homelessness. When a veteran experiences emotional 
distress and or mental decompensation, the consequences of that 
behavioral health event often fall directly on the veteran's family 
members and caregivers. Experts argue that support of family members 
and caregivers is often vital to a veteran's gaining and maintaining 
emotional stability and eventual recovery from mental illness.
    Currently, title 38, United States Code, subsection 1712A(b)2 
authorizes the VA Readjustment Counseling Service, through its Vet 
Center program, to provide psychological counseling and other necessary 
mental health services to family members of war veterans under care in 
such Vet Centers, irrespective of service-connected disability status. 
Section 301 of Public Law 110-387 authorizes marriage and family 
counseling in VA facilities to address the needs of veterans' families, 
including spouses and other dependent family members of veterans who 
are experiencing mental health challenges with attendant marital or 
family difficulties. Public Law 111-163 authorizes a wide array of 
support, care and counseling services for personal caregivers of 
severely injured or ill veterans from all eras of military service.
    Additionally, title 38, United States Code, section 1782 authorizes 
a program of counseling, training, and mental health services, 
including psychological support, for immediate family members of 
disabled veterans who need care for service-connected disabilities; who 
have service-connected disabilities rated at 50 percent or more 
disabling; who were discharged or retired from the Armed Forces for 
injuries or illnesses incurred in line of duty; who are World War I or 
Mexican Border Period veterans; who were awarded the Purple Heart; who 
are former prisoners of war; who were exposed to radiation or toxic 
substances; or, who are unable to defray the expenses of their care.
    This measure would expand education, training and psychological 
support, for family members and caregivers of enrolled veterans with 
mental health disorders.
            draft bill, the medical foster home act of 2013
    This bill would authorize the Secretary of Veterans Affairs to 
cover the costs associated with the care of veterans at medical foster 
homes.
    VA inspects and approves Medical Foster Homes, which are private 
homes with a trained caregiver providing needed services to a few 
individual residents. A Medical Foster Home may be appropriate for 
veterans who would otherwise be placed in a nursing home because they 
lack the support network necessary to remain in their own home.
    VA ensures the caregiver is both well trained to deliver VA's 
planned care for the veteran and is on duty 24 hours a day, 7 days a 
week. While living in a Medical Foster Home, veteran residents are 
enrolled in the VA Home Based Primary Care program and care is provided 
by an interdisciplinary team that offers a broad array of supportive 
services.
    DAV is pleased with VA's innovation by offering medical foster 
homes as part of its long-term care program. While patient 
participation in this program is voluntary, it yields exceedingly high 
satisfaction among veteran residents. In addition, because of its low 
cost, many VA facilities perceive this program as a cost-effective 
alternative to nursing home placement and it is gaining popularity 
based on the expansion of this program over the last several years.
    However, based on DAV Resolution No. 198, supporting legislation to 
expand the comprehensive program of long-term services and supports 
(LTSS) for service-connected disabled veterans, and as part of the IB, 
DAV is greatly concerned that veterans living in medical foster homes 
are required to use personal funds, include VA disability compensation, 
as payment.
    Because this program operates under VA's community residential care 
authority, veterans in medical foster home programs have to pay for 
their care, which range from about $50 to as much as $150 a day. Even 
veterans who are otherwise entitled to nursing home care fully paid for 
by VA, whether it is under the law or by VA's policy must pay to reside 
in a Medical Foster Home. Moreover, service-connected veterans who do 
not have the resources to pay a medical foster home caregiver may not 
avail themselves of such an important benefit.
    We thank the Chairman for introducing this measure, which would 
give VA the authority to pay for those costs service-connected veterans 
must currently pay out-of-pocket to reside in a VA approved medical 
foster home.
    DAV is pleased to support the intent of this bill; however, because 
current statutory authority prohibits VA from meeting is mandatory 
obligations in providing long-term services and supports to service-
connected disabled veterans, we believe the intent of this legislation 
should be codified.
      draft bill, the scra enhancement and improvement act of 2013
    The SCRA Enhancement and Improvement Act of 2013 would amend the 
Servicemembers Civil Relief Act to extend the interest rate limitation 
on debt entered into during military service to debt incurred during 
military service to consolidate or refinance students loans incurred 
before military service.
    DAV does not have a resolution on this issue and takes no official 
position, but would not oppose enactment of such legislation.
   draft bill, the improved compensation for hearing loss act of 2013
    The Improved Compensation for Hearing Loss Act of 2013 would 
require the Secretary of Veterans Affairs to submit reports on the 
provision of services by the VA to veterans with hearing loss and other 
auditory system injuries and the measures that can be taken jointly by 
the VA and the DOD with respect to hearing loss and other auditory 
system injuries.
    Specifically, if enacted, this proposed legislation would allow the 
Secretary one year from the date of such enactment to report to 
Congress on the actions taken to implement the directives in Public Law 
107-330, the Veterans Benefits Act of 2002, with respect to a 
longitudinal study of hearing loss and tinnitus since World War II, and 
the implementation of findings and recommendations of the pursuant 
comprehensive 2006 report by the Institute of Medicine titled, ``Noise 
and Military Service: Implications for Hearing Loss and Tinnitus.''
    This measure requires the Secretary's report to include an 
evaluation as to the number of veterans who had a military occupational 
specialty (MOS) not included in the Duty Military Occupational 
Specialty Noise Exposure Listing (MOS List) that are precluded from 
receiving hearing loss benefits from VA. This measure also requires the 
Secretary to report the number of veterans who had an MOS listed on the 
MOS List that were granted and denied benefits for hearing loss; and of 
those veterans with an MOS not listed on the MOS List, the number that 
were granted and denied entitlement to hearing loss benefits, as well 
as the number of those denied that were successfully granted on appeal.
    While this proposed legislation is one of reporting requirement in 
nature, of particular interest to DAV is the requirement for the 
Secretary to provide an explanation of the rationale for the practice 
of not issuing a compensable rating for hearing loss that is severe 
enough to necessitate the use of hearing aids. This particular 
provision in the proposed legislation is directly in line with a long-
standing DAV resolution, as well as in consensus with the other 
Independent Budget VSOs, as it has been recognized that certain 
veterans may suffer from hearing loss to the degree of requiring a 
prescribed hearing aid, but are not able to receive compensation.
    In fact, the VA Schedule for Rating Disabilities (VASRD) contained 
in title 38, Code of Federal Regulations, part 4 does not provide a 
compensable rating for hearing loss at certain levels severe enough to 
require the use of hearing aids. The minimum disability rating for any 
hearing loss severe enough to require use of a hearing aid should be 10 
percent, and the VASRD should be amended accordingly.
    A disability severe enough to require use of a prosthetic device 
should be compensable. Beyond the functional impairment and the 
disadvantages of artificial hearing restoration, hearing aids 
negatively affect the wearer's physical appearance, similar to scars or 
deformities that result in cosmetic defects. Also, it is a general 
principle of VA disability compensation that ratings are not offset by 
the function artificially restored by a prosthetic device.
    For example, a veteran receives full compensation for amputation of 
a lower extremity although he or she may be able to ambulate with a 
prosthetic limb. Additionally, a review of title 38, Code of Federal 
Regulations, Part 4 [VASRD] shows that all disabilities for which 
treatment warrants an appliance, device, implant, or prosthetic, other 
than hearing loss with hearing aids, receive a compensable rating.
    Assigning a compensable rating for medically prescribed hearing 
aids would be consistent with minimum ratings provided throughout the 
VASRD. Such a change would be equitable and fair.
    While DAV appreciates the proposed legislation requiring the 
Secretary to provide an explanation, we believe this provision would 
merely allow VA the opportunity to prolong this inequitable issue. In 
accordance with DAV Resolution No. 111, DAV recommends this provision 
of the proposed legislation be changed from requiring the Secretary to 
provide an explanation to that of amending the VASRD to provide a 
minimum 10 percent disability rating for any service-related hearing 
loss medically requiring a hearing aid.
    Although we do not have a resolution to support the other reporting 
requirements of this proposed legislation, DAV is not opposed enactment 
of those provisions, provided they do not overburden VA at a time where 
transformation of the claims process and reducing the backlog of 
pending disability claims is paramount.
       draft bill, the survivors of military sexual assault and 
                       domestic abuse act of 2013
    The Survivors of Military Sexual Assault and Domestic Abuse Act of 
2013 would expand subsection (a) of section 1720D of title 38, United 
States Code, and authorize the VA to provide counseling and treatment 
for sexual trauma to members of the Armed Forces including the National 
Guard and Reserves to aid in their overcoming psychological trauma. A 
referral will not be required before an individual receives counseling 
and care. Some technical aspects of the measure include amending the 
law to be gender neutral.
    Section 3 of the bill would require the VA Secretary, no later than 
540 days after enactment of the Act, to develop and implement a 
screening mechanism to be used when veterans seek health care services 
from VA to identify if the veteran has been a victim of domestic abuse. 
The purpose of this provision is to improve treatment of the veteran 
and assess prevalence of domestic abuse in the veteran population. 
Domestic abuse, in part, is defined as behavior that constitutes a 
pattern of physical or emotional abuse, economic control or 
interference with personal liberty, or a violation of Federal or state 
law involving the attempted, threatened, or actual use of force or 
violence against the person, in addition to a violation of a protective 
order. In order to qualify as domestic abuse, the behavior is committed 
by a current or former spouse or domestic partner, or a person that 
shares a child with the individual, is a current or former intimate 
partner that shares or has shared a common residence or is a caregiver 
of the individual as defined in section 1720G(d) of title 38, United 
States Code, or in any other type of relationship with the individual 
that the Secretary may specify for this purpose.
    Section 4 of the legislation would require the VA Secretary, within 
a year after enactment of the Act, to submit a report to the Committees 
on Veterans' Affairs of the Senate and House and detail the treatment 
and services available from VA for male veterans who experience 
military sexual trauma (MST) compared to the treatment and services 
available to women veterans who experience MST. The Secretary would 
also be required to include a report on domestic abuse among veterans 
that specifies the types, outcomes, and circumstances of domestic abuse 
incidents reported by veterans over the two-year period preceding the 
submission of the report as well as a summary of the treatments 
available from VA for sufferers of domestic abuse and whether an 
incident of MST experienced after the age of 18 may increase the risk 
for domestic abuse along with any other issues the Secretary deems 
appropriate.
    Additionally, within a year after enactment of this Act and 
annually thereafter for five years, the VA/DOD Joint Executive 
Committee would be required to submit a report on MST and domestic 
abuse that details the processes and procedures utilized by VA and DOD 
to facilitate transition of treatment of those who have experienced 
either of one these to include treatment provided by both Departments. 
The report must also include a description and assessment of VA/DOD 
collaboration assisting veterans in filing claims for disabilities 
related to MST or domestic abuse, including permitting veterans access 
to information and evidence necessary to develop or support such 
claims.
    The continued prevalence of sexual assault in the military is 
alarming and often results in lingering physical, emotional or chronic 
psychological symptoms in assault survivors. The DOD's Office of Sexual 
Assault Prevention and Response (SAPRO) reports that over 3,000 sexual 
assaults are reported each year across the military services and 
estimates that approximately 87 percent of all sexual assaults go 
unreported, therefore approximating more than 26,000 sexual assaults 
occur each year in the military services. Likewise, more than 20 
percent of women and over one percent of men enrolled in the VA health 
care system report they had experienced military sexual trauma (MST). 
MST-related outpatient treatment encounters total nearly 800,000 clinic 
visits each year in the VA.
    For these reasons, DAV is pleased to support the Survivors of 
Military Sexual Assault and Domestic Abuse Act of 2013. DAV Resolution 
No. 125, in part, urges VA to continually improve its MST treatment 
programs. DAV wants to ensure all MST survivors, male and female, gain 
open access to the specialized treatment programs and services they 
need to fully recover from sexual trauma that occurred in military 
service. We appreciate the intent of the bill to improve better 
collaboration between DOD and VA, specifically related to transition 
from military service to veteran status, as it is essential in 
achieving this goal. Due to the stigma and sensitive and personal 
nature of sexual assault, coupled with the unique and complex military 
hierarchy, rules and regulations that servicemembers are subjected to, 
it appears it would be extremely beneficial for active duty 
servicemembers, including National Guard and Reserve troops, to have 
access to MST counseling and care from VA. Although DAV does not have a 
specific resolution related to domestic abuse screening or required 
reports, we have no objection to those provisions in the bill.
    DAV also suggests the Committee consider adding a provision in the 
bill related to MST care and beneficiary travel reimbursement. As a 
result of VA clinical determinations, some veterans are referred to VA 
medical facilities other than their local facilities or closest 
Veterans Integrated Service Network to receive the specialized MST care 
they need. The VA Office Inspector General (IG) conducted a healthcare 
inspection of inpatient and residential programs for female veterans 
with mental health conditions related to MST. The IG found that 
obtaining authorization for travel funding was frequently cited as a 
problem for patients and staff.
    According to the IG, the VA's current policy in beneficiary travel 
indicates that only selected categories of veterans are eligible for 
travel benefits and payment is only authorized to the closest facility 
providing comparable service. The IG points out that this Directive is 
not aligned with the MST policy that states that patients with MST 
should be referred to programs that are clinically indicated regardless 
of geographic location. If a VA clinician determines an MST survivor 
needs specialized care from a VA MST inpatient facility, VA's 
beneficiary travel policy may serve to obstruct access to that unique 
resource, or force an MST survivor to self-pay all travel costs in 
order to gain access to these specialized services. For these reasons, 
DAV supports legislation to change beneficiary travel policies to meet 
the specialized clinical needs of veterans receiving MST-related 
treatment in accordance with DAV Resolution 125.
   draft bill, to expand and facilitate compensation of veterans for 
illnesses associated with exposure to toxic substance during service on 
                    active duty in the armed forces
    This bill would amend title 38, United States Code, to expand and 
facilitate compensation of veterans for illnesses associated with 
exposure to toxic substance during service on active duty in the Armed 
Forces. Although DAV has two resolutions on providing health care and 
benefits for veterans exposed to toxic substances while on active duty, 
we have not had sufficient time to review this bill thoroughly. We ask 
the Committee to allow DAV to submit supplemental comments on this 
legislation for the record, after we have had time to fully analyze 
this draft legislation.
draft bill, to provide a limited exception to the 24-month requirement 
   in order for veterans enrolled in the va health care system to be 
 eligible for payments or reimbursement for non-va emergency treatment
    This bill proposes a limited exception to the 24-month requirement 
in order for veterans enrolled in the VA health care system to be 
eligible for payment or reimbursement for non-VA emergency treatment 
under title 38, United States Code, section 1725.
    DAV Resolution No. 212 supports legislation to amend title 38, 
United States Code, to eliminate the provision that requires enrolled 
veterans to have received care from VA within the 24-month period prior 
to date of the emergency care. DAV believes a health care benefit 
package is incomplete without a provision for emergency care. 
Accordingly, the 24-month requirement under Sec. 1725 discriminates 
against otherwise healthy veterans who need not seek care at least once 
every 24 months, yet is required to make an otherwise unnecessary 
medical appointment in order to be eligible for payment or 
reimbursement for non-VA emergency treatment.
    While DAV supports the concept of the legislation, which is to 
address the restrictive nature of the 24-month requirement included in 
Sec. 1725(b)(2)(B). We are concerned with the measures approach, which 
further fragments an already poorly constructed eligibility criterion, 
by providing relief to only ``new veteran patients'' with the ``safety 
net'' of non-VA emergency coverage.
    Notably, ``established patients'' represent approximately 90 
percent of VHA's total outpatient appointments. Currently, the VHA 
defined ``established patients'' as those who have received care from a 
qualifying provider in a specific clinic in the previous 2 years; ``new 
patients'' represent all others.
    VA examines wait times for completed appointments with the ultimate 
goal of delivering high quality service at the time wanted and needed 
by each veteran. In 2014, VA will measure wait times for primary care, 
specialty care, and mental health appointments for new and established 
patients. In 2013, VA updated the methodologies to measure wait times 
for ``new'' and ``established patient'' appointments to improve 
reliability and consistency. Appointments for ``new patients'' will use 
the create date, defined as when the appointment was made and 
automatically captured by the scheduling system. Appointments for 
``established patients'' will use the desired date, defined as the 
agreed upon date determined together by provider and patient. Desired 
date is measured prospectively to better represent patient 
satisfaction. Therefore, no targets are set in 2013 and 2014 so that 
baseline performance can be established.
    We also note the ill-defined legislative text ``a waiting period 
imposed by the Department'' pertaining to wait times associated with a 
newly enrolled veteran's initial appointment at a VA medical facility 
is especially problematic. In determining ``a waiting period,'' this 
Committee is aware of continuing reliability issues of VA reported 
outpatient medical appointment wait times and the need for improving 
appointment scheduling oversight.\7\
---------------------------------------------------------------------------
    \7\ Reliability of Reported Outpatient Medical Appointment Wait 
Times and Scheduling Oversight Need Improvement, Government 
Accountability Office, December 21, 2012. Washington, DC.
---------------------------------------------------------------------------
draft bill, to require entities that receive per diem payments through 
 va, for the provision of services to homeless veterans, to submit an 
annual certification to the secretary of veterans affairs proving that 
   the building where the entity provides housing or services is in 
  compliance with codes relevant to the operations and level of care 
                                provided
    This draft bill would amend title 38, United States Code, to 
require entities that receive per diem payments through VA, for the 
provision of services to homeless veterans, to submit an annual 
certification to the Secretary of Veterans Affairs proving that the 
building where the entity provides housing or services is in compliance 
with codes relevant to the operations and level of care provided.
    The certification would include compliance with requirements 
outlined in the recently published version of the Life Safety Code or 
such other comparable fire and safety requirements as the Secretary may 
specify. Additionally, all licensing requirements regarding the 
condition of the structure and the operation of supportive housing or 
service center, including fire and safety requirements, must be 
provided.
    DAV previously testified on a similar bill, H.R. 2065, introduced 
in the 113th Congress. While we did not have a National Resolution from 
our membership specifically covering the state of the housing provided 
to veterans or the safety of the facilities where homeless services are 
provided, we did not oppose favorable consideration of the legislation. 
However, we testified that H.R. 2065 may adversely impact Grant and Per 
Diem providers, which could leave many homeless veterans and their 
families without the services they need.
    For entities that receive per diem payments during the year in 
which the legislation is enacted, the recipient must submit all 
certifications required to the Secretary no later than two years after 
the date of enactment, or additional per diem payments will be halted 
until certification is received. Both the Senate and House versions 
contain similar language; leaving the question unanswered as to what 
would become of the homeless veterans in these programs where their 
facilities fail to produce the mandated documentation?
    While DAV agrees with the intent of the measure to provide safe 
shelters for our homeless veterans, we urge the Senate to work with the 
House to mitigate any detrimental effects this bill may have while 
meeting the needs of homeless veterans in a safe environment. Both 
bills contain sound components. They can be modified slightly to 
produce a comprehensive piece of legislation that takes into 
consideration the potential impact on homeless veterans that are 
serviced by grant recipients that fail to meet the criteria set forth 
in the legislation.
        draft bill, to rename the bay pines va healthcare system
    This bill would redesignate the Department of Veterans Affairs 
Healthcare System located at 10000 Bay Pines Boulevard in Bay Pines, 
Florida, as the ``C.W. Bill Young Department of Veterans Affairs 
Medical Center.''
    This is a local issue. DAV does not have a national position on the 
matter.
      draft bill, the servicemember housing protection act of 2013
    This bill would amend the Servicemembers Civil Relief Act to 
enhance the protections accorded to servicemembers and their spouses 
with respect to mortgages.
    DAV does not have a resolution on this issue and takes no official 
position, but would not oppose enactment of such legislation.
    draft bill, the support of joint federal facilities act of 2013
    This measure would provide VA the authority to enter into 
agreements with the Department of Health and Human Services (HHS) to 
share medical facilities with the goal of improving access to, and 
quality and cost effectiveness of, health care furnished by HHS. Funds 
transferred from the Department's accounts for medical care, and major 
and minor construction would be used in conjunction with HHS funds.
    DAV has no resolution on sharing medical facilities with HHS; 
however, National Resolution No. 188 calls on Congress to carefully 
monitor any intended changes in VA infrastructure that could jeopardize 
VA's ability to meet veterans' needs for primary and specialized VA 
medical care and rehabilitative services.
    Although DOD and VA have shared resources at some level since the 
1980s, shared facilities with DOD have raised DAV's concerns over VA's 
ability under such sharing to ensure its resources are used in a cost-
effective manner for the care and rehabilitation of ill and injured 
veterans. Through their reports, the Government Accountability Office 
appears to validate our concerns in sharing facilities and 
resources.\8\
---------------------------------------------------------------------------
    \8\ VA Health Care: Additional Efforts to Better Assess Joint 
Ventures Needed, GAO-08-399 (Washington, DC: Mar. 28, 2008); VA and DOD 
Health Care: First Federal Health Care Center Established, but 
Implementation Concerns Need to Be Addressed, GAO-11-570 (Washington, 
DC: July 19, 2011); Electronic Health Records: DOD and VA Should Remove 
Barriers and Improve Efforts to Meet Their Common System Needs, GAO-11-
265 (Washington, DC: Feb. 2, 2011); Costly Information Technology 
Delays Continue and Evaluation Plan Lacking, GAO-12-669 (Washington, 
DC: June 26, 2012); Department-Level Actions Needed to Assess 
Collaboration Performance, Address Barriers, and Identify 
Opportunities, GAO 12-992 (Washington, DC: Sept. 28, 2012).
---------------------------------------------------------------------------
    Like the original authorization provided to VA and DOD for a five-
year demonstration project to integrate VA and DOD medical care into a 
first-of-its-kind Federal Health Care Center in North Chicago, 
Illinois, we ask the Committee to first consider a demonstration 
project for this new authority. Moreover, we ask the Committee consider 
additional provisions on VA and HHS to develop performance measures to 
show the extent of progress for effective management and strategic 
planning, and to assess the effectiveness and efficiencies in the 
provision of care and operations.

    Mr. Chairman, this concludes my testimony and I would be happy to 
answer any questions from you or members of the Subcommittee.

    Chairman Sanders. Thank you very much, Mr. Atizado, and 
thank you for what the DAV is doing.
    Colonel Norton.

   STATEMENT OF COLONEL ROBERT F. NORTON, USA (RET.), DEPUTY 
 DIRECTOR, GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION 
                           OF AMERICA

    Colonel Norton. Thank you, Mr. Chairman. It is an honor to 
be here with you today. Thank you Senator Burr, Senator 
Blumenthal. I represent some 380,000 members of the Military 
Officers Association of America.
    Mr. Chairman, three of the bills on the agenda today would 
amend the Servicemembers Civil Relief Act or SCRA. Your bill, 
the SCRA Enhancement and Improvement Act makes a number of key 
improvements that support our active duty, National Guard, and 
Reserve members called to active Federal service.
    I believe it is important to set this bill in a proper 
context. Since September 11, 2001, almost 900,000 members of 
the Guard and Reserve have been called up and over 300,000 have 
served on multiple tours of active duty. Reliance on our 
citizen soldiers has never been greater.
    It is, in fact, our national policy that reservists can 
expect to be activated 1 year or every 5 years they are 
training part time at home. The legislation is also important, 
very important for active duty families.
    The SCRA Enhancement and Improvement Act expands mortgage 
protections for service families required to move under 
military orders. It preserves civilian licenses and 
certifications that may expire during a combat zone deployment, 
and it prevents a servicemember from being denied or refused 
credit solely by reason of eligibility for the SCRA among other 
objectives in the bill.
    Senator Jack Reed's Servicemember Housing Protection Act, 
S. 1593, complements your bill, Mr. Chairman. It includes a 
provision that extends SCRA mortgage foreclosure protection for 
1 year to the surviving spouses of servicemen and women who 
made the ultimate sacrifice or who died in the line of duty.
    Another provision in the bill allows a military family who 
is renting off post housing to be able to break a residential 
lease without penalty in the event that on base housing opens 
up.
    The bill would also trigger SCRA protections with a 
commanding officer's letter that would serve as a type of 
military order. Together these bills straighten the morale, 
well-being, and readiness of our Nation's military families. 
The Military Officers Association strongly supports these 
measures.
    S. 1399, the Servicemember Student Loan Affordability Act, 
sponsored by Senator Durbin, is beneficial to young people with 
multiple student loans who agree to join our Armed Forces.
    The bill allows them to consolidate student loan debt and 
gain the SCRA 6 percent interest rate cap. We believe this bill 
also supports recruitment of talented Americans with unique 
skills in demand by our Armed Forces.
    Senator Tester's S. 1573 would allow the VA to make faster 
payments of DIC compensation to surviving spouses while formal 
paperwork is in the pipeline. We strongly support this bill.
    S. 1262, the Veterans Conservation Corps, sponsored by 
Senator Bill Nelson, would establish a new program to support 
veterans transition to civilian life via temporary employment 
in conservation programs, law enforcement, firefighting, and 
disaster relief.
    MOAA supports the bill in concept but we recommend that the 
legislation include an explicit authority to use GI Bill 
training benefits so that participants can gain a license or 
other credential at the conclusion of their training.
    Turning briefly to VA health care legislation, we support 
your bill, Senator Burr, draft bill that would establish an 
outside independent study of the 21 VA Veterans Integrated 
Service Networks, or VISNs, to ensure that the system is 
working efficiently and effectively.
    Mr. Chairman, we understand that your bill, the Veterans 
Health Care Eligibility and Expansion Enhancement Act is being 
parsed into two bills. MOAA strongly supports expanding 
enrollment opportunities for certain uninsured veterans 
consistent with the requirements of the Affordable Care Act.
    Finally, MOAA strongly supports the provision in the bill 
that extends the period of time combat veterans can enroll in 
VA health care from 5 years to 10 years.
    This concludes my statements. Mr. Chairman, thank you very 
much. I look forward to your questions.
    [The prepared statement of Colonel Norton follows:]
Prepared Statement of the Colonel Robert F. Norton, USA (Ret.), Deputy 
   Director, Government Relations, Military Officers Association of 
                                America
    Chairman Sanders, Ranking Member Burr and Distinguished Members of 
the Committee, On behalf of the over 380,000 members of The Military 
Officers Association of America (MOAA), I am pleased to present the 
Association's views on selected bills under consideration at today's 
hearing.
    MOAA does not receive any grants or contracts from the Federal 
Government.
 s. 1148, veterans benefits claims faster filing act (sen. heinrich, d-
                                  nm).
    S. 1148 would require the Department of Veterans Affairs (DVA) to 
compare the average claim processing time for various veterans' 
benefits depending on the method of filing, and to compare the grant of 
veterans' benefits among represented and unrepresented veterans. The 
bill would make these reports available in each regional office and on 
the VA's Web site.
    The data on benefits grants percentages would be reported based on 
whether the veteran was unrepresented, represented by a veteran service 
organization representative, or represented by another individual 
(usually an agent or attorney). The data on average processing time 
would compare processing time for two variables in claim filing 
methods: paper versus electronic filing, and fully developed claim 
filing versus non-fully developed claim filing.
    MOAA is supportive of directing the Secretary to provide 
information about the effect of representation on grants of veterans' 
benefits. However, we are concerned that the report should compare like 
data points: many attorneys and agents screen cases and focus on 
representation of appeals, whereas veteran service organization 
representatives represent almost any claimant and provide complete 
claims service through the agency. We suggest that the Department of 
Veterans Affairs be directed to provide grant percentages for both 
original claims and appeals, and to provide an explanation of how the 
data is obtained.
    MOAA is also supportive of directing the Secretary to analyze the 
results of VA's transformation to fully developed claims and electronic 
processing by reporting the average claim processing times. However, 
again, we are concerned that the report should compare like data as 
more veterans and representatives choose to use electronic filing 
methods and participate in the fully developed claims program.
    We suggest that only the types of claims eligible for the fully 
developed claim program and electronic processing be included in this 
report, to make a direct comparison of the different filing methods. 
Also, we suggest that the form numbers (i.e., 21-526ez) or the 
breakdown on the VA's Monday Morning Workload Reports (i.e., by initial 
claim for compensation, less than seven issues) be used to separate 
results, so that claims for similar benefits can be compared. Certain 
benefits may lend themselves to the fully developed claim process and 
others may not.
    We also suggest that the definition of ``claim'' include not only 
the ``rating bundle'' used to define VA's progress on the claims 
backlog and quality improvement measures, but also the ``award 
adjustment'' of a dependency claim. Although data on the average claim 
processing time of dependency claims may not be included in the VA's 
aspirational goals, it is very important in understanding that the way 
a claim is filed matters to the timeliness of a decision.
    MOAA also would recommend the language of ``durable power of 
attorney'' be changed to ``VA limited durable power of attorney,'' to 
reflect that a power of attorney to represent a veteran in matters 
before the Department of Veterans Affairs has no effect on health and 
medical care decisions and other legal matters beyond the authorization 
on VA Form 21-22 or 21-22(a).
    MOAA is supportive of the intent of S. 1148, the Veterans Benefits 
Claims Faster Filing Act, and recommends: the bill be amended as 
outlined above; it reflect the nature of a VA power of attorney; and, 
enhance the data collected for the benefit of veterans' benefits 
claimants.
 s. 1558, veterans outreach enhancement act of 2013 (sen. begich, d-ak)
    S. 1558 would require the DVA to extend outreach services to 
veterans via cooperative awareness programs with various Federal and 
state agencies. The bill provides resource incentives for state, local 
governments and veteran service organizations (VSOs) to assist veterans 
in utilizing DVA facilities and resources available to them. Other 
objectives of the legislation are to educate communities and State and 
local governments about employment and reemployment rights of veterans 
under the Uniformed Services Employment and Reemployment Rights Act 
(USERRA); provides technical assistance to veteran owned businesses; 
and, encourages non-profit groups, businesses and institutions of 
higher education to assist veterans. MOAA supports S. 1558.
                      s. 1211, (sen. boxer, d-ca).
    S. 1211 would prohibit the use of the phrases ``GI Bill'' and 
``Post-9/11 GI Bill'' to give a false impression of approval or 
endorsement by the Department of Veterans Affairs.
    S. 1211 is consistent with recommendations that MOAA and other 
military and veterans service organizations made to the President on 
the issue of improving the oversight, outcomes reporting and consumer 
education of Department of Defense (DOD) and Department of Veterans 
Affairs (DVA) military and veterans educational benefit programs. Some 
of those recommendations are included in Executive Order 13607, 
Establishing Principles of Excellence for Educational Institutions 
Serving Servicemembers, Veterans, Spouses and Other Family Members 
(27 April 2012).
    A specific MOAA recommendation reflected in Executive Order 13607 
was to trademark the term ``GI Bill.'' Any entity that wishes to employ 
the term ``GI Bill'' must gain the DVA's approval to use it. 
Subsequently, ``GI Bill'' has been trademarked and the DVA is 
responsible for enforcing its use. However, since trademarks are not 
permanent, MOAA believes that S. 1211 is needed to ensure the terms 
``GI Bill'' and ``Post-9/11 GI Bill,'' signifying taxpayer-provided and 
government-administered educational programs for military members and 
benefits, are permanently protected.
    We would, moreover, recommend consideration of including the 
phrases, ``military friendly schools'' and ``veteran friendly schools'' 
in the legislation, because these terms are bandied about by lead-
generators and marketing operations to imply quasi-government 
endorsement, or unique services to student veterans that may not 
actually exist at self-identified ``military friendly'' or ``veteran 
friendly'' schools. We believe it's very important for our government 
to provide reasonable consumer education protections for our returning 
warriors as they separate from military service and re-engage with 
their communities. MOAA endorses S. 1211.
s. 1262, the veterans conservation corps act of 2013 (sen. bill nelson, 
                                 d-fl).
    S. 1262 would establish a veterans conservation corps to assist 
veterans in the transition from military to civilian life and to employ 
them in conservation, resource management and historic preservation 
projects on public lands; and temporary employment as law enforcement 
officers, firefighters, and disaster relief personnel.
    MOAA appreciates Sen. Nelson's leadership on this issue but is 
concerned over potential public perception and with veterans themselves 
that the bill is a make-work program and not a true path to long-term 
careers after military service.
    S. 1262 does not appear to directly link the work and projects set 
out in the legislation with appropriate formal training, licensing or 
certification in the career areas described for GI Bill benefit 
purposes. A provision should be included in the bill that directs the 
Secretary of Veterans Affairs to establish approval of the training and 
work experience by State Approving Agencies leading to award of 
appropriate licensure or certification in specific fields in 
conjunction with GI Bill program payments under Chapter 30 or Chapter 
33, 38 U.S. Code. Another option to consider, instead of creating a new 
program, is to increase job training, OJT and work-study reimbursement 
rates under the Post-9/11 GI Bill and the Montgomery GI Bill.
    MOAA is supportive of the intent of S. 1262 and recommends amending 
the legislation to ensure veterans can receive a designated license, 
certification or OJT credential under the GI Bill at the conclusion of 
service in the veterans conservation corps. The legislation should lead 
to clear long-term career opportunities for veterans.
                      s. 1295, (sen. brown, d-oh).
    S. 1295 would require the VA to notify veterans (or their 
representatives) that they may use a veteran service organization 
representative (VSO) for the claims process when filing an electronic 
claim. The bill states that notice should include a list of names and 
web addresses for the VSOs. Currently, veterans receive a receipt for 
electronic claims filed through VONAPP Direct Connect in the eBenefits 
portal. There is a representative/agent/lawyer search in the eBenefits 
portal already that does not include Web sites but does list 
organization name, address and phone number. The VA Web site instructs 
veterans to use the VSO search before filing a claim but there is no 
such instruction in the eBenefits portal.
    While MOAA supports the intent of the bill, the bill does not 
require the same notification for veterans filing a paper based claim. 
Veterans that file a fully developed paper claim through the mail using 
VA Form 526-EZ do not receive a notification that they may use a VSO 
until after the VA adjudicates their claim. MOAA recommends that the 
bill be expanded to cover veterans that file formal and informal claims 
by paper. MOAA supports the inclusion of web addresses for VSOs and 
other representatives to the representative search function in 
eBenefits.
    MOAA is supportive of the intent of S. 1295, and recommends that 
the bill be amended to provide notification to veterans and other 
claimants that file claims by paper based methods.
s. 1361, world war ii merchant mariner service act (sen. murphy, d-ct).
    S. 1361 is a bi-partisan, no-cost bill that expands and clarifies 
the types of documentation for determining veterans status of certain 
``coastwise merchant seamen'' (Merchant Mariners) during World War II, 
and for other purposes.
    The GI Bill Improvement Act of 1977 (Public Law 95-202) provided 
that the Secretary of Defense could determine that service for the 
Armed Forces by organized groups of civilians, or contractors, be 
considered `active service' for benefits administered by the Veterans 
Administration.
    In the case of World War II Merchant Marines, documenting their 
service has been difficult due to wartime security restrictions, 
destroyed ship logs and unavailable merchant mariner documentation 
known as a Z-card.
    S. 1361 provides additional methods for documenting such service 
for consideration as active service by the Secretary of Veterans 
Affairs.
    S. 1361 would authorize burial benefits; medals, ribbons and 
decorations; and status as a veteran (with no additional benefits) for 
Merchant Mariners who provide appropriate documentation under the bill. 
The bill also permits a primary next-of-kin of deceased WWII Merchant 
Mariners to submit evidence on their behalf of service to the United 
States.
    MOAA supports the World War II Merchant Mariner Service Act, 
S. 1361.
s. 1399, the servicemember student loan affordability act (sen. durbin, 
                                 d-il)
    S. 1399 would amend the Servicemembers Civil Relief Act (SCRA) to 
extend the interest rate limitation of six percent (6%) in two ways. A 
servicemember and the servicemember's spouse jointly who wish to 
refinance a student loan debt incurred before entering the service 
could do so at a rate not to exceed 6 percent. Under the bill, the 6% 
rate cap also could be applied to a student loan debt incurred by a 
servicemember and the servicemember's spouse jointly during military 
service.
    Servicemembers enjoy a 6% rate cap on all pre-service loans under 
the SCRA. However, the law does not apply if a servicemember 
consolidates student loans that were taken out before their military 
service.
    Loan consolidation is a practical, effective way to manage student 
loan debt. It's also the only way a borrower who has a Federal Family 
Education Loans (FFEL) or Perkins student loan can enroll in the 
Federal Public Service Loan Forgiveness (PSLF) program, a program that 
forgives student loan debt after 10 years of public service, including 
military service.
    Unfortunately, servicemembers with student loans taken out before 
they joined the military who want their military service to count 
toward the 10 years of public service required under the loan 
forgiveness program must consolidate their student loans. But then they 
promptly lose the 6% loan rate cap that is afforded them by the SCRA.
    This legislation could be particularly beneficial for supporting 
Armed Forces recruitment of highly qualified candidates with unique 
skills in demand by the military. MOAA supports S. 1399, the 
Servicemember Student Loan Affordability Act.
                      s. 1573 (sen. tester, d-mt).
    S. 1573 is a bi-partisan bill that would authorize the Department 
of Veterans Affairs (DVA) to immediately pay temporary Dependency and 
Indemnity Compensation (DIC) for up to six months to surviving spouses 
of fallen servicemembers and veterans who died of a service-related 
disability.
    S. 1573 is common sense, no-cost legislation that enables quick 
payments from the DVA to eligible surviving spouses pending the receipt 
of formal paper work. Under Secretary of Veterans Benefits, the 
Honorable Allison Hickey, voiced the need for this legislation earlier 
this year in response at a Congressional hearing.
    The legislation provides a financial bridge to support the 
essential needs of survivors who in many cases have endured hardship 
caring for a seriously disabled veteran. MOAA strongly supports 
S. 1573.
    s. xxxx, servicemembers civil relief act (scra) enhancement and 
             improvement act of 2013 (sen. sanders, i-vt).
    The SCRA Enhancement and Improvement Act incorporates a number of 
needed technical fixes and enhanced protections for military women and 
men called to active Federal service.
    The SCRA was originally enacted in World War II when hundreds of 
thousands of National Guard servicemembers and conscripts were being 
called to the colors. The need then and today was to create a financial 
and legal safety net primarily for our citizen-warriors and their 
families so that they could focus on their mission.
    After September 11, 2001 Congress adopted numerous upgrades to the 
SCRA to protect the interests of active duty servicemembers and their 
families, as well as the National Guard and Reserves when activated.
    Almost 900,000 reservists have been activated since Sept. 11, 2001 
and over 300,000 have been called up for second, third or fourth tours 
of active duty. The Nation's reliance on the Guard and Reserve to 
support national security objectives at home and overseas has never 
been greater.
    It is, in fact, our national policy to employ the Guard and Reserve 
in the operating force on a routine basis for the indefinite future. 
Under the DOD's ``operational reserve'' policy promulgated in 
January 2007 by then-Secretary Robert Gates, reservists are expected to 
be trained and ready for active duty service one year out of every 
five. Many reservists have actually been deployed as frequently as 
their active duty counterparts: three years' `at home' and one year 
deployed. DOD leaders have indicated that the routine use of reserve 
capabilities will continue after the withdrawal from Afghanistan (2014) 
and the drawdown of the entire force as a result of sequestration and 
budget uncertainties.
    In this context, it's hard to overstate the importance of the SCRA 
to morale, family well-being and military readiness.
    The SCRA Enhancement and Improvement Act expands mortgage 
protections for service families required to move under ``permanent 
change of station'' (PCS) orders; preserves professional licenses that 
expire during a combat zone deployment; protects service families 
denied or refused credit solely because of the SCRA; raises financial 
penalty limits for willful violation of the statute; provides the 
Attorney General enforcement authority for the SCRA; and makes a number 
of other changes as summarized below.
                       title i, scra enhancements
    Section 101 would extend the coverage period for the protections 
under installment sales contracts to one year after a period of 
military service.
    Section 102 would amend section 303(b) of the Servicemembers Civil 
Relief Act (SCRA) by changing ``filed'' to ``pending'' so that 
servicemembers may be eligible for stays of proceedings or adjustments 
of an obligation on real or personal property even if the action was 
filed before they entered service, or during a break in service.
    Section 103 would prohibit the accrual of mortgage prepayment 
penalties incurred during a period of military service when discharging 
an obligation on a primary residence as the result of a receipt of 
permanent change of station orders.
    Section 104 would provide servicemembers with relief from 
expiration of licenses or continuing education requirements during 
periods of eligibility for hostile fire or imminent danger pay and for 
an additional 180 days after such eligibility ends.
    Section 105 would extend the protections preventing sale of 
personal and real property to collect unpaid taxes or assessments 
without a court order to real property owned by a business that is 
owned entirely by a servicemember or a servicemember and the 
servicemember's spouse.
    Section 106 would prevent a servicemember from being denied or 
refused credit solely by reason of eligibility for the SCRA.
                      title ii, scra improvements
    Section 201 would clarify that the plaintiff in a default judgment 
action has an affirmative obligation to determine the defendant's 
military status and that the plaintiff must take steps accordingly, 
including but not limited to reviewing available Department of Defense 
records. It would also define the due diligence required of an attorney 
appointed by the court to represent a defendant who may be in military 
service.
    Section 202 would prevent a waiver of a servicemember's SCRA rights 
or protections until after the occurrence of the event that gave rise 
to the rights or protections to be waived.
    Section 203 clarifies that the Attorney General's authority to 
enforce the SCRA and an individual's right to file a private right of 
action existed before enactment of the Veterans' Benefits Act of 2010, 
which made this right explicit.
    Section 204 would apply the protections related to mortgages to 
obligations on real or personal property for which a servicemembers is 
personally liable as a guarantor or co-maker.
                      title iii, scra enforcement
    Section 301 would make arbitration clauses unenforceable unless all 
parties consent to arbitration after a dispute subject to the 
provisions of the SCRA arises.
    Section 302 would allow the Attorney General to issue civil 
investigative demands in investigations under the SCRA. It does not 
include the authority to compel oral testimony or sworn answers to 
interrogatories.
    Section 303 would increase the civil penalties for a first 
violation of SCRA from $55,000 to $110,000 and for second or subsequent 
violations from $110,000 to $220,000.
    Informally, the Legal Assistance to Military Personnel (LAMP) 
Committee of the American Bar Association supports this legislation as 
do recognized reserve component legal experts.
    MOAA strongly supports the Servicemembers Civil Relief Act (SCRA) 
Enhancement and Improvement Act of 2013.
       s. xxxx, the servicemember housing protection act of 2013 
                         (sen. jack reed, d-ri)
    The Servicemember Housing Protection Act would help military 
families in three ways: first, by permitting a servicemember to 
terminate a lease agreement under the SCRA in situations where 
government housing suddenly opens up. Several states already have 
similar laws, and this opportunity should be extended to servicemembers 
serving at any of our military bases.
    Second, the legislation enables military families to gain SCRA 
protections with a letter from a commanding officer. There have been 
many cases in recent years where servicemembers are activated prior to 
the issuance of formal orders. The bill would apply the broader 
definition of military orders, allowing for commanding officer letters 
in all sections of the SCRA in which a servicemember is required to 
submit copies of military orders. This change will make it easier for 
servicemembers to more quickly get their affairs in order prior to 
deployment.
    Third, legislation would extend the twelve-month window of 
foreclosure protections to surviving spouses. After suffering the 
unspeakable loss of a military husband or wife in service to the 
Nation, a surviving spouse should not have the additional burden of 
dealing with the potential of a mortgage foreclosure.
    MOAA strongly supports the Servicemember Housing Protection Act of 
2013 to expand protections under the SCRA for military families and 
surviving spouses.
 s. xxxx, improving quality of care within the department of va act of 
                         2013 (sen. burr, r-nc)
    The Improving Quality of Care Within the Department of VA Act of 
2013 addresses two distinctly separate issues. The bill would require 
the DVA to ensure its policies regarding the reporting of infectious 
diseases be current and consistent with State laws. This makes good 
sense.
    The second section of the bill requires that an outside independent 
assessment of the 21 VISNs and medical centers be conducted to study, 
evaluate and recommend organizational structures of medical centers; 
identify which key leadership positions in Medical Centers and VISNs 
should have succession plans and how to implement such plans.
    The quest for standardization within the VA remains elusive. VISNs 
are considered the communication channel for centrally developed 
guidance to be sent out to the regions for local implementation. 
Directives from VA Central Office can take significant periods of time 
to be reviewed by local VA facilities and then may not be implemented 
as originally intended. We support any efforts to better streamline and 
standardize the VISN organizational structure.
    MOAA supports the Improving Quality of Care within the Department 
of VA Act of 2013
        s. xxxx veterans health care eligibility expansion and 
              enhancement act of 2013 (sen. sanders, i-vt)
    Section 3 of The Veterans Health Care Eligibility Expansion and 
Enhancement Act of 2013 would expand access to VA health care for 
service-disabled, non-compensable veterans with no health insurance. 
Under the Affordable Care Act, VA health care is qualifying care for 
purposes of meeting the requirements of the law. This provision would 
enable this group of veterans to meet the ACA requirement via 
enrollment in the VA health system. MOAA supports the provision that 
expands access to VA care for certain uninsured veterans.
    Section 4 of the bill would extend the period of time combat 
veterans can enroll in VA health care post-deployment from five years 
to ten years. MOAA strongly supports the provision that extends the VA 
health care enrollment period from 5 years to 10 years for combat 
veterans after returning from deployment.
    Section 6 of the bill concerns VA Medicare Reimbursement.
    Among Federal agencies, only the Indian Health Service is permitted 
to accept Medicare reimbursement in its facilities. Medicare eligible 
veterans are seen in the VA for service-connected conditions but often 
rely on outside medical care for routine services provided under 
Medicare, effectively splintering the continuity of health care.
    Now is an opportune time to take a fresh look at allowing our 
enrolled, non-service-connected, Medicare eligible veterans to utilize 
the VA for all of their health care. More than 40% of enrolled veterans 
are eligible for Medicare.
    In effect, rules excluding use of Medicare funds in VA facilities 
result in the government paying redundant costs for procedures and 
tests performed by Medicare providers and then, again, in VA 
facilities. That alone should be reason enough to consider using the VA 
as a Medicare provider.
    If the VA can deliver a Medicare-sponsored benefit (for non-
service-connected care) more efficiently than Medicare providers, while 
eliminating duplicative medical procedures, all stakeholders and 
especially veterans are likely to benefit.
    Early in the last decade in separate Congressional sessions, the 
Senate and House passed legislation authorizing a test of VA Medicare 
Reimbursement to validate the theory that the government, taxpayers and 
veterans would benefit under VA Medicare reimbursement. Limited 
analytical studies also have been conducted on this issue and they 
suggest potentially favorable outcomes from VA Medicare Reimbursement.
    MOAA continues to support the concept that Medicare-eligible 
veterans should be able to obtain their earned Medicare-sponsored 
services for non-service-connected care in VA health care facilities.
    Since the Senate Finance Committee has primary jurisdiction over 
Medicare and Medicaid services, and due to earlier objections to 
Medicare ``subvention'' in VA facilities, we would respectfully suggest 
that the Committee consider sponsoring a formal test or pilot program 
of VA Medicare Reimbursement if outright enactment of the proposal is 
seen as infeasible at this time.
    MOAA supports the establishment of a Medicare VA reimbursement 
program for non-service-connected care of enrolled Medicare-eligible 
veterans; we suggest that a formal pilot program may be the gateway to 
gain broad Congressional support for the concept.
        s. xxxx, mental health support for veteran families and 
              caregivers act of 2013 (sen. sanders, i-vt)
    S.XXXX would direct the VA to provide support for family members 
and caregivers of veterans with mental health disorders by establishing 
mental health education programs and group peer support programs. Both 
programs would be implemented via a contract with a non-profit entity 
with experience in mental health education and outreach. The language 
indicates that instructors for the group peer support meetings would be 
selected from family members or caregivers who had completed the 
initial training. It is not clear if these would be paid positions nor 
what alternative would be used if none of the participants wished to 
take on the responsibility of leading peer support groups.
    MOAA is supportive of increasing support and education of 
caregivers who are coping everyday with the stresses associated with 
caring for our veterans with mental health (MH) concerns. Peer support 
is a proven concept within the veteran population and would provide our 
veteran families with a knowledgeable and safe place to learn, 
understand and share how best to help their veteran suffering with 
mental health problems. With the significant MH capabilities the VHA 
has developed over the past several years, it may make sense to 
consider utilizing internal assets to develop and implement these 
programs rather than contracting out to organizations who do not have 
the history and experience of veteran culture and healthcare.
    MOAA supports the Veteran Families and Caregivers Act of 2013
   s. xxxx enhanced dental care for veterans act (sen. sanders, i-vt)
    This bill would create a three year pilot program providing dental 
care and treatment to enrolled veterans who are not eligible for dental 
care under current authorities. The pilot would be implemented in 16 VA 
locations, including rural areas and services would be consistent with 
the dental care provided to veterans with service-connected 
disabilities rated at 100% disabled. In addition to VA dental 
facilities, the services may be provided via contract by private 
providers in the community. The pilot program would also include dental 
health education be provided to the enrolled veteran via printed and 
electronic materials.
    MOAA supports the Enhanced Dental Care for Veterans Act of 2013.
           s. xxxx survivors of military sexual assault and 
            domestic abuse act of 2013 (sen. sanders, i-vt).
    This bill would authorize the DVA to provide care and treatment for 
victims of sexual assault or domestic violence who are members of the 
Armed Forces and requires the VA to screen veterans for sexual trauma 
and domestic abuse.
    MOAA strongly supports this legislation but requests clarification 
of the language that describes the Armed Forces' eligible population. 
Sec 2. Line 15 notes that counseling and care may be provided to 
``members of the Armed Forces (including members of the National Guard 
and Reserves) on active duty * * *'' We would request that language be 
included that clarifies that members of the Reserve Components who 
experienced sexual assault or domestic violence while on active duty 
remain eligible to receive treatment from the DVA after returning to 
drilling reserve status.
    MOAA supports the Survivors of Military Sexual Assault and Domestic 
Abuse Act of 2013.

    Chairman Sanders. Thank you very much.
    Mr. Weidman.

 STATEMENT OF RICK WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
        GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

    Mr. Weidman. Thank you, Mr. Chairman and Ranking Member 
Burr, for the opportunity to appear here today.
    I was asked last night by my distinguished colleague, Mr. 
Atizado, that he could not wait to try and see me comment on 
every single bill on the agenda today. So, I am not even going 
to try even though I have my fast New York accent when I need 
it.
    I will comment and thank Senator Richard Blumenthal for 
moving forward on the Agent Orange Bill. It does a number of 
things, this bill. One is the most emotional issue by far all 
over this country is, among Vietnam veterans, is the issue of 
the grandchildren.
    When we first stumbled into this was a town meeting in 
Louisville, Kentucky. Since that time, we have had such town 
meetings from North Carolina to Florida to Vermont, et cetera. 
Vermont actually was the first one we had but it did not 
highlight the grandchildren. This was way back in 1983 that the 
Chairman was involved in but it was all an Agent Orange.
    We now have the biological plausibility and understand how 
patrilineal defects and often anomalies can not only be visited 
on the children but on the grandchildren. It is the field of 
epigenetics which frankly did not exist 20 years ago.
    It is dioxin passes through the body. It does damage and 
alters the acids that serve as the on-off switches to the genes 
which shows up as anomalies. So, you have five-year-olds having 
heart attacks. You have three- and four-year-olds coming down 
with a rare cancers and particularly the cancers that are 
associated with exposure to Agent Orange.
    The creation of a center for excellence on the already 
existing VA format where all medical centers can compete and it 
is based on what your organizational capability and how can you 
add to this. But it would also create an Office of Extramural 
Research.
    We have had a real problem and the VA says that they do all 
the research that is necessary. In fact, they do not do any 
research on Gulf War Illness that is useful. They do not do any 
research on Agent Orange that is useful, with the exception of 
the National Vietnam Veterans Longitudinal Study which is due 
to be delivered to the VA next month. They only did that after 
Congress passed a law saying they had to and then we went 
through 12 years of beating them over the head.
    With the assistance of folks on the Hill, they finally 
embarked on doing that study which will tell us a lot about 
mortality and morbidity of Vietnam veterans.
    But what we need is something that is multi- generational 
that addresses the needs of Gulf War veterans, addresses the 
needs of Vietnam veterans, affects burn pits, and the Camp 
Lejeune. Any other toxic exposure which results in toxic wounds 
to our Nation's veterans needs to go through the same, is 
worthy of study and find out how do you treat these.
    I am not going to get into the weeds on this now. In fact, 
the veterans organizations are meeting tomorrow afternoon to 
talk about it and see if we cannot come up with a united front 
back to Senator Blumenthal with any changes to keep everybody 
in the fold. But I think we are on the way to a really good 
bill at markup.
    I would suggest also that while we are in favor of most of 
the bills that were on the agenda today, when it comes to the 
health care record, on this one VA skirts are clean because DOD 
has been blocking this process for twenty-some odd years.
    What we have said and recommended to Secretary Hagel, who 
we have enormous respect and affection for, is adopt VistA and 
do it now and work together toward a common data warehouse both 
for DOD and VA; and you have not only operability but you do 
not have to translate anything. We need to develop that for VA 
anyway.
    When we brought this to Assistant Secretary of Health, 
Assistant Secretary of Defense for Health, his comment was, 
``it is cheaper for DOD to go a different way.'' I said it is 
not cheaper for me as a taxpayer to go a different way. It is 
going to be a heck of a lot cheaper to the taxpayer to do the 
same system and make whatever improvements need to be made to 
VistA together, and those improvements should include military 
history.
    I am 3 seconds over time, so I thank you for the 
opportunity again and welcome any questions, Mr. Chairman.
    [The prepared statement of Mr. Weidman follows:]
Prepared Statement of Submitted by Richard Weidman, Executive Director 
     for Policy and Government Affairs, Vietnam Veterans of America
    Chairman Sanders, Ranking Member Burr, and other members of this 
distinguished and important committee, Vietnam Veterans of America very 
much appreciates the opportunity to offer our comments concerning 
several bills affecting veterans that are up for your consideration. 
Please know that VVA appreciates the efforts of this Committee for the 
fine work you are doing on behalf of our Nation's veterans and their 
families.

    S. XXXX, introduced by Senator Richard Blumenthal (CT), would 
establish in the Department of Veterans Affairs a national center for 
the diagnosis, treatment, and research of health conditions of the 
descendants of veterans exposed to toxic substances during service in 
the Armed Forces, and to provide certain services to those descendants.
    VVA strongly supports this bill, which reflects positively as one 
of our foremost legislative goals. Not only would it help achieve a 
measure of justice for innocent victims of the use toxic substances in 
times of war, but it offers unlimited possibilities for scientific 
investigation.
    Among the so-called invisible wounds of war are those brought home 
by troops that may not manifest for a decade or more. And most 
tragically, they may pass on genetically to the children of our 
Nation's warriors. And even to their children. We can only suspect, 
citing some studies mostly from abroad. But this country has not done 
enough research--has not wanted to fund enough research--into the 
potential intergenerational effects of exposure to toxic substances. 
Ask the VA how many studies its hundreds of scientists are conducting 
in this realm. And the NIH. The CDC. Then ask yourselves, Why?
    This legislation would also establish an Office of Extramural 
Research, to award grants to reputable scientists and epidemiologists 
to conduct research on wounds, illnesses, injuries, and other 
conditions suffered by individuals as a result of exposure to toxic 
substances while serving as members of the Armed Forces.
    Perhaps most importantly, this legislation gives hope to the 
progeny of warriors who are suffering from health conditions determined 
by a board of advisors to have resulted from exposure to toxic 
substances. Those selected for care and treatment, at no cost to them 
and their caregivers, will be evaluated and treated at the designated 
center.
    Of all the bills before you here today, this is perhaps most 
elemental to us. Because of our ongoing struggle with the unwanted 
legacy of Agent Orange. And because of our empathy for veterans of the 
first Gulf War with their still-undefined Gulf War illness, and for 
veterans and active duty troops of the fighting in Afghanistan and Iraq 
whose ingestion of fumes from burn pits will be their unwanted legacy. 
We ask that you give your full consideration to this bill.

    S. 1547, introduced by Senator Richard Burr (NC), the Veterans 
Dialysis Pilot Program Review Act of 2013, would require the Secretary 
of Veterans Affairs to review the dialysis pilot program implemented by 
the VA and submit a report to Congress before expanding that program.
    We understand that certain healthcare services are best performed 
by clinicians outside of the VA. Dialysis is one of these. It seems, 
however, that some folks in the VA are overeager to bring in-house 
dialysis outpatient clinics into the fold, and have the go-ahead and 
the dollars to start to do so.
    The VA has identified the ``first wave'' of VA medical centers that 
will receive first year startup funding to construct internal dialysis 
capacity. Medical center directors have not been consulted and one VAMC 
director has stated that his hospital center has no interest in 
participating and does not wish to be in a position of having to fund 
out year costs associated with creating internal dialysis capacity.
    The already selected sites are largely in urban areas where private 
sector dialysis capacity already exists. This means that veterans 
living in rural America remain unaffected. And consider: In May of this 
year, the VA awarded a national dialysis services contract to 23 
private dialysis companies, both large and small, that provide full 
geographic coverage to veterans across the country as well as providing 
competitive rates in the range of Medicare. All VAMCs can utilize this 
contract as of the 1st of October; hence, there are regional dialysis 
contracts availaby to these medical centers and their community-based 
outpatient clinics, or CBOCS.
    So * * * Is it necessary for the VA to rush helter-skelter into a 
questionable expenditure of capacity? Is this cost-effective? Or does 
it make more sense to keep this as a service to be contracted out? At 
the very least, any expansion of this program ought to be brought to a 
halt until the results of the pilot program are compiled by the 
Secretary and reported to Congress.

    S. 1558, introduced by Senator Mark Begich (AK), the Veterans 
Outreach Enhancement Act of 2013, would require the Secretary of 
Veterans Affairs to carry out a program of outreach for veterans.
    Under Secretary Shinseki's leadership, the VA is continuing to 
pursue the most effective--if not necessarily coordinated--outreach 
program since the end of the Second World War. While the Secretary and 
others deserve credit for what they have done and are doing, there is 
still much that needs to be done to educate veterans and their families 
regarding the benefits and services they have earned in service to the 
Nation.
    With modest funding over a five-year period, this bill will help 
fill a gap in rural America. We would suggest, however, that some of 
the effort go to placing simple messages about key veterans benefits on 
billboards in well-traveled areas. With this modest caveat, VVA 
supports this measure.

    S. 1296, introduced by Senator Bill Nelson (FL), the 
Servicemember's Electronic Health Records Act of 2013, would amend the 
Wounded Warrior Act to establish a specific timeline for the 
Secretaries of Defense and Veterans Affairs to achieve interoperable 
electronic health records.
    Years ago, when the VA and DOD began this effort to achieve 
interoperable electronic health records, both departments--their key 
leaders and IT personnel--should have sat down together with members of 
both the Senate and House Veterans' Affairs Committees and discussed 
the projected timeline for completing this project--and the incumbent 
problems likely to present along the way, e.g., what the costs would 
amount to; how DOD would get its three services into line.
    Finally, Senator Nelson is attempting to do all this with this 
bill, which would achieve

          (1) the creation of a health data authoritative source by the 
        Department of Defense and Department of Veterans Affairs that 
        can be accessed by multiple providers and standardizes the 
        input of new medical information is achieved not later than 180 
        days after the date of the enactment of this subsection;
          (2) the ability of patients of both the Department of Defense 
        and the Department of Veterans Affairs to download the medical 
        records of the patient (commonly referred to as the `Blue 
        Button Initiative') is achieved not later than 180 days after 
        the date of the enactment of this subsection;
          (3) the full interoperability of personal health care 
        information between the Departments is achieved not later than 
        one year after the date of the enactment of this subsection;
          (4) the acceleration of the exchange of real-time data 
        between the Departments is achieved not later than one year 
        after the date of the enactment of this subsection;
          (5) the upgrade of the graphical user interface to display a 
        joint common graphical user interface is achieved not later 
        than one year after the date of the enactment of this 
        subsection; and
          (6) each current member of the Armed Forces and the dependent 
        of such a member may elect to receive an electronic copy of the 
        health care record of the individual beginning not later than 
        June 30, 2015.''

    This is indeed admirable, and much needed, but perhaps not 
realistic on two counts: First, considering the snail's pace of 
progress seemingly made by the IT gurus of the two departments, the 
timelines stipulated in this legislation is perhaps a bit unrealistic. 
And second, without penalties and real enforcement, the due dates may 
as well be written in sand.

    S. 1295, introduced by Senator Sherrod Brown (OH), is a bill that 
would require the VA Secretary to provide veterans with notice when 
they electronically file claims for benefits that relevant services may 
be available from veterans service organizations, and notify each 
claimant or claimant representative that application services may be 
available from veterans service organizations and provide such claimant 
or representative with a list of such VSOs.
    Far too many veterans submit claims for disability compensation 
themselves. The assistance they receive from a VA employee amounts, for 
the most part, to legal malfeasance if not malpractice. At VVA, we 
advise any veteran who calls about a claim to get representation from a 
veteran's service representative, from a VSO or from the county in 
which s/he resides. Because they have been certified by the VA and they 
know (at least they ought to know) how to cross the t's and dot the 
i's. Hence, VVA strongly favors enactment of this measure.

    S. 1148, introduced by Senator Martin Heinrich (NM), the Veterans 
Benefits Claims Faster Filing Act, would direct the Secretary of 
Veterans Affairs to post in a conspicuous place in each VA Regional 
Office and claims intake facility and on the VA Web site information 
on: (1) the average processing time for fully developed and not fully 
developed VA benefits claims submitted in specified forms, and (2) the 
percentage of such claims filed by specified methods for which benefits 
are awarded. It also requires the Secretary to notify each person 
submitting a claim for a VA benefit of such information and of the 
person's eligibility to receive up to an extra year of benefit payments 
if the person files a claim that is fully developed, and requires the 
notice information to be updated at least quarterly.
    Veterans of every generation can and do make good and rational 
decisions when they have timely and accurate data to help inform their 
decisionmaking. The requirements of this bill should have been realized 
years before now in order for the VA to be in conformance with the 
President's Executive Order(s) regarding open government and 
accountability. In any case, VVA welcomes this initiative and supports 
enactment of S. 1148.

    S. 1211, introduced by Senator Barbara Boxer (CA), would prohibit 
the use of the phrases ``GI Bill'' and ``Post-9/11 GI Bill'' to give a 
false impression of approval or endorsement by the Department of 
Veterans Affairs.
    There are many legitimate not-for-profit and for-profit 
institutions of higher learning that are committed helping their 
students acquire a decent education and/or training that will be 
immediately marketable. However, there are some predatory institutions 
that have unscrupulously charged high tuitions from veterans, but 
delivered little of value in return. While many of these ``colleges'' 
deceitfully attempt to appear to be accredited, they are in fact not 
accredited by a reputable accreditation body. Therefore the ``degrees'' 
granted by these outfits are useless to the veteran, as their phony 
degrees are not recognized by employers, legitimate colleges and 
graduate school, or by state licensing bodies.
    In many instances these same predatory institutions have used the 
phrases GI Bill and Post-9/11 GI Bill in misleading advertisements to 
try and make it appear as if they are sanctioned by the VA. The VA has 
taken the first step, by registering the term ``GI Bill.'' And 
enactment of this legislation should be helpful in limiting further 
damage by these predators to our returning warriors.
    Some would call these predators ``war profiteers'' in the ugliest 
sense of that phrase. Others would label the behavior of these entities 
and all of those who reap huge profits from them as ``stolen valor'' in 
that they are robbing these post-9/11 veterans of the ability to 
acquire a useful degree and marketable education and training. The only 
thing wrong with this bill is that it does not go far enough. VVA 
strongly favors early passage of this measure.

    S. 1399, introduced by Senator Richard Durbin (IL), would amend the 
Servicemembers Civil Relief Act to extend the interest rate limitation 
on debt entered into during military service to debt incurred during 
military service to consolidate or refinance student loans incurred 
before military service.
    This sensible bill would protect servicemembers by enabling them to 
consolidate or refinancing earlier student loans and current loans at a 
maximum 6% rate. This is a good deal for our men and women in uniform, 
and should be passed by Congress with all due speed.

    S. 1411, introduced by Senator Al Franken (MN), the Rural Veterans 
Health Care Improvement Act of 2013, would specify requirements for the 
next update of the current strategic plan for the Office of Rural 
Health of the Department of Veterans Affairs for improving access to, 
and the quality of, health care services for veterans in rural areas.
    Because we have found that most ``strategic plans'' of the VA are 
mostly a waste of trees, we in good faith cannot support S. 1411, even 
though it embraces some very good ideas, e.g., the better use of 
telemedicine.
    It seems to us that the VA knows what it needs to do to improve 
healthcare services to veterans living in rural and remote areas of 
America. What it doesn't need is yet another ``plan'' that is dated 
before it is printed to tell it what needs to be done.

    S. 1155, introduced by Senator Jon Tester (MT), the Rural Veterans 
Mental Health Care Improvement Act, would amend appropriations 
authorities for veterans' benefits to provide advanced appropriations 
for information technology relating to medical services, support, 
compliance, and facilities of the Veterans Health Administration (VHA). 
It would require the Secretary to provide mental health services, 
including outpatient care, to the immediate families of certain 
veterans returning from Operation Enduring Freedom or Operation Iraqi 
Freedom. It would also require the Secretary to report to Congress 
regarding telemedicine services for veterans, including updates on VA 
teleconsultation and telemedicine initiatives, training, and 
partnerships with primary care providers.
    The VHA has made significant strides in the use of telehealth/
telemedicine, most usefully in rural and remote areas. While we hope, 
and anticipate, that advance appropriations for all of the VA's 
discretionary appropriations will be enacted during this session of 
Congress, we do hope as well that Congress will see the wisdom of 
expanding and improving the use of telemedicine services for veterans, 
and so we certainly support passage of S. 1155.

    S. 1262, introduced by Senator Bill Nelson (FL), the Veterans 
Conservation Corps Act of 2013. This bill would:

    (a) Establishment--The Secretary of Veterans Affairs shall, in 
cooperation with the Attorney General, the Secretary of Agriculture, 
the Secretary of Commerce, the Secretary of Homeland Security, the 
Secretary of the Interior, and the Chief of Engineers, establish a 
veterans conservation corps to assist veterans in the transition from 
service in the Armed Forces to civilian life and to employ veterans--
          (1) in conservation, resource management, and historic 
        preservation projects on public lands and maintenance and 
        improvement projects for cemeteries under the jurisdiction of 
        the National Cemetery Administration; and
          (2) as firefighters, law enforcement officers, and disaster 
        relief personnel.
    (b) Conservation, Resource Management, Historic Preservation, and 
Cemetery Maintenance and Improvement Projects--
          (1) In general--As part of the veteran's conservation corps, 
        the Secretary of Veterans Affairs, the Secretary of 
        Agriculture, the Secretary of Commerce, the Secretary of the 
        Interior, and the Chief of Engineers shall--
                  (A) employ veterans to carry out projects described 
                in subsection (a)(1); or
                  (B) award grants to, or enter into contracts with, 
                State governments, local governments, or 
                nongovernmental entities to employ veterans to carry 
                out projects described in subsection (a)(1).

    The veterans who really need help with finding jobs are those 18-
24-year-olds and 25-29-year-olds, most of whom are with the National 
Guard or Reserves, who have few marketable skills. (Veterans 
unemployment rates are actually well under that of most other 
Americans.) Such a program, the cost of a few days' operation in 
Afghanistan, is certainly worth the price--and the futures of 
potentially thousands of young men and women.

    S. 1361, introduced by Senator Christopher S. Murphy (CT), World 
War II Merchant Mariner Service Act, would direct the Secretary of 
Homeland Security to accept additional documentation for verifying that 
an individual performed honorable service as a coastwise merchant 
seaman during the period beginning on December 7, 1941, and ending on 
December 31, 1946, for purposes of eligibility for veterans' benefits 
under the GI Bill Improvement Act of 1977.
    The situation of those American citizens who served in these 
potentially dangerous positions during World War II should have been 
corrected many years ago. This historic wrong needs to be formally 
righted. VVA has favored such legislation conferring full veteran 
status on these individuals for almost thirty years, and now urges 
swift passage of this measure before all of them are dead and gone.

    S. 875, introduced by Senator Casey (PA), the Department of 
Veterans Affairs Disease Reporting and Oversight Act of 2013, would 
requires the director of a Veterans Integrated Service Network, within 
24 hours after confirming the presence of a notifiable infectious 
disease at a Department of Veterans Affairs (VA) facility under that 
director's jurisdiction, to notify: (1) the Central Office of the VA; 
(2) the Director of the Centers for Disease Control and Prevention; (3) 
the state and county in which the facility is located; (4) each 
individual at the facility who has contracted the disease or is at risk 
of doing so, as well as the individual's next of kin, the individual's 
primary health care provider, and the county in which the individual 
resides; and (5) each VA employee of such facility. Requires such 
director to comply with any earlier notification required by the state 
concerned.
    Requires such director to: (1) confirm receipt of such 
notification, (2) develop and implement an action plan to manage and 
control the potential spread of the disease, and (3) keep records of 
any such notifications for at least 10 years. Requires an annual report 
from the VA Inspector General to Congress on directors' compliance with 
the requirements of this Act. Provides for Inspector General 
enforcement and appropriate director disciplinary action with respect 
to such requirements.
    Directs the Under Secretary for Health of the Veterans Health 
Administration (VHA) to issue a directive to the VHA's pathology team, 
infection prevention team, facilities management team, and other 
appropriate VHA groups on the actions to be taken when a notifiable 
infectious disease is discovered in a VHA facility.
    Inasmuch as almost everything in this bill is what common sense 
would dictate in the event of an outbreak of a notifiable disease at a 
VA medical facility, it would seem that this legislation would not ever 
be needed. However, in the wake of the ``Legionella'' outbreak at the 
VA Medical Center in Pittsburgh, Pennsylvania, and the subsequent lack 
of proper and sensible steps being taken to notify either the community 
or the VA hierarchy in a timely manner, this would seem to be a prudent 
step for Congress to take. Although the situation was probably not as 
badly handled as some outside of VA have portrayed it, the situation 
was still not handled correctly.
    VVA favors enactment of S. 875.

    S. 1165, introduced by Senator Jon Tester (MT), the Access to 
Appropriate Immunizations for Veterans Act of 2013, includes within 
authorized preventive health services available to veterans through the 
Department of Veterans Affairs immunizations against infectious 
diseases, including each immunization on the recommended adult 
immunization schedule established by the Advisory Committee on 
Immunization Practices.
    VVA strongly favors any additional mechanisms that promote better 
accountability in the delivery of VA services, including immunizations, 
and therefore endorses enactment of S. 1165.

    S. 1281, Introduced by Senator Richard Blumenthal, (CT), Veterans 
and Servicemembers Employment Rights and Housing Act of 2013, prohibits 
employment practices that discriminate based on an individual's 
military service and amends the Fair Housing Act and the Civil Rights 
Act of 1968 to prohibit housing discrimination against members of the 
uniformed services.
    Declares that it shall be an unlawful employment practice for an 
employer to fail to hire, to discharge, or to otherwise discriminate 
against individuals because of their military service. Prohibits 
employers, employment agencies, labor organizations, and job training 
programs from engaging in specified practices that adversely affect an 
applicant or employee because of such service.
    Amends the Fair Housing Act to prohibit housing discrimination 
against a member of the uniformed services with respect to: (1) the 
sale or rental of housing, (2) residential real estate-related 
transactions, and (3) the provision of brokerage services.
    Amends the Civil Rights Act of 1968 to impose a fine, imprisonment, 
or both on persons who violate prohibitions on housing discrimination 
under such Act against members of the uniformed services.
    VVA favors the provisions in this act. However, what is really 
needed is enforcement of already existing statutes that bar such 
behavior. Unless there is an effective means for timely and effective 
redress for veterans who encounter such discrimination in employment or 
housing, then all of the various laws will not matter in the lives of 
veterans who become subject to such discrimination. Certainly the 
Office of Federal Contract Compliance Programs and the Vietnam Era 
Veteran Readjustment Act (VEVRA) is a classic example of good 
intentions gone awry inasmuch as they have assisted less than 30 
veterans in the last 40 years.

    S. 1556, introduced by Senator Sherrod Brown (OH), would modify 
authorities relating to the collective bargaining of certain employees 
in the Veterans Health Administration.
    Should a psychiatrist who works for the VA have the same rights 
concerning ``grieving'' his or her schedule as a psychologist? Should a 
registered nurse have the same rights as a licensed practical nurse? 
Seems to us they should; according to the VA, they don't. Nor do 
physicians, dentists, physician assistants, podiatrists, optometrists, 
chiropractors, and certain dental auxiliaries. This personnel policy 
seems schizoid, and without merit--and yet another reason why the VBA 
has difficulty retaining top-shelf doctors and dentists and registered 
nurses.
    VVA supports fully the passage of S. 1556 because it strikes out 
against indefensible bureaucratic curmudgeonliness, and for employee 
justice.

    S. 1559, introduced by Senator Richard Durbin (IL), the Benefits 
Fairness for Filipino Veterans Act of 2013, would modify the method of 
determining whether Filipino veterans are United States residents for 
purposes of eligibility for receipt of the full-dollar rate of 
compensation under the laws administered by the Secretary of Veterans 
Affairs.
    Is he or isn't he? Does he reside in the United States, thereby 
earning him top-dollar compensation for his wartime service, or does he 
really reside in the Philippines? Enactment of this legislation, one 
would hope, would help clarify the situations of a number of Filipinos 
who served under the U.S. flag during the Second World War, and VVA 
supports its enactment.

    S. XXXX, introduced by Senator Bernard Sanders (VT), would update 
the Service-Disabled Insurance program to base premium rates on the 
Commissioners 2001 Standard Ordinary Mortality able instead of the 
Commissioners 1941 Standard Ordinary Table of Mortality.
    Gee, progress! VVA of course supports this effort by the Chairman 
to bring a modicum of rationality to this program.

    S. XXXX, introduced by Senator Bernard Sanders (VT), would provide 
replacement automobiles for certain disabled veterans and members of 
the Armed Forces.
    A measure of this ilk has been needed for some time, especially in 
those areas of the Nation where public transportation is spotty or non-
existent. Hence, VVA supports this bill.
   s. xxxx, introduced by senator bernard sanders (vt), the veterans 
     health care eligibility expansion and enhancement act of 2013.
    This bill would open the VA healthcare system to all eligible 
veterans, meaning all veterans who meet certain criteria and who have 
received other than a dishonorable discharge. As long as a mechanism to 
gradually admit veterans is written into regulation so as not to 
overwhelm the system, VVA wholeheartedly supports this measure. Nor do 
we believe that the healthcare system will be overloaded inasmuch as 
most veterans who are able to afford private insurance under ACA or 
through the entity for which they work will likely prefer to go to 
their own medical and dental professionals.
   s. xxxx, introduced by senator bernard sanders (vt), the enhanced 
                 dental care for veterans act of 2013.
    Several studies have shown that poor dental health contributes to 
and in fact leads to deterioration of the overall physical and mental 
health. This being so, the case is compelling to add dental care to the 
package of benefits to patients at VA healthcare facilities who are not 
100 percent service-connected disabled. This is hardly a luxury; 
rather, it is a vital element of an overall wellness program that the 
VA claims is a goal for all of its patients. We believe that an 
econometric study would show that it costs less to provide reasonable 
dental care than it does to treat the ravages that poor teeth wreak on 
the health of veterans, particularly low-income veterans.
    The VHA has made headway in this arena, offering all of its 
patients the opportunity to purchase dental insurance at seemingly 
reasonable rates. This, however, will not help the poorest veterans who 
have neglected their dental health for too long.
    VVA fully support enactment of this legislation.
s. xxxx, introduced by senator bernard sanders (vt), the mental health 
        support for veteran families and caregivers act of 2013.
    It seems to us that in order to help a veteran who has Post-
traumatic Stress Disorder or Traumatic Brain Injury, especially chronic 
PTSD or TBI, family members and caregivers need support and assistance 
if efforts of the VA are to have any chance of success at even 
mitigating these issues and helping the veteran achieve a decent 
quality of living. Assuming that this bill will help achieve some 
degree of success in this area, VVA supports its enactment as a step in 
the right direction.

    S. XXXX, introduced by Senator Bernard Sanders (VT), the Survivors 
of Military Sexual Assault and Domestic Abuse Act of 2013, would 
provide counseling and treatment for sexual trauma to members of the 
Armed Forces; require the Secretary to screen veterans for domestic 
abuse; and require the Secretary to submit reports on Military Sexual 
Trauma (MST) and domestic abuse.
    Considering the somewhat belated attention being paid to MST, this 
bill takes a rather proactive approach to assisting veterans who have 
been victimized by abuse. In the arena of domestic abuse, however, the 
bill may be going a bit too far for the veterans' own good by 
``develop[ing] and implement[ing] a screening mechanism to be used when 
a veteran seeks healthcare services * * * to detect if the veteran has 
been a victim of domestic abuse for purposes of improving the treatment 
of the veterans and assessing the prevalence of domestic abuse in the 
veteran population.''
    Either way, VVA endorses enactment of this legislation.

    S. XXXX, introduced by Senator Jon Tester (MT), would provide for 
the payment of temporary compensation to a surviving spouse of a 
veteran upon the death of the veteran.
    How can anyone not be in favor of such legislation? We have heard 
of far too many instances in which a veteran dies, leaving his spouse 
just this side of destitute. To provide the VA with the means to pay 
temporary compensation to assist her, or him, in this difficult time is 
more than fitting. It is simply the right thing to do.
    VVA supports this measure.

    Again, on behalf of our membership, we thank you for the 
opportunity to present our testimony before this Committee, and we 
thank all of you for the work you are doing on behalf of our Nation's 
veterans and our families.

    Chairman Sanders. Thank you very much, Mr. Weidman.
    Let me just start off and ask each of you very briefly. All 
of your organizations have people who access the VA health care 
system. What are you hearing? Is it a good system? Mr. Atizado. 
I am murdering your name here and I apologize for that.
    Mr. Atizado. Adrian is fine.
    Chairman Sanders. Adrian, all right. That I can handle.
    Mr. Atizado. I believe so, Mr. Chairman, generally. As an 
advocacy organization the things we hear about are the same 
things that a lot of Members on this Committee and the staff 
probably hear as well are just complaints.
    But, you know, the type of complaints that we get really 
are more about implementing policy and not the quality of care. 
To that end, those that we do have the opportunity to speak 
with that are patients in our organization love the VA. They 
will defend it and they are very strong advocates, vocal 
advocates, also very vocal critics when it needs to be. I think 
that is the overall perspective our members have about VA 
health care.
    Chairman Sanders. Colonel Norton.
    Colonel Norton. Thank you, Mr. Chairman.
    You know the VA that Rick and I experienced coming back 
from Vietnam 40 plus years ago compared with today is light 
years different. I mean, it is by many different measures, 
studies, et cetera, has a markable record of safety and 
quality.
    Sure, more needs to be done. I would say that information 
outreach and access is an issue especially for veterans that do 
not understand or know that they may be eligible to enroll in 
VA health care.
    Chairman Sanders. Mr. Weidman.
    Mr. Weidman. Overall it is an excellent system. On special 
needs of vets, particularly neuropsychiatric, spinal cord 
injury, amputations and prostheses--they are ahead of most 
American medicine.
    So, we think it is an excellent system. We strongly favor 
your bills opening it up and including dental care in that.
    Chairman Sanders. Well, let me pick up on that, Mr. 
Weidman.
    Do you bump into Vietnam vets who would like to access VA 
health care but are ineligible to do so?
    Mr. Weidman. I do, sir.
    Chairman Sanders. And do you think opening up the system 
would give them the opportunity to access good quality health 
care?
    Mr. Weidman. I think it would if they know about it. I 
cannot tell you the number of people who do not--even going to 
the VA Web site, if you look up diabetes in the patient library 
you want to know more about diabetes, it does not mention a 
darn thing about Agent Orange.
    Chairman Sanders. Well, you have raised an issue dear to my 
own heart. We have had at least one hearing on that issue 
already and we are going to do more. I think if you go to the 
Web site, it is a better Web site today than it was a year ago.
    Mr. Weidman. Absolutely.
    Chairman Sanders. You are seeing ads on television and on 
the radio which are pretty good. So, I think these guys are 
trying to get their act together. Not everybody, you know, not 
every veteran wants to use the VA and that is fine. But I think 
our job is to make sure that every veteran in America knows 
what he or she is entitled to so if they do want to use the 
system they can come in.
    So, I agree with you that outreach remains an issue and it 
is an issue that this Committee is going to continue to work 
on.
    Adrian, what do you think? Are there folks out there who 
would like to access VA but are ineligible and do not know 
about the system?
    Mr. Atizado. I am pretty sure there are, Mr. Chairman, yes.
    Chairman Sanders. So, one of the things that we want to do 
is to expand VA eligibility and bring more veterans into what 
we consider to be a strong and cost-effective system.
    Any of you want to comment on dental care or am I the only 
person in the world obsessed by this issue?
    Mr. Atizado. I will gladly do it, and I will echo my 
comments with Mr. Weidman. Dental care is a longstanding issue 
for DAV. As you mentioned and was mentioned by other folks, 
including Dr. Jessie behind me, it is a critical part of health 
care.
    For whatever reason, there are parts of VA's medical 
benefit package that has not caught up with what we believe 
health care to be today, whether it is certain parts of long-
term care and in this particular case dental care. So, we are 
very supportive of that bill. We would like to see it get into 
the fold of the medical benefit package, yes.
    Chairman Sanders. Colonel.
    Colonel Norton. Thank you, Mr. Chairman.
    The reality is that the view that dental health and 
physical health are distinct and different aspects of treating 
the human person is old thinking. It is obsolete.
    The reality is that you can have severe dental health 
issues that affect your overall health. I would add that we 
have had the experience early in the last decade when tens of 
thousands of members of the Reserves were called up that became 
compounded when they came back and became veterans.
    Many of them had teeth pulled. They did not get proper care 
from DOD. They really just had to get them deployed into the 
combat zone and so they did not provide proper dental health 
care.
    Now, that is being visited really on the VA system now that 
many of them are applying for health care access there.
    Chairman Sanders. Mr. Weidman.
    Mr. Weidman. Dental care is, in fact, part of health care. 
We met with the VA dentists numerous times. There have been 
many studies that we have reviewed about it being key to 
maintenance of overall wellness.
    The people who you do not take care of who do not have the 
ability themselves to pay for dental care are going to end up 
at VA because they are going to be indigent and so sick that 
they get in. Why not see them before they get that sick?
    I also want to mention something. Years ago when I was 
chairman of the board of PAVE in Vermont, we had a smart 
counselor in St. Johnsbury, and he had a client who stayed 
drunk all the time, and he could not get him to go to the 
hospital, could not do anything. His wife had thrown him out, 
et cetera.
    He figured out that the key was the guy had no teeth. So, 
he said I do not know what to do. CEDA will not pay for it. So, 
I went to a friend who was a classmate at Colgate who was a 
dentist in Stowe and he had been instrumental in starting the 
ToothFairy Program.
    He said, do you have somebody in St. J who will do it if we 
buy the materials. The board of PAVE, all Vietnam vets, chipped 
in to buy the materials. We got the guy a new set of choppers, 
got him down to White River Junction to Matt Freedman and 
turned him around on the PTSD and the alcohol. We got him a 
job, and his wife took him back and that was his story.
    The barrier to employment could be anything but in this 
case it was his health and it was his teeth. That was the key 
to his overall well-being.
    Chairman Sanders. Excellent point.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Let me start by thanking all of your organizations for 
their support for the Camp Lejeune water contamination issue.
    Rick, as you know, it is a very long process to go through. 
The whole study of water toxicity--we have made more progress 
in the last 2 years than we have in the past 20 years, and I 
hope that there is a blueprint that we create through that for 
other toxic exposures that may exist.
    Let me also ditto what you said about the electronic 
medical records being a DOD problem and not a VA problem. As 
one person's opinion who has been in the debate on this side of 
the dais, I have always seen a willingness on the part of VA 
and expertise on the part of the VA and I have seen nothing but 
reluctance and pull back on the part of DOD.
    And I say that to my colleagues that are on the Armed 
Services Committee. I do not think it is a lack of willingness 
on the VA side. It is clearly a lack of willingness on the part 
of the DOD, and I hope we can close that gap.
    If I could pray for any IT explosion at the VA, it would be 
for a new appointment program that would actually walk somebody 
through to where a veteran could actually access all their 
doctors in one visit versus the multiple visits that it takes 
today.
    I think that is a difficult thing to explain that it cannot 
be done and it is not because of the lack of money. We have 
spent a tremendous amount of money only to have a failure 
again.
    Colonel Norton, in your testimony regarding my bill, the 
Improving Quality of Care Within the Department of Veterans 
Affair Act of 2013, you stated this, ``Directives from VA 
central office can take significant periods of time to be 
reviewed by local facilities and then not implemented as 
originally intended.''
    What do you believe are those bottlenecks?
    Colonel Norton. I think this gets back to what Adrian said 
earlier, that there is a culture of individuality out there in 
the VISNs that even though the central office might issue a 
particular directive or policy, the way that it is implemented 
turns into a completely local affair. It has to do with the 
leadership there and the responsiveness of that local system to 
VA central.
    It is an elaborate problem and I think your bill is needed 
in order to address a more outside systematic look at an 
efficient way to run the railroad, if you will.
    Senator Burr. Our hope is to structurally put some 
accountability into the system.
    Rick, in your testimony regarding my dialysis bill, 
S. 1547, you stated that dialysis is one of those services best 
performed by clinicians outside of VA. However, as you stated 
in your testimony, some folks in the VA are overeager to bring 
dialysis outpatient clinics into the fold.
    Why, in your opinion, is VA overeager?
    Mr. Weidman. It is not just on this issue. The contracting 
out makes sense where veterans have to travel great distances. 
Even in some States--we do not usually think of North Carolina 
as rural like parts of the rest of the country.
    Senator Burr. Only 80 percent of it is.
    Mr. Weidman. Right. But for those in the rural areas--it is 
really rural when you get out west. The point is that in those 
areas to contract out makes a great deal of sense for all the 
reasons that Senator Johanns talked about earlier, where there 
are quality facilities out there you can contract with.
    But to contract out where there is dialysis already 
existing in urban areas makes no sense to us unless you can 
show it is amazingly more cost-effective for VA to develop its 
own dialysis unit. The capital costs in developing a dialysis 
unit and keeping it staffed properly and up to date, I think 
you could do much more easily outside.
    Senator Burr. Well, let me just say I have challenged Dr. 
Jesse to present the sales pitch to me of why this should be 
done internally.
    I will take my 53 seconds that I have got to editorialize a 
little bit. In addition to the wishes of the Chair to expand 
access to the VA, we cannot lose focus on the fact that over 
the next decade we will have probably 500,000 individuals who 
separate from the military and who are eligible in some way, 
shape, or form for VA.
    In my State of North Carolina, we are not in a position 
today to physically handle what we currently have just from 
military retirees who are moving to North Carolina and VA 
eligible. This is not a secret. The VA recognizes that too.
    If we begin construction today, I am not sure that we could 
ever meet the needs of all who will migrate there as retirees 
and those that will separate from the military and name North 
Carolina has home.
    Given the fact that we cannot do that and there are going 
to be continuing pressures on the need for additional 
facilities, personally, and I say this, Dr. Jesse, and I hope 
you hear it, I am not sure why we would waste the capital to 
create something that seems to work fairly well on a contract 
basis because we are going to need that capital to stand up 
delivery points for the delivery of care where there is no 
expertise or availability outside of VA.
    Chairman Sanders and I have talked about ways that we might 
be able to leverage the federally qualified community health 
centers in a way that we can actually put a VA presence closer 
to where veterans live.
    You know, if you have to put a VA sign over a door and put 
a new door in or have dual services that are operated by the x-
ray machine and copy machine and a nurse, even if you have to 
have two separate physicians, our ability to do that because 
our objective here--which I do not think it is at odds with the 
VA's objective--is to keep veterans healthy, to keep them out 
of our hospitals, to do as much things in outpatient facilities 
as we can.
    It means the expansion of things like HCCs with ambulatory 
outpatient surgery centers. It means some degree of partnership 
with community health care centers for any overnight 
observation.
    But I hope that the veterans service organizations and the 
Members on this side do not lose perspective on the fact that 
the demands in dollars over the next 10 years for the 
infrastructure needs to handle the population that we have made 
a promise to are huge.
    Today, we have $14 billion worth of construction either let 
or underway and we have no idea how we are going to finish 
paying for that much less this horizon that we see that we know 
is coming. We cannot deny it. We have got to be responsive to 
it.
    So, mine is not a judgment based upon trying to tell the VA 
what they should and should not do. It is to some degree facing 
the realities of what we have before us and asking how we can 
best allocate our funds and leverage our dollars in a way that 
fulfills the promise that we have made to all those 
individuals.
    So, I thank the Chair for the editorial time.
    Chairman Sanders. Thank you, very much, Senator Burr.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Let me begin by saying that I agree with much of what 
Senator Burr has just said about the challenges that we need to 
face and have not prepared to confront going forward simply in 
the numbers that will separate from the military.
    I see it from the standpoint of the Committee on Armed 
Services where we are preparing for the downsizing of our 
military in numbers that are almost unprecedented in recent 
history.
    Obviously in the wake of every war, we have downsized to 
some extent but this influx of needs--health care requirements 
as well as other kinds of challenges and obligations that we 
owe--they are not new obligations.
    We have made promises and the Nation needs to keep faith 
with them. So, I welcome his statement and I know that the 
Chairman has spoken to it as well. But I hope that we can come 
together as a Committee again on a bipartisan basis and try to 
at least produce a blueprint for trying to deal with these 
issues.
    Mr. Weidman, I want to say a personal thanks to you and to 
the Vietnam Veterans of America who have been absolutely 
instrumental and central in developing the Topic Exposure 
Research and Military Family Support Act of 2013, and I welcome 
additional changes after you consult with other organizations, 
including the DAV, and Colonel Norton, with your organization 
as well.
    I have no pride of authorship in this bill. I have no 
preconceived notion of what should be in it but I think the 
central point is we have an obligation to provide remedies to 
diseases and conditions that have been passed on to children 
and grandchildren, as you have so eloquently said, Mr. Weidman, 
and also to veterans, more recent veterans from Afghanistan 
exposed to the burn pits, the members of families at Camp 
Lejeune that Senator Burr and Senator Hagan have championed.
    This issue of toxic chemicals is just beginning to be 
understood. The fact that we expose our military men and women 
to these wounds of war without any real scientific knowledge 
and awareness or sensitivity to those issues I think is a gap 
that we need to remedy.
    So, I think you are performing an enormous service, your 
organization and others, in calling attention to this very, 
very difficult and challenging area.
    Without being too long-winded, I also want to second your 
point about VistA and the Department of Defense.
    As long as the folks from the VA are still here, I join 
Senator Burr in raising some qualms about the reaction of the 
Department of Defense. I think I alluded to those qualms 
earlier.
    But let me just ask you if I may, Mr. Weidman, about the 
Toxic Exposure Research and Military Family Support Act. I have 
had one of these roundtables in Connecticut. You were kind 
enough to join us.
    Is there a national constituency for this bill in your 
view?
    Mr. Weidman. There is, Senator, and we have had since that 
roundtable at Rocky Hill, CT, 20 some odd meetings. There were 
seven just the week before last and in the same week in Florida 
in a round robin format, been to California; and I think that 
by next spring, certainly by Memorial Day, that you will have 
one in virtually every State in the union, at least one.
    Frankly, our goal is to have one in every congressional 
district so people cannot say it does not affect my veterans 
because it sure as heck does because the exposures were so 
wide, when you looked at what happened to Gulf War one, 
Vietnam, and the young people serving today.
    Senator Blumenthal. Thank you. My time has expired but I 
again want to thank each of you for being here today for your 
service to our Nation and for the service that has been 
provided to every single member of the organizations you 
represent.
    Thank you so much.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Blumenthal.
    Let me thank the panelists and again reiterate what Senator 
Blumenthal said, we thank you very much for the work of your 
organizations. This Committee cannot do its job without 
learning and working with all of the service organizations.
    I want to thank VA for being here as well and for their 
excellent testimony. I think it has been a good hearing and I 
thank everyone for attending.
    This hearing is adjourned.
    [Whereupon, at 4:25 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


         Prepared Statement of Senator John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Mr. Chairman, thank you for holding this important hearing. The 
legislation being discussed today covers a wide range of important 
issues that will help us fulfill our solemn promises to our veterans, 
our servicemembers, and our military families.
    I appreciate the opportunity to discuss the SCRA Enhancement and 
Improvement Act of 2013, which I proudly introduced this week with 
Chairman Sanders. The Servicemembers Civil Relief Act was first passed 
in 1940 as the Soldiers' and Sailors' Civil Relief Act (SSCRA), and it 
was designed to help make sure that that servicemembers' sacrifices for 
our Nation did not force them to also sacrifice their credit and their 
financial well-being. In the decades since, the law became known as the 
Servicemembers Civil Relief Act and has been amended several times.
    This law goes far to assist servicemembers in a wide range of areas 
including protecting them from foreclosure, default judgments, and 
eviction. However, the Department of Justice and experts in this field 
have pointed to common-sense changes we can make to clarify and expand 
the protections that exist today. In making these changes, the law will 
match our intent, and make sure that common areas where military 
service affects servicemembers' finances and rights are not overlooked. 
Among other things, the improvements in our bill will protect 
servicemembers from being discriminated against when being considered 
for a loan simply because of their entitlement to rights under the 
SCRA; strengthen some of the foreclosure protections under existing 
law; and give servicemembers extra time to renew their professional 
licenses and meet continuing education requirements if they are 
deployed.
    I have always been proud of this Committee's ability to work in a 
bipartisan fashion for the best interests of our veterans and military 
families. I hope this will again be the case with this legislation so 
we can give servicemembers critical help they earned and deserve.
                                 ______
                                 
   Letter from Hon. Frank B. Aguon, Jr., Chairman, Committee on Guam 
                        U.S. Military Relocation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
Prepared Statement of the American Federation of Government Employees, 
        AFL-CIO and the AFGE National Veterans' Affairs Council
    American Federation of Government Employees and the AFGE National 
Veterans' Affairs Council (hereinafter ``AFGE'') appreciate this 
opportunity to provide a statement for the record on S. 1556, a bill to 
restore equal bargaining rights to health care professionals at 
Department of Veterans (VA) Affairs medical facilities.
    AFGE represents 650,000 Federal employees. More than two thirds of 
the 210,000 VA employees we represent work on the front lines at VA 
medical facilities caring for veterans.
    S. 1556 provides a long overdue fix to a gross inequity in the law 
that weakens the VA's ability to attract and maintain a strong health 
care workforce. The law in question--38 U.S.C. 7422 (``Section 
7422'')--also deprives veterans of full protection from improper and 
unsafe care. Earlier this year, a VA registered nurse and AFGE local 
president testified before Congress about the cover up and mishandling 
of a deadly Legionnaires outbreak at her facility. Yet, if a registered 
nurse (RN) at her facility attempted to file a grievance over excessive 
mandatory overtime that deprived her of adequate rest and put her 
patients at risk, her grievance would be blocked by current VA ``7422'' 
policy.
    Section 7422 unfairly singles out VA employees in eight health care 
positions: registered nurses (RN), physicians, dentists, physician 
assistants, optometrists, podiatrists, chiropractors and expanded-
function dental auxiliaries. AFGE also represents RNs, physicians and 
others working in these covered positions at facilities operated by the 
Department of Defense (DOD) and the Bureau of Prisons (BOP). These DOD 
and BOP employees are permitted to grieve over routine workplace issues 
such as the assignment of mandatory overtime and calculations of shift 
differential pay because they are covered by Title 5 bargaining rights, 
like most Federal employees.
    The VA's``7422'' policy also results in differential treatment 
between VA health care professionals working at the same facility. VA 
Hybrid Title 38 employees have full Title 5 bargaining rights. The 
result is extremely arbitrary: a VA registered nurse cannot bargain 
over the failure to provide adequate training when she is reassigned 
from primary care to the ICU while a VA licensed practical nurse can. 
Similarly, a VA psychiatrist cannot grieve over the loss of incentive 
pay while a VA psychologist can.
    Opponents have argued that S. 1556 creates new bargaining rights. 
This is not correct: S. 1556 merely restores equal bargaining rights 
that were afforded to these clinicians prior to 2003. Unfortunately, 
over the past decade, the VA adopted a different interpretation of 
Section 7422 to deprive these clinicians of rights to grieve and 
negotiate over routine workplace matters and block complaints arising 
out of violations of rights under other Federal laws.
    Opponents have claimed that if VA physicians and RNs (and those in 
the other six covered positions) have full bargaining rights, it will 
interfere with management's mission to provide patient care. Yet, VA 
management does not claim that VA Hybrid 38 employees interfere with 
patient care when they exercise full bargaining rights.
    In fact, VA physicians, RNs, and other Title 38 clinicians working 
at the Captain James A. Lovell Federal Health Care Center in North 
Chicago already have full bargaining rights under Public Law 110-417. 
In 2010, when the Navy and VA merged facilities at this location, the 
law provided that all the DOD clinicians who became VA Title 38 
employees would retain their full bargaining rights as VA employees 
under a pilot project for two years. To date, the VA has not made a 
single complaint about the impact of full bargaining rights on patient 
care at the Lovell Federal Health Care Center. In fact, recently, the 
VA extended that pilot project for an additional three years.
    Title 5 affords VA management the same rights as all Federal 
managers to carry out the agency's mission, including the right to 
determine the number of employees, hire, assign, suspend and remove 
employees, and ``to take whatever actions may be necessary to carry out 
the agency mission during emergencies'' (5 U.S.C. 7106(a)).
    Several years ago, AFGE participated in good faith in a VA working 
group that culminated in new VA ``7422'' policy. AFGE did not sign the 
Memorandum of Understanding that formed the basis of the new policy 
because it did not accurately reflect the language adopted by the 
working group. Although the new policy is a step in the right 
direction, it is a very small step that does not have the force of law. 
It can be revoked at any time, which is exactly what President Bush did 
in 2003 when he nullified a very helpful labor-management agreement 
reached seven years earlier.
    AFGE and its National VA Council are also troubled by the VA's 
continued practice of refusing to bargain over matters that are covered 
by the new ``7422'' policy, and the continued practice of local human 
resources personnel trying to make their own ``7422'' determinations, 
even though the law clearly states that only the Secretary can make 
those determinations.
    Finally, too many VA Title 38 clinicians are experiencing first 
hand that ``justice delayed is justice denied.'' The Secretary has only 
published four ``7422'' determinations since the new policy took effect 
in 2010. The Department has still not responded to AFGE's August 2013 
information request to determine how many cases are pending. These 
backlogged cases involve real employees with serious workplace issues 
that need to be addressed.

    Thank you again for the opportunity to present the views of AFGE 
and its National VA Council on S. 1556.
                                 ______
                                 
     Prepared Statement of Anthony A. Wallis, Legislative Director,
              Association of the United States Navy (AUSN)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
  Letter from Wendy Spencer, Chief Executive Officer, Corporation for 
                     National and Community Service

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
  Prepared Statement of Keith Kelly, Assistant Secretary of Labor For 
      Veterans' Employment and Training, U.S. Department of Labor
                              introduction
    Chairman Sanders, Ranking Member Burr, and distinguished Members of 
the Committee. Thank you for the opportunity to provide the Department 
of Labor's (DOL or Department) views on pending legislation. I commend 
you all for your tireless efforts to ensure that America fulfills its 
obligations to our returning servicemembers, veterans, and their 
families. The Department looks forward to working with the Committee to 
provide these brave men and women with the employment support, 
assistance and opportunities they deserve to succeed in the civilian 
workforce.
    While this hearing is focused on numerous bills pending before the 
Committee, I will limit my remarks to those pieces of legislation that 
have a direct impact on the programs administered by DOL, including the 
following: S. 1262, the ``Veterans Conservation Corps Act of 2013,'' 
S. 1281, the ``Veterans and Servicemembers Employment Rights and 
Housing Act of 2013,'' and S. 1558, the ``Veterans Outreach Enhancement 
Act of 2013.'' DOL respectfully defers to other Federal Departments or 
Agencies with respect to the remaining pieces of legislation.
          s. 1262--``veterans conservation corps act of 2013''
    S. 1262, the ``Veterans Conservation Corps Act of 2013'' would 
establish a ``Veterans Conservation Corps,'' similar to the Civilian 
Conservation Corps, aimed at employing veterans: (1) in conservation, 
recreation, and resource management projects on public lands, and (2) 
as firefighters, law enforcement officers and disaster relief 
personnel. The Veterans Conservation Corps would be administered by the 
Department of Veterans Affairs (VA) in cooperation with the Departments 
of Justice (DOJ), Agriculture, Commerce, Homeland Security, Interior, 
and the Army Corps of Engineers.
    DOL supports the intent of this bill, which includes similar 
concepts to the Administration's Veterans Job Corps proposal that was 
presented in its FY 2014 Budget. We would welcome the opportunity to 
work with the Committee on this bill.
     s. 1281--``veterans and servicemembers employment rights and 
                          housing act of 2013
    S. 1281, the ``Veterans and Servicemembers Employment Rights and 
Housing Act of 2013'' would prohibit discrimination in employment and 
housing on the basis of military service. The Department supports the 
intent of this legislation, but defers to the Equal Employment 
Opportunity Commission (EEOC), DOJ, and the Department of Housing and 
Urban Development (HUD) on sections of the bill that fall outside the 
Department's purview. We do, however, have some technical concerns with 
section 2 of the bill, as drafted, and look forward to working with the 
Committee to address these concerns and enhance employment protections 
for veterans and members of the Armed Services, Guard and Reserve.
    DOL administers and enforces a number of laws that protect American 
workers and ensure that they are treated fairly on the job. Among these 
important worker protections are the Uniformed Services Employment and 
Reemployment Rights Act of 1994 (USERRA), Section 4212 of the Vietnam 
Era Veterans' Readjustment Assistance Act (VEVRAA) and the provisions 
relating to veterans preference in Federal employment under Title 5 of 
the U.S. Code. Through USERRA and other laws, DOL works tirelessly to 
ensure that the men and women who serve this Nation are protected 
against adverse discrimination based on their past, present, or future 
military service obligations.
    The Department has concerns with how section 2, which is modeled 
after Title VII of the Civil Rights Act of 1964, would interact with 
the Department's existing authorities that protect against 
discriminatory employment actions. In our view, this could be confusing 
for both claimants and employers, and could yield inconsistent results. 
The Department gladly would work with the Committee, and our fellow 
agencies, to ensure that the important aims of S. 1281 are achieved 
without adversely impacting existing protections.
         s. 1558--``veterans outreach enhancement act of 2013''
    DOL defers to the VA on the substance of the legislation, but has a 
technical concern with the provision on outreach activities related to 
USERRA. More specifically, in section 2, paragraph (d)(2)(D), the 
Secretary of Veterans' Affairs is given authority ``to enter into 
agreements with other Federal and State agencies to carry out projects 
under the jurisdiction of such agencies'' to ``educate communities and 
State and local governments about the employment rights of veterans, 
including the employment and reemployment of members of the uniformed 
services under chapter 43 of title 38, United States Code.'' Due to the 
highly complex and technical nature of USERRA, DOL is concerned about 
ensuring consistency in any educational outreach program. DOL therefore 
believes that the bill should be amended to require that any applicable 
outreach be conducted in coordination with the Department.
                               conclusion
    The Department of Labor is committed to providing our veterans, 
transitioning servicemembers, and their families with the best possible 
employment services, protections, and programs our Nation has to offer. 
Mr. Chairman, Ranking Member Burr, and Members of the Committee--this 
concludes my statement. Thank you again for the opportunity to submit 
this statement for the record.
                                 ______
                                 
Prepared Statement of Bryan Greene, Acting Assistant Secretary for the 
Office of Fair Housing and Equal Opportunity, Department of Housing and 
                           Urban Development
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee, I am pleased to have this opportunity, on behalf of the U.S. 
Department of Housing and Urban Development (HUD), to discuss S. 1281, 
the Veterans and Servicemembers Employment Rights and Housing Act of 
2013. S. 1281 proposes to protect Veterans and Servicemembers from 
housing discrimination, by making certain amendments to the Fair 
Housing Act (hereafter Housing Act, or Act). The Office of Fair Housing 
and Equal Opportunity, of which I am the Acting Assistant Secretary, 
has the primary responsibility for enforcing and administering the 
Housing Act. We strive to prevent discrimination through outreach and 
education, but when housing discrimination occurs we do not hesitate to 
take enforcement action against those that violate the law.
    Each year my office, and our state and local partners investigate 
more than 8,000 complaints of housing discrimination based on race, 
color, religion, sex, national origin, familial status, and disability. 
Far too many of these cases involve veterans--often, they are veterans 
who encounter discrimination based on injuries that they sustained 
during their service. In one case, a Vietnam veteran alleged his 
housing complex denied him permission to have his companion dog live 
with him, which he needed because of a disability. Following an 
investigation, the Department negotiated a conciliation agreement, 
whereby the owner and apartment management company agreed to pay 
$10,000 to the veteran. In another case, HUD charged a Utah homeowners 
association for allegedly discriminating against a Gulf War combat 
veteran with psychiatric disabilities when it refused his request to 
keep an emotional support dog. In February 2012, the Justice Department 
obtained a settlement with the homeowner association that awarded the 
veteran $20,000 and required the homeowner association to implement a 
new reasonable accommodation policy and train its staff on the 
requirements of the Housing Act. Other cases have included allegations 
of refusing to make reasonable accommodations for veterans with Post 
Traumatic Stress Disorder (PTSD) or refusing to rent to a veteran 
because of PTSD.
    Currently, the Housing Act does not prohibit discrimination based 
specifically on veteran or military or veteran status, and as such, HUD 
brought all the foregoing cases on the basis of the Act's current 
prohibitions against ``disability'' discrimination. As such, we do not 
have a definitive or comprehensive count of discrimination on the basis 
of veteran or military status. However, under the Department's Fair 
Housing Assistance Program, HUD partners with 95 State and local 
agencies that administer fair housing laws that are substantially 
equivalent to the Act, and five state agencies and eight local agencies 
in the program administer laws that include protections for 
servicemembers and veterans. Through the program, the agency is able to 
provide civil-rights protections for just those servicemembers and 
veterans living in those jurisdictions.
    The Housing Act is a national civil rights statute that provides 
protections based on race, color, religion, sex national origin, 
familial status, and disability. There have been a number of proposals 
in recent years to amend the Act, to make it unlawful to discriminate 
on the basis of sexual orientation, gender identity, marital status, 
and source of income. We believe that further study should be given to 
ascertain how best to address these issues.
    HUD agrees that members of our military who risk their lives 
overseas should not encounter obstacles related their military service 
as they search for a home upon their return. We would be happy to work 
with our State and local partners that currently provide these 
protections to gather information on the frequency of this 
discrimination and to provide any assistance with can to assist the 
Committee in crafting the best way to combat this kind of 
discrimination.
                                 ______
                                 
      Prepared Statement of Iraq & Afghanistan Veterans of America


------------------------------------------------------------------------
 Bill #                Bill Name                  Sponsor      Position
------------------------------------------------------------------------
  S.875 Department of VA Disease Reporting &  Casey        Support
         Oversight Act
------------------------------------------------------------------------
 S.1148 Veterans Benefits Claims Faster       Heinrich     Support
         Filing Act
------------------------------------------------------------------------
 S.1155 Rural Veterans Mental Health Care     Tester       Support
         Improvement Act
------------------------------------------------------------------------
 S.1165 Access to Appropriate Immunizations   Tester       Support
         for Veterans Act
------------------------------------------------------------------------
 S.1211 A bill to prohibit the use of         Boxer        Support w/
         phrases GI Bill and Post-9/11 GI                   Conditions
         Bill to give a false impression of
         approval...
------------------------------------------------------------------------
 S.1216 Improving Job Opportunities for       Bennet       Support
         Veterans Act
------------------------------------------------------------------------
 S.1262 Veterans Conservation Corps Act       Nelson       Support
------------------------------------------------------------------------
 S.1281 Veterans and Servicemembers           Blumenthal   No Position
         Employment Rights and Housing Act
------------------------------------------------------------------------
 S.1295 A bill to require the Secretary to    Brown        Support
         provide notice that relevant
         services may be available from VSOs
------------------------------------------------------------------------
 S.1296 Servicemember's Electronic Health     Nelson       Support
         Records Act
------------------------------------------------------------------------
 S.1361 World War II Merchant Mariner         Murphy       No Position
         Service Act
------------------------------------------------------------------------
 S.1399 A bill to amend the SCRA to extend    Durbin       Support
         the interest rate limitation on
         debt entered into during military
         service...
------------------------------------------------------------------------
 S.1411 Rural Veterans Health Care            Franken      Support
         Improvement Act
------------------------------------------------------------------------
 S.1434 A bill to designate the Junction      Moran        No Position
         City CBOC as the LTG Richard J.
         Seitz Community-Based Outpatient
         Clinic
------------------------------------------------------------------------
 S.1471 Alicia Dawn Koehl Respect for Nat'l   Coats        Support
         Cemeteries Act
------------------------------------------------------------------------
 S.1540 A bill to include contracts and       Brown        Support
         grants for residential care for
         veterans in the exception...
------------------------------------------------------------------------
 S.1547 Veterans Dialysis Pilot Program       Burr         No position
         Review Act
------------------------------------------------------------------------
 S.1556 A bill to modify authorities          Brown        No Position
         relating to the collective
         bargaining of employees in the VHA
------------------------------------------------------------------------
 S.1558 Veterans Outreach Enhancement Act     Begich       Support
------------------------------------------------------------------------
 S.1559 Benefits Fairness for Filipino        Durbin       No Position
         Veterans Act
------------------------------------------------------------------------
 S.1573 The Military Family Relief Act        Tester       Support
------------------------------------------------------------------------
Draft 1 A bill to update the Service-         Sanders      Support
         Disabled Insurance program to base
         premiums rates...
------------------------------------------------------------------------
Draft 2 A bill to provide replacement         Sanders      No Position
         automobiles for certain disabled
         veterans and members of the Armed
         Forces
------------------------------------------------------------------------
Draft 3 Veterans Health Care Eligibility      Sanders      No Position
         Expansion and Enhancement Act
------------------------------------------------------------------------
Draft 4 Enhanced Dental Care for Veterans     Sanders      Support
         Act
------------------------------------------------------------------------
Draft 5 Mental Health Support for Veteran     Sanders      Support
         Families and Caregivers Act
------------------------------------------------------------------------
Draft 6 Medical Foster Home Act               Sanders      Support
------------------------------------------------------------------------
Draft 7 SCRA Enhancement and Improvement Act  Sanders      No Position
------------------------------------------------------------------------
Draft 8 Improved Compensation for Hearing     Sanders      Support
         Loss Act
------------------------------------------------------------------------
Draft 9 Survivors of Military Sexual Assault  Sanders      Support
         and Domestic Abuse Act
------------------------------------------------------------------------
  Draft Toxic Exposure Research and Military  Blumenthal   No Position
     10  Family Support Act of 2013
------------------------------------------------------------------------
  Draft A bill to expand eligibility for      Hirono       Support
     11  reimbursement for emergency medical
         treatment to certain veterans ...
------------------------------------------------------------------------
  Draft The Improving Quality of Care Within  Burr         Support
     12  the Department of Veterans Affairs
         Act
------------------------------------------------------------------------

    Chairman Sanders, Ranking Member Burr, and Distinguished Members of 
the Committee: On behalf of Iraq and Afghanistan Veterans of America 
(IAVA), I would like to extend our gratitude for the opportunity to 
share with you our views, thoughts, concerns and recommendations 
regarding these important pieces of legislation.
    IAVA is the Nation's first and largest nonprofit, nonpartisan 
organization for veterans of the wars in Iraq and Afghanistan and their 
supporters. Founded in 2004, our mission is critically important but 
simple--to improve the lives of Iraq and Afghanistan veterans and their 
families. With a steadily growing base of nearly 270,000 members and 
supporters, we strive to help create a society that honors and supports 
veterans of all generations.
    In partnership with other Veteran Service Organizations (VSO), IAVA 
has worked tirelessly to see that veterans' needs and concerns are 
appropriately addressed by the Department of Veterans Affairs (VA) and 
by Congress. IAVA appreciates the efforts put forth by this Committee 
to address the issues and challenges facing our Nation's veterans and 
their families. We stand with you in supporting legislation to continue 
improving the services offered by VA, empowering veterans to improve 
their lives after military service, and ensuring that veterans are 
fully aware of all the benefits available to them as our Nation begins 
transitioning away from more than a decade of war in Iraq and 
Afghanistan.
    IAVA is, therefore, able to offer its support for many of the bills 
that are the subject of this hearing today because we believe that they 
would better enable the VA to live up to its commitment on behalf of 
the American people.
                                 s. 875
    IAVA supports S. 875, the Department of Veterans Affairs Disease 
Reporting and Oversight Act, which would require directors of Veterans 
Integrated Service Networks (VISNs) to report confirmed cases of 
certain infectious diseases at Veterans Health Administration (VHA) 
facilities. In addition, plans to prevent the spread of infectious 
diseases must be established and implemented following the notification 
of infection.
    As currently written, Title 38 does not contain obligatory 
reporting requirements for infectious diseases. The need for 
established reporting and prevention protocols is clear following 
numerous infectious disease deaths at several VA medical facilities 
over the past year. In response to these deaths, the VA has released 
VHA Directive 2013-008, which requires VA medical facilities to follow 
state laws on reporting infectious diseases similar to those that 
private and non-profit medical centers must follow. But it is also 
important for Congress to codify such reporting requirements.
    This legislation seeks to include a list of agencies, personnel, 
and employees that are required to be notified within 24 hours when 
certain infectious diseases are confirmed at a VA medical facility. 
IAVA believes that responsible reporting of such occurrences and 
outbreaks and a comprehensive plan to prevent the spread of such 
diseases is an essential aspect of preventing future unnecessary 
deaths.
                                s. 1148
    IAVA supports S. 1148, the Veterans Benefits Claims Faster Filing 
Act, which would require the Secretary of Veterans Affairs to provide 
and post information, both at VA facilities and on the Internet, 
regarding average claims processing times and the percentages of claims 
filed via each of the various claims intake methods.
    In order to help facilitate the transition to a 21st century VA, 
IAVA supports utilizing electronic processes for more efficient claims 
processing and information dissemination. Educating veterans on the 
most efficient filing methods will help streamline the claims process 
and assist the VA in reducing the claims backlog. This legislation aims 
to establish prominent public displays about the differences in types 
of claims-filing pathways in order to ensure that all veterans are 
making informed decisions regarding the claims filing process. IAVA 
supports this bill because it will provide veterans with more 
information on the claims process and will help veterans make an 
informed decision about how to best file their claims.
                                s. 1155
    IAVA supports S. 1155, the Rural Veterans Mental Health Care 
Improvement Act, which would provide advance appropriations for 
specific information technology accounts within the VA, include 
education and training for additional types of therapists and 
counselors, expand the definition of mental health services, and 
require the VA to report on the status of telemedicine services.
    The need for advance appropriations for additional aspects of the 
VA was clear during the most recent government shutdown. Not only were 
veterans left wondering when the services they need would resume, but 
VA employees were also left to wonder when they could return to work 
and training. In today's technology-dependent world, the need for an 
adequately funded and functioning information technology infrastructure 
is obvious, and providing advanced appropriations for this aspect of 
the VA's operations is vital to helping the department continue to 
function during future shutdowns. IAVA believes that advance 
appropriations for all VA accounts is necessary, but this legislation 
would at least ensure that additional aspects of VA's infrastructure 
could continue operating in spite of the political environment.
    IAVA also supports educating and training additional mental health 
professionals and counselors to meet the various needs of veterans and 
their families. Specifically, this bill would include training and 
education for marriage and family therapists as well as licensed 
professional mental health counselors. Well-trained mental health 
professionals and counselors provide quality counseling options for 
veterans in need of these services, and educational opportunities for 
these professionals at the VA should be expanded.
    Additionally, this bill would require the Secretary of Veterans 
Affairs to report on issues currently hindering the provision or 
expansion of telehealth services by the VA. Since telehealth services 
rely heavily on technology, the implementation of such services 
presents some challenges for rural veterans. The report would include 
the scope of challenges the VA is experiencing and what the VA is doing 
to address these challenges. IAVA supports understanding these 
challenges and establishing methods to address them so that better 
health care options will be available for all veterans regardless of 
location.
                                s. 1165
    IAVA supports S. 1165, the Access to Appropriate Immunizations for 
Veterans Act of 2013, which would expand what immunizations are covered 
by the VA. This legislation seeks to include all immunizations listed 
on the adult immunization schedule published by the Center for Disease 
Control and Prevention (CDC).
    As currently written, Title 38 allows for immunization coverage, 
but does not specify which immunizations will and will not be covered 
within its section on definitions. This bill aims to utilize the CDC's 
dynamically updated immunization schedule to develop a uniform standard 
of the immunizations that will be covered by the VA. The CDC's schedule 
for immunizations is already used by healthcare professionals and 
insurance agencies to determine when and which immunizations are 
recommended. IAVA supports the use of the CDC's immunization schedule 
for the VA as well in order to remove the ambiguity on covered 
immunizations currently in Title 38.
                                s. 1211
    IAVA supports the intent of S. 1211, a bill which would prohibit 
the use of the phrases ``GI Bill'' and ``Post-9/11 GI Bill'' by any 
company, organization, or individual as it relates to promotions, 
goods, services, or commercial activity so as to give a false sense of 
approval or endorsement by the VA without the written consent of the 
Secretary of Veterans Affairs.
    IAVA recognizes the need to safeguard veterans against fraudulent 
and misleading services, goods, and promotions in regards to the GI 
Bill and Post-9/11 GI Bill educational benefits. However, it is unclear 
to IAVA if whether VSOs, other non-profit organizations, and useful 
projects and initiatives such as IAVA's NewGIbill.org would also be 
prohibited from utilizing the phrases ``GI Bill'' and ``Post-9/11 GI 
Bill'' without approval. IAVA feels the bills current language is too 
exclusionary, and we encourage the Committee to address these concerns.
                                s. 1216
    IAVA supports S. 1216, the Improving Job Opportunities for Veterans 
Act of 2013, which would improve and increase on-the-job training 
programs and apprenticeship opportunities for veterans in the private 
sector and in the Federal Government.
    The transition from the military to the civilian workforce 
continues to be a struggle for many veterans. Creating opportunities 
for veterans to learn new civilian skills through on-the-job training 
and apprenticeships would help create an even stronger veteran 
workforce. This legislation would create training opportunities that 
veterans need, and IAVA supports the continued effort to help veterans 
successfully transition to civilian careers.
                                s. 1262
    IAVA supports S. 1262, the Veterans Conservation Corps Act of 2013, 
which would create a Veterans Conservation Corps to employ veterans in 
conservation, historic preservation, resource management, National 
Cemetery Administration projects, and as fire fighters, law enforcement 
personnel, and disaster relief personnel.
    Too often veterans leave military service and face difficulty 
securing civilian careers. Recent reports from the Bureau of Labor 
Statistics show the post-9/11 veteran unemployment rate to be 10.1%, 
and the unemployment rate among veterans aged 18-24 is an alarming 
22.8%. Reducing these percentages is a priority for IAVA, and we 
support legislation to directly address veteran unemployment. While 
there are programs in existence to assist veterans in transition, a 
Veterans Conservation Corps would go one step further by creating more 
opportunities to continue to serve. IAVA supports this legislation 
because it would help veterans develop skills that can be used for 
continued civilian careers.
                                s. 1281
    IAVA has no position on S. 1281, the Veterans and Servicemembers 
Employment Rights and Housing Act of 2013. Although IAVA strongly 
supports the fair and equitable treatment of veterans, at this time 
IAVA has no organizational position on this legislation.
                                s. 1295
    IAVA supports S. 1295, which would require the VA to post 
information about the services and assistance available from VSOs so 
that veterans who file electronic claims will be more aware of the 
services available to help them in applying for benefits.
    VSOs have well established programs to assist veterans with 
submitting claims, but veterans are not always aware of these services. 
Therefore, they do not always avail themselves of such services. IAVA 
supports this bill because it takes advantage of a key engagement 
opportunity with veterans to inform them of outside services that they 
may find helpful.
                                s. 1296
    IAVA supports S. 1296, the Sericemembers' Electronic Health Records 
Act, which would establish a timeline for the implementation of 
interoperable electronic heath records.
    Interoperability between the Department of Defense (DOD) and VA 
medical records systems is a key component in establishing a smooth 
transition for veterans from DOD health care to VA health Care. IAVA 
supports the establishment of a reasonable timeframe for making 
implementing this mandate.
                                s. 1361
    IAVA takes no position on S. 1361, which would designate those who 
served as Merchant Mariners during WWII as veterans for the purpose of 
providing these individuals and their family members with access to 
certain benefits afforded to veterans. While we understand and 
acknowledge that there is an ongoing debate within the veteran 
community about whether to bestow veteran status and benefits on other 
categories of individuals who served our Nation in various capacities 
during previous periods of conflict, we defer to that debate and to our 
colleague veteran and military service organizations--whose memberships 
and constituencies this would impact more--on this issue.
                                s. 1399
    IAVA supports S. 1399, which would amend the Servicemembers Civil 
Relief Act (SCRA) to allow pre-service private or Federal student loan 
debt to be refinanced or consolidated while retaining the 6% rate cap 
afforded under SCRA.
    In order to qualify for the Public Service Loan Forgiveness 
Program, servicemembers with a Federal education loan or a Perkins 
student loan must consolidate their pre-military service loans. The 
forgiveness program rewards borrowers who have made regular payments 
for ten years while in public service, including service in the 
military. Specific language in SCRA shields servicemembers from costly 
interest rates by capping their interest rates at 6% on loans that were 
initiated prior to their military service. Should a servicemember 
choose to refinance his or her student loan, that individual would no 
longer be eligible for the interest rate cap afforded under SCRA.
    This legislation would fix this loophole by allowing student loan 
debt accrued prior to military service to be consolidated or refinanced 
while maintaining the 6% interest rate cap offered on pre-service debts 
through SCRA. This change effectively allows servicemembers with a 
Perkins loan or other Federal education loans to enter into the Public 
Service Loan Forgiveness Program, and thus better manage their personal 
finances.
                                s. 1411
    IAVA supports S. 1411, the Rural Veterans Health Care Improvement 
Act of 2013, which would improve access to and quality of health care 
services for veterans in rural areas.
    A significant number of our Nation's veterans seeking access to VA 
health care live in rural areas, yet these areas lack some of the 
typical medical facilities to which many other veterans living in more 
densely populated areas have easier access. Even though community-based 
outpatient clinics seek to provide more convenient health care access 
for rural veterans, these men and women are still not always getting 
the treatment and access tailored to their particular medical needs.
    This bill would seek to ensure that rural veterans' access to 
health care is significantly improved by requiring VA to produce a 
five-year strategic plan that demonstrates how VA will recruit and 
retain health care professionals in rural areas, how VA will ensure the 
successful and timely delivery of its services through contract and 
fee-basis providers, and also how it will implement and expand the use 
of telemedicine services in rural areas.
                                s. 1434
    IAVA has no position on S. 1434, a bill that would designate the 
Junction City Community-Based Outpatient Clinic in Junction City, 
Kansas as the Lieutenant General Richard J. Seitz Community-Based 
Outpatient Clinic. As a standard practice, IAVA typically does not take 
a position on bills whose sole purpose is to designate or name 
facilities. However, IAVA fully supports efforts to honor 
servicemembers and veterans who have had exemplary careers, have 
accomplished outstanding achievements, and/or have made extraordinary 
sacrifices for our country.
                                s. 1471
    IAVA supports S. 1471, the Alicia Dawn Koehl Respect for National 
Cemeteries Act, which would give the VA the authority to disinter 
veterans buried in national cemeteries that committed of a Federal or 
state capital crime.
    In 2012, Michael Anderson, an Army veteran, shot and killed Alicia 
Dawn Koehl before committing suicide as the police were arriving. After 
discovering that Mr. Anderson was buried with full military honors at a 
national cemetery in Michigan, the Koehl family requested that Mr. 
Anderson's remains be exhumed, since Federal law prohibits those who 
have committed a capital crime but were unavailable for trial due to 
death from being given the honor of a burial in a national cemetery. 
Upon review, the VA determined that it does not have the legal 
authority to disinter a veteran. Therefore, this legislation is needed 
in order to give the VA this authority and rectify this problem.
    IAVA believes that the Koehl family's wish ought to be 
legislatively enabled in order to bring this family closure and a sense 
of justice and to ensure that the VA is not stuck in this situation 
again in the future. Individuals who commit heinous capital crimes 
against their fellow citizens do not warrant a resting place on the 
same hallowed ground as our Nation's most honored heroes.
                                s. 1540
    IAVA supports S. 1540, a bill which would make state homeless 
facilities eligible for more Federal grants. Federal law allows state 
veterans homes to operate under three categories (domiciliary care, 
nursing home care, or hospital care). Because state veterans homes are 
not permitted to receive other Federal funds, they are not eligible for 
grants under VA's Health Care for Homeless Veterans Program. In order 
to more effectively address veteran homelessness, veterans homeless 
shelters should be afforded greater flexibility to receive such 
funding, which this bill seeks to achieve.
                                s. 1547
    At this point in time, IAVA has no position on S. 1547, a bill that 
would require VA to ensure that it's dialysis pilot program is not 
expanded until it has been implemented at its initial facilities, an 
independent analysis of the program has been conducted, and VA has 
provided a report to Congress detailing progress of the program.
                                s. 1556
    At this point in time, IAVA has no position on S. 1556, a bill 
which would address the collective bargaining rights of employees at 
the Veterans Health Administration (VHA). Although IAVA strongly 
supports the recruitment and retention of quality VA employees, it has 
no organizational position on this legislation.
                                s. 1558
    IAVA supports S. 1558, the Veterans Outreach Enhancement Act of 
2013, which would require the VA to partner with local veterans 
organizations in an effort improve outreach to veterans in certain 
areas of the country.
    Too many men and women leaving the military are not enrolling in 
the VA and are failing to utilize the care and services they need. 
Currently, the burden is largely on these veterans to acquire 
information access their benefits. Expansion and enhancement of VA's 
outreach at the state and local levels is necessary in order to provide 
these veterans with key information about the services, programs, and 
benefits available to them in order to ensure that they are taking full 
advantage of everything VA has to offer. This bill will also provide 
states and local veterans organizations with grants in an effort to 
incentivize improvements in outreach to local veteran populations.
    Fully bringing America's newest generation of veterans into the VA 
will require an unprecedented outreach effort, and the Veterans 
Outreach Enhancement Act of 2013 is the first step in getting us there.
                                s. 1559
    At this point in time, IAVA has no position on S. 1559, the 
Benefits Fairness for Filipino Veterans Act of 2013, which would 
address residency requirements for certain veterans of World War II. As 
always, IAVA is incredibly humbled by and appreciative of the service 
and patriotism of those who fought for our country in a time of war 
across all generation.
                                s. 1573
    IAVA supports S. 1573, the Military Family Relief Act, which would 
automatically provide temporary compensation to a surviving spouse of a 
veteran upon the death of the veteran.
    As this Committee is fully aware, filing a claim with the VA can 
become a lengthy ordeal and can leave servicemembers, veterans, and 
their family members waiting in anguish for a response of some kind. In 
order to ensure that the bereaved family members of deceased 
servicemembers and veterans are not forced to endure any more anguish, 
the Veterans Benefits Administration (VBA) should be given the ability 
to provide dependency and indemnity compensation (DIC) and other 
related benefits to the family automatically, instead of being forced 
by law to cutoff the disability pay and pension upon the veteran's 
death and requiring the surviving spouse to re-file. This cumbersome 
and unnecessary step adds more hardship to spouses at a difficult time 
in their lives, and efforts to ensure that these individuals are 
compensated with ease is an objective that IAVA supports.
                      draft bill 1 (sen. sanders)
    IAVA supports this draft legislation, which would base Service-
Disabled Veteran Insurance premium rates on the Commissioners 2001 
Standard Ordinary Table of Mortality as opposed to the Commissioners 
1942 Standard Ordinary Table of Mortality.
    The Commissioners Standard Ordinary Tables of Morality (CSO) are 
used to calculate life insurance non-forfeiture values and are also 
used by the VA to calculate premiums for the Service-Disabled Veteran 
Insurance program available to veterans with a service-connected 
disability. As currently written in Title 38, the VA utilizes a CSO 
from 1941, which provides antiquated numbers to calculate life 
insurance premiums and non-forfeiture costs. IAVA supports this bill to 
update the CSO to the 2001 version in order to arrive at more accurate 
and updated estimates of life insurance non-forfeiture costs and 
premiums.
                      draft bill 2 (sen. sanders)
    At this point in time, IAVA has no position on this draft 
legislation, which would provide replacement automobiles for certain 
disabled veterans and servicemembers under certain specific 
circumstances. IAVA has been a proponent of streamlining the 
regulations and processes for veterans and servicemembers receiving 
care and assistance from the VA. However, we are still reviewing this 
newly drafted legislation and look forward to finding out more about 
how the changes it makes would improve the lives and livelihoods of 
veterans.
                      draft bill 3 (sen. sanders)
    At this time, IAVA has no position on the Veterans Health Care 
Eligibility Expansion and Enhancement Act of 2013, which would require 
VA to provide for the enrollment of certain veterans who otherwise do 
not have access to health insurance while also expanding eligibility 
for veterans to enroll in VA health care.
    The VA should be the primary one-stop shop for the services and 
benefits that veterans have earned. Providing quality care for veterans 
of Iraq and Afghanistan requires an innovative approach that address 
both the mental and physical health of a veteran. We must continue to 
expand efforts to connect more veterans to vital health care resources, 
however IAVA would prefer to further analyze this legislation in order 
to better provide this Committee with our thoughts and views about 
proposed reforms dealing with changes to whether veterans qualify for 
treatment as low-income families, as well as the contracts VA enters 
into for the purposes of rendering health care services.
                      draft bill 4 (sen. sanders)
    IAVA supports the draft bill entitled the Enhanced Dental Care for 
Veterans Act, which would extend allowable dental services to veterans 
who are hospitalized or in a nursing home, who have previously received 
dental services, and who need those services to restore functioning 
lost as a result of the previous dental services. Additionally, this 
bill would establish educational programs on dental health and 
establish a means for private sector dental providers to supply the VA 
with relevant dental records to be included in patient electronic 
medical records, when necessary. IAVA supports increasing dental 
coverage provided to veterans in the care of the VA and supports the 
educational programs in conjunction with this dental care to help 
veterans understand how to maintain dental health and is, therefore, 
able to support this legislation.
                      draft bill 5 (sen. sanders)
    IAVA supports the draft bill entitled the Mental Health Support for 
Veteran Families and Caregivers Act, which would establish education 
and peer support programs for family members and caregivers of veterans 
with mental health disorders.
    These programs would help family members and caregivers learn best 
practices for providing care to veterans with mental health disorders, 
including general education on mental health disorders, techniques for 
handling crisis situations, and information on additional services. 
Training and education on handling crisis situations for family members 
and caregivers could help in addressing the the suicide and crisis 
situations that too many veterans experience. In conjunction with the 
educational programs, peer support groups would also be established to 
provide family members and caregivers a network of support. Providing 
daily care for a veteran experiencing mental health disorders can bring 
stress upon the family and caregivers, and IAVA supports providing 
resources and a safe outlet for coping with this stress.
                      draft bill 6 (sen. sanders)
    IAVA supports the draft bill entitled the Medical Foster Home Act, 
which would allow the VA to cover the costs associated with care at a 
medical foster home.
    Medical foster homes are a long-term health care option for 
veterans and provide access to trained caregivers in a residential 
setting. The VA does not currently provide or pay for medical foster 
homes, but it does regularly inspect, approve, and refer veterans to 
such facilities. The needs of veterans vary greatly, and medical foster 
homes provide additional health care options for veterans who may be 
uncomfortable in other long term care settings.
                      draft bill 7 (sen. sanders)
    At this point in time, IAVA has no position on the SCRA Enhancement 
and Improvement Act, which would improve and update several aspects of 
the Servicemembers Civil Relief Act (SCRA). IAVA has certainly been a 
proponent of protecting servicemembers from undue civil and financial 
burdens caused by military service. However, we are still reviewing the 
specific enhancements and improvements to the SCRA referred to in this 
bill and look forward to finding out more about these potential 
changes.
                      draft bill 8 (sen. sanders)
    IAVA supports the Improved Compensation for Hearing Loss Act, which 
would require the Secretary of Veterans Affairs to submit reports on 
the findings and actions taken to address a 2006 Institute of Medicine 
and the National Academies report on hearing loss and tinnitus caused 
by military service. Since hearing loss and tinnitus remain a frequent 
problem for veterans, a better statistical understanding of these 
issues will help establish best practices for addressing these types of 
disabilities. This bill would also require reports detailing the level 
of cooperation between the DOD and VA on hearing loss, and ways in 
which the two can cooperate in the future. IAVA supports cooperation 
and continuity between DOD and VA health care, and hopes to see 
continued cooperation in the future.
                      draft bill 9 (sen. sanders)
    IAVA supports the Survivors of Military Sexual Assault and Domestic 
Abuse Act, which would allow VA to provide counseling and treatment for 
sexual trauma to members of the Armed Forces, require VA to screen 
veterans for domestic abuse, and require VA to submit reports on 
military sexual trauma and domestic abuse.
    Sexual assaults in the military have increasingly become a high-
profile issue; in 2012, according to a Pentagon report, an estimated 
26,000 servicemembers experienced unwanted sexual contact, 7,000 more 
than in 2010. In an effort to ensure that all victims of military 
sexual trauma have adequate care and counseling available to them, this 
legislation expands VA's coverage to include active duty servicemembers 
as well as members of the National Guard and Reserves. This legislation 
will not require a servicemember to obtain a referral before receiving 
care and counseling, a provision that would provide victims with easier 
access to such critical care and counseling.
    The bill would also require VA to develop a screening mechanism for 
veterans seeking VA health care to determine if any of these 
individuals have been victims of domestic abuse. Given the high 
likelihood that instances of domestic abuse are significantly 
underreported, proactive screening for such abuse is an initiative that 
IAVA stands behind.
                    draft bill 10 (sen. blumenthal)
    At this time, IAVA has no position on the Toxic Exposure Research 
and Military Family Support Act of 2013, which would establish a VA 
medical center as the national center for appropriately dealing with 
the health conditions of descendants of servicemembers exposed to toxic 
substances.
    The lasting effects of exposure to toxic substances are yet to be 
fully documented and without data tracking the health and well-being of 
deployed servicemembers and their families, it will be more difficult 
to in the long term to treat the dependents who are suffering because 
of their family member's exposure. Veterans of the wars in Iraq and 
Afghanistan are not the only ones who have fought to see VA recognize 
and provide compensation for exposure to toxic substances during 
overseas deployments. Vietnam veterans long complained about the 
effects of Agent Orange exposure and were only recently granted VA 
disability benefits based on the diseases they contracted because of 
it. Likewise, Gulf War veterans have fought for decades for recognition 
of and reimbursement for the multiple maladies that make up Gulf War 
illness.
    The VA has already acknowledged that there is a link between some 
birth defects in children with a parent that was exposed to certain 
toxic substances. This bill would seek to ensure that family members 
have the necessary facilities already identified and appropriately 
staffed to handle the medical needs of those whose ailments can be 
traced to their family member's exposure to toxic substances. IAVA will 
continue to review and analyze the Toxic Exposure Research and Military 
Family Support Act in order to better provide this Committee with its 
thoughts and views about establishing a national center focused on 
research, treatment, and diagnosis of illnesses that manifest in the 
descendants of those exposed to toxic substances.
                      draft bill 11 (sen. hirono)
    IAVA supports this draft legislation, which would expand 
eligibility for reimbursement for emergency medical treatment to 
certain veterans that were unable to receive care from VA in the 24-
month period before the emergency care was administered.
    As currently written, VA requires veterans to meet a specific and 
cumbersome eligibility requirement in order to ensure that they will 
cover the expenses a veteran accrues when receiving emergency medical 
treatment at a non-VA facility. This eligibility criteria indicates 
that veterans must not only have been enrolled in the VA health care 
system, but that they must have been seen by a VA health care 
professional within the last 24 months. Since veterans are often 
subjected to lengthy wait times that prevent them from obtaining an 
initial appointment sooner rather than later, veterans' claims for 
reimbursement would be denied.
    By providing an exception to the 24-month requirement, this 
legislation would provide veterans with a level of financial certainty 
and peace of mind at a point in time when they should be solely focused 
on seeking medical assistance. IAVA believes veterans should not have 
their financial stability adversely impacted by an outdated requirement 
and by lengthy wait times for appointments.
                       draft bill 12 (sen. burr)
    IAVA supports the Improving Quality of Care Within the Department 
of Veterans Affairs Act of 2013, which would require VA to ensure its 
policy on reporting cases of infectious diseases is current and up-to-
date and would require an independent assessment of the Veterans 
Integrated Service Networks (VISN) and VA medical centers.
    Following the deaths of five veterans across several in the VA 
medical centers in Pennsylvania due to an outbreak of legionnaires' 
disease, subsequent reporting has indicated that a lack of 
communication and coordination--along with VA officials' failure to 
follow internal policies--allowed the disease to spread, leaving 
veterans and their family members in the dark about the extent of the 
outbreak. This legislation would require VA to ensure that it has an 
up-to-date policy on reporting infectious diseases in accordance with 
state and local laws. VA will also be required to craft performance 
measures to ensure that VISN officials are complying with the updated 
policy. Finally, an independent third-party will conduct its own 
oversight to scrutinize VA medical centers, planning amongst VISN 
officials, and other standard business operations to ensure that VA is 
providing quality health care.
    VA officials need to prove to veterans, Congress, and the public 
that their ability to render care is unquestionable, and the oversight 
authored in this legislation seeks to achieve that aim.
    Mr. Chairman, we at IAVA again appreciate the opportunity to offer 
our views on these important pieces of legislation, and we look forward 
to continuing to work with each of you, your staff, and the Committee 
to improve the lives of veterans and their families.
    Thank you for your time and attention.
                                 ______
                                 
      Prepared Statement of Infectious Diseases Society of America

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
Letter from J. Don Horton, President, WW II Coastwise Merchant Mariners
                             in support of 
              s. 1361 ww ii merchant mariners service act

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
       Letter Submitted by Paul J. Koehl & Family in Support of 
      S. 1471, The Alicia Dawn Respect for National Cemeteries Act
                                Indianapolis, IN, October 15, 2013.
U.S. Senate,
Washington, DC.

    Dear Senators,

    It has happened again! Despite the best efforts of Senator Barbara 
Mikulski and Senator Larry Craig in 2006 and 2007 to enact a law 
ensuring that those veterans who commit capital crimes not be afforded 
the privilege of burial with military honors in the hallowed grounds of 
our National cemeteries, the injustice continues.
    My name is Paul J. Koehl of Indianapolis, IN. I am a 45 year old 
father of two children, Victoria 13 and Thomas 12. In May 2012, I 
became a widower. Mere words cannot begin to describe the feelings of 
loss, loneliness, and grief my children and I experience on a daily 
basis. Only someone who has dealt with the inexplicably brutal slaying 
of a loving spouse could possibly understand.
    On May 30, 2012, my dear wife and loving mother of our two 
children, Alicia Dawn Koehl, was mercilessly gunned down as she sat at 
her desk during a mass shooting at the Indianapolis apartment complex 
where she was newly employed as an assistant sales manager. Alicia was 
shot an unthinkable 13 times by an angry tenant whom she had never met. 
She died at the scene. After shooting Alicia and three other 
individuals, the shooter committed suicide with a single self-inflicted 
gunshot to the head after being confronted by the police. Loaded clips 
of ammunition in the killer's possession indicate that the shooting 
spree was far from over had the police not arrived so quickly and acted 
so bravely. The killer was U.S. Army veteran, Michael Lashawn Anderson. 
Needless to say, the hearts and lives of my children and I, as well as 
those of my entire family, continue to be haunted by the senseless acts 
of violence carried out by Michael Lashawn Anderson on that day.
    My beloved wife of 16 years, Alicia Dawn, was the glue that held 
our family together. She was an extremely warm and giving member of the 
community as well. Being an extraordinarily kind and loving wife and 
mother, she was a faithful member of St. Pius Catholic Church, 
``Volunteer of the Year'' and PTO president at Spring Mill Elementary 
where our children attended school, an excellent amateur photographer, 
and devoted Girl Scout leader. Her smile and gentle nature never failed 
to light up a room. One of her coworkers, a shooting victim himself, 
was quoted as saying, ``In the few weeks since Alicia started working 
here, she made it a pleasure to come to work.'' She always put the 
needs of others before her own. Often her ``me'' time was spent 
contributing time and effort to charitable activities, often utilizing 
time with her girlfriends to participate in events such as the Mud Run. 
For those of you not familiar, this is a combination obstacle course, 
human steeple chase event held in a mud bog for the sole purpose of 
raising funds and awareness for the Susan G. Komen Foundation's Race 
for the Cure.
    Alicia's life revolved around our family. Her near expert photos 
line the walls and her motto ``Live, Laugh, Love'' appears in nearly 
every room in our home. She loved sports and her role as a sports mom, 
encouraging our daughter Victoria at gymnastics competitions and our 
son Thomas at hockey tournaments. She was even known to schedule the 
time we attended church on Sunday based upon kickoff time of that day's 
Indianapolis Colts football game. She would always say she couldn't 
wait to watch the Colts with Thomas, Victoria, Daddy, and Harley (the 
family dog).
    A candlelight vigil organized by family friends and the staff of 
Spring Mill Elementary School was held on the Friday following her 
death. School Principal Sabha Balagopal said of Alicia `` She had a 
zest for life. Her sense of humor and laughter lifted our spirits and 
made our PTO meetings so much fun.'' A friend and co-worker said `` I 
don't understand why the people who die are always the brightest 
lights.'' At the June 4th session of the Indianapolis City/County 
Council, a motion to ``close the meeting in recognition, respect, and 
appreciation for the life and contributions of Alicia Dawn Koehl'' was 
made by Councilor Scales and is now forever a part of the permanent 
record. Council President, Maggie Lewis added, ``America has been made 
great by those persons who have made landmark contributions, as well as 
those whose very presence in the community is a stabilizing influence 
which lends a sense of purpose and direction.'' That was my Alicia.
    Unbeknownst to us, at the same time we were laying my Alicia to 
rest, her killer was ``mistakenly'' being given a military burial at 
Fort Custer National Cemetery in Battle Creek, Michigan in direct 
violation of 38 U.S.C. 2411. We were informed of this injustice several 
weeks later when a family friend Googled Anderson's name. It turned out 
that not only had Anderson committed this heinous crime in 
Indianapolis, he also had pending charges and a criminal record in his 
home state of Michigan. Prior to Anderson's military burial, no one 
bothered to check these easily accessed facts, or if they did, they 
chose to ignore them. Adding further insult, both Alicia's father and 
Brother served in the United States Marine Corps. Her father, Sgt. 
Ronald Lunte was a bronze star decorated veteran of two tours in 
Vietnam. Imagine how the revelation that their daughter's murderer had 
received a military burial must have felt in the Lunte household.
    We have made every effort to go through all of the proper channels 
in our effort to get this injustice resolved. We have contacted the 
Fort Custer Cemetery personnel, The Indianapolis Mayor's Veteran 
Affairs Liaison, and finally the Office of Veteran Affairs in 
Washington D.C. in an attempt to have Alicia's killers remains removed 
from Fort Custer National Cemetery. Our requests moved slowly through 
VA channels eventually arriving at the desks of Undersecretary Steve 
Muro and Secretary Eric K. Shinseki, both in the office of Veterans 
Affairs. Even a direct appeal to Secretary Shinseki, personally 
delivered by a family friend, West Point graduate, Airborne Infantry 
Commander, and veteran of two tours of duty in Vietnam was not enough 
to move those in positions of authority to correct their error.
    In late July of this year, the VA and their lawyers assumed the 
stance that they ``lacked the authority'' to reverse the illegal burial 
of Michael Lashawn Anderson. Passage of the Alicia Dawn Respect for 
National Cemeteries Act will provide the Department of the Army and the 
Veterans Affairs Office with the explicit authority they say they lack. 
This will give them not only the authority to ``do the right thing'' 
and correct this latest outrage, but also give them the tools they need 
to prevent similar painful events from occurring in the future.
    Generally, our family holds our Nations veterans in the highest 
regard and have been regular contributors to the Disabled Veterans of 
Indiana, however, when a veteran such as Michael Anderson commits a 
Capital crime, he strips himself of this honor and should summarily 
forfeit any and all benefits bestowed upon honorable veterans, 
including the benefit of a military burial. It does a great disservice 
to all of our Nations veterans when a murderer like Michael Anderson is 
allowed to be interred in a place of honor alongside men and women who 
have given of themselves for the protection of all that this Nation 
holds dear, and lived their post service lives as upstanding members of 
our communities.
    Perhaps our West Point/Vietnam veteran friend stated it best when 
he said, ``Military honors burial is not a RIGHT, but rather a 
PRIVELEGE earned by your subsequent conduct as well as your previous 
service. Service to my country was a privilege and as a combat veteran, 
all I expect is 6 feet of hallowed ground from the country that I love. 
Men like Michael Anderson DISHONOR that privilege!''
    In helping to pass similar legislation in December 2006 which 
resulted in the required removal of the remains of just such a person 
from Arlington National Cemetery, Senator Barbara Mikulski stated that 
``she was proud to not only have helped them (the Davis Family) but to 
have created a law to ensure that nothing like this ever happens 
again.'' Please Google the Arlington National Cemetery Web site for 
``Russell Wayne Wagner'' for more complete details. It would appear 
today that much of her effort has been for naught. It would seem likely 
that, if not given the explicit responsibility and ``authority'' to 
correct such errors, the VA will continue, without regard for justice 
OR previous legislation, to continue to provide taxpayer funded 
military honors burials to known killers and perpetrators of like 
Capital crimes.
    Please prevent the insult to injury inflicted upon families of 
victims killed by veterans due to improper military burials. We 
respectfully request that you support passage of S-1471, The Alicia 
Dawn Respect for National Cemeteries Act, to provide the Office of 
Veterans Affairs not only the responsibility, but also the clear 
authority to correct, if not eliminate, this kind of error in the 
future. This would avoid this type of dishonor not only toward the 
families of victims, but toward all of our rightfully honored veterans.
    Through this positive step, at least in some small measure, 
Alicia's death will not have been in vain, but instead, an instrument 
for justice and peace for our family as well as the families of future 
victims of veterans turned Capital criminals.
    To quote Dr. Martin Luther King, ``It is always the right time to 
do the right thing!'' Now is one of those times.
    Thank you!
            Sincerely,
                                   Paul J. Koehl and family
                                 ______
                                 
             Prepared Statement of Brad Slagle, President, 
              National Association of State Veterans Homes
                         in support of s. 1540
    Chairman Sanders, Ranking Member Burr and Members of the Committee: 
Thank you for the opportunity to submit testimony on behalf the 
National Association of State Veterans Homes (NASVH) in support of 
S. 1540, legislation introduced by Senator Sherrod Brown of Ohio to 
remove legal and financial barriers that effectively prevent State 
Veterans Homes from operating homeless veterans programs.
    NASVH is an all-volunteer, non-profit organization whose primary 
mission is to ensure that each and every eligible U.S. veteran receives 
the benefits, services, long term health care and respect which they 
have earned by their service and sacrifice. NASVH also ensures that no 
veteran is in need or distress and that the level of care and services 
provided by State Veterans Homes meets or exceeds the highest standards 
available. The membership of NASVH consists of the administrators and 
senior staffs at 146 State Veterans Homes in all 50 States and the 
Commonwealth of Puerto Rico.
    Mr. Chairman, the State Veterans Homes system is a mutually 
beneficial partnership between the States and the Federal Government 
that dates back more than 100 years. Today, State Homes provide over 
30,000 nursing home and domiciliary beds for veterans and their 
spouses, and for the gold-star parents of veterans. Our nursing homes 
assist the VA by providing long-term care services for approximately 53 
percent of the VA's long-term care workload at the very reasonable cost 
of only about 12 percent of the VA's long-term care budget. VA's basic 
per diem payment for skilled nursing care in State Homes is 
approximately $100, which covers about 30 percent of the cost of care, 
with States responsible for the balance, utilizing State funding and 
other sources. On average, the daily cost of care of a veteran at a 
State Home is less than 50 percent of the cost of care at a VA long-
term care facility. The VA per diem for adult day health care is 
approximately $75 and the domiciliary care rate is approximately $42 
per day.
    The bill before the Committee, S. 1540, has been drafted by Sen. 
Brown in consultation with NASVH to address a problem in Title 38 that 
effectively prevents State Homes from operating homeless veterans 
programs, even when a Home has excess capacity that could be used to 
help fight the pernicious problem of homelessness amongst veterans. 
According to the Department of Housing and Urban Development, on any 
given night there are over 60,000 homeless veterans, and more than 
twice that many experience homelessness at some point each year. This 
shameful fact led VA Secretary Shinseki to make ending homelessness 
amongst veterans by 2015 one of his highest priorities and enactment of 
S. 1540 could add State Veterans Homes to his arsenal of tools in that 
effort.
    Mr. Chairman, some State Homes currently have unused bed capacity 
in their domiciliary programs that could be used to operate homeless 
veterans programs. For example, the Ohio Veterans Home in Sandusky, 
Ohio has both a 427 bed nursing home program and a separate 300 bed 
domiciliary program. While the nursing home program has a 98 percent or 
higher occupancy rate, the domiciliary is currently operating at less 
than 60 percent occupancy, leaving more than 125 beds available at any 
given time. The administrators at Sandusky have been exploring ways to 
use a small number of their unused domiciliary beds to help homeless 
veterans.
    However, eligibility requirements for admission to the Ohio 
Veterans Home domiciliary program limit or restrict admission for most 
homeless veterans. To be admitted to the domiciliary, a veteran must 
provide a current medical history and physical completed by a 
physician, along with detailed financial documentation demonstrating 
need for this assistance, as well as other information. Often homeless 
veterans lack the resources to obtain such information required for 
possible admission so the Ohio Veterans Home has been looking for other 
ways to use their facility to support homeless veterans.
    Learning about VA's Health Care for Homeless Veterans (HCHV) 
program, which provides grants to community homeless programs, the 
Sandusky Home drew up plans for a small homeless program using HCHV 
funding as a source of support. Under this proposed program, they would 
be able to admit homeless veterans without the tighter domiciliary 
requirements, allowing them immediate access to food, shelter, primary 
care, social services and other services. There are also a number of 
recently deployed veterans that may need a stable transition facility 
for post-acute care but who don't fall into the admissions criteria 
outlined in the VA domiciliary care program regulations. Because 
homeless veterans generally need more intense services initially to 
help them to stabilize and adjust, the Home also developed plans to 
work collaboratively with the VA Homeless Coordinators in an effort to 
help the veteran with any specific needs they may have, which could 
include education, job training and long term housing.
    After approaching VA with this proposal, the Sandusky Home was told 
that under Title 38 regulations, State Homes are only authorized to use 
their federally-supported homes to operate three programs: skilled 
nursing care, adult day health care and domiciliary care. According to 
VA's Office of General Counsel, if a State Veterans Home applied for 
and received a grant to operate a homeless veterans program, VA would 
have to recapture a portion of the construction grant funding 
previously awarded to the State Home over the past twenty years. This 
recapture of Federal funds would be such a severe financial penalty 
that it would effectively prevent any State Veterans Home from even 
considering a homeless veterans program.
    To remove this obstacle, S. 1540 would amend the recapture 
provisions (38 U.S.C. Sec. 8136) by providing an exemption for State 
Homes that receive a contract or grant from VA for residential care 
programs, including homeless veterans programs. This provision would 
not require VA to award grants or contracts to State Homes; VA would 
retain the authority and discretion to determine when and where it 
might make sense for a State Home to use a portion of its empty beds to 
help homeless veterans. Nor would it open the door to State Homes 
converting domiciliary programs into homeless veterans programs on 
their own; only VA's decision to provide funding through a grant or 
contract would exempt them from the recapture provisions.
    S. 1540 would create opportunities for some State Homes with 
underutilized bed capacity in their domiciliary programs to apply for 
VA grants to that excess capacity to operate a homeless veterans 
program, thus providing additional support for helping to end the 
scourge of homelessness amongst America's veterans. This commonsense 
legislation would not increase Federal spending, rather it would simply 
allow State Veterans Homes to compete for existing VA grants just as 
private community organizations presently do.

    Mr. Chairman, on behalf of the National Association of State 
Veterans Homes, I am pleased to offer our strong support for this 
legislation and respectfully request that this Committee favorably 
consider and report this legislation to the full Senate for its 
approval. This concludes my testimony. I would be pleased to respond to 
any questions you or Members of the Committee may have.
                                 ______
                                 
Prepared Statement of the National Board for Certified Counselors, Inc.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of the National Coalition for Homeless Veterans


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to present our views on the broad array of pending 
legislation impacting the Department of Veterans Affairs (VA) that is 
before the Committee. These important bills will help ensure that 
veterans receive timely, quality health care and benefits services.
  s. 875, the ``department of veterans affairs disease reporting and 
                            oversight act''
    PVA supports S. 875, a bill to amend title 38, United States Code, 
to require the reporting of cases of infectious diseases at facilities 
of the Veterans Health Administration. The VA is a national leader in 
the public health sector with high standards for both quality care and 
patient safety. S. 875 will only augment such standards and increase 
the national standard for patient safety, as well as allow for 
accountability when the unfortunate incidence of infectious disease is 
reported.
      s. 1148, the ``veterans benefits claims faster filing act''
    PVA supports S. 1148, the ``Veterans Benefits Claims Faster Filing 
Act.'' This legislation will ensure that veterans have access to 
greater information when submitting a claim. Providing information on 
average wait times for claims processing and the percentage of claims 
approved will increase the understanding of the process and may help 
set expectations of how long a veteran may have to wait for a claim to 
be adjudicated.
   s. 1155, the ``rural veterans mental health care improvement act''
    The ``Rural Veterans Mental Health Care Improvement Act,'' proposes 
to provide advance appropriations for information technology accounts 
of the VA, include mental health professionals (marriage and family 
therapists and mental health counselors) in VA training programs, 
expand mental health services for families of veterans, and require VA 
to provide Congress with a report on its telemedicine services.
    PVA understands the positive impact that advance appropriations of 
VA medical Care accounts has had on the delivery of health care 
services to veterans in the most recent budget cycles, and therefore, 
supports the general intent of this particular provision. However, we 
believe that the Committee should not focus only on accounts for health 
related information technology, but rather, VA should be given the 
authority to provide advance appropriations for all discretionary 
accounts. Therefore, we ask that the Committee consider S. 932, the 
``Putting Veterans Funding First Act of 2013,'' which proposes to amend 
title 38 to provide advance appropriations for VA discretionary 
accounts.
    The second provision of this bill proposes inclusion of mental 
health professionals in VA's education and training program for health 
personnel. As this program was created to enhance VHA services and 
ensure that an adequate supply of health personnel is available in the 
medical field, PVA believes that specific positions such as marriage 
and family therapists, and licensed professional mental health 
counselors should be added based on the need identified by the VA.
    Last, PVA fully supports the provisions of this bill that would 
expand mental health services for families of veterans at VA Centers 
for Readjustment Counseling, and require VA to report on specific 
aspects of its telemedicine services.
 s. 1165, the ``access to appropriate immunizations for veterans act''
    PVA supports S. 1165, which proposes to amend title 38, United 
States Code to provide for requirements related to the immunization of 
veterans. It is accepted fact that proper and timely administration of 
immunizations can prevent the onset of more significant medical issues. 
By ensuring that immunizations are administered in compliance with the 
recommended adult immunization schedule, it can be expected that 
veterans using the VA will be healthier and less likely to suffer 
potential medical ailments. Proper and timely immunizations are a 
guarantee of better medical health in the VA patient population.
                                s. 1211
    PVA supports S. 1211. As veterans make plans for their future and 
make decisions on continuing their education or seek further technical 
training they need facts pertaining to institutions and training 
programs. The information needed would be facts such as how many 
veterans attend a school or program, how many veterans complete the 
program, what supports are available for veterans enrolled in a 
program, and how many veterans find employment in that field after 
completing or graduating from a program. This information is often not 
available as veterans make decisions for their future. Unfortunately 
the number of new schools and training programs aimed at veterans has 
burgeoned specifically as a result of the Post-9/11 GI Bill. 
Organizations that resort to using ``Post-9/11 GI Bill'' or ``GI Bill'' 
in their promotion most likely are among organizations that intend to 
mislead veterans. PVA supports this legislation that would prohibit the 
use of any reference to this earned veterans' benefit in advertising or 
promotions.
     s. 1216, the ``improving job opportunities for veterans act''
    PVA supports S. 1216, the ``Improving Job Opportunities for 
Veterans Act of 2013,'' which assures certain requirements for career 
training programs for veterans. This legislation would require, for a 
four-year period, that training establishments that apply for state 
approval of on-the-job training programs must certify that the wages to 
be paid to the eligible veteran or person upon entrance into training 
will be increased in regular periodic increments. By the last full 
month of the training period, wages paid to the veteran will be at 
least 75 percent (currently 85 percent) of the wages paid for the job 
for which the eligible veteran or person is being trained. This reduces 
the financial responsibility for employers by 10 percent. Hopefully 
this reduction for the employer, with the financial difference being 
paid by the VA, will be an incentive for employers to participate.
    The legislation also extends from November 30 through December 31, 
2016, the requirement of a reduced pension ($90 per month) for veterans 
(with neither spouse nor child) or surviving spouses (with no child) 
covered by Medicaid plans under title XIX of the Social Security Act 
for services furnished by nursing facilities.
    This legislation also directs the VA to enter into agreements with 
other Federal agencies to operate similar on-the-job training programs 
for eligible veterans to perform skills necessary for employment by the 
department or agency operating the program. This initiative would be an 
excellent program to ensure that the men and women that served their 
country will be trained and prepared to continue serving their country.
    While this bill has great potential to improve job opportunities 
for veterans, we do have concerns about accountability of the program. 
Specifically, how will the provisions outlined in the bill be enforced? 
How will the Federal agencies involved in this program be evaluated? 
Moreover, what will be the penalty for agencies that do not embrace 
this program? This program could help thousands of veterans establish 
careers in the Federal Government if it is presented as a requirement, 
firmly backed by the Administration, and closely monitored.
            s. 1262, the ``veterans conservation corps act''
    PVA supports S. 1262, the ``Veterans Conservation Corps Act of 
2013.'' This legislation requires the VA to coordinate and develop 
agreements with other Federal programs including the Department of 
Justice, Department of Agriculture, Department of Commerce, Department 
of Interior, Homeland Security, and the Chief of Engineers, to 
establish a Veterans Conservation Corps. This program will provide 
training and employment opportunities to help veterans in the 
transition from military service to civilian life. Veterans who 
participate in this Conservation Corp program will perform work in 
Conservation, Resource Management, and Historic Preservation Projects 
on public lands and maintenance and improvement projects for cemeteries 
under the jurisdiction of the National Cemetery Administration.
    Similar agreements with other agencies will be established allowing 
veterans to learn from and perform in positions such as firefighters, 
law enforcement officers, and disaster relief personnel. These Federal 
agencies will employ veterans to perform these functions within their 
agencies, or award grants to, or contracts with, state governments, 
local governments, or nongovernmental entities to employ veterans to 
perform work in these areas.
    PVA does not support the section that specifies that a priority for 
the employment of veterans shall be given to those veterans who served 
on active duty in the Armed Forces on or after September 11, 2001. We 
believe any unemployed veteran that honorably served who needs and 
deserves a job should be afforded an equal opportunity.
    PVA supports most of this effort to provide veterans with the 
opportunity to continue to serve in various capacities throughout their 
communities. However, this program will require extensive oversight by 
the VA and Congress. Requiring Federal agencies to develop, adapt, and 
embrace additional responsibility is always met with resistance.
     s. 1281, the ``veterans and servicemembers employment rights 
                           and housing act''
    PVA supports S. 1281, the ``Veterans and Servicemembers Employment 
Rights and Housing Act of 2013.'' This legislation prohibits employment 
practices that discriminate based on an individual's military service 
and amends the ``Fair Housing Act'' and the ``Civil Rights Act of 
1968'' to prohibit housing discrimination against members of the 
uniformed services. The legislation will protect veterans against 
employers who fail to hire, discharge, or otherwise discriminate 
against veterans because of their military service. It also prohibits 
employers, employment agencies, labor organizations, and job training 
programs from engaging in specified practices that adversely affect an 
applicant or employee because of military service. Ultimately, PVA 
supports the concept of adding military veterans as a category or group 
into certain Federal laws that currently prohibit discrimination based 
on a particular category or group of individuals.
                                s. 1295
    PVA strongly supports S. 1295 to require the Secretary of Veterans 
Affairs to provide veterans with notice, when veterans electronically 
file claims for benefits that relevant services may be available from 
veterans service organizations. One of PVA's main goals and mission 
objectives is to help veterans receive the benefits they so richly 
deserve. PVA, like other Veterans Service Organizations, has 
established a network of Service Officers across the country for this 
specific purpose. The VA claims process can be challenging and 
laborious for those who do not understand it. This is particularly true 
for those with catastrophic injuries or complex claims. While VA does a 
good job of providing information about the availability of VSO support 
to veterans wanting to file a claim, requiring this in any electronic 
filing program VA may create will be a guarantee that this information 
is provided to veterans and not overlooked by a software programmer.
     s. 1296, the ``servicemembers' electronic health records act''
    PVA generally supports S. 1296, a bill to create a specific 
timeline for the VA and the Department of Defense (DOD) to achieve 
interoperable electronic health records. PVA believes that VA and DOD 
must remain committed to completing an electronic health record that is 
fully interoperable, and allows for a two-way electronic exchange of 
information that is accessible and can be computed by medical 
professionals. This bill will require both VA and DOD to engage in 
continuous dialog to determine the best means for information exchange, 
as well as discuss the feasibility of creating a data storage system to 
improve accessibility of patient health records and data. While this 
bill does not address the issues that have prevented the implementation 
of a fully interoperable electronic health records system, it does 
attempt to move the process forward with specific dates to assess and 
evaluate the current status of the initiative. As stated in the FY 2014 
Independent Budget, ``[PVA] remains firm that VA and DOD must complete 
an electronic medical record process that will help patients transition 
between health care settings; reduce duplicative testing, and improve 
patient safety.''
       s. 1361, the ``world war ii merchant mariner service act''
    While PVA recognizes the valuable service provided by the Merchant 
Marines during World War II, PVA has no position on S. 1361, the 
``World War II Merchant Mariner Service Act.''
                                s. 1399
    PVA supports S. 1399, the ``Servicemembers Student Loan 
Affordability Act.'' This legislation would amend the Servicemembers 
Civil Relief Act (SCRA) to extend the interest rate limitation on debt 
entered into before military service and debt incurred during military 
service as well as to consolidate or refinance student loans incurred 
before military service. Loan consolidation is a practical, effective 
way to manage student loan debt. The consolidation of one or more 
student loans incurred by the servicemembers before military service 
shall be limited to an interest rate of 6 percent.
      s. 1411, the ``rural veterans health care improvement act''
    PVA supports S. 1411, to specify requirements for the next update 
of the current strategic plan for VA's Office of Rural Health (ORH). 
PVA believes that attracting and retaining adequate staff within the 
Veterans Health Administration (VHA) is one of the most critical 
elements of providing quality health care in a timely manner. 
Recruiting and retaining medical professionals in rural settings 
continues to be a challenge as the population of veterans residing in 
rural areas continues to grow. PVA believes that the requirements of 
S. 1411, to include specific goals and objectives in the current ORH 
strategic plan has the potential to further develop and expand upon the 
improvements that VA has already made in the area of rural health care. 
Particularly, PVA is pleased that this bill requires VA leadership to 
define specific goals and objectives in the areas of recruitment and 
retention, and enhance the use of current programs using technology to 
increase veterans' access to VA health care services.
    This bill also requires the VA ORH to ``refresh'' the strategic 
plan so that it includes goals and objectives for ensuring timeliness 
and improving the quality of health care services provided through 
contract and fee-basis providers. PVA believes that non-VA providers 
serve a purpose in meeting the health care needs of veterans residing 
in rural areas and are an essential component of the VA providing 
timely care in remote settings. However, such options should not be 
used as a method or course to eliminate VA facilities. PVA believes 
that the greatest need is still for qualified VA health care providers 
to be located in rural areas. We believe that the VA is the best health 
care provider for veterans. Providing primary care and specialized 
health services is an integral component of VA's core mission and 
responsibility to veterans.
                                s. 1434
    PVA's National office has no position on naming the Junction City, 
Kansas, community-based outpatient clinic after Lieutenant General 
Richard J. Seitz. PVA believes naming issues should be considered by 
the local community with input from veterans organizations within that 
community. With that in mind, we would defer to the views of PVA's Mid-
America Chapter.
 s. 1471, the ``alicia dawn koehl respect for national cemeteries act''
    PVA has no specific position on this proposed legislation. However, 
we do have some concerns as it relates to the provisions and 
application of this legislation, were it to be enacted. This is an 
issue that goes to the heart of the rules and rationale for the 
granting and, in some most unfortunate circumstances, taking away of 
benefits and entitlements conferred on this Nation's defenders by a 
grateful Nation. While we are certainly sympathetic to the families 
impacted by situations such as those of the namesake of this 
legislation, we believe this proposal oversteps the boundary for 
determination of interment in a national cemetery.
    Specifically, we believe this legislation plays to the emotional 
nature of capital crimes at the expense of due process. The legislation 
would authorize possible disinterment of remains of veterans without 
them having actually being convicted of a crime. The language negates 
the concept of ``innocent until proven guilty'' by suggesting that a 
veteran ``may have been convicted'' of a Federal or state capital 
crime. What is the burden of proof for ``may have been convicted?'' 
Congress passed Public Law 105-116 in 1997 prohibiting people convicted 
of Federal or state capital crimes and sentenced to death or life 
imprisonment without parole from being interred at Arlington and other 
national cemeteries. However, this legislation never reaches that 
standard for determination for burial eligibility. It simply presumes 
guilt to meet the threshold for denial of burial.
    Generally, veterans tend to expect more from veterans, to hold 
ourselves to a higher standard of behavior. Yet we must also realize 
that, just as in other segments of society, individuals will violate 
the rule of law and do unjustified harm to others. Under these 
circumstances justice must be met out, and all appropriate punishment 
under law applied. When Public Law 105-116 was considered, it was the 
collective conclusion of most veterans' service organizations that 
permitting individuals so undeserving of such honor to be buried in 
veteran's cemeteries would diminish the dignity and service of other 
veterans and their survivors who are fully deserving of the honor. 
However, the post-military actions of individuals are not generally the 
basis for consideration of eligibility for interment in a national 
cemetery. And when those actions have not been adjudicated as criminal 
in a court of law, we do not believe that the standard has been met to 
prevent interment or disinter veterans who had been previously 
honorably discharged from military service and otherwise met the 
eligibility criteria.
                                s. 1540
    PVA does not have an official position on S. 1540, a bill to amend 
title 38, United States Code to include contracts and grants for 
residential care for veterans as part of an exception to the 
requirement that the Federal Government recover a portion of the value 
of certain projects.
      s. 1547, the ``veterans dialysis pilot program review act''
    PVA supports S. 1547, the ``Veterans Dialysis Pilot Program Review 
Act of 2013.'' If enacted, S. 1547, the ``Veterans Dialysis Pilot 
Program Review Act of 2013,'' would require VA to review its current 
dialysis pilot program and submit a report to Congress before expanding 
the program. In 2012, the Government Accountability Office (GAO) 
published a report titled, ``VA Dialysis Pilot: Increased Attention to 
Planning, Implementation, and Performance Measurement Needed to Help 
Achieve Goals.'' In the report many weaknesses with the pilot were 
cited, as well as recommendations to improve the pilot.
    S. 1547 would require VA to respond to these recommendations, as 
well as prevent expansion of the program until the pilot has been 
implemented for two years at each initial site. Gathering and analyzing 
data to make the most informed decisions is always best when such 
choices involve veterans' health care. As GAO has identified issues and 
made recommendations regarding the Veterans Dialysis Pilot Program, the 
VA should be required to provide Congress with current program updates 
to such recommendations, as well as findings from any additional 
analysis of the program. Many of the requirements established in this 
bill are similar to the recommendations from the GAO report, with which 
the VA concurred.
                                s. 1556
    S. 1556, is a bill to amend title 38, United States Code, to modify 
authorities relating to the collective bargaining of employees in the 
Veterans Health Administration (VHA). PVA has serious concerns 
regarding this bill and its potential to negatively impact VA patient 
care.
    Title 38, section 7422, ``Collective Bargaining'' states:

          ``* * * (b) [Collective bargaining] may not cover, or have 
        any applicability to, any matter or question concerning or 
        arising out of (1) professional conduct or competence, (2) peer 
        review, or (3) the establishment, determination, or adjustment 
        of employee compensation under this title.
          (c) For purposes of this section, the term ``professional 
        conduct or competence'' means any of the following:
              (1) Direct patient care.
              (2) Clinical competence
          (d) An issue of whether a matter or question concerns or 
        arises out of (1) professional conduct or competence, (2) peer 
        review, or (3) the establishment, determination, or adjustment 
        of employee compensation under this title shall be decided by 
        the Secretary and is not itself subject to collective 
        bargaining and may not be reviewed by any other agency.'' \1\
---------------------------------------------------------------------------
    \1\ Title 38, United States Code, Section 7422.

    S. 1556 proposes to eliminate subsections (b), (c), and (d). While 
PVA supports improving the collective bargaining rights and procedures 
for review of adverse actions for VHA health care professionals, it is 
our position that such bargaining rights should not interfere with 
direct patient care and delivery of VA health care services. PVA fully 
understands the invaluable commitment and service that VA medical 
professionals provide to the Nation's veterans. They are the backbone 
of the VHA system and should be afforded certain rights that ensure a 
safe and productive work environment. As such, we strongly urge VA 
leadership and union representatives to work together to identify 
legislative and policy outcomes that will improve the collective 
bargaining rights and procedures of VHA without impacting the direct 
delivery of patient care, or amending title 38 as proposed by this 
bill.
           s. 1558, the ``veterans outreach enhancement act''
    A common theme of many individuals who have testified before the 
Senate and House Committees on Veterans' Affairs in the past has been 
that many servicemembers returning to the civilian world often have 
limited, or no knowledge of the programs, benefits, and assistance 
available for them based on their active military service. This 
legislation, S. 1558, the ``Veterans Outreach Enhancement Act'' will 
help communicate the wide array of information to all veterans, 
including veterans in rural areas. This legislation authorizes the 
Secretary to develop and carry out a program of outreach which may 
include collaborating with state and local governments to help perform 
this outreach.
    However, PVA has a concern that the VA may designate portions of 
this outreach responsibility to the states through each states' Local 
Veterans' Employment Representatives (LVER) and Disabled Veterans' 
Outreach Program (DVOP) specialists. Although some states may excel at 
helping veterans through these federally funded programs, traditionally 
these programs do not fulfill the responsibilities of placing veterans 
in employment, or informing veterans of benefits. Therefore, PVA 
believes allocating more funds to individual states through these 
programs will not increase the VA's outreach efforts. Most states have 
a Department of Veterans Affairs. Like the state employment programs, 
these vary widely in their responsibilities and performance. For the VA 
to designate and rely on these offices to fulfill the VA's outreach 
responsibilities will require extensive oversight of these offices.
      s. 1559, the ``benefits fairness for filipino veterans act''
    PVA has no official position on S. 1559, the ``Benefits Fairness 
for Filipino Veterans Act of 2013.'' That being said, we do not see a 
need for legislation that would essentially alter the definition of 
residency for veterans in the United States.
              s. 1573, the ``military family relief act''
    PVA supports S. 1573 to provide payment of temporary compensation 
to a surviving spouse of a veteran upon the veteran's death. The 
difficult transition period for the family following the death of a 
loved one is often confused and challenging. The ability of a spouse to 
care for herself and her affairs can be made very difficult when their 
veteran's partner passes away. This is particularly true if the spouse 
had served as the primary caregiver, as is often the case for veterans 
with service-connected disabilities continuously rated as total. Even 
if a new widow had filed a claim for DIC or pension, the time to 
process this can be lengthy. There are also reports that this 
compensation is sometimes incorrectly denied at the VA Regional Office 
and needs to go to an appeal before being approved. Providing temporary 
compensation for a period not to exceed six months allows for an 
appropriate period of transition and it is also our understanding that 
VA supports this legislation.
            draft bill on service-disabled insurance program
    PVA generally supports this legislation that would make the needed 
adjustment to update premium rates based on the most recent mortality 
table for Service-Disabled Veterans Insurance. The service-disabled 
veterans' life insurance began in 1951 using mortality information from 
1941, information that is clearly outdated when compared to mortality 
rates of the current population. Using inaccurate mortality rates 
results in premiums that are more costly for veterans. Updated 
mortality tables and rates should ultimately lead to a reduction in 
premium rates for veterans.
  draft bill on replacement automobiles for certain disabled veterans
    PVA supports the proposed legislation that would improve the 
adaptive automobile assistance grant. This issue has been a high 
priority for PVA since our founding in 1946. For many PVA members, the 
automobile (or converted van) is the only viable transportation for 
their daily activities whether for employment, medical appointments, 
family needs, or other activities of everyday living. As explained in 
The Independent Budget (IB) for FY 2014, the cost to replace a modified 
vehicle in the current market is $40,000 to $65,000. The IB also quotes 
the Department of Transportation's report documenting the life span for 
a vehicle of 12 years, or 128,500 miles. This legislation would 
significantly increase the value of the grant to $30,000 and further 
relieve the financial burden associated with the purchase of an adapted 
vehicle.
    This legislation also allows a veteran to use the grant up to three 
times until reaching the maximum dollar amount. PVA strongly recommends 
that this provision not include a delimiting date so as to be 
applicable to all veterans who have qualified for the grant. As an 
aside, PVA would recommend that the Committee evaluate the 
effectiveness of allowing veterans to use their Specially Adapted 
Housing (SAH) grant up to three times (a provision that was enacted 
into law several years ago) as a basis for comparison in understanding 
the potential for allowing a similar benefit with the automobile 
assistance grant.
 the ``veterans health care eligibility expansion and enhancement act''
    The ``Veterans Health Care Eligibility Expansion and Enhancement 
Act of 2013,'' proposes to amend title 38, United States Code, to 
expand and enhance eligibility for VA health care services. PVA does 
not support Section 2 of this bill, titled, ``Enhancement of Nature of 
Eligibility for Care of Veterans.'' Specifically, this section proposes 
to amend title 38, United States Code, by mandating that the VA 
``shall'' furnish nursing home care to non-compensable and non-service-
connected veterans with a disability rating of 50 percent or more. With 
this change the VA would not have the same mandate to provide such care 
to compensable service-connected disabled veterans rated less than 50 
percent. The proposed change in this section is inequitable and in 
direct opposition to the purpose of the VA's disability rating system.
    PVA supports Sections 3 and 4 of this bill which includes opening 
enrollment to uninsured veterans not currently eligible to receive VA 
health care services and extending the period of eligibility for health 
care for veterans of combat service. PVA appreciates that this bill 
attempts to increase veterans' access to VA health care services, 
especially long-term care services. Particularly, we support Section 3, 
to open enrollment for veterans that are legally eligible for VA health 
care, but not eligible to enroll at this time. PVA believes that this 
is most appropriate given the national coverage mandate from the 
``Patient Protection and Affordable care Act.'' We encourage the 
Committee to enact all of the aforementioned provisions and provide the 
resources as needed to account for any increase in utilization and 
demand for services.
             the ``enhanced dental care for veterans act''
    PVA generally supports the provisions of the ``Enhanced Dental Care 
for Veterans Act.'' That being said, we have some concern about the 
potentially high cost that his proposal could have on the VA. Dental 
services are generally not cheap. Such a potential broad-based 
expansion could significantly increase the overall cost to provide 
health care for the VA. With this in mind, it will be incumbent upon 
Congress to ensure that sufficient resources over and above what are 
currently provided are made available to carry out both the pilot 
program that is proposed and any additional expansion that may come as 
a result of the pilot program.
 the ``mental health support for veteran families and caregivers act''
    PVA supports the ``Mental Health Support for Veteran Families and 
Caregivers Act of 2013. This legislation proposes to establish both an 
education program and peer support program for family members and 
caregivers of veterans with mental health disorders. PVA fully 
understands the importance of providing educational and support 
services to those who care for veterans with both physical disabilities 
and mental health disorders, as the majority of our members rely on the 
assistance of a family member or caregiver. The education and peer 
support programs will allow veterans' family members and caregivers to 
become fully incorporated in their treatment plan. We ask that the 
Committee consider providing variations on the 10 week education 
program to accommodate the busy schedules of the family members and 
caregivers of veterans. Regardless of where and how the program is 
facilitated, 10 weeks may discourage individuals from enrolling in, or 
completing the program. Providing an option that can be completed in 
less time as an alternative option to the 10 week program may be more 
appealing to family members and caregivers who are balancing 
responsibilities of family, career, and caring for a veteran.
                    the ``medical foster home act''
    PVA supports the ``Medical Foster Home Act of 2013, which proposes 
to authorize the VA to cover the costs associated with the care of 
veterans at medical foster homes. Too often the costs of care while at 
a medical foster home leave veterans financially insolvent. Codifying 
this authority will allow the VA to increase access to long-term care 
services for veterans who would otherwise be forced into more 
traditional means of institutional care.
  the ``survivors of military sexual assault and domestic abuse act''
    PVA supports the ``Survivors of Military Sexual Trauma Assault and 
Domestic Abuse Act of 2013. If enacted, this bill would authorize VA to 
provide counseling and treatment for sexual trauma to members of the 
Armed Forces, screen for domestic abuse, and submit reports to Congress 
on military sexual trauma and domestic abuse. VA has made great strides 
in the development and progression of quality mental health and caring 
for those who have survived military sexual trauma assault; therefore, 
it is a logical next step to make such care available to servicemembers 
who will likely enroll in VA health care in the near future. PVA is 
pleased to see that this legislation also proposes to remove the 
language that is gender specific and uses servicemembers' time of 
service as factors when dealing with the treatment of both military 
sexual trauma assault and domestic violence. Care should be provided to 
veterans based solely on need.
      draft bill on reimbursement for emergency medical treatment
    PVA generally supports the intent of the proposed draft bill that 
would eliminate the requirement that veterans be seen within the prior 
24-month period when seeking reimbursement for medical treatment. 
However, we have real concerns about the inequity created by the 
legislation. While we understand the concern about veterans being seen 
in a timely manner when having an initial appointment with primary care 
providers, we do not believe that this population should receive 
special treatment for emergency care reimbursement simply because of 
the nature of when they are seeking treatment. Moreover, qualifying the 
concept that VA has specifically imposed a waiting period for 
appointments is primarily based on anecdotal evidence, not quantifiable 
evidence.
    Additionally, this legislation seemingly discriminates against new 
enrollees who may choose not to have an immediate VA appointment 
because he or she is generally healthy. Likewise, it treats all other 
veterans who are otherwise enrolled in the VA differently when it comes 
to emergency care reimbursement. In order to be fair and equitable, 
this legislation should eliminate the 24-month requirement entirely.
           the ``improved compensation for hearing loss act''
    PVA supports the proposed legislation, but cautions that reports 
are only a first step and are not enough. In particular, PVA thinks it 
is important to examine the actions by VA to implement the findings and 
recommendations of the 2006 Institute of Medicine report on ``Noise and 
Military Service: Implications for Hearing Loss and Tinnitus.'' 
Additionally, the examination of those members of the Armed Forces not 
included on the Duty Military Occupational Specialty Noise Exposure 
Listing who were precluded from receiving benefits related to hearing 
loss. Many aspects of the Nation's current conflicts have had to be 
reevaluated as the combat environment has changed. An examination is 
not only prudent, but critical to caring for and compensating our 
veterans. This together with an explanation of the rationale for the 
practice of VA not issuing a compensable rating for hearing loss at 
certain levels that are severe enough to require the use of hearing 
aids is needed to understand how VA is making its determinations. 
Finally, while it is important to examine the problems with VA 
practices on providing services to veterans with hearing loss, PVA 
expects to see further legislation to correct any deficiencies or 
improper practices that are identified.
     draft bill on national center for toxic research and services 
                       for veterans' descendants
    While PVA understands the underlying intent of the proposed bill, 
we do not support the, ``Toxic Exposure Research and Military Family 
Support Act of 2013.'' This legislation proposes to select a VA medical 
center to serve as the national center for the diagnosis, treatment, 
and research of health conditions of descendants of individuals exposed 
to toxic substances while serving as members of the Armed Forces. We 
appreciate that this bill recognizes the importance of providing the 
descendants of veterans who have been exposed to toxic substances with 
quality, effective care. However, we believe that this responsibility 
does not rest with the VA. We believe that this requirement would be 
most successfully carried out if coordinated through a public health 
agency with a broader mission and health care focus, such as the 
Department of Health and Human Services, or the National Institutes of 
Health, with the direct support of the Department of Defense.
    We believe that the provisions of this bill are outside of the VA's 
official mission, and entitle the descendants of veterans to services 
and benefits that are unavailable to even service-connected veterans 
enrolled in the VA health care system. We fully object to the provision 
of this legislation that would entitle the descendants covered by this 
proposal to comprehensive caregiver assistance, a benefit that is 
currently denied to every catastrophically disabled veteran injured 
prior to September 11, 2001.
    Additionally, we have concerns about the proposed Advisory 
Committee. First, the provisions of the bill exclude organizations such 
as PVA, Disabled American Veterans, and other 501(c)(3) veterans 
service organizations from being represented on the Committee. We also 
question on what grounds this Advisory Committee should have subpoena 
authority? While we understand that such ability might improve its 
efforts, it has no real legal standing or grounds to punish individuals 
who might choose to ignore a subpoena.
    PVA would once again like to thank the Committee for the 
opportunity to submit our views on the legislation considered today. We 
would be happy to answer any questions that you may have for the 
record.
                                 ______
                                 
Prepared Statement of National Legislative Service, Veterans of Foreign 
                       Wars of the United States
    Mr. Chairman and Members of the Committee: On behalf of the men and 
women of the Veterans of Foreign Wars of the United States (VFW) and 
our Auxiliaries, thank you for the opportunity to provide our testimony 
for the record regarding pending health and benefits legislation.
     s. 875, department of veterans affairs disease reporting and 
                         oversight act of 2013
    The VFW supports most provisions of this legislation which would 
require VISN directors to report within 24 hours the presence at a VA 
facility of any infectious disease that is on the list of nationally 
notifiable diseases published by the Council of State and Territorial 
Epidemiologists and the Centers of Disease Control and Prevention 
(CDC), or covered by a state law that requires the reporting of 
infectious diseases, to VA Central Office, the Director of CDC, and the 
state and county in which the facility is located. For each individual 
who has contracted or is at risk of contracting a notifiable infectious 
disease at a VA facility, the VISN director would be required to notify 
the individual and the individual's next of kin, the individual's 
primary health care provider, the county in which the individual 
resides, and each employee of the VA facility. The VISN director would 
then be required to confirm the receipt of each notification within 24 
hours and develop and implement a plan of action to prevent the spread 
of the infectious disease within seven days and maintain a record of 
infectious disease reports for at least 10 years.
    Timely disease reporting is critical in detecting, controlling, and 
preventing the spread of communicable disease, and is a widely accepted 
norm of sound public health practice. Since the laws which create 
disease reporting requirements are established by individual state 
legislatures, they do not apply to Federal entities, including VA. 
Although individual facilities may have disease reporting policies, 
they lack statutory guidance across the department can lead to 
dangerous outcomes, as seen by the recent outbreak of Legionnaires ' 
disease within the VA Pittsburgh Healthcare System (VAPHS) which 
resulted in the preventable deaths of at least five veterans and the 
infection of as many as 16 others. Subsequent reports by OIG and CDC 
found that the failure by VAPHS to properly address the outbreak in a 
timely manner contributed greatly to the spread of the disease. Had 
more stringent disease reporting protocols been in place, this terrible 
tragedy may have been averted. The VFW strongly supports the provisions 
of this legislation which would strengthen VA standards in reacting to 
infectious disease outbreaks and mandate that VISNs report instances 
notifiable infectious disease to Federal, state, and local authorities.
    The only provision of this legislation that the VFW does not 
support is the requirement that the Secretary suspend any VISN director 
who is found by OIG to have failed to comply with disease reporting 
requirements. While we recognize the necessity for accountability, we 
feel that VA must be allowed to retain ultimate authority over how 
punishments are applied in each unique situation. To allow the results 
of OIG reports to determine which employees are to be punished would 
essentially grant enforcement power to OIG, undermining the authority 
of the Secretary. For this reason, we suggest that paragraph (2) of 
subsection (f) Enforcement and Disciplinary Action should be changed by 
striking ``suspend'' and adding ``take disciplinary action up to and 
including the suspension of.'' Such a change would allow the VFW to 
offer its full support to this legislation.
          s. 1148, veterans benefits claims faster filing act
    This legislation would require VA to provide public notification 
and notice to applicants submitting for a claim for benefits of the 
average times for processing claims. The intent of this bill would be 
to show the benefits of filling fully developed, electronic claims.
    The issue that arises from this that each claim that is filed under 
the methods described in Section 2, paragraph (c)(2) is unique to 
itself and factors outside of the method used to file will have an 
impact on the length of time it will take to properly adjudicate the 
claim. Stating the average time to adjudicate a claim under a certain 
method will set an expectation for the veteran that may not be 
realistic, and it may put pressure on claims processors to adjudicate 
claims quickly, regardless of quality. Instead of stating the average 
time it takes to complete a claim using a particular method, it might 
be more accurate and realistic to state a claim that is filed using a 
particular method is completed, on average, so many days faster. This 
will help manage veterans expectation and remove arbitrary dates that 
will put undue pressure on claims processors that will lead to 
inaccurate decisions and increased appeals by veterans.
    Also, amendments are needed to improve the accuracy of Section 2, 
paragraph (b)(2) and Section 2, paragraph (c)(B). Paragraph (b)(2) 
would need to be amended to clarify the language that only original 
claims may qualify for the extra year of benefit payment. Paragraph 
(b)(2) would need to be amended to change ``durable power of attorney'' 
to ``limited power of attorney.''
       s. 1155, rural veterans mental health care improvement act
    The VFW supports this legislation which contains several provisions 
that improve the quality of mental health services for rural veterans. 
By providing advance appropriations for VA Information Technology (IT) 
Systems account, this legislation would ensure that VA care is 
delivered without any disruption to the replacement of medical 
equipment or the functioning of information systems. The VFW supports 
this provision, strongly believing that all VA accounts should receive 
advance appropriations.
    This legislation would also include licensed mental health 
counselors and marriage and family therapists for participation in the 
VA Health Professionals Trainee Program, which is used as qualifying 
training to hire mental health care providers to work within VA. The 
VFW is hopeful that the recently signed Patient-Centered Community Care 
(PCCC) contracts will provide the needed specialty health care 
providers in these rural and remote locations. The VFW recommends 
waiting for full implementation of PCCC and evaluating remaining gaps 
in care before expanding the eligibility for participation in the VA 
Health Professionals Trainee Program. Any program expiation must not 
reduce the quality of care that is delivered.
    The VFW also supports the provision of this legislation which would 
strengthen the language in current law providing mental health services 
to family members of Post-9/11 veterans. Finally, this legislation 
requires VA to submit a report to Congress describing any factors which 
are impeding the expansion of telehealth services. The VFW believes 
that telehealth has great potential to improve access to VA programs 
and services for rural veterans, and any barriers to its expansion must 
be identified and overcome.
 s. 1165, access to appropriate immunizations for veterans act of 2013
    The VFW strongly supports this legislation which contains two 
important health-related enhancements for veterans. The bill would 
ensure that veterans receive the full complement of immunizations on 
the recommended adult immunization schedule established by the Centers 
for Disease Control and Prevention (CDC) Advisory Committee on 
Immunization Practices (ACIP). It would also mandate that VA develop 
and implement quality measures and metrics to ensure that veterans 
receiving VA medical services receive each immunization at the proper 
time according to the ACIP.
    As many as 70,000 American adults die each year in from vaccine-
preventable diseases. In 2008, CDC estimated that the number of deaths 
among adults that could be prevented by vaccination is greater than the 
number of deaths caused by breast cancer, colorectal cancer or prostate 
cancer combined. The VFW believes the evidence is clear that 
vaccination is one of the safest, most cost effective ways to prevent 
disease and death from infectious diseases.
    Efforts to quantify and track vaccine utilizations in the past have 
clearly shown that prioritizing increased utilization and effectiveness 
of vaccination inoculations, in tandem with rigorous performance 
measures, generate monumental savings while improving patient health. 
When VA adopted performance measures for influenza and pneumococcal, 
significant improvement in vaccine utilization rates resulted--from 27 
percent to 77 percent and 26 percent to 80 percent, respectively. 
Expanding performance measures to the entire list of VA and CDC 
recommended adult vaccinations would undoubtedly promote timely and 
appropriate vaccinations while placing a greater emphasis on 
preventable care for veterans.
s. 1211, a bill to amend title 38, united states code, to prohibit the 
   use of the phrases gi bill and post-9/11 gi bill to give a false 
  impression of approval or endorsement by the department of veterans 
                                affairs.
    In 2011, the VFW signed on to a letter to the White House calling 
on VA to trademark the phrase ``GI Bill.'' Through the VFW's advocacy, 
this recommendation was included in Executive Order No. 13607, which 
improved consumer resources for student veterans. The VFW agrees in 
principle with Sen. Boxer on this legislation, which seeks to ensure 
that veterans cannot be duped by bad actors in higher education by 
misrepresenting themselves as a VA-associated entity or a GI Bill-
sanctioned institution or informational tool. However, we believe that 
this legislation is unnecessary since VA successfully trademarked GI 
Bill in 2012.
     s. 1216, improving job opportunities for veterans act of 2013
    The VFW supports Sen. Bennett's legislation to modify VA's on-the-
job training (OJT) program in a manner that will encourage more 
companies to participate by lowering the out-of-pocket cost to the 
employer during the training program. College is not for everyone, 
which is why the VFW has long supported OJT as an option for GI Bill-
eligible veterans. OJT programs offer veterans an opportunity to 
acquire critical skills that prepare them to compete in the civilian 
workforce when they do not wish to pursue a college degree program. 
Sadly, OJT is vastly underutilized and some companies believe that they 
do not have enough incentive to participate, because of potential costs 
to the company. The VFW encourages the Senate to pass this legislation, 
which when coupled with an awareness campaign on VA OJT could 
significantly improve real world training opportunities for veterans.
            s. 1262, veterans conservation corps act of 2013
    The VFW has long supported the concept of the Veterans' 
Conservation Corps. In 2010, the VFW supported the concept as part of a 
broader veterans' employment initiative before this Committee and last 
year we expressed our support for stand-alone legislation, which is why 
we are proud to support Sen. Nelson once again. We believe that a 
conservation corps will offer unique opportunities to veterans who do 
not participate in other Federal training programs to work preserving 
national parks, monuments and other infrastructure projects.
    Veterans were hit disproportionately hard by the recent recession, 
and the latest employment figures for the Bureau of Labor Statistics 
indicate that Iraq and Afghanistan-era veterans still struggle at 
finding employment when compared to their civilian peers. The 
conservation corps is just one more step to help veterans get back to 
work and acquire the kinds of skills that will make them competitive in 
the job market. This model succeeded for past generations of veterans 
and we believe it could succeed again.
      s. 1281, veterans and servicemembers employment and housing 
                           rights act of 2013
    The VFW supports Sen. Blumenthal's legislation that will ensure 
veterans are offered decisive legal protection against discrimination 
when seeking employment or housing. At a time when so few Americans 
choose to serve in the military, some veterans may face discrimination 
as a result of either their perceived future military obligations or 
negative stereotypes associated with military service. This bill seeks 
to align veterans' status with other protected groups who have faced 
discrimination in the workplace or in acquiring housing. Veterans 
should not be shut out of quality careers or denied a lease because of 
their current or past military service. This legislation seeks to 
ensure that it never happens again.
 s. 1295, a bill to amend title 38, to require the secretary of va to 
provide veterans with notice, when veterans electronically file claims 
 for benefits under laws administered by the secretary, that relevant 
     services may be available from veterans service organizations.
    The VFW supports the intent of this legislation, which would codify 
much of what VA is currently doing to make veterans aware of the 
services veterans service organizations (VSO) can provide when filing 
of claims for disabilities. Currently, on VA's ``benefits description'' 
page of its Web site, there is a link to request assistance from or 
search a list of VSOs that can provide assistance. There is similar 
information found once veterans logon to eBenefits.
    The only additional measure this legislation provides is direct 
notification to veterans when they begin the application process. The 
VFW would support an added step, in the form of a pop-up, which would 
direct the applicant to the claims assistance information page VA 
already has established when applying for benefits online.
         s. 1399, servicemember student loan affordability act
    The VFW fully supports Senator Durbin's bill which extends SCRA 
protections to servicemembers seeking to refinance or consolidate pre-
service Federal or private student loans. Currently, servicemembers 
that opened student loans prior to military service that choose to 
participate in the Federal Public Service Loan Forgiveness program 
(PSLF) lose the six percent loan rate cap afforded to them by SCRA. 
This legislation corrects this loophole and extends the option of PSLF 
to servicemembers without forcing them to lose their six percent loan 
rate cap. Additionally this legislation protects servicemembers seeking 
to refinance student loans through debt consolidation from losing their 
six percent loan rate caps. As student debt is on the rise, now second 
only to mortgages, programs such as (PSLF) and debt consolidation are 
both practical and effective ways to manage student loan debt.
      s. 1411, rural veterans health care improvement act of 2013
    VA will be reporting its findings of rural health care gaps through 
its Strategic Plan Refresh for Fiscal Years 2012 through 2014 VA Office 
of Rural Health. This legislation would define some of the data points 
VA must report and use to determine their performance and 
accountability goals. These data collection points would include 
recruitment and retention of health care providers, timeliness and 
quality of care by VHA and through contract and fee-based care, and the 
implementation, expansion of telemedicine. VA would also be required to 
describe its procedures for assessing each rural Department facility.
    It is apparent that a wide gap exists between rural veterans and 
their urban counterparts in the ability to access their earned VA 
health benefits. With 41 percent of all VA enrollees residing in rural 
areas, the VFW believes that this access gap must be closed, but the 
situation is not without significant challenges. While roughly 25 
percent of the U.S. population lives in rural areas, only 10 percent of 
physicians practice in those communities. This highlights the need for 
VA to proactively recruit and retain them in rural facilities. Of 
highly rural veterans, 64 percent must travel more than four hours to 
receive specialty care, emphasizing the need for VA to continue to 
expand telehealth services. By addressing these and other issues, the 
VFW believes that this legislation represents a positive step toward 
solving the unique problems faced by rural veterans.
     s. 1471, alicia dawn koehl respect for national cemeteries act
    This act would codify the authority of the Secretaries of Veterans 
Affairs and Defense to reconsider prior decisions of interments in 
national cemeteries. Title 38, U.S.C. outlines crimes that disqualify 
veterans from interment in national cemeteries, but there are no 
provisions for the removal of a veteran who was laid to rest in a 
national cemetery prior to the discovery that he or she had committed a 
disqualifying crime.
    This legislation also calls for the disinterment of a specific 
veteran who committed murder, and then turned the gun on himself, 
ending his life. He was buried in a national veterans cemetery six days 
later. The circumstances of this case made it very difficult for VA to 
discover the murder that would have precluded this veteran from 
interment.
    The VFW supports this legislation, but believes it falls short in 
preventing future non-qualifying interments from taking place. Current 
protocol requires the surviving family member to fax qualifying 
paperwork--DD214 and death certificate--to the National Cemetery 
Administration (NCA). Upon receipt of these documents, NCA calls the 
family member and asks 16 questions. These questions range from 
location of death and burial needs to cemetery choice and marital 
status. Nowhere in the questioning does NCA ask a question regarding 
criminal activity. The requesting family member should be required to 
fill out a form that asks the current 16 questions and an additional 
question regarding Federal or state capital crimes. Knowing this 
information will assist NCA in investigating disqualifying crimes, 
prior to the veteran's interment.
   s. 1540, a bill to amend title 38, united states code, to include 
contracts and grants for residential care for veterans in the exception 
to the requirement that the federal government recover a portion of the 
                       value of certain projects.
    The VFW supports this legislation which would allow state veterans 
homes that receive residential care contracts or grants from VA to also 
contract with VA under the Health Care for Homeless Veterans (HCHV) 
supported housing program. Since state veterans homes receive VA 
funding for other programs, the recapture clause of section 8136 of 
title 38 prohibits them from receiving HCHV funds. Only those state 
veterans homes that also run outpatient VA clinics are currently 
exempted from the recapture clause. This means that many state veterans 
homes with empty beds are unable to offer them to homeless veterans in 
their communities. Similarly exempting them from the recapture clause 
would solve this problem.
    The Secretary's ambitious five year plan to end homelessness among 
veterans includes six strategic pillars. The sixth pillar is community 
partnerships, which certainly must include state veterans homes. The 
VFW strongly supports the Secretary's five year plan and believes that 
state veterans homes should be utilized to the fullest extent possible 
to ensure its success. As long as there are homeless veterans who need 
them, beds in state veterans homes should not remain empty simply due 
to the unintended consequences of a Federal regulation.
           s. 1558, veterans outreach enhancement act of 2013
    The purpose of this legislation is to enact a five-year program 
aimed to increase awareness and access of Federal, state and local 
veterans programs for servicemembers and veterans. In doing so, VA 
could enter into agreements with Federal and state agencies and provide 
technical assistance, award grants for projects and activities that 
would build awareness and usage of programs and services provided at 
all levels of government and within the nonprofit sector.
    The VFW supports this legislation.
   s. 1573, a bill to provide payments of temporary compensation to 
      surviving spouses of veterans upon the death of the veteran.
    This legislation would provide six months of temporary payments of 
Dependency and Indemnity Compensation (DIC) or Pension for surviving 
spouses of veterans if, at the time of death of the veteran, the 
veteran was in receipt of or entitled to receive (or but for the 
receipt of retired or retirement pay was entitled to receive) 
compensation for a service-connected disability continuously rated as 
total for not less than one year immediately preceding the death of the 
veteran, or if the veteran was in receipt of pension under section 1513 
or 1521 of title 38 as a married veteran based on the marriage of the 
veteran to the individual.
    The VFW supports the intent of these provisions as a stop-gap 
measure for surviving spouses during their time of greatest need. 
However, as the bill is written, the benefit would be paid regardless 
of whether or not the surviving spouse ever submits a claim for the 
benefit. The VFW recommends that at minimum of a certificate of death 
must be provided to VA by the surviving spouse, to act as an informal 
claim before temporary payments begin must be submitted to VA. This 
will protect the integrity of the program, but allow payments to be 
made while the claim is developed and approved.
    a draft bill to amend title 38, united states code, to provide 
 replacement automobiles for certain disabled veterans and members of 
               the armed forces, and for other purposes.
    The VFW supports this legislation which would allow VA to replace a 
vehicle provided to a veteran under the Automobile Grant Program twice, 
with the aggregate amount of the original and replacement vehicles not 
to exceed the maximum amount allowable under the program. Further, it 
increases the maximum amount from $18,900 to $30,000 and authorizes VA 
to replace vehicles provided under the program that are destroyed by 
natural disasters or other circumstances in which the veteran is found 
to be not at fault.
    Currently, the VA automobile grant is a one-time benefit. Veterans 
may use the grant only once in their lifetimes, regardless of whether 
they purchased a vehicle for less than the full amount allowable under 
the law, or if that amount is ever increased. The VFW believes that 
eligible veterans should be able to receive additional grants if the 
grant amount for the initial vehicle was less than the maximum. This 
legislation achieves that goal, providing greater spending flexibility 
for eligible veterans and ensuring that they are able to make full use 
of the benefit.
    VA automobile grants are provided only to the most severely 
disabled veterans who may require vehicles with specific 
accommodations. The original intent of the grant when it was 
established in 1946 in the amount of $1,600 was to cover 100 percent of 
the cost of a new vehicle. According to the Department of 
Transportation, the average costs of a modified vehicle today range 
from $40,000 to $65,000 new and $21,000 to $35,000 used. Although the 
current automobile grant amount of $18,900 is useful to veterans as a 
means of cost abatement, it does not come close to covering the full 
purchase price. Clearly the grant has not been sufficiently increased 
over time, relative to inflation. Increasing the amount to $30,000 
would represent a big step toward ensuring that severely disabled 
veterans are able to afford the specialized vehicles they need.
      draft bill, veterans health care eligibility expansion and 
                        enhancement act of 2013
    This legislation calls for extraordinary changes to the Veterans 
Health Administration by providing for the largest enrolment 
eligibility expansion in over a decade. The VFW supports the intent of 
this legislation, however, we would like to offer certain caveats and 
recommend several changes before we are able to offer our full 
endorsement.
    Section 3 would greatly expand VA patient enrolment by extending 
eligibility to veterans with non-compensable service-connected 
disabilities rated as zero percent disabling and those without service-
connected disabilities who are not currently able to enroll, so long as 
they do not have access to health insurance, except through a health 
exchange established by the Patient Protection and Affordable Care Act.
    The VFW supports the spirit of this section, as it would provide an 
increased number of honorably discharged veterans with access to 
quality health care who may not otherwise have that opportunity. We are 
concerned, however, that a large influx of new enrollees could 
overcrowd the system, exacerbating already unacceptably long wait 
times. In order to prevent this, VA would presumably need to expand its 
capacity by hiring additional employees and constructing or leasing new 
facilities. This would require either a significant funding increase, 
or the redirection of funding from other areas of the VA budget which 
the VFW could never support. With no discernible offset, we feel that 
there is some cause for trepidation. As a result, we must state that 
the VFW would only support the eligibility expansion called for by 
section 3 if VA is provided the additional funding necessary to carry 
it out, without compromising current quality or access standards, or in 
any way diminishing the programs and services provided to those already 
enrolled. It is important that the care provided of veterans who are 
service-connected or have finical need is not disrupted or diminished 
in any way. Also, with rapid expiation a plan must be put in place to 
account for the capacity issues that will arise. The VFW looks forward 
to working with the Committee on solving these issues.
    Section 4 would further extend the period of eligibility for health 
care benefits for veterans of combat during certain periods of 
hostilities and war. Eligibility for Iraq and Afghanistan veterans 
would be extended from five to ten years following separation from 
service, and eligibility for veterans of post-Gulf War hostilities 
prior to January 28, 2003 would be extended until January 28, 2018. The 
VFW fully supports this section.
    Section 6 would simplify the method VA uses to determine which 
veterans qualify for enrolment as members of low income families. 
Currently, each county has its own geographically based income 
threshold. This section would mandate that the highest income threshold 
among the counties of each state become the income threshold of the 
entire state. This would qualify many veterans for enrolment who are 
currently ineligible but whose income level is relatively close to the 
geographic means test threshold. The VFW supports this eligibility 
expansion, but only if VA is provided with adequate funding to ensure 
that access or services are not diminished for current enrollees.
       draft bill, enhanced dental care for veterans act of 2013
    This legislation contains several provisions relating to non-
service-connected dental services, most of which the VFW supports.
    Section 2 would authorize VA to provide restorative non-service-
connected dental services, including necessary dental appliances, to 
certain veterans. Currently, VA may provide those services to any 
veteran receiving hospital care or nursing home care in a VA facility 
if the non-service-connected dental condition is associated with or 
aggravating a disability for which the veteran is receiving hospital 
care, or if VA determines that a dental emergency is present during 
hospitalization. This legislation would allow VA to also furnish dental 
services to restore functionality that has been lost as the result of 
any services or treatment received while under hospital or nursing home 
care. The VFW supports this common sense fix.
    Section 3 would establish a three-year pilot program at no less 
than 16 locations to provide dental services to any veteran 
commensurate with the dental services furnished to 100 percent service-
connected veterans. VA would be authorized to enter into contracts as 
necessary and copayments would be collected. The amount expended on 
each veteran per year would be capped at $1,000 or a greater amount, as 
determined by VA.
    VA is already set to roll out a three year pilot program to offer 
affordable dental insurance to all enrolled veterans and CHAMPVA 
beneficiaries known as the VA Dental Insurance Program (VADIP). Created 
by the Caregivers and Omnibus Health Services Act of 2010, VADIP will 
offer a wide array of dental plans to those veterans and eligible 
dependents through the Delta Dental and MetLife insurance companies at 
reduced rates, with care available nationwide and monthly premiums 
starting as low as $8.65. While the VFW is not fundamentally opposed to 
the program model offered by section 3, we are supportive of VADIP and 
believe that it should function for the duration it has been authorized 
and evaluated for effectiveness and veteran satisfaction before another 
program which offers duplicative services, as outlined by this section, 
is piloted.
    Section 4 would require VA to carry out a program of education to 
promote veterans' dental health. This would be achieved by distrusting 
literature at VA facilities, publishing information on the VA Web site, 
and conducting small and large group presentations. The VFW supports 
this section.
    Section 5 would require VA to establish a mechanism by which 
private sector providers would be able to share information on dental 
care furnished under VADIP with VA for the inclusion of that 
information in the veteran's electronic health record. This information 
would only be shared at the election of the veteran and VA would be 
authorized to extend VADIP an additional two years if the Secretary 
determines it necessary to assess the information sharing mechanism. 
The VFW supports this section, strongly believing that VA must be 
responsible for ensuring proper coordination and continuity of care for 
all non-VA services provided under any Department program.
 draft bill, mental health support for veteran families and caregivers 
                              act of 2013
    The VFW supports this legislation which would establish an 
education program and peer support program for family members and 
caregivers of veterans with mental health disorders. To carry out these 
programs, VA would contract with non-profit entities with experience in 
mental health education. The education program would consist of 
instruction on types of mental health disorders, techniques for 
handling crisis situations, coping with stress, and additional 
services. Those who graduate the education program may be selected to 
act as a peer support coordinator, who would then lead group meetings 
with other family members and caregivers to assist them with matters 
related to coping with mental health disorders in veterans. These 
programs would initially be offered at 30 VA facilities, and the 
Secretary would be required to report on the feasibility and 
advisability of continuing and expanding the program after one year.
    Mental health disorders among veterans often affect family members, 
placing great strain on family relationships and ultimately 
exacerbating the veteran's condition. If properly trained, however, 
family members can have a positive impact on the veteran's recovery. 
The VFW supports promoting family engagement as an important part of 
mental health treatment.
              draft bill, medical foster homes act of 2013
    The VFW supports the intent of this legislation which will allow VA 
to cover the costs associated with the care of eligible veterans who 
require a protracted period of nursing home care and desire to live in 
medical foster homes. VA currently has the authority to reimburse 
institutional care facilities such as nursing homes for long-term 
domiciliary care, but veterans who choose to live in medical foster 
homes must do so at their own expense. Granting VA the authority to 
reimburse medical foster homes would provide veterans with an 
additional residency choice, potentially improving the quality of life 
for those who would prefer to live in a family style setting rather 
than an institutional one. The VFW recommends, however, that this be 
achieved by amending section 1720 of title 38, United States Code, 
rather than instructing the Secretary on how to carry out section 17.73 
of title 38, Code of Federal Regulations. We feel that codifying this 
new benefit would reduce any chance of bureaucratic misinterpretation 
and ensure that it is not arbitrarily eliminated or diminished in the 
future.
    Furthermore, the VFW strongly believes that all non-VA services 
should be provided in conjunction with proper care coordination. VA 
Handbook 1141.02, Medical Foster Home Procedures, establishes the 
policies and standards of VA care coordination for veterans who choose 
to live in medical foster home settings. It requires an 
interdisciplinary VA Home Care Team to provide the veteran with primary 
care, regularly communicate with the foster home caregiver, and monitor 
the care provided by the foster home with frequent unannounced visits. 
The VFW feels that these requirements will continue to be instrumental 
in ensuring adequate care coordination for veterans who chose to 
participate in a fully-funded medical foster care program. VA Handbook 
1411.02 is scheduled for recertification in 2014, and the VFW 
recommends that the care coordination policies outlined in that 
document be made permanent by adding them to the language of this 
legislation.
        draft bill, scra enhancement and improvement act of 2013
    The VFW supports Chairman Sanders and Senator Rockefeller in their 
efforts to improve the Servicemembers Civil Relief Act (SCRA). SCRA 
exists to offer a wide range of protections to individuals entering 
active duty, as well as servicemembers activated from the Reserve 
Component. SCRA ensures servicemembers are able to fully devote their 
attention to duty and seeks to assuage additional stress often placed 
on family members of those in service. We believe many of the 
provisions found in this bill offer substantial improvements to SCRA`s 
current framework as they provide much-needed expansions to the bill's 
depth, reach, and enforcement. For example, the VFW fully supports 
offering an additional year of SCRA protection to ensure transitioning 
servicemembers can organize their affairs, and we also support policies 
that will ensure servicemembers cannot be denied credit because of 
their military service.
    The VFW applauds Chairman Sanders and Senator Rockefeller for each 
taking the issue of protecting servicemembers and their families very 
seriously. We are pleased that this bill offers unique solutions to 
improve the many current issues related to SCRA. However, we have 
several questions about the provisions in this draft of the legislation 
related to servicemembers' business properties and loans on which 
servicemembers serve as the guarantor or co-signor. We look forward to 
discussing these issues with committee and developing a quality bill 
that protects the financial and legal interests of our servicemembers.
    Moreover, the VFW believes that more understanding on SCRA is 
needed, which is why we recommend a possible stand-alone hearing on 
SCRA in the coming year. Make no mistake, SCRA is substantially 
beneficial to servicemembers, but we constantly hear stories of how 
many still fall through the cracks. The VFW asks the Committee to take 
an in-depth look at the financial and legal needs of our 
servicemembers, solicit feedback from all relevant stakeholders, and 
develop comprehensive legislation that seeks to address many of the 
persistent shortfalls we often find in SCRA. We look forward to working 
with the Committee to develop a comprehensive reform package that meets 
the needs of today's servicemembers by protecting their financial and 
legal interests.
  draft bill, survivors of military sexual assault and domestic abuse 
                              act of 2013
    The VFW does not support section 2 of this legislation which would 
authorize VA to provide counseling services to active duty 
servicemembers for the treatment of psychological trauma associated 
military sexual assault without obtaining referrals from their military 
primary care providers. While we recognize the need to support victims 
of military sexual assault in every reasonable way possible, we firmly 
believe that any counseling or treatment should be provided at 
Department of Defense facilities in order to ensure proper coordination 
of care and appropriate chain-of-command involvement. Commanders are 
ultimately responsible for the health and well-being of their 
subordinates and it is vitally important that they are aware of the 
mental health status of the members of their units. Furthermore, they 
should be informed of any criminal activity which may have taken place 
under their commands so that they may take appropriate action under the 
Uniform Code of Military Justice.
    The VFW does support section 3 which would require VA to establish 
a screening mechanism to detect whether a veteran has been the victim 
of domestic abuse. In recent years, VA has been making an effort to 
adapt to the needs of veterans who are the victims of abuse--
specifically women veterans. Domestic abuse is a particularly prevalent 
problem among this population, and detection is necessary to ensure 
they receive the proper counseling and care.
    The VFW also supports section 4 which would require VA to submit 
reports on the treatment and prevalence of military sexual trauma and 
domestic abuse. The data collected will be used to improve services for 
the victims of those physically and psychologically devastating crimes.
draft bill to amend title 38, united states code, to expand eligibility 
 for reimbursement for emergency medical treatment to certain veterans 
   that were unable to receive care from the department of veterans 
    affairs in the 24-month period preceding the furnishing of such 
                          emergency treatment.
    The VFW supports this legislation which would authorize VA to 
reimburse veterans for emergent non-VA care who do not meet the 
requirement of having been seen at a VA facility in the preceding 24 
months, simply because long wait times for initial patient examinations 
have prevented them from doing so. The strict 24-month requirement is 
especially problematic for current era veterans, many of whom have 
never had the opportunity to be seen at VA facilities due to long 
appointment wait times, despite their timely, good faith efforts to 
make appointments following separation. Should they experience medical 
emergencies during that waiting period, VA is required to deny their 
claims for reimbursement, unnecessarily leaving them with large medical 
bills through no fault of their own. VA is aware of the problem and has 
requested the authority to make an exception to the 24-month 
requirement for veterans who find themselves in this situation. The VFW 
supports this request, strongly believing that under no circumstances 
should long appointment wait times prevent a veteran from seeking 
emergent, possible life-saving care at a non-VA facility, or expose 
that veteran to financial hardship as a result of doing so.
draft bill to amend title 38, united states code, to require recipients 
  of per diem payments from the secretary of veterans affairs for the 
provision of services for homeless for homeless veterans to comply with 
codes relevant to operations and level of care provided, and for other 
                               purposes.
    The VFW supports this legislation which would require facilities 
that house homeless veterans to meet the standards of the most recently 
published version of the Life Safety Code of the National Fire 
Protection Association, as well as all relevant local building codes 
before receiving per diem payments under the VA Homeless Providers 
Grant Per Diem Program. Additionally, recipients would be inspected on 
an annual basis to ensure that compliance with those codes is 
maintained. Current per diem recipients would have two years from the 
time of enactment to be certified in compliance with relevant codes 
before payments are terminated, giving them ample time to make any 
necessary improvements.
    Currently, VA is required to check housing certificates before 
awarding grants for housing services provided to homeless veterans. 
However, thorough checks of fire and safety requirements, as well as 
structural conditions of the building, are often overlooked. The VFW 
believes that VA funded transitional housing must be safe, secure, and 
sanitary. This legislation would ensure that those standards are met, 
providing homeless veterans with the best chances of successful 
community reintegration.

    Mr. Chairman, this concludes my testimony. I would be happy to take 
any questions you or any member of the Committee may have for the 
record.
                                 ______
                                 
             Prepared Statement of Wounded Warrior Project
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee: Thank you for inviting Wounded Warrior Project (WWP) to 
provide views on pending legislation. Several of the measures under 
consideration address issues of keen importance to wounded warriors and 
their family members, and we are pleased to offer our perspective.
                             mental health
    We welcome the Committee's consideration of legislation addressing 
key mental health issues. Long years of war have left both deep psychic 
scars among those who have deployed and a profound challenge for the VA 
health care system--to provide these veterans timely, effective mental 
health care care. Legislation before the Committee recognizes several 
distinct and important mental health issues--veterans' difficulty in 
accessing mental health care in rural areas, the toll a warrior's 
distress or multiple deployments may take on the mental health of 
family members, and the suffering experienced by veterans traumatized 
by military sexual assault or domestic abuse.
    As a population, wounded warriors continue to experience very high 
rates of PTSD, depression and other combat-related mental health 
conditions. A recent WWP/Westat survey of more than 26 thousand wounded 
warriors found that 75% of the almost 14 thousand respondents screened 
positive for PTSD. The survey indicates that the effects of their 
mental and emotional problems are even more serious than the effects of 
physical injuries. More than 25% reported being in poor health as a 
result of severe mental injuries. Our survey also found that more than 
one in three respondents said they had difficulty in getting mental 
health care, put off getting such care, or did not get needed care. 
About 40% said one of the difficulties they had was inconsistent 
treatment or lapses in treatment (such as canceled appointments and 
switches in providers).\1\
---------------------------------------------------------------------------
    \1\ Franklin, et al., 2013 Wounded Warrior Project Survey: Report 
of Findings.
---------------------------------------------------------------------------
    Based on the reports provided by the warriors with whom we work 
daily across the country, many VA facilities are still struggling to 
provide timely, effective mental health care. Wide gaps still exist 
between well-intentioned policies and on-the-ground practices. Perhaps 
nowhere are the challenges greater than in rural America where 
workforce-staffing issues and long travel distances compound the 
problems common to other often-overloaded VA facilities.
    Congress has already set important expectations in law for VA's 
mental health care system. Accordingly, ongoing oversight and 
insistence on VA's taking further steps to close the gap between mental 
health policy and practice will be critical. But we appreciate the 
importance of closing statutory gaps and setting clear legislative 
markers to achieve further gains.
    In that regard, we strongly support mental health provisions of the 
Rural Veterans Mental Health Care Improvements Act, S. 1155. We 
appreciate its focus on telemental health, a promising modality, whose 
full potential must be unlocked. In particular, we welcome provisions 
that would clarify a longstanding requirement in section 304 of Public 
Law 111-163 that the Secretary provide time-limited mental health 
services to family members of veterans who deployed to Iraq or 
Afghanistan, where such services are needed to assist in the veteran's 
readjustment or recovery, or the family's readjustment. Given VA's 
failure to implement this requirement, it is particularly important 
that any ambiguity in current law be erased. Our warriors' families 
have been profoundly affected by multiple deployments and by their 
warriors' struggles. Some need help themselves. With the mental health 
of warriors so inextricably connected to that of their loved ones' 
mental health, these needs cannot be ignored.
    Given the important role of the family in supporting a warrior who 
is experiencing mental health problems, we welcome the Committee's 
consideration of 
S.     , the Mental Health Support for Veteran Families and Caregivers 
Act. As an organization for which peer-mentorship and peer-support are 
core elements of our programming for both warriors and family members, 
we would support VA's fostering the development of peer-support 
programs for family members of veterans with mental health conditions. 
There are likely different models that could be mounted and evaluated. 
S.      would direct VA to establish a two-part family support program 
to consist of an education segment and the establishment of peer-
support groups. The bill directs that VA deploy this model over a four 
year period through not less than 20 medical centers, 20 clinics, and 
20 Vet Centers. The measure would require that the education program be 
carried out over a specified period through a contract with a non-
profit entity and that the program include education on different 
mental health conditions and techniques for handling crises and for 
coping with stress. VA would also be required to facilitate the 
establishment of a program to provide peer support to family members on 
coping with mental disorders in veterans, with one family member who 
completed the education segment to serve as a peer-support coordinator 
and a VA mental health provider serving as a mentor to the peer support 
coordinator.
    While WWP applauds efforts to assist family members who are 
supporting veterans with mental health needs, we recommend that the 
measure provide for greater flexibility in program design. For example, 
requiring that education programs include ``general education on 
different mental health disorders'' may signal to VA that it must 
establish ``peer'' groups inclusive of the widest possible range of 
mental health conditions. But the families of young veterans with 
combat-related PSTD may not relate to the experience others have with 
veterans who may have very different conditions such as schizophrenia 
or other cognitive disorders and who may be much older. We recommend 
that the provision be revised to clarify that composition of peer-
support groups be left to the participating family members themselves. 
Similarly we recommend providing somewhat greater flexibility regarding 
educational content so that the programs are ultimately geared to the 
needs of the participating families. Where, for example, the compelling 
need for support is among families of returning combat veterans, it 
would seem advisable to tailor course content to combat-stress, PTSD, 
and other combat-related conditions, rather than to general education 
on a broad range of conditions. As drafted, the bill would appear to 
foreclose that option.
    S.     , the Survivors of Military Sexual Assault and Domestic 
Abuse Act of 2013, would authorize the Department of Veterans Affairs 
to provide counseling and treatment for sexual trauma to members of the 
military as well as direct the Department to develop and deploy a 
screening tool for domestic abuse to be used when a veteran seeks VA 
health care services. It is certainly important, in our view, to find 
avenues to improve early access to counseling and treatment for those 
with MST-related health problems, as well as to assure the quality and 
effectiveness of those treatments. MST has been shown to have serious 
long-term adverse health implications, including PTSD, increased 
suicide risk, depression, and substance abuse.\2\ Researchers report 
that MST is an even stronger predictor of PTSD than combat.\3\ With the 
Department of Defense reporting that 26,000 active duty servicemembers 
experienced a sexual assault in 2012,\4\ it is clear that there is a 
great need for resources, support, and effective treatment for those 
who are coping with health issues as a result of an in-service assault.
---------------------------------------------------------------------------
    \2\ M. Murdoch, et al., ``Women and War: What Physicians Should 
Know,'' 21(S3) J. of Gen Internal Medicine S5-S10 (2006).
    \3\ D. Yaeger, et al.'' DSM-IV Diagnosed Posttraumatic Stress 
Disorder in Women Veterans With and Without Military Sexual Trauma,'' 
21(S3) J. Gen Internal Medicine S65-S69 (2006)
    \4\ http://www.defense.gov/transcripts/
transcript.aspx?transcriptid=5233
---------------------------------------------------------------------------
    However the scope of the problem is not limited to access to care. 
Testimony at a recent House Veterans' Affairs Health Subcommittee 
hearing provided strong evidence that both the Department of Defense 
and the VA are failing to provide adequate mental health services for 
veterans who had been raped by fellow servicemen. Veterans at that 
hearing detailed very troubling, yet similar experiences relating not 
only to access to VA care, but to inadequate screening, providers who 
were either insensitive or lacked needed expertise, and facilities ill-
equipped to care appropriately for MST survivors.\5\
---------------------------------------------------------------------------
    \5\ http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=101095
---------------------------------------------------------------------------
    WWP does see value in authorizing access to VA mental health care 
to active duty members who experience a military sexual assault, 
especially given the strong disincentives for victims either to report 
or seek needed treatment within the Department of Defense.\6\ However, 
we have concerns about the VA's capacity to provide such care, given 
continued serious gaps in timeliness and effectiveness of its provision 
of mental health care to veterans, as reflected in the recent House 
hearing and as we have highlighted in previous testimony. With those 
concerns, we urge the Committee to pursue these issues through 
oversight, to include conducting a searching inquiry as to whether VA 
has yet achieved the level of mental health staffing needed to meet the 
mental health needs of our veterans. Further, we urge that such 
oversight focus on improving access to MST-related care and training 
providers, as needed, to provide effective screening and appropriate, 
sensitive care for those seeking treatment for MST-related conditions.
---------------------------------------------------------------------------
    \6\ R. Kimerling, et al., ``The Veterans Administration and 
Military Sexual Trauma,'' 97(12) Am. J. of Public Health 2163 (2007).
---------------------------------------------------------------------------
    The draft bill's focus on improving VA detection of domestic abuse 
against veterans raises similar issues. VA's challenge in that regard 
may be deeper than the lack of a screening tool. Facilities that are 
already unable to provide timely, effective care to veterans with 
combat-related mental health conditions are not likely to have the 
requisite staffing, and may also lack the specialized expertise, to 
provide the complex, sophisticated care needed by a victim of domestic 
abuse. Again, we urge that broad oversight take precedence over 
charting a legislative road that may risk establishing conflicting 
priorities.
                               employment
    With the many bills before the Committee today, Mr. Chairman, the 
emphasis in our remarks on veterans' mental health reflects our view 
that mental health is integral to overall health, and is very much at 
the core of WWP's vision of fostering the most successful, well-
adjusted generation of veterans in the Nation's history. Too many 
wounded warriors, however, have yet to regain mental health or to 
achieve--or mount the first critical steps toward--success.
    Our most recent survey of wounded warriors should be cause for deep 
concern in that regard. That survey found that more than 17% of 
respondents are unemployed (that is, have been looking for work for an 
average of 26 weeks)--much higher than the 9.9% unemployment for all 
veterans who served since 9/11 or the 10.9% rate among those deployed 
to Iraq or Afghanistan.\7\ (Wounded warrior unemployment has not 
changed materially since our 2012 survey.) That disturbingly high rate 
of unemployment among those who have sacrificed so much merits close 
scrutiny in reviewing legislation aimed at advancing veterans' economic 
opportunities. It is critical, in our view, that wounded warriors are 
afforded the tools, skills, resources, and supports needed to develop 
meaningful and fulfilling careers. The goal should be economic 
empowerment.
---------------------------------------------------------------------------
    \7\ Franklin, 71.
---------------------------------------------------------------------------
    Given that perspective, we welcome the Committee's consideration of 
S. 1262, the Veterans Conservation Corps Act, but recommend that the 
bill be revised. The measure would authorize appropriations to VA of 
$600 million over five years to employ veterans in conservation, 
resource management, and historic preservation projects on public 
lands; in cemetery maintenance and improvement projects; and as 
firefighters, law enforcement officers, and disaster relief personnel, 
with priority to those who served on or after 9/11.
    WWP welcomes in principle the bill's focus on creating new job 
opportunities for veterans, and the priority to be given employment for 
Post-9/11 veterans. But with its job targets seemingly limited to 
manual labor or work as first-responders, warriors whose severe 
disabilities have already contributed to unemployment may find few 
opportunities. We urge that the Committee further develop this bill, 
and--particularly for wounded warriors--place greater emphasis on 
career-building employment opportunities and on creating avenues to a 
broader range of positions better suited to veterans whose disabilities 
might rule out employment doing manual labor or as first-responders.
    Given the importance of creating new opportunities for wounded 
warriors that can lead to the development of new skills and career-
building employment opportunities, WWP also welcomes the Committee's 
consideration of S. 1216, the Improving Job Opportunities for Veterans 
Act of 2013. The central provision of that bill would require VA to 
enter into agreements with the heads of other Federal departments and 
agencies to operate on-the-job training programs to train eligible 
veterans to perform skills necessary for employment by the department 
or agency operating the program. Such programs hold promise and merit 
development. We recommend, however, that the measure be amended to 
establish a priority for service-disabled veterans in instances where 
veterans' preference laws would not otherwise apply.
                       hearing loss and tinnitus
    This Committee knows well that blast injuries in Iraq and 
Afghanistan have left thousands of our warriors with severe 
polytraumatic injuries. Those blasts have, of course, left many more 
with debilitating invisible wounds, including severe hearing loss and 
tinnitus. WWP's most recent survey of wounded warriors (with responses 
from 52% of the almost 27 thousand whom we surveyed) illustrates the 
prevalence of hearing impairment in this population. Almost 58% of 
respondents sustained injuries as a result of blasts (including IED's, 
mortars, and grenades).\8\ Not surprisingly then, more than 52% 
experience tinnitus\9\ and 17.5% severe hearing loss.\10\ Overall, more 
than half of all our respondents reported that their health is fair or 
poor. But more than 60% of those with severe hearing loss described 
themselves as being in only fair or poor health; of those with 
tinnitus, 57% reported being in fair or poor health.
---------------------------------------------------------------------------
    \8\ Id., 19
    \9\ Id., 18
    \10\ Id., 19
---------------------------------------------------------------------------
    Transition to civilian life and financial issues remain keen 
concerns for our warriors,\11\ and VA benefits are necessarily vitally 
important to their financial well-being. Yet in our recent survey, 
42.5% of warriors with severe hearing loss and 41.8% of those with 
tinnitus reported that their financial status is worse than a year 
ago.\12\ Most VA hearing loss claims are adjudicated at 0% disabling, 
and VA deems recurrent tinnitus to be only 10% disabling.\13\ Such 
marginal compensation would seem to suggest that hearing impairment and 
tinnitus cause only minimal impairment and have little to no effect on 
average earning capacity. Veterans who live daily with hearing loss and 
ringing in their ears would disabuse this Committee of any such 
thought. Indeed VBA-convened medical experts have advised the 
Department that its rating and testing criteria should be fundamentally 
changed, and have recommended that tinnitus ratings should reflect 
relative level of severity, with a rating of 60% for those with severe 
disability.\14\ Those experts also faulted VA for evaluating hearing 
loss in noise-free settings (in 93% of cases); such testing fails to 
account for the loss of acuity and clarity that a hearing-impaired 
individual experiences in the noisy, ``real-world'' settings where 
veterans work and live.\15\
---------------------------------------------------------------------------
    \11\ Franklin, 121.
    \12\ Id, 97.
    \13\ B. Flohr and K. Dennis, ``Compensation and Pension Workshop,'' 
Academy of Federal Audiologists and Speech Language Pathologists 
Conference, accessed at http://www.afaslp.org/AVAA%20conferences/
Dennis&Flohr2009_CP.pdf
    \14\ ``VA Schedule for Rating Disabilities (VASRD) Improvement 
Forum: Updating the VA's Disability Evaluation Criteria'' (New York 
City), October 11, 2011.
    \15\ Id.
---------------------------------------------------------------------------
    The Department of Veterans Affairs is responsible in law not simply 
to adjudicate claims for service-incurred disability, but also to 
update periodically the criteria for rating those disabilities as well 
as to employ the most reliable clinical and technological means to 
evaluate disability. While the Department has testified repeatedly to 
the challenges it faces in its efforts to eliminate a deep backlog of 
claims, it has been less forthcoming about the very limited progress 
made to date in its long-ongoing effort to revise its rating criteria. 
Revisions to the rating criteria for evaluating hearing impairment and 
tinnitus are long overdue.
    Mr. Chairman, we appreciate your work in crafting legislation aimed 
at improving compensation for hearing loss. That legislation does raise 
concerns, however. First, with VBA having already devoted several years 
to reviewing these rating criteria, directing the Department to 
report--conceivably two years from now--on issues regarding its 
hearing-loss rating criteria could have the unintended effect of VA's 
further deferring by several more years the development of these long-
overdue changes to the rating schedule. Second, insofar as the 
legislation includes no reporting requirements specific to tinnitus, it 
could be misconstrued to signal that the criteria for rating that 
condition are not in question.
    To the contrary, those who live with tinnitus would be quick to 
explain that it is not a trivial or minimal annoyance. For many, the 
condition interferes with sleep, hearing, concentration, thinking, and 
emotional well-being. As discussed at a VA-sponsored VASRD forum on 
audiology, surveys of people who suffer from blindness, loss of hearing 
and severe tinnitus rated tinnitus as the most disabling.\16\ How then 
does one explain rating criteria that assign only a 10% rating for this 
condition? It would appear that VBA has capped the rating at 10% based 
on a characterization of tinnitus' impairment as ``subjective'' in 
nature. (Reviewing a decision point in the history of tinnitus 
compensation, a VBA official explained that ``Because it remained a 
subjective condition, the 10% limitation on disability was 
continued.'') \17\ Yet the rating schedule is fundamentally 
inconsistent in that regard. Medical science lacks objective tools to 
measure the degree of impairment caused by mental health conditions, 
for example; yet the VA rating schedule, however flawed in that regard, 
certainly recognizes that mental illnesses can be totally disabling.
---------------------------------------------------------------------------
    \16\ Id.
    \17\ B. Flohr and K. Dennis, supra.
---------------------------------------------------------------------------
    In short, whether the Committee proceeds legislatively or through 
oversight, we ask that you press for timely VA adoption of sound 
criteria for rating both tinnitus and hearing loss.
                          automobile allowance
    Just as compensation is critical to a wounded warrior's rebuilding 
his or her life, having the mobility provided by an automobile or other 
conveyance is often integral to a profoundly disabled individual's 
combatting isolation and achieving maximum independence in the 
community. With that perspective, we greatly appreciate the development 
of draft legislation to improve the current automobile allowance 
benefit. Your proposal, Mr. Chairman, would change the benefit from the 
current one-time allowance to one that would permit an eligible veteran 
to use the allowance to obtain two replacement vehicles, up to an 
aggregate cap of $30,000, as adjusted annually by the consumer price 
index. This represents a very important change--not only in its 
recognition of the finite lifetime of even a very well-maintained 
vehicle,\18\ but of the changing vehicular needs many young warriors 
will experience as they start and grow families in the years ahead. We 
appreciate the wisdom underlying this measure, and pledge our strong 
support.
---------------------------------------------------------------------------
    \18\ See Polk survey, accessed at Forbes (http://www.forbes.com/
sites/jimgorzelany/2013/03/14/cars-that-can-last-for-250000-miles/).
---------------------------------------------------------------------------
                              dental care
    In closing, we note that the Committee has before it a number of 
bills that reflect recognition of gaps in current law or in VA 
programs. Some of those gaps are more obvious than others. In that 
regard, S.     , the Enhanced Dental Care for Veterans Act of 2013, 
addresses what is clearly the limited scope of VA dental coverage. In 
general (and with very limited exceptions), current law limits VA to 
dental treatment of service-connected dental conditions or to coverage 
for veterans who have a 100% service-connected rating. Among its 
provisions, the bill would direct VA to carry out a pilot program at a 
limited number of facilities through which enrolled veterans could be 
afforded needed dental care up to a dollar amount of not less than 
$1,000. This measure's underlying concern--that the scope of VA dental 
coverage is unreasonably narrow--is sound. Especially troubling but 
much less apparent, however, is that--with VA's longstanding claims 
backlog--combat-injured veterans who should be afforded timely dental 
treatment under existing law have been denied urgently needed VA dental 
treatment because dental trauma had not yet been adjudicated service-
connected. To cite a specific case, it is untenable that a veteran who 
in combat sustained head injuries with accompanying severe dental 
trauma (circumstances explicitly covered under section 1712(a)(1)(C) of 
title 38, U.S. Code), should have his need for dental treatment 
deferred for an indefinite period pending a formal adjudication of 
service-incurrence. Undoubtedly, the draftsman of this longstanding 
authorization of VA dental care for service-connected dental trauma 
would never have foreseen adjudication backlogs of the dimensions our 
warriors face today. We urge that the Committee at its next markup 
amend section 1712 to ensure that needed dental care to repair damage 
caused by combat trauma is treated promptly, without any requirement 
for formal adjudication of service-connection.

    Thank you for your consideration of our views. We would welcome the 
opportunity to work with the Committee to address further the important 
matters discussed in this statement.
      

                                  <all>

  

</pre></body></html>
